<html>
<title> - ENSURING THE TRANSPARENCY, EFFICIENCY, AND EFFECTIVENESS OF HOMELAND SECURITY GRANTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 ENSURING THE TRANSPARENCY, EFFICIENCY, AND EFFECTIVENESS OF HOMELAND 
                            SECURITY GRANTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      MARCH 20 and APRIL 26, 2012

                               __________

                           Serial No. 112-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
76-604                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S


                              ----------                              
                                                                   Page

                        TUESDAY, MARCH 20, 2012

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                               Witnesses

Ms. Elizabeth M. Harman, Assistant Administrator, Grant Programs 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................    15
Mr. Corey Gruber, Assistant Administrator, National Preparedness 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    22
  Joint Prepared Statement.......................................    15
Ms. Anne L. Richards, Office of Inspector General, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. William O. Jenkins, Jr., Director, Homeland Security and 
  Justice Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Mr. Michael A. Nutter, Mayor of Philadelphia, Testifying on 
  Behalf of the United States Conference of Mayors:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43

                             For the Record

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Statement of the Florida Emergency Preparedness Association....     2
  Letter.........................................................     4
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Statement of Kurt J. Nagle, President and CEO, American 
    Association of Port Authorities..............................     7
  Letter From the American Public Transportation Association.....    10

                        THURSDAY, APRIL 26, 2012

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................    69
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........    70

                               Witnesses
                                Panel I

Mr. James H. Davis, Executive Director, Colorado Department of 
  Public Safety, Testifying on Behalf of the National Governors 
  Association:
  Oral Statement.................................................    72
  Prepared Statement.............................................    74
Mr. Bryan Koon, Director, Florida Division of Emergency 
  Management, Testifying on Behalf of the National Emergency 
  Management Association:
  Oral Statement.................................................    77
  Prepared Statement.............................................    78
Ms. Hui-Shan Lin Walker, Emergency Management Coordinator, 
  Hampton, Virginia, Testifying on Behalf of the International 
  Association of Emergency Managers:
  Oral Statement.................................................    85
  Prepared Statement.............................................    86
Mr. Judson M. Freed, Director of Emergency Management and 
  Homeland Security, Testifying on Behalf of the National 
  Association of Counties:
  Oral Statement.................................................    91
  Prepared Statement.............................................    93

                                Panel II

Mr. Richard Daddario, Deputy Commissioner, Counterterrorism 
  Bureau, New York City Policy Department:
  Oral Statement.................................................   102
  Prepared Statement.............................................   104
Mr. Robert M. Maloney, Director, Office of Emergency Management, 
  Baltimore, Maryland:
  Oral Statement.................................................   105
  Prepared Statement.............................................   107
Mr. Hank C. Clemmensen, Chief, Palatine Rural Fire Protection 
  District, Testifying on Behalf of the International Association 
  of Fire Chiefs:
  Oral Statement.................................................   111
  Prepared Statement.............................................   113
Mr. Richard A. Wainio, President and CEO, Tampa Port Authority, 
  Testifying on Behalf of the American Association of Port 
  Authorities:
  Oral Statement.................................................   116
  Prepared Statement.............................................   118
Mr. Michael P. Depallo, Director and General Manager, Port 
  Authority Trans-Hudson (PATH) Corporation, Testifying on Behalf 
  of the American Public Transportation Association:
  Oral Statement.................................................   120
  Prepared Statement.............................................   121

                                Appendix

Questions From Chairman Gus M. Bilirakis for James H. Davis......   133
Questions From Chairman Gus M. Bilirakis for Bryan Koon..........   133
Question From Chairman Gus M. Bilirakis for Richard A. Wainio....   134
Question From Chairman Gus M. Bilirakis for Michael D. DePallo...   134


 ENSURING THE TRANSPARENCY, EFFICIENCY, AND EFFECTIVENESS OF HOMELAND 
                            SECURITY GRANTS

                              ----------                              


                        Tuesday, March 20, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Turner, Richardson, 
Clarke of Michigan, and Thompson.
    Mr. Bilirakis. Good morning. The Subcommittee on Emergency 
Preparedness Response and Communications will come to order. 
The subcommittee is meeting today to receive testimony on the 
management and administration of homeland security grants. I 
now recognize myself for an opening statement.
    This morning's hearing is to begin a series of hearings 
that the subcommittee will conduct regarding homeland security 
grants. Today we will receive testimony from Federal witnesses 
on challenges and successes in the management and 
administration of these grants.
    We will also continue a discussion that was begun last 
month with Deputy Administrator Serino on the President's 
proposal in fiscal year 2013 budget requests to consolidate a 
number of the grant programs into a new National Preparedness 
Grant Program. Next month the subcommittee will continue this 
examination with a hearing with stakeholders, those directly 
impacted by the proposed change.
    Today I will once again raise a number of questions that I 
raised at the--of course the subcommittee's hearing, the FEMA 
budget hearing about the President's requests for grants as I 
do not believe, more than a month after the President's budget 
was released, we had received sufficient--I do not think we 
received sufficient detailed information about the proposed 
National Preparedness Grant Program.
    These are the questions: How would FEMA factor risk when 
allocating funding under this program? Would high-risk urban 
areas, port authorities, and transit agencies be able to apply 
directly for funding? What is your plan and schedule for 
meaningful stakeholder engagement on this proposal?
    That is so very important. Allocations under the NPGP would 
rely heavily on State's Threat and Hazard Identification and 
Risk Assessment, THIRA. Yet nearly a year after the THIRA 
concept was first introduced as part of the fiscal year 2011 
grant guidance, grantees have yet to receive guidance on how to 
conduct the THIRA process.
    At our hearing last month Administrator Serino indicated 
that the guidance would be released by the end of the month, 
which is fast approaching. When can stakeholders expect to get 
this information, which is long overdue?
    Questions also remain as to how local stakeholders would be 
involved in the THIRA process at the State level. As I 
discussed with Administrator Serino, it is essential that local 
law enforcement, first responders, and emergency managers who 
are first on the scene of a terrorist attack, natural disaster, 
or other emergency be involved in this process. They know the 
threats to their local areas and the capabilities they need to 
attain to best address them.
    I have received feedback from a number of stakeholder 
organizations. I know the Ranking Member has as well. I ask 
unanimous consent to insert this feedback and any received by 
the Ranking Member that she would like of course, would be 
included in the record. Without objection so ordered.
    [The information follows:]
      Statement of the Florida Emergency Preparedness Association
       fepa comments on fema grant reform and 2012 empg guidance
    FEPA coordinated two conference calls with a focused group of 
members to discuss the recently released DHS/FEMA National Preparedness 
Grant Program (NPGP) for the 2013 grant cycle and funding guidance for 
the 2012 Federal Emergency Management Performance Grant. The calls were 
conducted on Tuesday, February 21, 2012 and Friday, February 24, 2012. 
The purpose of the calls was to exchange comments, concerns, and 
information regarding the proposals to allow FEPA to be better informed 
to provide information to the membership regarding these initiatives. 
In addition, FEPA's established relationship with Florida Congressman 
Gus Bilirakis provides the Association with a unique opportunity to 
submit our thoughts directly to the Congressman for his consideration.
    This document represents a summary of the issues and questions 
discussed on the calls.
    Background.--The NPGP consolidates a variety of current DHS grant 
programs (EMPG and Fire Grants will remain independent grants) and 
proposes that each State receive a ``base'' amount of funding allocated 
by population with the remainder of funds allocated through a National 
competitive process. FEPA recognizes any grants process can be improved 
and applauds the Federal initiatives to evaluate the grant programs' 
effectiveness and seek input on methods to improve funding processes. 
FEPA also is encouraged that the grant consolidation appears to 
reinforce an ``All Hazards'' approach to emergency management. Without 
this, emergency managers are faced with becoming ``competitors'' rather 
than ``collaborators'' with other response disciplines for scarce 
resources.
                      questions/comments/concerns
  <bullet> What portion of the overall combined NPGP funding stream is 
        dedicated to the ``base'' amount versus the ``competitive'' 
        pool of funding?
  <bullet> What is the representation on the National peer review panel 
        for the competitive process? FEPA strongly suggests the 
        inclusion of local emergency management practitioners and that 
        their representation be equally weighted with State and 
        National interests.
  <bullet> Projects funded in the competitive process are to be tied to 
        a State's Threat Hazard Identification and Risk Assessment 
        (THIRA). How will the development of initial THIRAs be funded? 
        What is the anticipated time line to complete the THIRAs?
  <bullet> Based on anticipated use of THIRA as a tool for 
        comprehensive capabilities and risk analyses, it appears that 
        the THIRAs represent a very deliberative and complex process. 
        Given this, will States have time to develop these assessments 
        for the 2013 competitive funding cycle? What is FEMA's time 
        line for completion of its (FEMA) regional THIRAs and how will 
        FEMA's regional THIRAs influence the individual State THIRA 
        documents in each FEMA region? Are State THIRAs expected or 
        required to include locally developed THIRAs or similar 
        assessments?
  <bullet> Will DHS/FEMA issue detailed guidance information on the 
        development of State THIRAs so the documents can offer a 
        consistent perspective for the National competitive project 
        review? If so, when?
  <bullet> Will States be required to include local projects in their 
        project submissions under the competitive process?
  <bullet> Will local projects or projects that benefit local 
        jurisdictions be a required percentage of a State's competitive 
        project submissions?
  <bullet> Will there be an appeals process to adjudicate the 
        determinations/outcomes of the competitive process?
  <bullet> The documents refer to ``regional capabilities'' and 
        ``deployable capabilities and assets'' under EMAC. What is the 
        definition of regional for these grant proposals?
  <bullet> Many States have established regions for operational or 
        programmatic purposes; but these may not accurately reflect 
        sociological, demographic, and other characteristics that 
        affect response capabilities and capacities. Are locally-
        trained personnel considered deployable assets under EMAC?
  <bullet> Are preparedness activities such as NIMs-compliant local 
        planning, training, and exercises still eligible and encouraged 
        for funding?
  <bullet> Are NIMS training requirements for local personnel still in 
        place or are they now only required for personnel deployed 
        under EMAC?
    The documents state: ``In addition, competitive applications will 
be required to address a capability gap identified in one of the FEMA 
Regional THIRAs, identify that the proposed new capability does not 
duplicate one that already exists within a reasonable response time and 
describe how the capability will be fully established within the 2-year 
period of performance.''
  <bullet> As noted above, when will the FEMA Regional THIRAs be 
        completed and available?
  <bullet> How does FEMA define a ``new capability that does not 
        duplicate . . . within a reasonable response time''? FEPA 
        strongly encourages DHS/FEMA to recognize intra-regional 
        capability gaps where even a robust regional approach results 
        in underserved areas and populations, particularly for events 
        that occur with little or no warning.
  <bullet> Will the base and competitive funding process require States 
        to recognize local emergency management organizations that have 
        robust programs and can effectively manage grant funds to 
        encourage distribution and use of the funds at the lowest 
        effective level of government?
               2012 empg funding opportunity announcement
  <bullet> How does the THIRA component of the State Mitigation Plan 
        that is required to be completed by December 31, 2012 relate to 
        the THIRA used as the basis for NPGP competitive projects?
  <bullet> As noted above, how can these comprehensive assessments be 
        completed by December 31, 2012 given the grant project award 
        start date is June 1, 2012 and grantees have 90 days to accept 
        or reject an award?
  <bullet> The guidance includes permissive language that a grantee may 
        sub-grant funds to non-Governmental entities. What is the 
        purpose of this distinction in the grant guidance? This 
        provision may promote unintended segregation of these entities 
        from core emergency management Government functions rather than 
        promote inclusion. Many of these entities have access to 
        alternative Federal grant programs for their specific expertise 
        and missions.
  <bullet> If funded, will these entities be expected to meet the same 
        program requirements as Governmental entities--i.e. trained 
        personnel, approved emergency plans and procedures, training, 
        and exercise plans?
            expediting expenditures of dhs/fema grant funds
    FEPA would also like to express concern regarding FEMA's recently 
released guidance to State Administrative Agencies to expedite 
expenditure of certain DHS/FEMA grant funds (Grant Programs Directorate 
Information Bulletin Number 379, February, 17, 2012). As noted above, 
FEPA recognizes the need for continual review and improvement of grant 
processes and the need to expend grant funds within a reasonable period 
of performance. However, the bulletin places the burden on grantees and 
sub-grantees to request and fully document the need for funding 
extensions without recognizing that delays with the FEMA project 
obligation, FEMA project review, and FEMA evaluation process are often 
the initial cause of the fund expenditure delays. In Florida, this is 
particularly true of multiple delays in required FEMA environmental 
review of capital projects, such as Emergency Operations Centers. FEMA 
should perform an internal review of each local project that is 
affected by Information Bulletin 379 that has experienced a delay in a 
required Federal review and automatically exempt it from the new 
requirements.
                                 ______
                                 
      Letter Submitted For the Record by Chairman Gus M. Bilirakis
                                                    March 16, 2012.
The Honorable Peter King, Chairman,
The Honorable Bennie G. Thompson, Ranking Member,
Committee on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Gus Bilirakis, Chairman,
The Honorable Laura Richardson, Ranking Member,
Subcommittee on Emergency Preparedness, Response, and Communications, 
        Committee on Homeland Security, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Mr. King, Mr. Thompson, Mr. Bilirakis, and Ms. Richardson: We 
are pleased to submit this letter for the record of your March 20, 
2012, hearing on Ensuring the Transparency, Efficiency, and 
Effectiveness of Homeland Security Grants.
    Everyone agrees that we should spend our homeland security dollars 
where they are needed most in an efficient and effective manner and 
that we need to improve cooperation and communication among the various 
agencies and governments involved in making our homeland secure. While 
we share the goals of using risk assessments and reducing 
administrative burdens, we do not believe that a decade's worth of work 
in building the regional governance and collaboration structures of 
these programs should be discarded in the wholesale fashion proposed 
without full consideration through Congressional reauthorization of the 
grant programs. Until the preparedness grant programs are reauthorized 
by Congress, the current grant program structure as authorized by law 
should be followed.
    We, therefore, have serious concerns with FEMA's proposal to 
convert the current suite of homeland security grant programs into 
State-administered block and competitive grant programs in which 
funding decisions are based on State and multi-State threat 
assessments. Of course, changes are needed in these programs, but the 
outline for the proposed National Preparedness Grant Program (NPGP) 
raises serious concerns and questions for those of us at the local 
level--the ones charged with providing terrorism prevention, 
protection, and first response when an incident occurs. Among our 
concerns and questions:
  <bullet> The NPGP proposal moves away from the current regional 
        governance, assessment, and strategy-based approach to a 
        competitive and individual project based approach that will pit 
        cities, counties, and States against each other for funding. 
        This will generate conflict instead of fostering collaboration 
        as is currently the case.
  <bullet> The NPGP proposal emphasizes Nationally deployable assets, 
        thus shifting the emphasis from the full system of prevention, 
        protection, preparedness, response, recovery, and mitigation to 
        one that appears to focus on response alone.
  <bullet> What role will local Government officials, local emergency 
        managers, and first responders have in the Threat Hazard 
        Identification and Risk Assessment (THIRA) process so that they 
        can ensure that it includes local concerns? It's important to 
        note that THIRAs are not homeland security plans. They are risk 
        assessments that should be used to help develop plans along 
        with capabilities assessments and gap and sustainment analyses. 
        Since final guidance on THIRAs has not yet been issued by the 
        Department, it is difficult to consider major structural 
        changes to grant programs that would be significantly 
        influenced by the THlRAs.
  <bullet> Since it is unclear how the funding in the NPGP will be 
        distributed to local areas, how do we ensure that it is used to 
        meet local threats and preparedness gaps? How do we ensure that 
        political considerations do not become the criteria for the 
        distribution of these funds?
  <bullet> The UASI program ensures that Federal funding is used to 
        improve preparedness in high-risk areas, as recommended by the 
        9/11 Commission. How can DHS ensure that the new National 
        Preparedness Grant program meets this recommendation, if it 
        solely distributes funding based on THIRA examinations 
        performed by States?
    Finally, we must ask why such major changes are being proposed 
without advance consultation with the local governments and full range 
of first responders charged with preventing, protecting against, and 
responding when incidents --manmade and natural--occur, and why are 
they being proposed without consulting with--and in fact in a way that 
would bypass--the committees of jurisdiction in Congress which have 
worked so hard over the years to craft the current suite of homeland 
security and preparedness programs.
    Following are principles we would urge you to consider in reforming 
any of the grant programs:
  <bullet> Transparency.--How the States are distributing funds, why 
        they are making these decisions, and where the funds are going 
        must be clear and understandable.
  <bullet> Local Involvement.--Local government officials, including 
        emergency managers and emergency response officials, know best 
        the threats and vulnerabilities in their areas. The THIRA 
        process must include the input of local elected and emergency 
        response officials, and FEMA must be able to audit States by 
        comparing local risk assessments to the State-level THIRA.
  <bullet> Flexibility with Accountability.--Any changes to the 
        existing Federal grant programs should allow Federal funding to 
        meet individual local needs, and preparedness gaps as 
        identified at the local level. Effective but sometimes less 
        politically popular programs, like mitigation, must still 
        receive funding. para.
  <bullet> Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        Federal homeland security grants continue to fund local 
        prevention and response activities, including local emergency 
        managers and first responders, and activities that support 
        their preparedness efforts.
  <bullet> Terrorism Prevention.--We must not lose the current emphasis 
        on supporting law enforcement's terrorism prevention 
        activities. The Federal grant funds should not be used to 
        support larger State bureaucracies at the expense of 
        operational counter terrorism preparedness, threat analysis, 
        and information-sharing activities.
  <bullet> Incentives for Regionalization.--FEMA's proposal focuses on 
        States and multi-State regions (similar to the FEMA regions). 
        It is important to make sure that the homeland security grants 
        also support preparedness in metropolitan intra-State and 
        inter-State regions.
    We appreciate the opportunity to submit these comments for the 
record and look forward to working with you to ensure the transparency, 
efficiency, and effectiveness of homeland security grants. If we can 
provide you any further information on this, please contact [The U.S. 
Conference of Mayors].
            Sincerely,
                          National Association of Counties,
                                 National League of Cities,
                    The United States Conference of Mayors,
U.S. Council of the International Association of Emergency 
                                       Managers (IAEM-USA),
                  International Association of Fire Chiefs,
                International Association of Fire Fighters,
                           National Volunteer Fire Council,
                     Congressional Fire Services Institute,
                            National Sheriffs' Association,
                        Major County Sheriffs' Association,
                           Major Cities Chiefs Association,
                    National Homeland Security Association.

    Mr. Bilirakis. In addition to considering the National 
Preparedness Grant Program proposal, I know that all our 
Members are interested in FEMA's efforts to develop measures 
and metrics for these programs. Pursuant to the Redundancy 
Elimination and Enhancement Performance for Preparedness Grants 
Act, which was approved by this committee and signed into law 
in 2010, FEMA worked with the National Academy of Public 
Administration to develop performance measures.
    While FEMA's collaboration with NAPA was completed months 
ago, this committee has yet to receive the results--the 
resulting report. We recognize that this is a complex 
undertaking, but FEMA has been attempting to develop these 
measurements for years. The time has come to finish the job.
    In these difficult budgetary times we must ensure that 
vital Homeland Security grants funding is allocated based on 
risk and every dollar is leveraged to enhance our preparedness 
and response capabilities. There is no room for wasteful 
spending on snow cone machines, equipment that does not work or 
is incompatible with current systems, or equipment that sits 
idle so long that it becomes unusable. When such expenditures 
are identified we must take steps to address the problem and 
allocate the funding to jurisdictions that will make a better 
use of these funds.
    With that, I once again welcome our witnesses. I look 
forward to your testimony.
    The Chairman now recognizes the Ranking Member of the full 
committee to make a statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. I 
appreciate the Ranking Member of the subcommittee's 
graciousness in allowing me to go.
    In fiscal year 2012 the Congress passed a bill mandating 
funding cuts in important Homeland Security grant programs. As 
part of that reduction in funding, grant programs were merged 
and the Secretary was empowered to pick winners and losers. 
Transit security, port security, and assistance to firefighters 
were cut. Programs like Citizen Corps and the Metropolitan 
Medical Response Systems were eliminated.
    In March of this year the administration released its 
fiscal year 2013 budget request. In that request administration 
seeks to codify the grant program consolidation first carried 
out in the fiscal year 2012 appropriation. As a Ranking Member 
of the authorizing committee for the Department of Homeland 
Security, I urge my colleagues to take a serious look at this 
effort to authorize a consolidation of needed Homeland Security 
grants.
    This committee, which possesses both oversight and 
authorization responsibility over the Department, has a duty to 
fully examine any and every effort to drastically cut and 
permanently merge these programs. Before this Government 
undertakes such a radical change in funding for these vital 
programs, Congress must ask some vital questions.
    Members must ask about the wisdom of forcing port and 
transit officials to compete for the same grant money. Members 
must examine the fact of asking public health providers and 
local law enforcement to vie for a shrinking part of grant 
money.
    State and local officials, first responders, and first 
preventers must have an opportunity to tell how they will be 
affected by these cuts. We need to hear what projects will be 
put on hold and what projects will be abandoned.
    Members must ask how these funding decisions will affect 
the long-term and short-term security posture of our Nation. In 
other words, we need to do oversight. I understand that we are 
in austere times and an election year.
    I know that for some it is beneficial to be seen as a 
Government cost-cutter. But what good is cost-cutting if we 
reduce our preparedness and sacrifice our security? I guarantee 
you in this game a penny saved is not a penny earned. It could 
be a life lost.
    Mr. Chairman, these grants are not merely about money. 
These grants play a big role in how people out in the rest of 
the United States prepare for the unthinkable. We must not be 
afraid to ask questions. With that, Mr. Chairman, I yield back.
    Mr. Bilirakis. Thank you, sir. I appreciate it very much.
    Now I will recognize the Ranking Member of this committee 
for any statement she would like to make.
    Ms. Richardson. Good morning. Thank you, Mr. Chairman, for 
convening today's hearing; and of course, Ranking Member 
Thompson, for all of your support on these important issues.
    I also want to welcome our panel today, our witnesses. 
Thank you for your testifying, in advance.
    Mr. Chairman, before I move forward with my opening 
statement, in addition to the letter we received from the 12 
vital stakeholders I would like to ask for unanimous consent to 
submit two additional letters for the record from critical 
stakeholders: the American Association of Port Authorities and 
the American Public Transportation Association.
    Mr. Bilirakis. Without objection so ordered.
    [The information follows:]
Statement of Kurt J. Nagle, President and CEO, American Association of 
                            Port Authorities
                             March 20, 2012
    Thank you for inviting us to submit testimony for the record on 
behalf of the American Association of Port Authorities (AAPA). AAPA is 
an alliance of the leading public ports in the Western Hemisphere and 
our testimony today reflects the views of our U.S. members.
    Since 9/11, port security has become a top priority for U.S. ports. 
Safe and secure seaport facilities are fundamental to protecting our 
borders and moving goods. Protecting the people and freight that move 
through seaports and surrounding communities is essential to keeping 
seaports safe and open for business. With 99.6 percent (by volume) of 
overseas trade flowing through U.S. ports, a terrorist incident at a 
port could have a drastic impact on the U.S. economy.
    In the decade since 9/11, a key component of our Nation's effort to 
harden the security of seaports has been the Port Security Grant 
Program, currently managed by FEMA. Port Security Grant funds have 
helped port facilities and port areas to strengthen facility security 
and work in partnership with other agencies to enhance the security of 
the region. Port Security Grant funding has been used to procure 
equipment such as vessels and vehicles, install detection systems such 
as cameras and sensors, and provide equipment maintenance for the 
systems recently installed.
    Under the SAFE Port Act, the Port Security Grant program is 
authorized at $400 million. Unfortunately, in the last few years, the 
funding for this program has decreased, currently standing at a 
dangerously low level. The current level of $97.5 million is 75 percent 
less than the authorized level, and it is currently at one of the 
lowest funding levels ever for this program. As costs of systems, 
maintenance, and equipment continue to rise, this level of funding will 
bring into question the sustainability of the protection levels we have 
worked so hard to build over the last decade.
    As you know, for fiscal year 2012, Congress decided to bundle all 
FEMA State and Local grant programs, cut the combined programs by 40 
percent, and give DHS the authority to determine funding levels for 
individual programs. AAPA has long been wary of efforts to bundle 
programs, fearing that traditional homeland security grants would be 
given a higher priority. DHS was given the authority to make the 
funding decisions, and last month, our fears became reality. The fiscal 
year 2012 funding level represents a 59 percent cut from the prior year 
and 75 percent less than the authorized level. This will harm our 
ability to expand protection of our maritime assets, carry out Port-
Wide Risk Management Plans and fund Federal mandates such as 
installation of TWIC readers.
    In a constantly changing threat environment, this level of funding 
will make it difficult to maintain current capabilities, much less meet 
new and emerging concerns in such areas as infrastructure protection, 
continuity of services such as power and water, protection of our 
information technology capabilities and response to the ever-growing 
cyber threat. At many ports, Port Security Grant funding has been a 
critical component in their efforts to build a resilient port, and we 
would hate to see a degradation of these efforts as a result of grant 
funding reductions.
    There were other adverse changes to the fiscal year 2012 grants as 
well. First, the term of performance has been changed from 3 years to 2 
years in an effort to get money spent more quickly. Although we 
appreciate the need to move projects along, we are concerned that such 
a move will shift the focus to buying ``stuff,'' rather than developing 
technological solutions, most of which are part of Port-Wide Risk 
Management Plans, which have been well-vetted to address current and 
future vulnerabilities. Ports, in working closely with each other and 
the Department of Homeland Security, have spent a great deal of time to 
identify system-wide vulnerabilities and develop holistic solutions. 
The past period of performance made it difficult to execute many of 
these solutions; the current period may make it nearly impossible.
    As your committee knows, there have been challenges in getting 
grant money disbursed. This is a complex issue that has been made even 
more complex due to an ever-changing grant environment. First, it may 
take months to get final approval from FEMA to execute funding, and 
once this approval is secured, it is only the start of a complex 
process that involves design efforts, which in most cases only begin 
when the funding is approved. Once these design efforts are complete, 
State, local, and Federal procurement processes come into play. For a 
complex system this often requires the issuance of a Request for 
Qualifications (RFQ), followed by a Request for Proposals (RFP), 
responding to questions by vendors, evaluation of the proposals, and 
the contract process. Once a contract is in place, a complex project 
may need to get State and local environmental clearances, and 
clearances from the Historical Society if a Historical Building or site 
may be involved.
    Cost-share requirements have also been an obstacle. Although we 
appreciate the concept for a grantee to have ``skin in the game,'' it 
is often overlooked that the ``skin'' that the port also provides is 
the on-going operations and maintenance costs of the system. This is 
particularly true with technology solutions where the annual operating 
costs can be as high as 10 percent of the cost of the project. At this 
rate the port exceeds a 25 percent cost share in current dollars a 
little more than 2 years after the completion of the project. In some 
major ports where in-house design often occurs, the port's contribution 
is larger due to the fact that port personnel costs are not refunded by 
the grants.
    As indicated above, how projects are funded has some peculiarities 
as well. Some ports prefer to use in-house labor, either by choice or 
due to labor agreements. Unfortunately, this puts the port at a 
financial disadvantage because in-house labor is not reimbursable under 
the grants.
    A number of challenges exist with respect to grant funding and 
administration and there is often not a clear recognition that many 
projects may be underway if one views only the total of unspent funds. 
Many ports have procurement policies that only allow them to seek 
reimbursement after a project is completed, and in many cases billing 
is not conducted until the project is complete. It may appear that 
nothing has been done on a project when it is actually complete or 
nearly complete, and as a result, the financial reporting may not 
provide an accurate picture.
    FEMA and ports are working hard to resolve this draw-down problem. 
Two key things that could speed spending are providing a uniform cost-
share waiver and further streamlining the FEMA Environmental and 
Historic Preservation review process. As you know, some years there is 
a cost-share requirement, and other years it is waived. For projects 
that have a cost-share, grantees decide to go to DHS for a project-
based waiver. This delays the use of funds as some grantees must wait 
to see if they can get cost-share-waived funds before undertaking a 
project. AAPA strongly endorses a uniform waiver of cost-share for all 
past grants to stimulate quicker use of past funds and as a recognition 
of the other costs ports incur, as noted earlier.
    Another hurdle is the Environmental and Historic Preservation 
review within FEMA. While other FEMA programs must go through these 
reviews, there isn't the threat of a loss of funds, because there is no 
time table associated with these other programs. Therefore, the EHP 
reviews are not processed or prioritized in a way to reflect grant time 
limitations. Additionally, FEMA EHP reviews could be streamlined by 
taking into account similar State and local reviews for a facility. 
While EHP has streamlined some of their reviews, this process still is 
a major reason why many of the grant projects require an extension.
    The fiscal year 2012 grant announcement also includes some 
improvements to the program, like expanding the use of funds for 
maintenance and allowing limited use of grants for personnel, as 
allowed under the authorization legislation. These are changes for 
which AAPA has long advocated. AAPA was also pleased to see that 
despite the drastic cut in funding, all ports continue to be eligible 
for funding. Restricting funding to the highest-risk ports would be bad 
public policy because it would leave a soft underbelly of 
underprotected ports that terrorists could exploit.
    In regard to the future of this program, in February, the FEMA 
Grants Directorate released a vision document that outlined its plan to 
consolidate 16 separate grant programs into one National Preparedness 
Grant program starting in fiscal year 2013 that would send the money to 
the States for distribution. AAPA believes this would make port 
security programs an even lower priority and strongly urges your 
committee to keep the program separate, as you do for Firefighter 
Assistance grants.
    Port Security Grants are managed quite differently than other 
homeland security grants. Priorities are set locally, based on the 
risks and vulnerability of the local port area. Other homeland security 
grants have a list of core capabilities, which all grantees try to 
attain. This capabilities list is based more on movable and shared 
assets rather than set facilities. There is no such list of core 
capabilities for port security grants and the ones developed for other 
grant programs were not developed with ports in mind. Additionally, 
ports have certain Federal mandates, such as TWIC readers, that they 
must comply with, and the cost of those requirements will not be fully 
felt until the Coast Guard issues its final regulations.
    Moving the funding to the States is also a big concern for AAPA. 
Port security is focused on protecting international borders. This is a 
Federal responsibility, not a State responsibility. Many States don't 
have the personnel or expertise to evaluate maritime risks or determine 
how ports should be prioritized against other homeland security 
priorities in the State. The risk evaluations for ports are made at the 
Federal level by the Coast Guard and other Federal agencies. We are 
also concerned that this would increase the complexity in grant 
management and slow a process that is already recognized as cumbersome.
    Not only does a second or potentially third pass-through layer (the 
State or municipal government, respectively) mandate its own sets of 
compliance requirements on top of Code of Federal Regulations and 
Office of Management and Budget Circulars, it also creates unnecessary 
cogs in the administration that slows down our ability to spend, 
execute, and deliver. Moving funds to the States would compromise 
program efficiency and effectiveness. If, however, a decision is made 
to consolidate the program and move it to the States, AAPA strongly 
urges your committee to allocate a set amount of funding for the 
program to ensure that funding for port security is not diluted 
further.
    AAPA appreciates the willingness of DHS to work with the ports on 
Port Security Grant issues. We have and will continue to work with them 
to improve the program. Positive changes have been made, and we hope 
that these changes will continue. We do feel that over time external 
pressures and the ``pile-on'' effect of new and continuing requirements 
has had a significant negative impact on the program. We also believe 
that it is an appropriate time for a DHS/Grant User Group to conduct a 
review of the Port Security Grant Program and identify areas of 
improvement and recommend changes that will address these areas.
    For fiscal year 2013 and beyond, we strongly urge the committee to:
    1. Restore port security funding to its earlier level;
    2. Keep the funding separate, similar to Firefighter Assistance 
        Grants;
    3. Maintain current Federal control over the program, or if funds 
        are moved to the States, appropriate a set amount for our 
        Nation's ports;
    4. Provide a uniform cost-share waiver of past grant funds; and
    5. Establish a joint DHS/Port group to continually streamline the 
        process.
    In order to continue to be effective, the grant process must evolve 
in conjunction with port needs and vulnerabilities. Working with DHS, 
efforts have been made to keep pace with this evolution. We fear that 
if ports are ``lumped'' into the larger Homeland Security equation, 
efforts to date will be marginalized and the focus on ports will be 
lost. The separation of Port Security Grant funding served to highlight 
the need to focus on a component of the Nation's critical 
infrastructure and international border that was largely ignored prior 
to the tragic events on 9/11. We have a significant fear that this 
focus will be lost if the Port Security Grant Program does not remain 
separate and fails to continue to evolve to meet emerging security 
needs.
                                 ______
                                 
       Letter From the American Public Transportation Association
                                                    March 16, 2012.
Chairman Peter King,
U.S. House of Representatives, Committee on Homeland Security, H2-176 
        Ford House Office Building, Washington, DC 20515.
Ranking Member Bennie Thompson,
U.S. House of Representatives, Committee on Homeland Security, H2-176 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman King and Ranking Member Thompson: On behalf of the 
American Public Transportation Association (APTA), our more than 1,500 
member organizations, and the millions of Americans who regularly ride 
public transportation, I write to offer APTA's views on the proposed 
fiscal year 2012 Transit Security Grant Program (TSGP) Guidance and the 
fiscal year 2013 National Preparedness Grant Program (NPGP). APTA was 
not consulted in the development of this new approach to preparedness 
grants that is embodied in both the guidance and the new grant program, 
which overemphasizes the value of a consolidated approach to these 
grants and unnecessarily eliminates the TSGP as a stand-alone program. 
We believe this approach to be inconsistent with the direction set 
forth under the Implementing Recommendations of the 9/11 Commission 
Act.
    APTA recognizes many of the sound goals and positive policy 
provisions represented in the new proposal, including:
  <bullet> Peer Review.--APTA and its members already have a system in 
        place for conducting peer reviews--we look forward to working 
        with the Federal Emergency Management Agency (FEMA) to develop 
        such a program.
  <bullet> Multi-year Grant Guidance.--APTA supports the approach of a 
        multi-year grant guidance--previously, the TSGP guidance 
        changed nearly every year, and APTA believes this to be one of 
        the reasons that have contributed to delays in grant 
        performance and drawdown.
    Notwithstanding these positive improvements to the current program, 
there are several other program changes that cause us concern and which 
we believe could thwart the progress many grantee agencies have made to 
improve the security of their systems in recent years.
problematic program changes: fiscal year 2012 tsgp guidance and fiscal 
                             year 2013 npgp
    The ``National Preparedness Grant Program'' proposes to consolidate 
all grant programs previously categorized as preparedness grants into 
one comprehensive grant program. This is a drastic change that 
eliminates the stand-alone TSGP--the exclusive pool of funding for our 
Nation's public transportation systems. While this new program may be 
designed to meet the needs of the emergency management community and to 
more closely align with policy represented in the National Preparedness 
Goal, emergency preparedness and core capabilities are only subsets of 
the policy that the Transit Security Grant Program was intended to 
advance. Transit systems and their assets remain high-risk terrorist 
targets, and investments in hardening and other capital security 
improvements specific to transit agencies do not appropriately fall 
within this broader emergency preparedness policy. APTA calls on 
Congress to authorize and preserve a sufficiently-funded, segregated 
grant program for public transportation security as envisioned in the 
9/11 Commission Act.
    Of additional concern is the new 24-month period of grant 
performance for all projects proposed in the fiscal year 2012 TSGP 
Guidance, which is further contained in the proposal for the fiscal 
year 2013 NPGP. This is a reduction from the previous 3-5 year 
allowable expenditure period. APTA certainly appreciates the concerns 
regarding unexpended security grant dollars and is committed to working 
with transit agencies to carry out important security projects in a 
timely fashion. However, it is important to recognize that capital 
projects (security-related or otherwise) require multiple years to 
complete, and a reduction in the time allotted to expend funding would 
preclude many much-needed capital infrastructure security projects from 
being pursued and instead compel most grant recipients to apply for 
equipment and operational grants. This is not in the best interest of 
fortifying our systems against attacks, as the majority of the security 
needs identified in a 2010 survey of APTA's members relate to capital 
projects. APTA recommends maintaining the 3-year expenditure window 
with the opportunity to receive 6-month extensions up to a maximum of 5 
years.
    Similarly, the fiscal year 2012 TSGP and fiscal year 2013 NPGP 
place a high emphasis on operational activities and Operational 
Packages (OPacks). Congress has previously set a clear priority for 
transit security capital investments when enacting the ``National 
Transit Systems Security Act of 2007'' (Title 14 of the 9/11 Commission 
Act). Additionally, the fiscal year 2012 grant guidance states that 
this year's funding priorities will be based on a pre-designated ``Top 
Transit Asset List'' or TTAL. APTA has testified previously that 
security investment decisions should be risk-based, which is the 
underlying approach of the TTAL. However, across the entire transit 
industry, thousands of assets are not listed on the TTAL and, thus, 
would not be eligible to receive funding. While this narrower funding 
approach is based on tighter fiscal circumstances and the total Federal 
dollars available for security grants, it is also indicative of the 
inadequacy of current funding levels. The proposed approach will 
preclude important security improvements from receiving funding 
consideration. APTA recommends reauthorizing the public transportation 
security assistance provisions of the 9/11 Commission Act, and urges 
Congress to work to make adequate funding available for the program to 
meet National needs.
    Finally, under the proposal, while transit agencies would be 
eligible for security funding, they would be required to apply for 
funding through their State Administrative Agency (SAA), and compete in 
this process with other State security priorities. This is a shift from 
the current program, where transit agencies are authorized to be direct 
recipients of grant funds. We believe that under this new proposal 
sufficient funding would not consistently get to transit agencies, and 
in many cases the involvement of the SAA has the potential to slow the 
already lengthy grant performance process. Congress has repeatedly 
endorsed the position that transit agencies should be direct Federal 
grant recipients, as they have been through the Federal Transit 
Administration, and we urge Congress to continue this policy.
    Thank you for your continued commitment to the security needs of 
our Nation's public transportation providers and their riders. Should 
you have any questions regarding APTA's views on these issues, please 
do not hesitate to contact [the APTA staff].
            Sincerely yours,
                                      Michael P. Melaniphy,
                                                   President & CEO.

    Ms. Richardson. Today we will discuss FEMA's full year 2012 
preparedness grant allocations and full year 2013 proposed 
grant consolidation proposal. For more than a decade since 9/11 
attacks, the Department has provided State and local 
governments with Homeland Security preparedness grants to 
invest in capabilities to strengthen our Nation.
    Administrator Fugate has referenced on several occasions 
that first responders' ability to successfully respond to 
recent disasters on the local level is based upon primarily the 
investments made by FEMA's preparedness grants program. I 
absolutely concur that we should reaffirm and prioritize 
support for first responders on the local level due to the 
changing complexities of the terrorism threats and increased 
intensity of National disasters.
    Likewise, though, I support the efforts to promote 
efficiency while maintaining that the American people need the 
best prepared, equipped, and trained first responders. In light 
of learned disaster preparedness that we have unfortunately 
witnessed for several years now, I appreciate the 
administration's commitment to fiscal responsibility while 
simultaneously strengthening the security of our Nation's full 
year 2013 budget.
    However, the proposed new grant approach falls short of 
immediate approval due to the lack of details, absence of broad 
stakeholder outreach and governance structure, which will erode 
the good work performed by the Department of Homeland Security 
over the last 10 years. I am concerned that these drastic 
changes will negatively impact the preparedness capabilities of 
our State, territory, Tribal, and local partners. I agree that 
the Emergency Management Performance Grants and the Assistance 
to Fire Grants should remain independent programs and provide 
adequate funding, given our economic climate.
    Yet, I am extremely concerned about the impractical 
approach to consolidate the remaining 16 vital grant programs 
under the National Preparedness Grant Program. For instance, 
the Urban Area Security Initiative, UASI grant program, brings 
together all of the various first responder disciplines in 
order to direct funding to close regional preparedness gaps--
excuse me. To direct funding to close regional preparedness 
grants, to sustain capabilities, and to reduce risk in high-
threat areas.
    Specifically grant programs that support direct grant 
investments to address specific previously documented gaps in 
National and local preparedness capabilities should continue. 
This is why I am completely opposed to the proposed 
consolidation and at a minimum will work with my colleagues to 
maintain UASI, the State Homeland Security Program, Port 
Security Grant Program, and the Transit Security Grant Program 
as independent programs.
    Throughout this country there are significant port and 
transit networks that serve the entire public and the major 
aspects of the economy that require adequate security. To 
further add to this point, I am concerned and it is unclear 
what justification supports reducing port security funding from 
full year 2012 by 59 percent. Now by consolidating it to 
further increase the jeopardy of reducing the focus that this 
country needs.
    The consolidation and reductions to our Nation's port 
security and transit security grants are unacceptable and 
threaten to undercut our ability to ensure that our seaports 
and critical infrastructure are adequately protected, of which 
I represent.
    I look forward to hearing FEMA's response to these concerns 
and efforts to implement performance measures. Specifically, I 
welcome Mayor Nutter's testimony that will help illuminate in 
real-life scenes the important role of preparedness grant 
programs and the success of local Homeland Security 
initiatives.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Bilirakis. Thank you very much.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record. I am pleased to 
welcome our distinguished panel of witnesses.
    Our first witness is Ms. Elizabeth Harman. Welcome.
    Ms. Harman is the assistant administrator of FEMA's Grants 
Program Directorate, a position to which she was appointed by 
President Obama and confirmed by the United States Senate in 
March 2010. Prior to joining FEMA, Administrator Harman served 
as the director of the Hazardous Materials and Weapons of Mass 
Destruction Training Department at the International 
Association of Firefighters.
    Ms. Harman has also served as the State administrator for 
Exercise and Training for the National Capital Region with the 
Maryland Emergency Management Agency, and led Maryland's NIMS 
roll-out efforts. Ms. Harman has served as both a volunteer and 
career firefighter and holds a degree from George Washington 
University.
    Following Administrator Harman, we will hear from Mr. Corey 
Gruber. Mr. Gruber is the assistant administrator of FEMA's 
National Preparedness Directorate. Mr. Gruber previously served 
as the acting assistant secretary of grants and training. Prior 
to joining the Federal Government in 2001, Mr. Gruber was the 
deputy director of the Emergency Management Division for 
Research Planning. Mr. Gruber also served in the United States 
Army where he was the chief of plans for the Department of 
Defense's Directorate of Military Support.
    Thank you for your service, sir.
    Administrator Gruber received his bachelor's degree from 
Penn State University and his master's degree from Chapman 
University.
    Our next witness is Ms. Anne Richards. Welcome.
    Ms. Richards is the assistant inspector general for the 
Office of Audits within the Department of Homeland Security's 
Office of Inspector General. Prior to joining the OIG in 2007, 
Ms. Richards served in the Department of Interior, including as 
the assistant--she was the assistant inspector general for 
audits.
    Ms. Richards has also held a number of positions with the 
U.S. Army Audit Agency. Ms. Richards received her bachelor's 
degree from Franklin & Marshall College and her masters of 
public administration from Troy State University. Ms. Richards 
is a CPA in the Commonwealth of Virginia. Welcome.
    Next we will receive testimony from Mr. William Jenkins. 
Mr. Jenkins is the director of Homeland Security and Justice 
Issues at the United States Government Accountability Office, a 
position he has held since 2003. In this capacity he has led 
and coordinated GAO's work on emergency preparedness response 
and recovery.
    Mr. Jenkins joined GAO in 1979. He received his bachelor's 
degree in political science manga cum laude from Rice 
University and his PhD in public law from the University of 
Wisconsin.
    Finally we will hear from the Honorable Michael A. Nutter. 
Mr. Nutter is the 98th mayor of Philadelphia. Mr. Nutter 
graduated from Warren School of Business at the University of 
Pennsylvania.
    Before pursuing his career in public service Mayor Nutter 
was an investment manager at a minority-owned investment 
banking and brokerage firm. After working on the gubernatorial 
campaign of Ed Rendell and campaigns for city council, Mr. 
Nutter won an election as a committee person in the 52nd ward 
in 1986, 52nd Democratic ward leader in 1990, and for the city 
council in 1991.
    Welcome, sir.
    Your entire written statements will appear in the record. I 
ask that you summarize your testimony for 5 minutes. We will 
begin with Administrator Harman.
    You are recognized.

  STATEMENT OF ELIZABETH M. HARMAN, ASSISTANT ADMINISTRATOR, 
   GRANT PROGRAMS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT 
          AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Harman. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    Ms. Harman. Chairman Bilirakis, Ranking Member Richardson 
and Ranking Member Thompson, Members of the committee; I am 
Elizabeth Harman. I am FEMA's assistant administrator for the 
Grant Programs Directorate, also known as GPD. On behalf of 
Secretary Napolitano and Administrator Fugate, it is my 
pleasure to appear before you to discuss Homeland Security 
grant programs.
    Homeland Security grant programs has significantly 
contributed to the security and preparedness of our Nation. 
Over the past 10 years the programs have provided more than $35 
billion in Federal funds to enhance capabilities to plan, 
prepare, prevent, and respond to and recover from natural and 
terrorist events. Over the past 10 years we have also made 
progress in how these grants are administered.
    Since its creation GPD has matured as an organization. In 
the past 24 months I have had the opportunity to serve, GPD has 
made significant strides and improvements in its operations, in 
the development, management, and oversight of these programs. 
These include addressing staff vacancies, standardizing formal 
internal operating procedures, and relationships with our 
external partners.
    The ultimate responsibility from management and oversight 
of these grants rests with GPD. Working in partnership with a 
number of Federal agencies, GPD draws on those agencies' 
expertise in the development and administration of individual 
grant programs. To clarify roles and responsibilities and 
establish a formal relationship, we have established eight 
memorandums of understanding with our various partner agencies.
    As of fiscal year 2010, GPD was experiencing delays in 
processing grant awards and releasing funds to grantees. These 
delays slowed grantees' ability to access funds and proceed 
with approved projects. GPD identified delays in two principal 
areas: Budget approvals and Federal, environmental, and 
historic preservation laws.
    GPD revised its internal processes and collaborated with 
its partners to shorten the review times for both. The entire 
budget review now takes less than 30 days and EHP reviews now 
take an average of 18 days, a 66 percent improvement.
    The development and adoption of standard operating 
procedures is critical to our successful long-term operation 
and of any organization. Prior to 2011 critical weakness within 
GPD was at a lack of SOPs. As of today, substantial progress 
has been made in the development and documentation of these, 
resulting in uniform and streamlined business practices.
    A major challenge that faced GPD and one that has received 
on-going attention from Congress is the rate at which Homeland 
Security grant funds are spent. This is also known as the 
drawdown issue.
    As of January 2012 more than $8 billion of the $35 billion 
awarded under these grants remained available for expenditure. 
It is important to understand that these funds are not idle. 
Work is being done, projects are underway, and capabilities are 
being built.
    Often the spending of grant funds is slow due to factors 
beyond the control of the grantee. These include State and 
local procurement and contracting rules, the overall nature of 
the project, matching requirements, EHP requirements, et 
cetera. In an effort to assist grantees and remove impediments 
wherever possible, Secretary Napolitano recently issued a 
memorandum increasing flexibility in the use of these grant 
funds, and where appropriate offer grantees relief from grant 
program requirements such as mandatory cost shares.
    Historically the $35 billion awarded under our Homeland 
Security grant program has been provided through specific grant 
programs authorized under the 9/11 Act. In fiscal year 2011, 15 
separate grant programs received funding. Each of these 
programs supports different recipients.
    However, the projects supported by these programs often 
overlap in scope and thus efforts may be duplicated. In fiscal 
year 2012 Congress provided the Secretary discretion to 
allocate approximately $995 million among the 9/11 Act's grant 
program. Ultimately eight programs were funded.
    This consolidation offers a number of benefits, including 
allowing grantees to focus Homeland Security dollars where most 
needed while reducing redundancy. With this in mind, and as a 
next step in maturation about thinking about preparedness, the 
fiscal 2013 budget proposed is a National Preparedness Grant 
Program, also known as the NPGP. This builds upon the 
consolidated approach taken in the fiscal year 2012 grant 
cycle.
    The NPGP vision is based on input we have received from 
grantees across the country over the last several years, 
including most recently through the Presidential Policy 
Directive 8 process and the National Preparedness Task Force. 
The NPGP will use a competitive risk-based model allocating 
funding to sustain core capabilities, address gaps in threat 
assessments, and build new capabilities.
    FEMA has established a robust outreach effort over the 
coming weeks to solicit additional input around this proposal, 
and an on-going dialogue with your staff and other Members of 
Congress. We have also established a topic on our new FEMA web-
based collaboration site to facilitate continued dialogue.
    We believe these programs have benefitted the Nation over 
the years. We strive to improve the administration of these 
grants and are now proposing a framework of how we can best 
maximize grant funding to address the greatest risks to our 
country. This new approach has merit and we look forward to 
working with Congress and our stakeholders to make it a 
reality.
    Mr. Chairman, Ranking Member Richardson and Ranking Member 
Thompson, and the subcommittee, this concludes my statement. I 
am happy to respond to any questions that you may have.
    [The joint prepared statement of Ms. Harman and Mr. Gruber 
follows:]
    Joint Prepared Statement of Elizabeth M. Harman and Corey Gruber
                             March 20, 2012
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. I am Elizabeth Harman, assistant 
administrator for FEMA's Grant Programs Directorate (GPD) and this is 
Corey Gruber, assistant administrator for FEMA's National Preparedness 
Directorate (NPD). On behalf of Secretary Napolitano and Administrator 
Fugate, it is our pleasure to appear before you today to discuss the 
present and future of the Department of Homeland Security (DHS) 
Homeland Security Grant Programs (HSGP).
    As this committee is aware, FEMA's grant programs, collectively 
known as the Homeland Security Grant Programs, have contributed 
significantly to the overall security and preparedness of the Nation. 
By providing funds to support State and local collaboration and the 
development of State Homeland Security Strategies, the Homeland 
Security Grant Programs have enhanced security and preparedness in 
States, territories, Tribal nations, regions, cities, on our borders, 
and in our ports and transit systems. As a Nation, we are more secure 
and better prepared to prevent, protect, and mitigate the impact of 
threats and natural disasters than we have been at any time in our 
history.
    From the unprecedented attacks of September 11 to the tornados and 
storms of the last several weeks, as a Nation, we are much more aware 
of the threats and vulnerabilities we face, as well as the capabilities 
we have built to address these hazards. With that awareness, we have 
raised preparedness and response to new levels of importance. As a 
result, we plan better, train better, work together better, and respond 
and recover better. With each passing year, our planning, preparations, 
and capabilities have matured.
    Much of this progress has come directly from the leadership and 
capabilities developed at the National, State, and local level. Over 
the past 10 years, the homeland security grants have provided State, 
territorial, local, and Tribal governments with more than $35 billion 
in Federal funds to enhance capabilities to plan, prepare for, prevent, 
respond to, and recover from natural disasters and other terrorist 
threats. With these funds, grantees have built and enhanced 
capabilities by acquiring needed equipment, training personnel, 
planning, exercising, and building relationships across city, county, 
and State lines.
    The Nation has made significant progress and has achieved a high 
degree of maturity in several of the core capabilities identified in 
the National Preparedness Goal, particularly those that are cross-
cutting and support disaster response. Areas of success include 
planning, operational coordination and communication, intelligence and 
information sharing, environmental response, health and safety, mass 
search and rescue, and public health and medical services. Significant 
investments in public health and medical services, operational 
communications, and planning capabilities have made substantial 
contributions to progress achieved Nationally.
    Specific examples of success include the development and maturation 
of State and local fusion centers. Fusion centers function as focal 
points--information hubs--within State and local jurisdictions to 
provide for the gathering, receipt, analysis, and sharing of critical 
information and intelligence among Federal, State, and local agencies. 
Fusion centers have long been supported under several of the Homeland 
Security Grant Programs, specifically the State Homeland Security 
Program (SHSP) and the Urban Areas Security Initiative (UASI) Grant 
Program, and remain a priority in the fiscal year 2012 grants. As of 
February 2012, there are 77 designated State and major urban area 
fusion centers across the country, greatly enhancing the Nation's 
ability to share critical information among all levels of government.
    Additional success areas include improved planning capabilities as 
well as improved operational coordination among response agencies. For 
example, the Nation has significantly improved the feasibility and 
completeness of plans for catastrophic events, due in part to 
significant State and local investments in planning activities through 
FEMA grant programs. The 2010 Nation-wide Plan Review showed that by 
2010, more than 75 percent of States and more than 80 percent of urban 
areas were confident that their overall basic emergency operations 
plans were well-suited to meet the challenges of a large-scale 
catastrophic event. Additionally, both States and urban areas show high 
degrees of confidence in functional and hazard-specific planning, with 
even higher degrees of confidence for hazards with which they have had 
experience, such as flooding or tornadoes. FEMA has included planning 
as an allowable grant cost since 2003 and has emphasized planning as a 
priority for preparedness funding since 2006.
    FEMA preparedness grant programs have also built operational 
coordination capabilities, specifically helping to solidify the 
National Incident Management System (NIMS) as the common incident 
management doctrine for the whole community. Prior to the introduction 
of NIMS in 2004, no single, official incident command system existed 
for the Nation. Now, nearly 10 million homeland security stakeholders 
from across the Nation have successfully completed the FEMA-sponsored 
independent study courses on the Incident Command System.
    Another achievement in Federal preparedness assistance is the 
Nation's highly mature search-and-rescue capability. From fiscal year 
2006 through fiscal year 2010, recipients of State and local homeland 
security grant funds allocated approximately $158 million in 
preparedness assistance to build and maintain US&R capabilities. Today, 
the Nation has 300 State and/or local urban search-and-rescue (US&R) 
teams, and 97 percent of the Nation's population is within a 4-hour 
drive of a US&R team. This National expansion of State and/or local 
US&R capabilities is a direct result of Federal funding and training. A 
tangible result of this enhanced capability is evidenced by the 
aftermath of the April 2011 outbreak of deadly tornadoes in the United 
States, when Alabama mobilized State and local US&R teams to support 
search-and-rescue operations in Marion, Jefferson, Franklin, and 
Tuscaloosa counties rather than request Federal US&R support. This 
enhanced local and regional capacity resulted in a more prompt and 
immediate response than would otherwise have been possible.
    Finally, over the years since its creation, GPD has matured as an 
organization. Specifically, over the past 2 years, GPD has made 
significant strides and improvements in its operations and in the 
development, management, and oversight of the Homeland Security Grant 
Programs. These improvements include: Filling staff vacancies; 
streamlining internal reviews; standardizing and formalizing internal 
operating procedures and GPD's relationships with its external 
partners--specifically those Federal agencies that assist GPD in the 
development of the various homeland security grant programs; and 
enhancing stakeholder involvement with program development and 
administration.
                                staffing
    In fiscal year 2010, 20 percent of GPD Headquarters' 180 authorized 
positions (37 FTEs) were vacant. This vacancy rate affected both GPD 
components, the Preparedness Grant Division and the Grants Operations 
Division, impacting program administration, including the ability to 
work directly with grantees, respond to grantee requests, and monitor 
grantee performance. For Grant Operations, the vacancy rate impacted 
financial oversight and monitoring, including the rates at which 
grantees spent grant funds.
    Adequate staffing is critical to GPD's success. In addition to the 
administration of a current fiscal year's grant programs and the 
development of the next year's grant program, GPD also manages 21,000 
open grants from prior fiscal year grant cycles. Therefore, with the 
full support of FEMA's senior leadership, GPD filled 37 full-time 
permanent (FTP) positions between August and November 2010. Currently, 
GPD's overall vacancy rate is 10 percent and GPD has filled 168 of its 
189 \1\ authorized positions. GPD's staffing improvements include 
filling several senior leadership positions such as its Deputy 
Assistant Administrator, Director for Grant Operations, and Director 
for the Preparedness Grant Division.
---------------------------------------------------------------------------
    \1\ Between fiscal year 2010 and fiscal year 2012, the number of 
authorized positions increased from 180 to 189.
---------------------------------------------------------------------------
                    streamlining internal processes
    Due to staffing and other challenges, GPD previously faced 
significant delays in processing grant awards and releasing grant funds 
to grantees. These delays, in turn, slowed grantees' ability to access 
funds and proceed with approved projects. GPD identified delays in two 
principal areas. The first was the delays associated with GPD review 
and approval of grantees' budgets. The second involved the project 
reviews and approvals required under Federal environmental and historic 
preservations laws, such as the National Environmental Preservation Act 
(NEPA).
    In response, GPD undertook several internal reforms which resulted 
in major improvements and shortened both environmental and historic 
preservation reviews. The most significant of these included:
  <bullet> Adding Environmental and Historic Preservation (EHP) staff 
        to review EHP applications; creating a new EHP screening form 
        to better facilitate the application process; developing 
        Programmatic Environmental Assessments to streamline the review 
        of certain projects; and implementing a formalized process to 
        follow up with grantees who need to submit additional 
        information in order to process their application.
    GPD also took major steps to shorten budget reviews. These 
included:
  <bullet> Creating the Budget Review Renovation Working Group in the 
        GPD to improve the budget review process.
  <bullet> Implementing a guidance checklist for grantees with guidance 
        on what information is needed for a complete and thorough 
        budget to improve consistency as well as decrease overall 
        review time. By providing these instructions, grantees were 
        better informed about what materials were needed and able to 
        ensure that their budget information was complete, resulting in 
        faster approval of their budgets.
    Today, GPD's budget review period is less than 30 days. Since 2011, 
GPD headquarters' staff reduced its EHP review time to an average of 18 
days--a 66 percent improvement over 2010. Additionally, from 2010 
through 2011, GPD averaged 3,000 EHP reviews per year, 80 percent of 
which were completed in less than the 18-day average.
              standardizing internal operating procedures
    Prior to 2011, GPD lacked standardized operating procedures (SOPs). 
To address this, FEMA embarked on an effort to develop standard 
operating procedures for all of its grant programs. These SOPs are now 
in force and are being utilized on a daily basis by both headquarters 
and regional grants staff.
         formalizing relationships with federal agency partners
    GPD has the ultimate programmatic, administrative and fiduciary 
responsibility for the management and oversight of the Homeland 
Security Grant Programs. Working in partnership with a number of 
Federal agencies, GPD draws on those agencies' expertise and resources 
in the development and administration of individual homeland security 
grant programs. For example, GPD has partnered with the U.S. Coast 
Guard in the development and administration of the Port Security Grant 
Program (PSGP). Similarly, it has partnered with the Transportation 
Security Administration in the development and administration of the 
Transit Security Grant Program (TSGP) and with Customs and Border 
Protection in the development and administration of the Operation 
Stonegarden Grant Program.
    Formalizing GPD's relationships with its partner agencies became 
critical to the on-going stability and successful operation of the 
grant programs. Currently GPD has eight MOUs in place. Within the 
Department of Homeland Security, GPD has MOUs with the Office of 
Policy, the National Protection and Programs Directorate's Office of 
Infrastructure Protection, the Transportation Security Administration, 
the Office of Health Affairs, and FEMA's Office of Environmental 
Planning and Historic Preservation. GPD also has MOUs in place with the 
Department of Health and Human Services, the Department of 
Transportation, and the Department of Commerce's National 
Telecommunication and Information Administration.
                         engaging stakeholders
    GPD's key partners in the development and administration of the 
Homeland Security Grant Programs are the grantees, and more broadly the 
stakeholder community, including the Nation's governors, mayors, Tribal 
leaders, emergency managers, port and transit administrators, the law 
enforcement, fire service, and emergency medical services communities, 
and others integral to the Nation's overall preparedness and ability to 
respond to threats and hazards.
    Recognizing that its success is linked to the success of its 
grantees, GPD has prioritized efforts to reach out to the stakeholder 
community, listen to their concerns, and be responsive to their needs. 
GPD has actively sought opportunities to address and engage 
stakeholders including, but not limited to: The National Emergency 
Management Association (NEMA), the International Association of 
Emergency Managers (IAEM), the United States Conference of Mayors, the 
National Association of Counties, the Urban Areas Security Initiative 
(UASI) Conference, and the Emergency Communications Planning Consortium 
(ECPC). GPD leadership regularly works with State and local leaders 
including Governors, mayors, State and local legislatures, 
representatives of transit and port systems as well as others from the 
emergency response community. In addition, GPD is making use of 
emerging technologies and is currently soliciting feedback from the 
public and stakeholders regarding the development of the proposed 
fiscal year 2013 National Preparedness Grant Program through the new 
FEMA collaboration site (http://fema.ideascale.com/). Finally, GPD 
program staff interacts directly with grantees on a regular basis and 
provides a conduit from the field to GPD leadership.
                       expediting grant drawdowns
    A major challenge facing GPD, and one that has received on-going 
attention from the Congress, is the rate at which homeland security 
grant funds are spent. This issue, more commonly known as the 
``drawdown issue,'' refers to the rate at which GPD's grantees, the 
recipients of homeland security funds, spend the monies they receive.
    As of January 2012, more than $8 billion of the $35 billion awarded 
under the Homeland Security Grant Programs, remained available for 
expenditure. It is important to understand that these funds are not 
idle. Work is being done, projects are underway, and capabilities are 
being built in accordance with the rules and guidelines under which 
these grants were awarded. That said, the fact remains that for a 
number of reasons--as outlined below--some grant funds are spent at a 
slower rate than other grant funds.
    The preparedness grant programs award funding with a 3-year period 
of performance. However, the programs are authorized to provide up to a 
5-year performance period. This has allowed grantees to apply for and 
be awarded funding, follow their own internal processes and State/local 
laws as they carry out grant-funded projects, and request and receive 
an extension that effectively increases the period of performance to 
the statutory maximum. Grantees must also comply with a body of Federal 
regulations, including rules on the timing and frequency with which 
grant dollars can be drawn from the Treasury and pre-disbursement 
requirements such as environmental and historic reviews. State laws and 
regulations governing the allocation of Federal grant dollars to State 
agencies, including those that impact procurement and hiring 
activities, may also contribute to delays in spending. Often, agencies 
cannot enter into contracts until award or sub-awards are in hand. Once 
funds are in hand, contracting processes may take significant time and 
are subject to State/local procurement laws or to State and local 
officials who approve budgets/projects but who may meet infrequently.
    In addition to Federal, State, and local procurement and 
contracting rules, the nature of the project also can impact the 
spending of grant dollars. This is the case under both the TSGP and the 
PSGP where dollars are slated for capital projects that by their nature 
are involved, complicated, and long-term.
    Finally, as discussed above, in the past several of GPD's internal 
business practices, specifically budget reviews and environmental and 
historic reviews, impacted a grantee's ability to spend funds, which 
have since been addressed.
    Given these challenges and in light of direct input from grantees, 
the Department evaluated ways to further streamline the grants process, 
expedite the spending of grant funds, and put remaining funds to work 
now.
    In a February 13, 2012 memorandum sent to all State Administrative 
Agencies, Secretary Napolitano announced a series of measures that 
provide grantees with additional flexibility to accelerate the spending 
of remaining fiscal year 2007-fiscal year 2012 grant funds by 
addressing immediate needs and building core capabilities that will 
support preparedness in the long run, consistent with existing laws, 
regulations, and programmatic objectives. This memorandum described 
internal measures undertaken by GPD and the Department to expedite the 
use of grant funds, as discussed above, and outlined measures to 
provide the grantees increased flexibility in the use of grant funds, 
and, where appropriate, offered grantees relief from grant program 
requirements in order to enable grantees to put these dollars to work 
more quickly. These measures, as described below, will enable grantees 
to use funding to cover additional personnel costs, maintain previously 
purchased equipment and apply grant balances to more urgent 
priorities--all based on key priorities of grantees.
    Measures announced by the Secretary:
Support Reprioritization
  <bullet> Allow grantees to redirect or reprioritize the use of 
        currently obligated grant funds to more urgent priorities. This 
        flexibility allows grantees to re-examine how unspent funds are 
        currently designated to be spent and shift funds from current 
        projects to others as needed. There are multiple benefits to 
        providing this flexibility. Long-term projects, especially in 
        view of diminishing grant dollars in future years, could be 
        modified, reduced in scale, and funds could shift from 
        expansion to sustainment.
  <bullet> Expand allowable expenses under the Port and Transit 
        Security Grant Program to fund more operational activities, in 
        accordance the SAFE Port Act and 9/11 Act, respectively.
  <bullet> Allow combating violent extremism activities as defined by 
        the administration's CVE Strategy to be eligible in all grant 
        years.
Focus on Core Capabilities
  <bullet> Expand maintenance and sustainment to equipment, training, 
        and critical resources that have previously been purchased in 
        order to support existing core capabilities tied to the five 
        mission areas of the National Preparedness Goal.
Provide Waivers
  <bullet> Waive the 50 percent cap on personnel costs.
  <bullet> Waive the match requirements under fiscal year 2008 and 2009 
        Port Security Grant for public sector grantees and match 
        requirements for Nonprofit Security Grant Program, the 
        Interoperable Emergency Communications Grant Program, and 
        Regional Catastrophic Planning Grant Program.
    These measures were based on a belief that in a period of 
diminishing grant dollars, providing grantees the flexibility to 
reassess projects and funding options would benefit both the grantees 
and the Federal Government by permitting an examination of current 
preparedness efforts and plans. At the same time, similar to the recent 
administration effort to expedite Recovery Act funding, grantees will 
be required to take steps to expend, draw down, and close out 
previously awarded grant funding.
                           a new way forward
    Historically, the $35 billion awarded under the Homeland Security 
Grant Programs has been through specific grant programs authorized 
under the 9/11 Act. In fiscal year 2010, 16 separate homeland security 
grant programs were funded. Each of these programs supported different 
recipients with varying requirements.
    In fiscal year 2012 under the Consolidated Appropriations Act (Pub. 
L. 112-74), the Secretary of Homeland Security was provided broad 
discretion to allocate approximately $995 million among the various 
homeland security grant programs. The discretion included both which 
programs to fund, and the levels of funding. Ultimately, eight homeland 
security grant programs were selected for funding, reduced from 15 in 
fiscal year 2011. Activities supported by programs not selected for 
funding largely became allowable under funded programs. For example, 
community resiliency activities allowable under the former Citizen 
Corps Grant Program are allowable under the SHSP and the UASI Programs.
    Efforts to consolidate grants allow many grantees, particularly the 
States, territories, and urban areas, to focus their homeland security 
dollars while reducing redundancy and simplifying the grant process. 
GPD will continue its efforts to make grants more efficient and 
adaptable to the evolving homeland security landscape through the 
grants vision in the President's fiscal year 2013 budget.
                 investments for national preparedness
    On March 30, 2011, the President issued Presidential Policy 
Directive (PPD) 8 ``National Preparedness,'' which provided the 
direction and the basis for building and sustaining National 
preparedness. In PPD 8, the President directed ``the development of a 
National preparedness goal that identifies the core capabilities 
necessary for preparedness and a National preparedness system to guide 
activities that will enable the Nation to achieve the goal. The system 
will allow the Nation to track the progress of our ability to build and 
improve the capabilities necessary to prevent, protect against, 
mitigate the effects of, respond to, and recover from those threats 
that pose the greatest risk to the security of the Nation.''
    The National Preparedness Goal was released in September 2011. The 
Goal described the vision of National preparedness contemplated in PPD 
8. Based on the National Preparedness Goal and the National 
Preparedness System designed to achieve that goal, National 
preparedness transcends an individual State, Tribe, city, port, or 
transit system. National Preparedness is a collective capability--or 
collection of capabilities--that inter-connect across the Nation.
    As recognized in the National Preparedness Goal, a secure and 
resilient Nation is one with the capabilities required across the whole 
community--the whole Nation--to prevent, protect against, mitigate, 
respond to, and recover from the threats and hazards that pose the 
greatest risk. With this in mind--and as the next step in the 
maturation of our approach to building and sustaining preparedness--the 
President, as part of the fiscal year 2013 budget request, proposed the 
creation of the National Preparedness Grant Program (NPGP). The NPGP 
marks a shift from the multiple programs approach of the 9/11 Act, and 
in many ways builds upon the consolidated, more comprehensive approach 
utilized under the fiscal year 2012 homeland security grant cycle. The 
fiscal year 2012 grant cycle begins the transition to the NPGP by 
linking investments to the National Preparedness Goal.
    Overall, the fiscal year 2013 budget includes $2.9 billion for 
State and local grants, $500 million more than appropriated by Congress 
in fiscal year 2012. This funding will sustain resources for fire and 
emergency management grants while consolidating sixteen other grants 
into the new, streamlined NPGP--designed to develop, sustain, and 
leverage core capabilities across the country in support of National 
preparedness, prevention, and response.
    As discussed throughout this testimony, DHS has been supporting 
State and local efforts across the homeland security enterprise to 
build capabilities for the past 9 years, awarding more than $35 billion 
in funding. Through these Federal investments, grantees have developed 
significant capabilities at the local level to prevent, protect 
against, prepare for, respond to, and recover from disasters of all 
kinds.
    As we look ahead, in order to address evolving threats and make the 
most of limited resources, the NPGP will focus on building and 
sustaining core capabilities associated with the five mission areas 
within the National Preparedness Goal that are both readily deployable 
and cross-jurisdictional, helping to elevate Nation-wide preparedness. 
Using a competitive, risk-based model, the NPGP will use a 
comprehensive process to assess gaps, identify and prioritize 
deployable capabilities, limit periods of performance to put funding to 
work quickly, and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
    As described in the fiscal year 2013 budget, the NPGP will base 
funding allocations on prioritized core capabilities as well as 
comprehensive threat/risk assessments and gap analyses. Each State and 
territory will receive a base level of funding allocated in accordance 
with a population-driven formula. The remainder of the grant 
allocations will be determined competitively, based on the criticality 
of the specific capability according to regional threat/risk 
assessments and the applicant's ability to complete the project within 
the 2-year period of performance. The NPGP will focus on developing and 
sustaining core capabilities identified in the National Preparedness 
Goal, enhancing terrorism prevention capabilities, and critical 
infrastructure/key resource protection.
    The NPGP proposal represents a new vision for grants in fiscal year 
2013. It reflects the lessons we've learned in grants management and 
execution over the past 9 years and is focused on developing and 
sustaining National capabilities given the evolving threats we face. It 
is not designed as, nor does it represent, detailed grant guidance. 
Ultimately, a new grants program in fiscal year 2013 will require 
authorizing legislation. The administration looks forward to working 
with Congress and stakeholders to ensure NPGP enables all levels of 
government to build and sustain, in a collaborative way, the core 
capabilities necessary to prepare for incidents that pose the greatest 
risk to the security of the Nation.
using the threat and hazard identification and risk assessment (thira) 
                to determine requirements and fill gaps
    The National Preparedness System is the instrument the Nation will 
employ to build, sustain, and deliver the core capabilities identified 
in the National Preparedness Goal in order to achieve a secure and 
resilient Nation. The components of the National Preparedness System 
include: Identifying and assessing risk, estimating the level of 
capabilities needed to address those risks, building or sustaining the 
required levels of capability, developing and implementing plans to 
deliver those capabilities, validating and monitoring progress, and 
reviewing and updating efforts to promote continuous improvement.
    Developing and maintaining an understanding of the variety of risks 
faced by communities and the Nation, and how this information can be 
used to build and sustain preparedness, are essential components of the 
National Preparedness System. Risk varies across the Nation--for 
example, a municipal risk assessment will reflect a subset of the 
threats and hazards contained in a State or Federal risk assessment.
    FEMA has taken critical steps in establishing a preparedness 
baseline and the accompanying foundation for assessing preparedness, 
including determining how effective grants are in improving 
preparedness. FEMA's approach to measuring the effectiveness of 
National preparedness grants recognizes that these programs are 
designed to support National priorities while allowing grantees the 
flexibility to apply funds based on their individual, identified 
threats and hazards. Thus, in the fiscal year 2011 Homeland Security 
Grant Program guidance, FEMA established the process for using a Threat 
and Hazard Identification Risk Assessment (THIRA) as the basis for 
determining a jurisdiction's current level of capability for the risks 
it faces and identifying goals for improvement, including the resulting 
gaps.
    The THIRA is an all-hazards assessment tool suited for use by all 
jurisdictions. The THIRA guide provides a basic approach for 
identifying and assessing risks and associated impacts. It expands on 
existing local, Tribal, territorial, and State hazard identification 
and risk assessments and other risk methodologies by broadening the 
factors considered in the process, incorporating the whole community 
from the beginning to the end of the process, and by accounting for 
important community-specific factors.
    Using the information developed during the THIRA process, 
communities will develop strategies to allocate resources--including 
Federal grant dollars--effectively, as well as leverage available 
assistance to develop capabilities and reduce risk. Building and 
sustaining capabilities will include a combination of organizational 
resources, planning, equipment, training, and education. Consideration 
must be given to finding, connecting to, and strengthening community 
resources by integrating the expertise and capacity of individuals, 
communities, private and nonprofit sectors, faith-based organizations, 
and all levels of government.
    The THIRA allows a jurisdiction to understand its threats and 
hazards and how these impacts may vary according to time of occurrence, 
seasons, locations, and community factors. This knowledge allows a 
jurisdiction to establish informed and defensible capability targets 
and commit appropriate resources to closing the gap between a target 
and a current capability or for sustaining existing capabilities.
    If existing capabilities need to be supplemented to reach a 
capability target, jurisdictions can build capability or fill gaps by 
establishing mutual aid agreements with surrounding jurisdictions. As 
mentioned above, there is a Federal requirement for all States to 
maintain EMAC membership for grant eligibility. To date, all States are 
members. EMAC offers assistance during Governor-declared states of 
emergency through a responsive, straightforward system that allows 
States to send personnel, equipment, and commodities to help disaster 
relief efforts in other States. It is possible that jurisdictions may 
require the resources of other levels of government to achieve a target 
and will need to collaborate closely with those external sources to 
secure the necessary resources. Cities, counties, States and regions 
should work collaboratively to build, sustain, or deliver capabilities 
to the identified targets.
    Finally, a jurisdiction may choose to build and sustain 
capabilities through their own resources, the use of available grants, 
or other funding and technical assistance. The results of the THIRA 
should be used by grantees to make informed decisions about how to 
allocate their resources. Using their capability targets as desired 
outcomes, a jurisdiction is able to create a defensible rationale for 
how limited resources can best be invested to build and sustain 
capabilities. Existing reporting mechanisms, such as the State 
Preparedness Report (SPR), communicate their progress toward achieving 
capability targets and inform the National Preparedness Report.
    FEMA will measure and report annually on the percent of State and 
territories that have a THIRA consistent with Department guidance.
                               conclusion
    In conclusion, we believe that the Homeland Security Grant Programs 
have benefited the Nation and the Nation's overall security and 
preparedness. Since the program's beginning, we have strived to improve 
how these grants have been administered. We believe we have made 
significant improvements over the past few years and will continue to 
do so. With the release of the fiscal year 2013 budget and the vision 
for the National Preparedness Grant Program, we are proposing the next 
evolution of homeland security grant funding. We are happy to respond 
to any questions the subcommittee may have.

    Mr. Bilirakis. I appreciate it every much.
    Now I will recognize Administrator Gruber. You are 
recognized, sir, for 5 minutes.

 STATEMENT OF COREY GRUBER, ASSISTANT ADMINISTRATOR, NATIONAL 
PREPAREDNESS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Gruber. Good morning, Chairman Bilirakis, Ranking 
Member Thompson, Ranking Member Richardson, and Members of the 
subcommittee. I am Corey Gruber, the assistant administrator 
for the National Preparedness Directorate for FEMA. On behalf 
of the Secretary and the administrator it is my pleasure to 
appear before you today to discuss the DHS grant programs.
    In the aftermath of September 11, 2001, Congress laid the 
foundations for how we conceive and construct National 
preparedness and in the Post-Katrina Emergency Management 
Reform Act in 2006 codified the key components of National 
preparedness. Two administrations have given us direction that 
has led us to an evolved understanding of what constitutes 
appropriate National goals and how instruments such as grant 
programs provide the means to achieve those goals.
    To that end, we are implementing Presidential Policy 
Directive 8, National Preparedness, which was released in March 
2011 and establishes a National Preparedness Goal, which was 
released last September; and a National Preparedness System, 
which was released in November. The goal is focused on building 
partner capability and capacity across the whole community, 
reducing impediments to cooperation and defining success in 
clear and unambiguous terms.
    The National Preparedness System builds interconnected and 
complementary systems that ensure essential requirements, what 
we refer to as core capabilities, are built, delivered, and 
sustained. It provides the means to manage risk and allocate 
resources judiciously, and to measure our progress with targets 
we jointly set for the core capabilities. In an era of 
austerity, the National Preparedness System equips us to find 
the balance of means that contribute to achieving the goal of a 
secure and resilient Nation.
    Achieving a secure and resilient Nation is not done by 
Government alone, but through a partnership that embraces 
contributions from the whole of our society. We see ready 
evidence of the power of a mobilized community in response to 
the slate of recent disasters where neighbors aided neighbors; 
communities rallied to meet the needs of survivors and 
responders operate with self-reliance that comes from strength 
in capabilities.
    Two examples are particularly noteworthy. Strengthening 
operational coordination capabilities has come through the 
creation of the National Incident Management System. Prior to 
its introduction in 2004 no single official incident command 
system existed. By 2011 nearly 10 million stakeholders had 
successfully completed FEMA's sponsored training on incident 
command.
    Another success is the Nation's highly mature search-and-
rescue capability. Today the Nation possess significantly more 
urban search-and-rescue teams than it did 10 years ago. A 
tangible result of this enhanced capability is that in the 
aftermath of the April 2011 outbreak of deadly tornadoes in the 
United States, Alabama mobilized State and local USAR teams 
rather than requesting Federal support.
    In the fiscal year 2011 grant program guidance, FEMA 
established a process for using a Threat and Hazard 
Identification Risk Assessment as the basis for determining 
what a jurisdiction must prepare for. This THIRA will aid 
jurisdictions in determining current capability levels against 
those threats, identify targets, and then employ grants and 
other instruments such as mutual aid to achieve those targets. 
FEMA will measure and report annually on the percent of States 
and territories that have a THIRA consistent with Department 
guidance.
    The Post-Katrina Emergency Management Reform Act requires a 
State preparedness report for any State or territory receiving 
preparedness assistance. The SPR submitted annually to my 
directorate provides an annual self-assessment on how States 
and territories are based on the core capabilities established 
in the National Preparedness Goal. We use the SPR data in our 
annual National preparedness reporting.
    We must be able to more effectively measure our progress 
and report the impact of our investments and actions on risk. 
FEMA's approach to measuring the effectiveness of grants 
recognizes that these programs are designed to support National 
priorities while allowing grantees flexibility to apply funds 
based on their individual identified threats and hazards.
    In conclusion, our success will come from sustaining the 
security and resilience gains we have made, from identifying 
new capabilities that help us build the coping mechanisms for 
the greatest risks that face a Nation, and by strengthening the 
alliance of our citizens, households, businesses, nonprofits 
and institutions of Government in the mission of security and 
resilience. The vision for the National Preparedness Grant 
Program will be an important contributor to achieving those 
ends.
    Mr. Chairman, Ranking Member Richardson, Ranking Member 
Thompson, Members of the subcommittee, this concludes my 
statement. I look forward to answering any questions you may 
have.
    Mr. Bilirakis. Thank you, Administrator Gruber; appreciate 
it very much.
    Now we will recognize, yes, Ms. Richards. Ms. Richards, you 
are recognized for 5 minutes. Appreciate it.

  STATEMENT OF ANNE L. RICHARDS, OFFICE OF INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Richards. Good morning, Chairman Bilirakis, Ranking 
Member Thompson, Ranking Member Richardson, and Members of the 
subcommittee. I am Anne Richards, assistant inspector general 
for audits of the Department of Homeland Security. Thank you 
for inviting me to testify today about the results of our 
audits of FEMA's oversight and management of the State Homeland 
Security Program and Urban Area Security Initiative grants.
    I will address the improvements FEMA can make in three 
areas of grants management and briefly discuss a fourth area of 
emerging concern, that of sustainability. FEMA needs to make 
improvements in the areas of strategic management, performance 
measurement, and oversight.
    Since 2004 the Department of Homeland Security has awarded 
more than $13.7 billion for just the State Homeland Security 
Program and Urban Area Security Initiative Grant. We have 
completed the audits for 20 individual States and territories, 
and have audits underway in an additional 19 States.
    FEMA needs to improve its guidance on strategic management 
for State homeland security grants. While current guidance for 
State strategic plans encourages revisions every 2 years, the 
guidance does not require revisions to be made. Some States and 
territories do not have up-to-date strategic plans. For 
example, Maryland, Minnesota, and the Virgin Islands all have 
outdated strategic plans at the time of our audits.
    Further, we have identified a number of States that do not 
include goals and objectives that are specific, measurable, 
achievable, results-oriented and time-limited in their 
strategic plans. For example, California, Nevada, New Jersey, 
New York, Pennsylvania, and Texas lack these types of goals and 
objectives. Nevada, New Jersey, Pennsylvania, and Texas also 
did not develop adequately-defined goals and objectives for 
measuring improvements in their preparedness and response 
capabilities.
    Without some form of measurable goal or objectives, States 
cannot accurately determine what value was received for the 
investments made, and cannot determine to what extent they are 
better prepared. We have found deficiencies in strategic 
management in 15 of the 20 State audits completed to date.
    In regard to performance measurement FEMA needs to improve 
its guidance on establishing metrics and measuring performance. 
Our audits show that States continue to lack the proper 
guidance and documentation to ensure accuracy of performance 
data and to track the achievement of planned milestones. We 
have found problems with performance measurement in 19 of 20 
State audits completed.
    We also found that FEMA needs to improve its oversight of 
State grant management to ensure the States are providing 
proper oversight to these State activities. In our audits we 
have repeatedly found weaknesses in the States' oversight of 
grants. These weaknesses include inaccuracies and untimely 
submissions of financial status reports, untimely allocation 
and obligation of grant funds, and not following Federal 
procurement, property, and inventory requirements.
    In our audits in fiscal year 2011 and 2012 we have noticed 
an emerging trend with the issue of sustainment. States have 
not prepared contingency plans addressing potential funding 
shortfall in the event DHS grant funding was significantly 
reduced or eliminated.
    In an era of growing budget constraints, it is important to 
use our resources for projects that can be sustained. FEMA has 
told us that it is addressing this issue in the fiscal year 
2012 grant guidance by focusing on sustainment rather than new 
projects.
    In conclusion, strategic planning, performance measurement 
and oversight to include tracking safe milestones and 
accomplishments are important management tools for FEMA to 
ensure that the Federal funds are used for their intended 
purpose and that enhancements in preparedness capabilities are 
being achieved.
    Despite the significant issues I have outlined here today, 
I do not want to leave the impression that the program has not 
made progress. For the past several years our audits have shown 
that States have generally been efficiently and effectively 
administering grant requirements, distributing grant funds, and 
ensuring available funds are used.
    The States also continue to use reasonable methodologies to 
assess threats, vulnerabilities, capabilities and needs, as 
well as allocate funds accordingly. We have also found 11 
promising practices in States that we were able to ask FEMA to 
share with other States and jurisdictions. FEMA has been 
responsive to our recommendations. It has concurred or 
concurred in part--concurred with the intent of the majority of 
our recommendations and is taking action to implement those 
recommendations.
    Mr. Chairman, Ranking Member Thompson, Ranking Member 
Richardson, and Members of the subcommittee, this concludes my 
prepared remarks. I welcome any questions that you or Members 
of the subcommittee may have. Thank you.
    [The prepared statement of Ms. Richards follows:]
                 Prepared Statement of Anne L. Richards
                             March 20, 2012
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee: I am Anne Richards, Assistant Inspector 
General for Audits of the Department of Homeland Security (DHS). Thank 
you for inviting me to testify today about the result of our audits of 
the Federal Emergency Management Agency's (FEMA) oversight and 
management of the Homeland Security Grants.
    My testimony today will address the improvements the Federal 
Emergency Management Agency can make in three areas to ensure the 
grants process is transparent, efficient, and effective and I will 
briefly discuss a fourth area of emerging concern. Specifically, FEMA 
needs to make improvements in strategic management, performance 
measurement, and oversight. Also, our most recent audits have shown 
that some States do not have the capacity or even contingency plans to 
sustain critical programs that have been funded by the State Homeland 
Security Grants and Urban Areas Security Initiative without Federal 
funds. Since 2003, the Department of Homeland Security has awarded more 
than $16.3 billion for the State Homeland Security Program (SHSP) and 
Urban Areas Security Initiative (UASI) grants.
    The information provided in this testimony is contained in our 
summary reports issued for fiscal years 2009-11 Annual Report to 
Congress on States' and Urban Areas' Management of Homeland Security 
Grant Programs (OIG-10-31, OIG-11-20, and OIG-12-22), and individual 
audits of States and territories. We have completed the audits for 20 
individual States and territories, and have audits underway in an 
additional 19 States.
    Strategic Management.--FEMA needs to improve its guidance on 
strategic management for State Homeland Security Grants. In our most 
recent Annual Report to Congress, we summarized where States' 
strategies were deficient in matters concerning fully measurable goals 
and objectives.
    While current guidance for State Homeland Security strategic plans 
encourages revisions every 2 years; the language is such that it does 
not require revisions to be made--it is just strongly encouraged. For 
example, the States of Maryland, Minnesota, and the territory of the 
Virgin Islands have outdated strategic plans. Additionally, we have 
identified States that do not have Homeland Security strategy plans 
with goals and objectives that are specific, measurable, achievable, 
results-oriented, and time-limited (SMART objectives).
    For example, the Homeland Security Strategies for California, 
Nevada, New Jersey, New York, Pennsylvania, and Texas lacked SMART 
goals and objectives applicable to first responder capabilities. 
Nevada, New Jersey, New York, Pennsylvania, and Texas did not develop 
adequately-defined goals and objectives to use for measuring 
improvements in their preparedness and response capabilities.
    Without some form of measurable goal or objective, or a mechanism 
to objectively gather results-oriented data, States may have no 
assurance of the level of effectiveness of their preparedness and 
response capabilities. Also, States are less capable of determining 
progress toward goals and objectives when making funding and management 
decisions. We have found deficiencies in strategic management in 15 of 
the 20 State audits completed to date.
    Performance Measurement.--In regard to performance measurement, 
FEMA needs to improve its guidance on establishing metrics and 
measuring performance. Our audits show that States continue to lack the 
proper guidance and documentation to ensure accuracy or track 
milestones.
    Providing guidance on the appropriate metrics and requiring those 
metrics to be documented would provide the States with tools to help 
them understand the effectiveness of each grant program; however, FEMA 
has not provided sufficient guidance in this area.
    In our fiscal year 2010 Annual Report, we reported that the States 
of South Carolina, Maryland, and West Virginia did not have mechanisms 
to collect performance data, nor any procedures to analyze data and 
maintain documentation to support evaluations. Without these tools and 
processes, there is no assurance that information is accurate.
    For example, South Carolina prepared annual threat and 
vulnerability assessments, but did not document and retain supporting 
data, like emergency call logs for fire trucks and ambulances. Although 
the State did form Counterterrorism Coordinating Councils to develop, 
define, and review the State strategy and goals, no mechanisms were 
created to collect data, nor procedures to analyze data and maintain 
documentation to support evaluations. This weakness prevented auditors, 
FEMA, and even the State Administrative Agency from validating 
assessments and ensuring consistency of information from year to year.
    In another example, Maryland's State Administrative Agency 
conducted annual workshops to focus on the needs assessment phase of 
the strategic planning process; however, Maryland did not have an 
adequate process to conduct a review and update of its Homeland 
Security strategy's goals and objectives, or to ensure that local input 
was incorporated into the strategy. This needs assessment phase 
culminated in what was considered the ``wish list'' for Homeland 
Security projects with no regard to budget constraints or regional and 
State of Maryland needs.
    Additionally, the State of West Virginia did not perform an 
analysis of capabilities and performance with respect to equipment 
purchased and training obtained. West Virginia also did not have 
written policies and procedures that required the analysis of 
capabilities and performance, and the documentation of such, in order 
to determine improvements in performance and progress toward achieving 
program goals.
    FEMA also needs to strengthen its guidance on reporting progress in 
achieving milestones as part of the States' annual program 
justifications. When we reviewed the large investment programs that 
continue from year to year for the States of Nevada, New York, and 
Texas, we found that the milestones for these States' continuing 
investment programs were not comparable to previous years' 
applications. Additionally, the status of the previous year milestones 
was not included in the application. Because of these weaknesses, FEMA 
could not determine, based on the annual application process, if a 
capability had been achieved, what progress had been made, or how much 
additional funding was needed to complete individually justified 
programs. Without this information, FEMA cannot be assured it is making 
sound investment decisions.
    Because of insufficient information on milestones and program 
accomplishments, FEMA has been annually awarding Homeland Security 
Grant Program (HSGP) funds to States for on-going programs without 
knowing the accomplishments from prior years' funding or the extent to 
which additional funds are needed to achieve desired capabilities. 
Tracking accomplishments and milestones are critical elements in making 
prudent management decisions because of the evolving, dynamic changes 
that can occur between years or during a grant's period of performance.
    We have found problems with performance measurement in 19 of 20 
State audits completed to date.
    Oversight.--Focusing now on grants oversight, FEMA needs to improve 
its oversight to ensure the States are meeting their reporting 
obligations in a timely manner to ensure FEMA has the information it 
needs to make program decisions and oversee program achievements. 
Further, FEMA needs to improve its oversight to ensure that States are 
complying with Federal regulations in regard to procurements and 
safeguarding of assets acquired with Federal funds. In our annual 
audits of the State Homeland Security Program, we have repeatedly found 
weaknesses in the States' oversight of grant activities. Those 
weaknesses include inaccuracies and untimely submissions of financial 
status reports; untimely allocation and obligation of grant funds; and 
not following Federal procurement, property, and inventory 
requirements.
    For example, the States of Maryland, South Carolina, and West 
Virginia did not submit timely financial status reports to FEMA. The 
State-prepared quarterly financial status reports are designed to 
provide FEMA with financial information about the grant program 
expenditures that it can use to monitor grant implementation. The 
report is due within 30 days of the end of each calendar quarter (a 
change from 45 days in fiscal year 2005).
    Delays in the submission of Financial Status Reports may hamper 
FEMA's ability to effectively and efficiently monitor program 
expenditures and may prevent the State from drawing down funds in a 
timely manner, and ultimately affects the functioning of the program.
    California, New York, and New Jersey, among other States, did not 
allocate grant funds timely. For instance, a California urban area did 
not make grant funds available to subrecipients for 15 to 18 months 
after the funds were received. As a result, expenditures for approved 
programs were delayed, the fiscal years 2006 and 2007 UASI grant 
performance periods were extended, and administrative costs increased. 
Most important, these delays prevented timely delivery of needed plans, 
equipment, exercises, and training to first responders.
    New York State obligated grant funds to subgrantees in accordance 
with Federal requirements, but the funds were not available for 
expenditure for months after the date of obligation because the 
subgrantees needed to sign contracts with the State before seeking 
reimbursement. The time available for subgrantees to make expenditures 
and be reimbursed by the State was significantly reduced and overall 
expenditure of grant funds was delayed. As a result, the opportunity 
for first responders to be better equipped, trained, and prepared was 
delayed because it took 8 to 12 months for subgrantees to receive 
signed contracts from the State.
    New Jersey did not make funds available to all UASI subgrantees in 
accordance with Federal pass-through requirements. This occurred 
because of delays by both the UASI Executive Committee and the State 
Office of Homeland Security and Preparedness in approving spending 
plans. New Jersey subgrantees did not always initiate projects in a 
timely manner, and as a result, SHSP and UASI grant funds were not 
expended within the grant performance period. Consequently, first 
responders were less likely to be as equipped, trained, and prepared as 
possible.
    Sustainment.--In our audits in fiscal years 2011 and 2012, we have 
noticed an emerging trend with issues of sustainment. States did not 
prepare contingency plans addressing potential funding shortfalls if 
DHS grant funding was significantly reduced or eliminated. We found 
this issue in New York, California, Nevada, Florida, and Minnesota. In 
an era of growing budget constraints it is important to use budget 
resources for projects that can be sustained. FEMA has told us that it 
is addressing this issue in fiscal year 2012 grant guidance by focusing 
on sustainment rather than new projects.
    In conclusion, strategic planning, performance measurement, and 
oversight--to include tracking States' milestones and accomplishments 
for HSGP-funded programs--are important management controls for FEMA to 
ensure that Federal funds are used for their intended purpose and that 
enhancements in preparedness capabilities are being achieved.
    Despite the significant issues I have outlined here today, I do not 
want to leave the impression that the program has not made progress. 
For the past several years, States have generally maintained efficiency 
and effectiveness in administering grant requirements, distributing 
grant funds, and ensuring available funds were used. The States also 
continue to use reasonable methodologies to assess threats, 
vulnerabilities, capabilities, and needs, as well as allocate funds 
accordingly.
    Further, our audits have identified several effective tools and 
practices of some States that can be of benefit to all States that FEMA 
and the individual States have willingly shared. FEMA has been 
responsive to our recommendations. In 2010, it concurred with all our 
recommendations to address areas of improvement in strategic planning 
and oversight, and it concurred, or concurred with the intent of 70 
recommendations we made for fiscal year 2011 and is taking action to 
implement those recommendations.
    Mr. Chairman, this concludes my prepared remarks. I welcome any 
questions that you or the Members of the subcommittee may have.

    Ms. Richardson. Mr. Chairman?
    Mr. Bilirakis. I now recognize Mr. Jenkins--yes?
    Ms. Richardson. I have a question on process.
    Mr. Bilirakis. Yes?
    Ms. Richardson. It has been brought to this committee's 
attention that Mr. Nutter has another commitment within the 
time frame. When Mr. Nutter completes his testimony, will all 
Members, is the question, will all Members be allowed to ask 
Mr. Nutter if they have any questions so then he can depart 
prior to us having the ability to ask the rest of the panel?
    Mr. Bilirakis. Sir--Mr. Mayor, do you have a sufficient 
time to answer the questions? What time do you think you have 
to leave? Because we do want to accommodate you, sir.
    Mr. Nutter. Mr. Chairman, I do appreciate that, and Ranking 
Member. I am going to do my best to be as flexible as possible. 
I have a train--I have declined to look at my Blackberry so I 
actually do not know what time it is, Mr. Chairman. But I think 
I should be okay. I will give short answers.
    Mr. Bilirakis. Okay.
    Ms. Richardson. Mr. Chairman, the question is real simple 
and it is very specific. When Mr. Nutter completes his 
testimony the question is: Can any Member who has a question 
for Mr. Nutter ask it at that time and then you go through your 
normal----
    Mr. Bilirakis. Yes. I have----
    Ms. Richardson. I have----
    Mr. Bilirakis. I have no problem--no objection to that.
    Ms. Richardson. Okay. Thank you.
    Mr. Nutter. Thank you.
    Mr. Bilirakis. Okay. Now we have Mr. Jenkins. You are 
recognized for 5 minutes.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Thank you. Chairman Bilirakis, Ranking Member 
Thompson, Ranking Member Richardson, and Members of the 
committee, thank you for the opportunity today to discuss our 
work on Homeland Security grants for disaster prevention and 
preparedness. As requested, my written statement today focuses 
on our work over the past decade on DHS and FEMA grant 
management and efforts to develop a means of reliably majoring 
disaster preparedness.
    From fiscal years 2002 through 2011 Congress appropriated 
over $35 billion to a variety of DHS Homeland Security grant 
programs. Their purpose was to enhance the capabilities of 
State, local, and Tribal governments to prevent, protect 
against, respond to, and recover from terrorist attacks and 
other disasters of all types.
    About half of this total, more than $20 billion was 
allocated through four of the largest grant programs, State 
homeland security, urban area security, port security, and 
transit security. Today we are releasing our report on the 
management of these four programs and the potential for 
duplication among them.
    Basically, preparedness grant allocation and evaluation 
should largely rest on two principal analyses. First, an 
assessment of risk in both nature and acts of man; and second, 
an assessment of the critical gaps that exist in our ability to 
mitigate those risks and their potential consequences through 
investments in prevention, preparedness, response, and recovery 
capabilities. This second step requires both a definition of 
the desired goals and a means of majoring the extent to which 
those goals have been met with both Federal and non-Federal and 
private resources.
    Because perceived needs will almost always exceed available 
funds, it is important that the grants are used not only 
effectively, but efficiently without unnecessary duplication. 
Since 2007 when FEMA became responsible for grant management, 
the grants program director responded to our recommendations to 
improve the management of the grants and made other 
improvements.
    For example, they streamlined the application and award 
process, enhanced the use of risk assessment principles in 
grant programs, including developing majors of varying 
vulnerability in assessing risk, and taking steps to shorten 
grant application reviews by such things as requiring ports to 
submit specific project proposals with their grant 
applications.
    However, FEMA has not had similar levels of project 
visibility for each grant, thus making it harder for them to 
identify a potential duplication among grant projects. Nor has 
FEMA had coordinated review of the projects funded by the four 
large grant programs we reviewed.
    For fiscal year 2003 [sic] FEMA has proposed fundamentally 
altering its process for grant awards by consolidating all but 
two grants into a single grant program. The purpose is to focus 
on developing and sustaining the core capabilities identified 
in the National Preparedness Goal. Allocations under this new 
approach would rely heavily on a State's Threat and Hazard 
Identification and Risk Assessment or THIRA.
    However, nearly a year after the concept was introduced in 
the 2011 grant guidance; FEMA has not yet provided more 
detailed guidance on how to conduct the THIRA assessments. The 
role of various stakeholders in this process is also not yet 
clear. GPD has established a website to solicit stakeholder 
input on the process.
    Although the National Preparedness Goal defines core 
capabilities, there is still no established metrics for 
assessing progress and developing and sustaining those metrics. 
Over the--of those capabilities. Over the years FEMA has begun 
a number of efforts to establish metrics for preparedness 
capabilities as required by the Post-Katrina Act and now PPD-8. 
But none have resulted in metrics on which stakeholders agree.
    The core capabilities are the latest evolution of the 
target capabilities, a concept first introduced in 2004. We 
believe it is important that FEMA take a holistic approach to 
grant awards management and assessment.
    FEMA appropriately proposes focusing on leveraging the 
efforts of States, localities, Tribes, territories, and others 
to develop and sustain a National set of core capabilities that 
can enable the Nation to effectively respond and recover from a 
catastrophic disaster. There are still many issues and details 
that must be addressed for FEMA's proposed system to work 
effectively, not the least of which is developing useful and 
meaningfully reliable means of measuring progress toward 
achieving those core capabilities.
    That concludes my oral statement. I would be pleased to 
respond to any questions Members of the subcommittee may have.
    [The statement of Mr. Jenkins follows:]
             Prepared Statement of William O. Jenkins, Jr.
                             March 20, 2012
                             gao highlights
    Highlights of GAO-12-526T, a testimony before the Subcommittee on 
Emergency Preparedness, Response, and Communications, Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    From fiscal years 2002 through 2011, the Federal Government 
appropriated over $37 billion to the Department of Homeland Security's 
(DHS) preparedness grant programs to enhance the capabilities of State 
and local governments to prevent, protect against, respond to, and 
recover from terrorist attacks. DHS allocated $20.3 billion of this 
funding to grant recipients through four of the largest preparedness 
grant programs--the State Homeland Security Program, the Urban Areas 
Security Initiative, the Port Security Grant Program, and the Transit 
Security Grant Program. The Post-Katrina Emergency Management Reform 
Act of 2006 requires the Federal Emergency Management Agency (FEMA) to 
develop a National preparedness system and assess preparedness 
capabilities--capabilities needed to respond effectively to disasters. 
FEMA could then use such a system to help it prioritize grant funding. 
This testimony addresses the extent to which DHS and FEMA have made 
progress in managing preparedness grants and measuring preparedness by 
assessing capabilities and addressing related challenges. GAO's 
comments are based on products issued from April 2002 through February 
2012 and selected updates conducted in March 2012.
What GAO Recommends
    GAO has made recommendations to DHS and FEMA in prior reports to 
strengthen their management of preparedness grants and enhance their 
assessment of National preparedness capabilities. DHS and FEMA 
concurred and have actions underway to address them.
  federal emergency management agency.--continuing challenges impede 
    progress in managing preparedness grants and assessing national 
                              capabilities
What GAO Found
    DHS and FEMA have taken actions with the goal of enhancing 
management of preparedness grants, but better project information and 
coordination could help FEMA identify and mitigate the risk of 
unnecessary duplication among grant applications. Specifically, DHS and 
FEMA have taken actions to streamline the application and award 
processes and have enhanced their use of risk management for allocating 
grants. For example, in November 2011, GAO reported that DHS modified 
its risk assessment model for the Port Security Grant Program by 
recognizing that different ports have different vulnerability levels. 
However, in February 2012, GAO reported that FEMA made award decisions 
for four of its grant programs--the State Homeland Security Grant 
Program, the Urban Area Security Initiative, the Port Security Grant 
Program, and the Transit Security Grant Program--with differing levels 
of information, which contributed to the risk of funding unnecessarily 
duplicative projects. GAO also reported that FEMA did not have a 
process to coordinate application reviews across the four grant 
programs. Rather, grant applications were reviewed separately by 
program and were not compared across each other to determine where 
possible unnecessary duplication may occur. Thus, GAO recommended that: 
(1) FEMA collect project information with the level of detail needed to 
better position the agency to identify any potential unnecessary 
duplication within and across the four grant programs, weighing any 
additional costs of collecting this data, and (2) explore opportunities 
to enhance FEMA's internal coordination and administration of the 
programs to identify and mitigate the potential for any unnecessary 
duplication. DHS agreed and identified planned actions to improve 
visibility and coordination across programs and projects. FEMA has 
proposed consolidating the majority of its various preparedness grant 
programs into a single, comprehensive preparedness grant program called 
the National Preparedness Grant Program (NPGP) in fiscal year 2013; 
however, this may create new challenges. For example, allocations under 
the NPGP would rely heavily on a State's risk assessment, but grantees 
have not yet received guidance on how to conduct the risk assessment 
process. FEMA has established a website to solicit input from 
stakeholders on how best to implement the program.
    DHS and FEMA have had difficulty implementing long-standing plans 
and overcoming challenges in assessing capabilities, such as 
determining how to validate and aggregate data from Federal, State, 
local, and Tribal governments. For example, DHS first developed plans 
in 2004 to measure preparedness by assessing capabilities, but these 
efforts have been repeatedly delayed. In March 2011, GAO reported that 
FEMA's efforts to develop and implement a comprehensive, measurable, 
National preparedness assessment of capability and gaps were not yet 
complete and suggested that Congress consider limiting preparedness 
grant funding until FEMA completes a National preparedness assessment 
of capability gaps based on tiered, capability-specific performance 
objectives to enable prioritization of grant funding. In April 2011, 
Congress passed the fiscal year 2011 appropriations act for DHS that 
reduced funding for FEMA preparedness grants by $875 million from the 
amount requested in the President's fiscal year 2011 budget. For fiscal 
year 2012, Congress appropriated $1.28 billion less than requested in 
the President's budget.
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee: I appreciate the opportunity to participate in today's 
hearing and to discuss the efforts of the Federal Emergency Management 
Agency (FEMA)--a component of the Department of Homeland Security 
(DHS)--to manage preparedness grants and measure and assess National 
capabilities to respond to a major disaster. From fiscal years 2002 
through 2011, the Federal Government appropriated over $37 billion to a 
variety of DHS homeland security preparedness grant programs to enhance 
the capabilities of State, territory, local, and Tribal governments to 
prevent, protect against, respond to, and recover from terrorist 
attacks and other disasters.\1\ DHS allocated more than half of this 
total--$20.3 billion--to grant recipients through four of the largest 
preparedness programs--the State Homeland Security Program, the Urban 
Areas Security Initiative, the Port Security Grant Program, and the 
Transit Security Grant Program.
---------------------------------------------------------------------------
    \1\ This total is based on Congressional Research Service data and 
GAO analysis, and includes firefighter assistance grants and emergency 
management performance grants. See Congressional Research Service, 
Department of Homeland Security Assistance to States and Localities: A 
Summary of Issues for the 111th Congress, R40246 (Washington, DC: Apr. 
30, 2010).
---------------------------------------------------------------------------
    Congress enacted the Post-Katrina Emergency Management Reform Act 
of 2006 (Post-Katrina Act) in the aftermath of Hurricane Katrina.\2\ In 
response to the Act, DHS centralized most of its preparedness programs 
under FEMA's Grant Programs Directorate to better integrate and 
coordinate grant management. The Act also requires that FEMA develop a 
National preparedness system and assess preparedness capabilities--
capabilities needed to respond effectively to disasters--to determine 
the Nation's preparedness capability levels and the resources needed to 
achieve desired levels of capability.\3\
---------------------------------------------------------------------------
    \2\ The Post-Katrina Act was enacted as Title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355 (2006). The provisions of the Post-Katrina Act became 
effective upon enactment, October 4, 2006, with the exception of 
certain organizational changes related to FEMA, most of which took 
effect on March 31, 2007.
    \3\ 6 U.S.C.  744, 749.
---------------------------------------------------------------------------
    Over the last decade, we identified and reported on issues related 
to DHS's and FEMA's management of four of the largest preparedness 
grants and the challenges associated with assessing National 
preparedness capabilities. In April 2002, shortly after the terrorist 
attacks of September 11, 2001, we identified the need for goals and 
performance indicators to guide the Nation's preparedness efforts and 
help to objectively assess the results of Federal investments.\4\ After 
DHS began operations in March 2003, and leading up to catastrophic 
damage caused by Hurricanes Katrina and Rita in August and September 
2005, our reports focused on challenges in managing preparedness grant 
funds to States and urban areas and minimizing the time it takes to 
distribute grant funds and associated efforts to streamline the process 
while ensuring appropriate planning and accountability for effective 
use of the funds.\5\ After the renewed focus on all-hazards 
preparedness prompted by the 2005 hurricanes, we reported in 2007 and 
2008 on the extent to which DHS was using a risk-based approach in its 
grants distribution methodology for States and urban areas.\6\ Our 
reports in 2009, 2010, and 2011 analyzed the use of risk assessment in 
the management of transit and port security grants \7\ and the impact 
of preparedness grants in building National capabilities. During that 
same period, we reported on FEMA's limited progress in assessing 
National preparedness.\8\ Our most recent report, which we issued in 
February 2012 and are releasing today, addresses FEMA's management of 
four of the largest preparedness grant programs--the State Homeland 
Security Program, the Urban Areas Security Initiative, the Port 
Security Grant Program, and the Transit Security Grant Program.\9\
---------------------------------------------------------------------------
    \4\ GAO, National Preparedness: Integration of Federal, State, 
Local, and Private Sector Efforts Is Critical to an Effective National 
Strategy for Homeland Security, GAO-02-621T (Washington, DC: Apr. 11, 
2002).
    \5\ GAO, Emergency Preparedness: Federal Funds for First 
Responders, GAO-04-788T (Washington, DC: May 13, 2004); Homeland 
Security: Management of First Responder Grant Programs Has Improved, 
but Challenges Remain, GAO-05-121 (Washington, DC: Feb. 2, 2005); 
Homeland Security: Management of First Responder Grant Programs and 
Efforts to Improve Accountability Continue to Evolve, GAO-05-530T 
(Washington, DC: Apr. 12, 2005); and Homeland Security: DHS's Efforts 
to Enhance First Responders' All-Hazards Capabilities Continue to 
Evolve, GAO-05-652 (Washington, DC; July 11, 2005).
    \6\ GAO, Homeland Security Grants: Observations on Process DHS Used 
to Allocate Funds to Selected Urban Areas GAO-07-381R (Washington, DC; 
Feb 7, 2007); Homeland Security: DHS Improved its Risk-Based Grant 
Programs' Allocation and Management Methods, But Measuring Programs' 
Impact on National Capabilities Remains a Challenge, GAO-08-488T, 
(Washington, DC; Mar 11, 2008); and Homeland Security: DHS Risk-Based 
Grant Methodology Is Reasonable, But Current Version's Measure of 
Vulnerability is Limited, GAO-08-852, (Washington, DC; June 27, 2008).
    \7\ GAO, Transit Security Grant Program: DHS Allocates Grants Based 
on Risk, but Its Risk Methodology, Management Controls, and Grant 
Oversight Can Be Strengthened, GAO-09-491 (Washington, DC: July 8, 
2009); Surface Transportation Security: TSA Has Taken Actions to Manage 
Risk, Improve Coordination, and Measure Performance, but Additional 
Actions Would Enhance Its Efforts, GAO-10-650T (Washington, DC: Apr. 
21, 2010); Port Security Grant Program: Risk Model, Grant Management, 
and Effectiveness Measures Could Be Strengthened, GAO-12-47 
(Washington, DC: Nov. 17, 2011).
    \8\ GAO, National Preparedness: FEMA Has Made Progress, but Needs 
to Complete and Integrate Planning, Exercise, and Assessment Efforts, 
GAO-09-369 (Washington, DC; Apr. 30, 2009); Urban Area Security 
Initiative: FEMA Lacks Measures to Assess How Regional Collaboration 
Efforts Build Preparedness Capabilities, GAO-09-651 (Washington, DC; 
July 2, 2009); FEMA Has Made Limited Progress in Efforts to Develop and 
Implement a System to Assess National Preparedness Capabilities, GAO-
11-51R (Washington, DC: Oct. 29, 2010); Opportunities to Reduce 
Potential Duplication in Government Programs, Save Tax Dollars, and 
Enhance Revenue, GAO-11-318SP (Washington, DC; Mar. 1, 2011).
    \9\ GAO, Homeland Security: DHS Needs Better Project Information 
and Coordination Among Four Overlapping Grant Programs, GAO-12-303 
(Washington, DC: Feb. 28, 2012).
---------------------------------------------------------------------------
    My remarks today are based on our work issued in the 10-year period 
from April 2002 through February 2012 on the efforts of both DHS and, 
more recently, FEMA, to manage preparedness grants; develop National 
preparedness capabilities; implement a National framework for assessing 
preparedness capabilities at the Federal, State, and local levels; 
identify capability gaps; and prioritize future National preparedness 
investments to fill the most critical gaps. These remarks are also 
based on selected updates conducted in March 2012 on FEMA's proposal 
for consolidating its various grant programs.
    As requested, my testimony today focuses on the extent to which DHS 
and FEMA have made progress in managing preparedness grants and 
measuring National preparedness by assessing capabilities and 
addressing related challenges. To conduct our work, we analyzed 
documentation, such as DHS's National Preparedness Goal and Core 
Capabilities (the latest evolution of the Target Capabilities 
List),\10\ and interviewed relevant DHS, FEMA, State, and local 
officials. More detailed information on our scope and methodology 
appears in our published products. In addition, we conducted updates to 
our work in March 2012 by analyzing FEMA's guidance and policies.
---------------------------------------------------------------------------
    \10\ The Target Capabilities List is a list of 37 capabilities that 
Federal, State, and local stakeholders need to possess to respond to 
natural or man-made disasters; we first reported on DHS's efforts to 
develop the List in July 2005.
---------------------------------------------------------------------------
    We conducted our work in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives
 fema has taken actions to address grant management concerns but needs 
                          better coordination
    DHS and FEMA have streamlined application and award processes, 
enhanced the use of risk management principles in its grant programs, 
and proposed consolidation of its various grant programs to address 
grant management concerns. In February 2012, we reported that better 
coordination and improved data collection could help FEMA identify and 
mitigate potential unnecessary duplication among four overlapping grant 
programs--the Homeland Security Grant Program, the Urban Areas Security 
Initiative, the Port Security Grant Program, and the Transit Security 
Grant Program. FEMA has proposed changes to enhance preparedness grant 
management, but these changes may create new challenges.
FEMA Has Streamlined Application and Award Processes and Enhanced Use 
        of Risk Management Principles
    Since its creation in April 2007, FEMA's Grant Programs Directorate 
(GPD) has been responsible for the program management of DHS's 
preparedness grants.\11\ GPD consolidated the grant business 
operations, systems, training, policy, and oversight of all FEMA grants 
and the program management of preparedness grants into a single entity. 
GPD works closely with other DHS entities to manage grants, as needed, 
through the grant life cycle, shown in figure 1. For example, GPD works 
with the U.S. Coast Guard for the Port Security Grant Program and the 
Transportation Security Administration for the Transit Security Grant 
Program.
---------------------------------------------------------------------------
    \11\ The Post-Katrina Emergency Management Reform Act transferred 
most of the Preparedness Directorate to FEMA, effective on March 31, 
2007. Pub. L. No. 109-295, 120 Stat. 1355, 1394 (2006). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 2006, DHS has taken a number of actions to improve its risk-
based grant allocation methodology.
  <bullet> Specifically, in March 2008, we reported that DHS had 
        adopted a more sophisticated risk-based grant allocation 
        approach for the Urban Areas Security Initiative to: (1) 
        Determine both States' and urban areas' potential risk relative 
        to other areas that included empirical analytical methods and 
        policy judgments, and (2) assess and score the effectiveness of 
        the proposed investments submitted by the eligible applicants 
        and determine the final amount of funds awarded.\12\
---------------------------------------------------------------------------
    \12\ GAO-08-488T.
---------------------------------------------------------------------------
  <bullet> We also reported that DHS's risk model for the Urban Areas 
        Security Initiative could be strengthened by measuring 
        variations in vulnerability.\13\ Specifically, we reported that 
        DHS had held vulnerability constant, which limited the model's 
        overall ability to assess risk and more precisely allocate 
        funds. Accordingly, we recommended that DHS and FEMA formulate 
        a method to measure vulnerability in a way that captures 
        variations in vulnerability, and apply this vulnerability 
        measure in future iterations of this risk-based grant 
        allocation model. DHS concurred with our recommendations and 
        FEMA took actions to enhance its approaches for assessing and 
        incorporating vulnerability into risk assessment methodologies 
        for this program. Specifically, FEMA created a risk assessment 
        that places greater weight on threat and calculates the 
        contribution of vulnerability and consequence separately.\14\
---------------------------------------------------------------------------
    \13\ GAO-08-852.
    \14\ U.S. Department of Homeland Security, Fiscal Year 2011 
Homeland Security Grant Program Guidance and Application Kit 
(Washington, DC, May 2011).
---------------------------------------------------------------------------
  <bullet> In June 2009, we reported that DHS used a risk analysis 
        model to allocate Transit Security Grant Program funding and 
        awarded grants to higher-risk transit agencies using all three 
        elements of risk--threat, vulnerability, and consequence.\15\ 
        Accordingly, we recommended that DHS formulate a method to 
        measure vulnerability in a way that captures variations in 
        vulnerability, and apply this vulnerability measure in future 
        iterations of this risk-based grant allocation model. DHS 
        concurred with our recommendations and FEMA took actions to 
        enhance its approach for assessing and incorporating 
        vulnerability into risk assessment methodologies for this 
        program.
---------------------------------------------------------------------------
    \15\ GAO-09-491.
---------------------------------------------------------------------------
  <bullet> In November 2011, we reported that DHS had made 
        modifications to enhance the Port Security Grant Program's risk 
        assessment model's vulnerability element for fiscal year 
        2011.\16\ Specifically, DHS modified the vulnerability equation 
        to recognize that different ports have different vulnerability 
        levels. We also reported that FEMA had taken actions to 
        streamline the Port Security Grant Program's management 
        efforts. For example, FEMA shortened application time frames by 
        requiring port areas to submit specific project proposals at 
        the time of grant application. According to FEMA officials, 
        this change was intended to expedite the grant distribution 
        process. Further, we reported that to speed the process, DHS 
        took actions to reduce delays in environmental reviews, 
        increased the number of GPD staff working on the Port Security 
        Grants, revised and streamlined grant application forms, and 
        developed time frames for review of project documentation.\17\
---------------------------------------------------------------------------
    \16\ GAO-12-47.
    \17\ GAO-12-47.
---------------------------------------------------------------------------
FEMA Needs Better Coordination and Improved Data Collection to Reduce 
        Risk of Unnecessary Duplication
    Despite these continuing efforts to enhance preparedness grant 
management, we identified multiple factors in our February 2012 report 
that contributed to the risk of FEMA potentially funding unnecessarily 
duplicative projects across the four grant programs we reviewed--the 
Homeland Security Grant Program, the Urban Areas Security Initiative, 
the Port Security Grant Program, and the Transit Security Grant 
Program.\18\ These factors include overlap among grant recipients, 
goals, and geographic locations, combined with differing levels of 
information that FEMA had available regarding grant projects and 
recipients. We also reported that FEMA lacked a process to coordinate 
application reviews across the four grant programs.
---------------------------------------------------------------------------
    \18\ GAO-12-303.
---------------------------------------------------------------------------
    Overlap among grant recipients, goals, and geographic locations 
exist.--The four grant programs we reviewed have similar goals and fund 
similar activities, such as equipment and training in overlapping 
jurisdictions, which increases the risk of unnecessary duplication 
among the programs. For instance, each State and eligible territory 
receives a legislatively-mandated minimum amount of State Homeland 
Security Program funding to help ensure that geographic areas develop a 
basic level of preparedness, while the Urban Areas Security Initiative 
grants explicitly target urban areas most at risk of terrorist attack. 
However, many jurisdictions within designated Urban Areas Security 
Initiative regions also apply for and receive State Homeland Security 
Program funding. Similarly, port stakeholders in urban areas could 
receive funding for equipment such as patrol boats through both the 
Port Security Grant Program and the Urban Areas Security Initiative, 
and a transit agency could purchase surveillance equipment with Transit 
Security Grant Program or Urban Areas Security Initiative funding. 
While we understand that some overlap may be desirable to provide 
multiple sources of funding, a lack of visibility over grant award 
details around these programs increases the risk of unintended and 
unnecessary duplication.
    FEMA made award decisions for all four grant programs with 
differing levels of information.--In February 2012, we reported that 
FEMA's ability to track which projects receive funding among the four 
grant programs varied because the project information FEMA had 
available to make award decisions--including grant funding amounts, 
grant recipients, and grant funding purposes--also varied by program 
due to differences in the grant programs' administrative processes. For 
example, FEMA delegated some administrative duties to stakeholders for 
the State Homeland Security Program and the Urban Areas Security 
Initiative, thereby reducing its administrative burden. However, this 
delegation also contributed to FEMA having less visibility over some 
grant applications. FEMA recognized the trade-off between decreased 
visibility over grant funding in exchange for its reduced 
administrative burden.
    Differences in information requirements also affected the level of 
information that FEMA had available for making grant award decisions. 
For example, for the State Homeland Security Program and Urban Areas 
Security Initiative, States and eligible urban areas submit investment 
justifications for each program with up to 15 distinct investment 
descriptions that describe general proposals in wide-ranging areas such 
as ``critical infrastructure protection.''\19\ Each investment 
justification encompasses multiple specific projects to different 
jurisdictions or entities, but project-level information, such as a 
detailed listing of subrecipients or equipment costs, is not required 
by FEMA. In contrast, Port Security and Transit Security Grant Program 
applications require specific information on individual projects such 
as detailed budget summaries. As a result, FEMA has a much clearer 
understanding of what is being requested and what is being funded by 
these programs.
---------------------------------------------------------------------------
    \19\ Investment justifications are one component of the State 
Homeland Security Grant Program, the Urban Areas Security Initiative, 
the Port Security Grant Program, and the Transit Security Grant Program 
applications for grant funding. They provide narrative information on 
proposed activities (investments) that are to be accomplished with the 
grant funds. The investment justifications must demonstrate how 
proposed investments address gaps and deficiencies in current 
capabilities, and also demonstrate adherence to program guidance.
---------------------------------------------------------------------------
    FEMA has studied the potential utilization of more specific 
project-level data for making grant award decisions, especially for the 
State Homeland Security Program and Urban Areas Security 
Initiative.\20\ However, while our analysis of selected grant projects 
determined that this additional information was sufficient for 
identifying potentially unnecessary duplication for nearly all of the 
projects it reviewed, the information did not always provide FEMA with 
sufficient detail to identify and prevent the risk of unnecessary 
duplication. While utilizing more specific project-level data would be 
a step in the right direction, at the time of our February 2012 report, 
FEMA had not determined the specifics of future data requirements.
---------------------------------------------------------------------------
    \20\ In August 2009, FEMA established the Reporting Requirements 
Working Group to compile a list of select grant reporting activities, 
collect grant stakeholder feedback, and make recommendations regarding 
future data collection policies. FEMA utilized the working group's 
analysis and recommendations in a May 2011 Report to Congress.
---------------------------------------------------------------------------
    FEMA lacked a process to coordinate application reviews across the 
four grant programs.--In February 2012, we reported that grant 
applications were reviewed separately by program and were not compared 
across each other to determine where possible unnecessary duplication 
may occur. Specifically, FEMA's Homeland Security Grant Program branch 
administered the Urban Areas Security Initiative and State Homeland 
Security Program while the Transportation Infrastructure Security 
branch administered the Port Security Grant Program and Transit 
Security Grant Program. We and the DHS Inspector General concluded that 
coordinating the review of grant projects internally would give FEMA 
more complete information about applications across the four grant 
programs, which could help FEMA identify and mitigate the risk of 
unnecessary duplication across grant applications.\21\
---------------------------------------------------------------------------
    \21\ GAO, More Efficient and Effective Government: Opportunities to 
Reduce Duplication, Overlap and Fragmentation, Achieve Savings, and 
Enhance Revenue, GAO-12-449T (Washington, DC; Feb. 28, 2012); and 
Department of Homeland Security Office of Inspector General, Efficiency 
of DHS Grant Programs, OIG-1069 (Washington, DC: Mar. 22, 2010).
---------------------------------------------------------------------------
    In our February 2012 report, we note that one of FEMA's section 
chiefs said that the primary reasons for the current lack of 
coordination across programs are the sheer volume of grant applications 
that need to be reviewed and FEMA's lack of resources to coordinate the 
grant review process. She added that FEMA reminds grantees not to 
duplicate grant projects; however, due to volume and the number of 
activities associated with grant application reviews, FEMA lacks the 
capabilities to cross-check for unnecessary duplication. We recognize 
the challenges associated with reviewing a large volume of grant 
applications, but to help reduce the risk of funding duplicative 
projects, FEMA could benefit from exploring opportunities to enhance 
its coordination of project reviews while also taking into account the 
large volume of grant applications it must process.
    Thus, we recommended that FEMA take actions to identify and 
mitigate any unnecessary duplication in these programs, such as 
collecting more complete project information as well as exploring 
opportunities to enhance FEMA's internal coordination and 
administration of the programs. In commenting on the report, DHS agreed 
and identified planned actions to improve visibility and coordination 
across programs and projects. We also suggested that Congress consider 
requiring DHS to report on the results of its efforts to identify and 
prevent duplication within and across the four grant programs, and 
consider these results when making future funding decisions for these 
programs.
FEMA Has Proposed Changes to Enhance Preparedness Grant Management, but 
        These Changes May Create Challenges
    In the President's fiscal year 2013 budget request to Congress, 
FEMA has proposed consolidating its various preparedness grant 
programs--with the exception of the Emergency Management Performance 
Grants and Assistance to Fire Fighters Grants--into a single, 
comprehensive preparedness grant program called the National 
Preparedness Grant Program (NPGP) in fiscal year 2013. FEMA also plans 
to enhance its preparedness grants management through a variety of 
proposed initiatives to implement the new consolidated program.
    According to FEMA, the new NPGP will require grantees to develop 
and sustain core capabilities outlined in the National Preparedness 
Goal rather than work to meet mandates within individual, and often 
disconnected, grant programs.\22\ NPGP is intended to focus on creating 
a robust National response capacity based on cross-jurisdictional and 
readily deployable State and local assets. According to FEMA's policy 
announcement, consolidating the preparedness grant programs will 
support the recommendations of the Redundancy Elimination and Enhanced 
Performance for Preparedness Grants Act, and will streamline the grant 
application process. This will, in turn, enable grantees to focus on 
how Federal funds can add value to their jurisdiction's unique 
preparedness needs while contributing to National response 
capabilities. To further increase the efficiency of the new grant 
program, FEMA plans to issue multi-year guidelines, enabling the agency 
to focus its efforts on measuring progress towards building and 
sustaining National capabilities. The intent of this consolidation is 
to eliminate administration redundancies and ensure that all 
preparedness grants are contributing to the National Preparedness Goal. 
For fiscal year 2013, FEMA believes that the reorganization of 
preparedness grants will allow for a more targeted grants approach 
where States build upon the capabilities established with previous 
grant money and has requested $1.54 billion for the National 
Preparedness Grant Program.
---------------------------------------------------------------------------
    \22\ U.S. Department of Homeland Security, National Preparedness 
Goal, (Washington, DC, Sept. 2011).
---------------------------------------------------------------------------
    FEMA's Fiscal Year 2013 Grants Drawdown Budget in Brief also 
proposes additional measures to enhance preparedness grant management 
efforts and expedite prior years' grant expenditures. For example, to 
support reprioritization of unobligated prior year funds and focus on 
building core capabilities, FEMA plans to:
  <bullet> allow grantees to apply prior years' grant balances towards 
        more urgent priorities, promising an expedited project approval 
        by FEMA's Grant Programs Directorate;
  <bullet> expand allowable expenses under the Port Security Grant 
        Program and Transit Security Grant Program, for example, by 
        allowing maintenance and sustainment expenses for equipment, 
        training, and critical resources that have previously been 
        purchased with either Federal grants or any other source of 
        funding to support existing core capabilities tied to the five 
        mission areas contained within the National Preparedness Goal.
    The changes FEMA has proposed for its fiscal year 2013 National 
Preparedness Grants program may create new management challenges. As 
noted by Chairman Bilirakis in last month's hearing by the House 
Homeland Security Committee's Subcommittee on Emergency Preparedness, 
Response, and Communications, allocations under the new grant program 
would rely heavily on a State's Threat and Hazard Identification and 
Risk Assessment (THIRA).\23\ However, nearly a year after the THIRA 
concept was first introduced as part of the fiscal year 2011 grant 
guidance, grantees have yet to receive guidance on how to conduct the 
THIRA process. As we reported in February 2012, questions also remain 
as to how local stakeholders would be involved in the THIRA process at 
the State level. In March 2012, FEMA's GPD announced that FEMA has 
established a website to solicit input from stakeholders on how best to 
implement the new program. According to Chairman Bilirakis, it is 
essential that the local law enforcement, first responders, and 
emergency managers who are first on the scene of a terrorist attack, 
natural disaster, or other emergency be involved in the THIRA process. 
They know the threats to their local areas and the capabilities needed 
to address them. Finally, according to FEMA's plans, the new National 
Preparedness Grant Program will require grantees to develop and sustain 
core capabilities; however, the framework for assessing capabilities 
and prioritizing National preparedness grant investments is still not 
complete. As we noted in our February 2012 report, FEMA'S efforts to 
measure the collective effectiveness of its grants programs are recent 
and on-going and thus it is too soon to evaluate the extent to which 
these initiatives will provide FEMA with the information it needs to 
determine whether these grant programs are effectively improving the 
Nation's security.\24\
---------------------------------------------------------------------------
    \23\ Threat and Hazard Identification and Risk Assessments (THIRA) 
are intended to be tools that allow organizations at all levels of 
government to identify, assess, and prioritize their natural and man-
made risks to facilitate the identification of capability and resource 
gaps, and allow organizations to track their year-to-year progress to 
address those gaps.
    \24\ GAO-12-303.
---------------------------------------------------------------------------
fema has not yet completed national preparedness assessment efforts to 
                     address long-standing concerns
    DHS and FEMA have had difficulty in implementing long-standing 
plans to develop and implement a system for assessing National 
preparedness capabilities. For example, DHS first developed plans in 
2004 to measure preparedness by assessing capabilities,\25\ but these 
efforts have been repeatedly delayed and are not yet complete. FEMA's 
proposed revisions to the new NPGP may help the agency overcome these 
continuing challenges to developing and implementing a National 
preparedness assessment.
---------------------------------------------------------------------------
    \25\ GAO, Homeland Security: Management of First Responder Grants 
in the National Capital Region Reflects the Need for Coordinated 
Planning and Performance Goals, GAO-04-433 (Washington, DC: May 28, 
2004).
---------------------------------------------------------------------------
DHS and FEMA's Long-standing Plans to Develop and Implement a National 
        Assessment of Preparedness Have Not Been Fulfilled
    Since 2004, DHS and FEMA have initiated a variety of efforts to 
develop a system of measuring preparedness. From 2005 until September 
2011, much of FEMA's efforts focused on developing and operationalizing 
a list of target capabilities that would define desired capabilities 
and could be used in a tiered framework to measure their attainment. In 
July 2005, we reported that DHS had established a draft Target 
Capabilities List that provides guidance on the specific capabilities 
and levels of capability at various levels of government that FEMA 
would expect Federal, State, local, and Tribal first responders to 
develop and maintain.\26\ DHS planned to organize classes of 
jurisdictions that share similar characteristics--such as total 
population, population density, and critical infrastructure--into tiers 
to account for reasonable differences in capability levels among groups 
of jurisdictions and to appropriately apportion responsibility for 
development and maintenance of capabilities among levels of government 
and across these jurisdictional tiers. According to DHS's Assessment 
and Reporting Implementation Plan, DHS intended to implement a 
capability assessment and reporting system based on target capabilities 
that would allow first responders to assess their preparedness by 
identifying gaps, excesses, or deficiencies in their existing 
capabilities or capabilities they will be expected to access through 
mutual aid. In addition, this information could be used to: (1) Measure 
the readiness of Federal civil response assets, (2) measure the use of 
Federal assistance at the State and local levels, and (3) assess how 
Federal assistance programs are supporting National preparedness.
---------------------------------------------------------------------------
    \26\ An example of a desired outcome for the target capability of 
mass prophylaxis--prevention of or protective treatment for disease--
was to effectively reach an entire affected population in time to 
prevent loss of life and injury. GAO-05-852.
---------------------------------------------------------------------------
    DHS's efforts to implement these plans were interrupted by the 2005 
hurricane season. In August 2005, Hurricane Katrina--the worst natural 
disaster in our Nation's history--made final landfall in coastal 
Louisiana and Mississippi, and its destructive force extended to the 
western Alabama coast. Hurricane Katrina and the following Hurricanes 
Rita and Wilma--also among the most powerful hurricanes in the Nation's 
history--graphically illustrated the limitations at that time of the 
Nation's readiness and ability to respond effectively to a catastrophic 
disaster; that is, a disaster whose effects almost immediately 
overwhelm the response capabilities of affected State and local first 
responders and require outside action and support from the Federal 
Government and other entities. In June 2006, DHS concluded that target 
capabilities and associated performance measures should serve as the 
common reference system for preparedness planning.
    In September 2006, we reported that numerous reports and our work 
suggested that the substantial resources and capabilities marshaled by 
Federal, State, and local governments and nongovernmental organizations 
were insufficient to meet the immediate challenges posed by the 
unprecedented degree of damage and the resulting number of hurricane 
victims caused by Hurricanes Katrina and Rita.\27\ We also reported 
that developing the capabilities needed for catastrophic disasters 
should be part of an overall National preparedness effort that is 
designed to integrate and define what needs to be done, where it needs 
to be done, how it should be done, how well it should be done, and 
based on what standards.\28\
---------------------------------------------------------------------------
    \27\ GAO, Catastrophic Disasters: Enhanced Leadership, 
Capabilities, and Accountability Controls Will Improve the 
Effectiveness of the Nation's Preparedness, Response, and Recovery 
System, GAO-06-618 (Washington, DC, Sept. 6, 2006.)
    \28\ GAO-06-618.
---------------------------------------------------------------------------
    FEMA's National Preparedness Directorate within its Protection and 
National Preparedness organization was established in April 2007 and is 
responsible for developing and implementing a system for measuring and 
assessing National preparedness capabilities. Figure 2 provides an 
illustration of how Federal, State, and local resources provide 
capabilities for different levels of ``incident effect'' (i.e., the 
extent of damage caused by a natural or manmade disaster). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In October 2006, Congress passed the Post-Katrina Act that required 
FEMA, in developing guidelines to define target capabilities, to ensure 
that such guidelines are specific, flexible, and measurable.\29\ In 
addition, the Post-Katrina Act calls for FEMA to ensure that each 
component of the National preparedness system, which includes the 
target capabilities, is developed, revised, and updated with clear and 
quantifiable performance metrics, measures, and outcomes.\30\ We 
recommended in September 2006, among other things, that DHS apply an 
all-hazards, risk management approach in deciding whether and how to 
invest in specific capabilities for a catastrophic disaster.\31\ DHS 
concurred with this recommendation and FEMA said it planned to use the 
Target Capabilities List to assess capabilities to address all hazards.
---------------------------------------------------------------------------
    \29\ 6 U.S.C.  746.
    \30\ 6 U.S.C.  749(b).
    \31\ GAO-06-618.
---------------------------------------------------------------------------
    In September 2007, FEMA issued an updated version of the Target 
Capabilities List to provide a common perspective in conducting 
assessments that determine levels of readiness to perform critical 
tasks and identify and address any gaps or deficiencies. According to 
FEMA, policymakers need regular reports on the status of capabilities 
for which they have responsibility to help them make better resource 
and investment decisions and to establish priorities.
    In April 2009, we reported that establishing quantifiable metrics 
for target capabilities was a prerequisite to developing assessment 
data that can be compared across all levels of government.\32\ At the 
time of our review, FEMA was in the process of refining the target 
capabilities to make them more measurable and to provide State and 
local jurisdictions with additional guidance on the levels of 
capability they need. Specifically, FEMA planned to develop 
quantifiable metrics--or performance objectives--for each of the 37 
target capabilities that are to outline specific capability targets 
that jurisdictions (such as cities) of varying size should strive to 
meet, recognizing that there is not a ``one size fits all'' approach to 
preparedness.
---------------------------------------------------------------------------
    \32\ GAO-09-369.
---------------------------------------------------------------------------
    In October 2009, in responding to Congressional questions regarding 
FEMA's plan and time line for reviewing and revising the 37 target 
capabilities, FEMA officials said they planned to conduct extensive 
coordination through stakeholder workshops in all 10 FEMA regions and 
with all Federal agencies with lead and supporting responsibility for 
emergency support-function activities associated with each of the 37 
target capabilities. The workshops were intended to define the risk 
factors, critical target outcomes, and resource elements for each 
capability. The response stated that FEMA planned to create a Task 
Force comprised of Federal, State, local, and Tribal stakeholders to 
examine all aspects of preparedness grants, including benchmarking 
efforts such as the Target Capabilities List. FEMA officials have 
described their goals for updating the list to include establishing 
measurable target outcomes, providing an objective means to justify 
investments and priorities, and promoting mutual aid and resource 
sharing.
    In November 2009, FEMA issued a Target Capabilities List 
Implementation Guide that described the function of the list as a 
planning tool and not a set of standards or requirements. Finally, in 
2011, FEMA announced that the Target Capabilities List would be 
replaced by a new set of National Core Capabilities. However, it is not 
clear how the new approach will help FEMA overcome on-going challenges 
to assessing National preparedness capabilities discussed below.
FEMA Has Not Yet Fully Addressed On-going Challenges to Assessing 
        National Preparedness Capabilities
    FEMA has not yet fully addressed on-going challenges in developing 
and implementing a system for assessing National preparedness 
capabilities. For example, we reported in July 2005 that DHS had 
identified potential challenges in gathering the information needed to 
assess capabilities, including determining how to aggregate data from 
Federal, State, local, and Tribal governments and others and 
integrating self-assessment and external assessment approaches.\33\ In 
analyzing FEMA's efforts to assess capabilities, we further reported in 
April 2009 that FEMA faced methodological challenges with regard to: 
(1) Differences in data available, (2) variations in reporting 
structures across States, and (3) variations in the level of detail 
within data sources requiring subjective interpretation. As noted 
above, FEMA was in the process of refining the target capabilities at 
the time of our review to make them more measurable and to provide 
State and local jurisdictions with additional guidance on the levels of 
capability they need. We recommended that FEMA enhance its project 
management plan to include milestone dates, among other things, a 
recommendation to which DHS concurred. In October 2010, we reported 
that FEMA had enhanced its project management plan by providing 
milestone dates and identifying key assessment points throughout the 
project to determine whether project changes are necessary.\34\
---------------------------------------------------------------------------
    \33\ GAO-05-652.
    \34\ GAO-11-51R.
---------------------------------------------------------------------------
    Nonetheless, DHS and FEMA have had difficulty overcoming the 
challenges we reported in July 2005 and April 2009 in establishing a 
system of metrics to assess National preparedness capabilities.\35\ As 
we reported in October 2010, FEMA officials said that, generally, 
evaluation efforts they used to collect data on National preparedness 
capabilities were useful for their respective purposes but that the 
data collected were limited by data reliability and measurement issues 
related to the lack of standardization in the collection of data.
---------------------------------------------------------------------------
    \35\ GAO-05-652 and GAO-09-369.
---------------------------------------------------------------------------
    FEMA officials reported that one of its evaluation efforts, the 
State Preparedness Report, has enabled FEMA to gather data on the 
progress, capabilities, and accomplishments of the preparedness program 
of a State, the District of Columbia, or a territory. However, they 
also said that these reports included self-reported data that may be 
subject to interpretation by the reporting organizations in each State 
and not be readily comparable to other States' data. The officials also 
stated that they have taken actions to address these limitations by, 
for example, creating a web-based survey tool to provide a more 
standardized way of collecting State preparedness information that will 
help FEMA officials validate the information by comparing it across 
States.
    We reported in October 2010 that FEMA had an on-going effort to 
develop measures for target capabilities that would serve as planning 
guidance, not requirements, to assist in State and local capability 
assessments. FEMA officials had not yet determined how they planned to 
revise the Target Capabilities List and said they were awaiting the 
completed revision of Homeland Security Presidential Directive 8, which 
was to address National preparedness. That directive, called 
Presidential Policy Directive 8 on National Preparedness (PPD-8), was 
issued on March 30, 2011.
    In March 2011, we reported that FEMA's efforts to develop and 
implement a comprehensive, measurable, National preparedness assessment 
of capability and gaps were not yet complete and suggested that 
Congress consider limiting preparedness grant funding until FEMA 
completes a National preparedness assessment of capability gaps at each 
level based on tiered, capability-specific performance objectives to 
enable prioritization of grant funding.\36\ In April 2011, Congress 
passed the fiscal year 2011 appropriations act for DHS, which reduced 
funding for FEMA preparedness grants by $875 million from the amount 
requested in the President's fiscal year 2011 budget.\37\ The 
consolidated appropriations act for fiscal year 2012 appropriated $1.7 
billion for FEMA Preparedness grants, $1.28 billion less than 
requested.\38\ The House committee report accompanying the DHS 
appropriations bill for fiscal year 2012 stated that FEMA could not 
demonstrate how the use of the grants had enhanced disaster 
preparedness.\39\
---------------------------------------------------------------------------
    \36\ GAO-11-318SP.
    \37\ Pub. L. No. 112-10,  1632, 125 Stat. 38, 143 (2011).
    \38\ Pub. L. No. 112-74, 125 Stat. 786, 960 (2011). This total 
includes all grant programs in the State and local programs account and 
the Emergency Management Performance Grant program but does not include 
funding appropriated for firefighter assistance grant programs.
    \39\ H.R. Rep. No. 112-91, at 106-08 (2011).
---------------------------------------------------------------------------
    According to FEMA's testimony in a hearing on the President's 
fiscal year 2013 budget request before the House Committee on Homeland 
Security's Subcommittee on Emergency Preparedness, Response, and 
Communications, FEMA became the Federal lead for the implementation of 
PPD-8 in 2011. The new Presidential policy directive calls for the 
development of both a National Preparedness Goal and a National 
Preparedness System (both of which were required by the Post-Katrina 
Act in 2006). FEMA issued the National Preparedness Goal in September 
2011, which establishes core capabilities for prevention, protection, 
response, recovery, and mitigation that are to serve as the basis for 
preparedness activities within FEMA, throughout the Federal Government, 
and at the State and local levels. These new core capabilities are the 
latest evolution of the Target Capabilities List. According to FEMA 
officials, they plan to continue to organize the implementation of the 
National Preparedness System and will be working with partners across 
the emergency management community to integrate activities into a 
comprehensive campaign to build and sustain preparedness. According to 
FEMA, many of the programs and processes that support the components of 
the National Preparedness System exist and are currently in use, while 
others will need to be updated or developed.
    For example, FEMA has not yet developed National preparedness 
capability requirements based on established metrics for the core 
capabilities to provide a framework for National preparedness 
assessments. As I testified last year, until such a framework is in 
place, FEMA will not have a basis to operationalize and implement its 
conceptual approach for assessing Federal, State, and local 
preparedness capabilities against capability requirements to identify 
capability gaps for prioritizing investments in National preparedness.
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
committee, this completes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

    Mr. Bilirakis. Thank you very much.
    Now I will recognize the mayor from Philadelphia, Mr. 
Nutter. You are recognized, sir, for 5 minutes.

    STATEMENT OF MICHAEL A. NUTTER, MAYOR OF PHILADELPHIA, 
 TESTIFYING ON BEHALF OF THE UNITED STATES CONFERENCE OF MAYORS

    Mr. Nutter. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, Ranking Member Thompson, all the Members of the 
committee. Let me just also recognize Congressman Pat Meehan 
who was just here a few minutes ago, our friend and neighbor 
from the county next door in Delaware County.
    I am Michael Nutter, mayor of the city of Philadelphia, and 
vice president of the U.S. Conference of Mayors. I appreciate 
the opportunity to testify before you today on FEMA's proposal 
to change the Homeland Security grant programs. I also want to 
thank DHS Secretary Janet Napolitano for our conference call 
just yesterday, along with Mayors Parker and Mayor Smith, and 
her openness to listening to our concerns and ideas in this 
regard.
    My basic message is that mayors and other local officials 
across the Nation have serious concerns about this proposal. 
Ranking Member Richardson made reference to a letter signed by 
12 National organizations raising their concerns as well.
    We strongly support the existing menu of Homeland Security 
programs. Although we recognize that they may not be perfect, 
they are the product of years of work by Congress, the 
administration, State and local governments, and first 
responders. Frankly, we cannot understand why FEMA proposes to 
throw away programs that work in such a wholesale manner. Let 
me first note some areas of agreement with FEMA.
    Everyone agrees that we should spend our Homeland Security 
dollars where they are most needed. Everyone understands that 
unspent funds remain in the pipeline and that we all need to do 
a better job of getting these funds out the door. Everyone 
shares the goal of basing funding decisions on threat 
assessments and reducing administrative burdens. Everyone 
agrees that we need to improve cooperation among the various 
agencies and governments involved in making our homeland 
secure.
    What we do not understand is why anyone believes that those 
goals require this proposed radical and rapid change. FEMA's 
proposal would essentially convert the current Homeland 
Security grant programs into a State-administered block grant 
program in which funding decisions are based on State and 
multi-State threat assessments.
    There would be no more separate--program, nor would there 
be separate transit or port security programs. These are 
programs which provide funding to the areas and facilities 
considered to be at greatest risk.
    The outline of the proposed National Preparedness Grant 
Program, NPGP, raises serious concerns and questions for those 
of us at the local level. We are the ones charged with trying 
to prevent incidents from occurring in the first place, and 
providing the critical first response when they do occur.
    Among our concerns and questions are the following. The 
NPGP proposal moves away from the current regional and 
strategy-based approach to a competitive and project-based 
approach, which literally pits cities, counties, and States 
against each other for funding.
    The role of local Government officials, local emergency 
managers, and first responders in the Threat Hazard 
Identification and Risk Assessment process is not clear. How 
can we ensure that it includes local concerns?
    How will funding in the NPGP be distributed to local areas? 
How do we ensure that it is used to meet local threats in 
preparedness gaps?
    Let me mention for a moment my own city. Homeland Security 
funds are distributed to Philadelphia on a regional basis. Over 
the last 10 years we have worked with the four surrounding 
counties, including those represented by Congressman Meehan to 
support strong Homeland Security capabilities such as 
specialized law enforcement response teams, urban search-and-
rescue capabilities, and enhanced medical response teams. More 
specifically, the city's response to Hurricane Irene and 
Tropical Storm Lee was aided tremendously by numerous resources 
acquired using UASI funding.
    For example, UASI funding allowed us to utilize enhanced 
technology in the city's Emergency Operations Center, the 
city's Emergency Public Notification System, emergency 
communications equipment used by first responders, cots and 
animal supplies used at emergency shelters, variable message 
board signs used to direct citizens out of hazardous areas, and 
the salaries of full-time emergency managers to develop the 
plans that were implemented during those storms.
    We are also concerned about the increased role which States 
will play in determining where and how funds will be spent. For 
instance, Pennsylvania already has a track record of 
redistributing funding away from urban areas. For example, in 
fiscal year 2011, FEMA, our State management organization 
reallocated the State Homeland Security Grant Program funding 
away from the Philadelphia urban area to other task forces 
within the commonwealth. We were cut by 85 percent, the largest 
cut in the State.
    Let me show you one more example of the value of the 
funding we received in human terms. This photo is of a tactical 
helmet and another of a vest. These were worn by Philadelphia 
police officers, one shot in the head, the other in the chest. 
Both are alive today because this equipment was purchased with 
UASI funding. Those officers' lives are at stake. Sometimes our 
walk does not match our talk. This is one of those moments in 
Philadelphia.
    Finally----
    Mr. Bilirakis. Excuse me, Mayor. Would you like to submit 
those for the record?
    Mr. Nutter. Mr. Chairman, I have a full package.
    Mr. Bilirakis. Okay. Very good. Without objection then.
    Mr. Nutter. Members of the committee, I appreciate the 
opportunity to testify before you today on this issue of vital 
importance to my city and to all local officials and first 
responders across the United States. Mayors and local officials 
look forward to working with you to ensure that we maintain 
effective Homeland Security programs.
    Let us be honest. You have seen a result of what happened 
with ARRA funding that mostly went to States rather than 
cities. It did not work out as well as many of us would have 
liked. Please do not take the same steps with emergency 
preparedness funding as lives are at stake in this one. Thank 
you very much.
    [The statement of Mr. Nutter follows:]
                Prepared Statement of Michael A. Nutter
                             March 20, 2012
    Chairman Bilirakis, Ranking Member Richardson, and--I have to 
acknowledge Congressman Meehan, who is our good neighbor--Members of 
the committee, I am Michael A. Nutter, mayor of Philadelphia and vice 
president of The United States Conference of Mayors. I appreciate the 
opportunity to testify before you on FEMA's proposal to change the 
Homeland Security grant programs. My basic message is that mayors and 
other local officials across the Nation have serious concerns about 
this proposal.
    We strongly support the existing menu of homeland security programs 
and, although we recognize that they may not be perfect, they are the 
product of years of work by Congress, the administration, State and 
local governments, and first responders. Frankly we cannot understand 
why FEMA proposes to throw away that work in such a wholesale fashion 
and to do it through the appropriations process, rather than the 
authorization process.
    Everyone agrees that we should spend our homeland security dollars 
where they are needed most in as efficient and effective manner as 
possible.
    Everyone understands that unspent funds remain in the pipeline and 
that everyone needs to do a better job of getting these out the door.
    Everyone shares the goals of basing funding decisions on threat 
assessments and reducing administrative burdens.
    Everyone agrees that we need to improve cooperation and 
communication among the various agencies and governments involved in 
making our homeland secure.
    What we don't understand is why anyone believes that this radical 
and rapid change is needed in order to achieve those goals.
    FEMA's proposal would convert the current Homeland Security grant 
programs into a State-administered block grant program and a State-
centric competitive grant programs in which funding decisions are based 
on State and multi-State threat assessments. There would be no more 
separate UASI program; there would be no more separate transit or port 
security programs. These are programs which provide funding to areas 
and facilities considered to be at greatest risk.
    The outline for the proposed National Preparedness Grant Program 
(NPGP) raises serious concerns and questions for those of us at the 
local level--and we are the ones charged with trying to prevent 
incidents from occurring in the first place and providing that critical 
first response when they do occur. Among our concerns and questions are 
the following:
  <bullet> The NPGP proposal moves away from the current regional 
        governance, assessment, and strategy-based approach to a 
        competitive and individual project-based approach that will pit 
        cities, counties, and States against each other for funding. 
        This will generate conflict instead of fostering collaboration 
        as is currently the case.
  <bullet> The NPGP proposal emphasizes Nationally deployable assets, 
        thus shifting the emphasis from the full system of prevention, 
        protection, preparedness, response, recovery, and mitigation to 
        one that appears to focus on response alone.
  <bullet> What role will local Government officials, local emergency 
        managers, and first responders have in the Threat Hazard 
        Identification and Risk Assessment (THIRA) process so that we 
        can ensure that it includes local concerns? It's important to 
        note that THIRAs are not homeland security plans. They are risk 
        assessments that should be used to help develop plans along 
        with capabilities assessments and gap and sustainment analyses.
  <bullet> It is unclear how the funding in the NPGP will be 
        distributed to local areas; so how do we ensure that it is used 
        to meet local threats and preparedness gaps? How do we ensure, 
        for example, that political considerations do not become the 
        criterion for the distribution of these funds?
  <bullet> The UASI program ensures that Federal funding is used to 
        improve preparedness in high-risk areas, as recommended by the 
        9/11 Commission. How can FEMA ensure that the new NPGP meets 
        this recommendation, if it distributes funding solely based on 
        THIRA examinations performed by States?
  <bullet> Why are such major changes being proposed without advance 
        consultation with the local governments and first responders 
        charged with preventing and responding to incidents? Why are 
        they being proposed without consulting in advance with the 
        committees of jurisdiction in Congress which have worked so 
        hard over the years to craft the current suite of homeland 
        security and preparedness programs? And why are they being 
        proposed to be accomplished through the appropriations rather 
        than the authorization process?
                        the philadelphia region
    Let me discuss my own region. Homeland security funds are 
distributed to Philadelphia on a regional basis. Over the last 10 
years, we have worked with the four surrounding counties--including 
those represented by Congressman Meehan--to develop strong homeland 
security capabilities, such as specialized law enforcement response 
teams, urban search and rescue capabilities, and enhanced medical 
response teams. More specifically, the city's response to Hurricane 
Irene and Tropical Storm Lee was aided tremendously by numerous 
resources acquired using UASI funding. For example, UASI funds allowed 
us to utilize enhanced technology utilized in the city's Emergency 
Operations Center, the city's Emergency Public Notification System, 
emergency communications equipment used by first responders, cots, and 
animal supplies used at emergency shelters, variable message board 
signs used to direct citizens out of hazardous areas, and the salaries 
of full time emergency managers responsible for developing the plans 
that were implemented during the storms.
    At current fiscal year 2012 funding levels, the Southeastern 
Pennsylvania region has just enough funding to sustain the prevention, 
preparedness, response, and recovery capabilities it has worked so hard 
to develop over the past 10 years. A further reduction in funding would 
not only prohibit us from expanding upon those capabilities, but would 
also require the region to reduce those capabilities through the 
elimination of critical programs. FEMA's proposal provides no assurance 
that we would continue to receive these funds which are so critical to 
our region's security and to our ability to prevent and respond to, 
mitigate, and recover from any incidents which do occur.
    We are very concerned about the increased role which States will 
play in determining where and how funds would be spent:
  <bullet> With increased authority, the Commonwealth will likely 
        augment the already bureaucratic processes required to purchase 
        equipment. Even now, prior to increased oversight and 
        authority, the Commonwealth has added additional layers to the 
        equipment acquisition process thus limiting the ability of 
        local jurisdictions to spend down their grant funds and obtain 
        much-needed equipment.
  <bullet> Further, the Commonwealth already has a track record of re-
        distributing funding away from urban areas and re-allocating 
        that funding to other areas of the Commonwealth. For example, 
        in fiscal year 2011, PEMA reallocated the State Homeland 
        Security Grant Program (SHSGP) funding away from the 
        Philadelphia Urban Area to other Task Forces within the 
        Commonwealth. The SHSGP distribution is historically based on 
        population index, economic index, and critical infrastructure 
        points. Based on this formula alone, the Philadelphia Urban 
        Area was slated to receive the largest award amount. While we 
        were bracing for a 50 percent cut due to an overall decrease in 
        funding, we actually received an 85.46 percent reduction in the 
        SHSGP grant. There are nine Task Forces in the Commonwealth. 
        One received a 50 percent SHSGP cut and the others received 25 
        percent reductions. This demonstrates a disproportionate impact 
        on Philadelphia that does not align with the historical grant 
        allocation guidelines.
    As a result of the proposed changes, possible specific cuts could 
include these items:
  <bullet> Elimination of essential full-time emergency management 
        planning positions. UASI funds currently subsidize the salaries 
        of over 50 percent of the Philadelphia Office of Emergency 
        Management staff (14) as well as the salaries of numerous 
        regional emergency planners. A reduction in funding could leave 
        the city and region without the professionals required to 
        develop and maintain comprehensive contingency plans that 
        address the consequences of terrorism, natural disasters, and 
        man-made events.
  <bullet> Downsizing or eliminating the Southeastern Communications 
        Network (SECOM), a four-State, 12-county dedicated, secure 
        microwave system that provides connectivity between Delaware 
        Valley 9-1-1 Operations Centers and Emergency Operations 
        Centers and provides voice radio connectivity for emergency 
        responders in over 300 jurisdictions.
  <bullet> Significant cuts in training, exercises, equipment, and 
        resources currently directed to specialized operations teams 
        including Special Weapons and Tactics Teams (SWAT), Regional 
        Bomb Squads, Major Incident Response Teams, Terrorism Response 
        Teams, Urban Search & Rescue, Swift Water Rescue, and a variety 
        of other teams that protect the citizens of the Southeast 
        Region.
  <bullet> Elimination of the Southeastern Pennsylvania Surge Medical 
        Assistance Response Team (SMRT)--a skilled group of volunteers 
        organized to provide medical surge capacity to meet regional 
        needs generated by an emergency. SEPA SMART responds to 
        community needs caused by natural or human-caused disasters by 
        augmenting existing health care staff and/or deploying a 
        temporary hospital unit. They deploy to increase the surge 
        capacity of a hospital facility, a community-based alternate 
        care site, or a disaster site.
  <bullet> Reduced information-sharing capabilities at the recently-
        opened Delaware Valley Intelligence Center (DVIC), the 72nd 
        Federally-certified fusion center in the country, serving a 
        four-State, 12-county customer base and designed truly to be an 
        all-hazards, all-crime fusion center.
  <bullet> A significant reduction in training available to first 
        responders, Government employees, volunteers, critical 
        infrastructure stakeholders, and others who play a critical 
        role in prevention, preparedness, and response.
  <bullet> Inability to replace first responder materials, equipment, 
        vehicles, supplies, and medications at the end of their useful 
        life, including radios, tactical equipment, personal protective 
        equipment, detection equipment, pharmaceutical stockpiles, etc.
  <bullet> Elimination of the Law Enforcement Justice Information 
        System (LEJIS) which connects existing local police Records 
        Management Systems (RMS) together in real time so incident data 
        can be shared throughout Pennsylvania. LEJIS saves lives and 
        protects property by giving officers in the field real-time 
        access to incident data from surrounding police departments; 
        LEJIS currently connects nearly 250 police departments 
        throughout Pennsylvania, including the City of Philadelphia 
        Police Department.
  <bullet> A reduction in the region's capacity to provide mass care 
        and sheltering to those directly impacted by disasters.
    Let me share with you the value of the funding we have received in 
human terms: I have two photos of a tactical helmet and vest, each worn 
by separate Philadelphia Police Department SWAT officers during a 
standoff last year. Each officer was shot (one in the torso, the other 
in the temple), and the protective equipment purchased using UASI funds 
literally saved their lives.
                   principles for program improvement
    The Conference of Mayors is working closely with other National 
organizations representing local governments, local emergency managers, 
and first responders on ways to improve the suite of homeland grant 
programs. We offer you some principles on which we all agree, and which 
may be helpful to the committee:
  <bullet> Transparency.--The methodology needs to be clear--that is, 
        how the States are distributing funds, why they are making 
        these decisions, and where the funds are going must be 
        transparent and understandable.
  <bullet> Local Involvement.--Local government officials, including 
        emergency managers and emergency response officials, know best 
        the threats and vulnerabilities in their areas. The THIRA 
        process must include the input of local elected and emergency 
        response officials, and FEMA must be able to audit States by 
        comparing local risk assessments to the State-level THIRA.
  <bullet> Flexibility with Accountability.--Any changes to the 
        existing Federal grant programs should allow Federal funding to 
        meet individual local needs and fill preparedness gaps 
        identified at the local level. Effective but sometimes less 
        politically popular programs, like mitigation, must still 
        receive funding.
  <bullet> Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        Federal homeland security grants continue to fund local 
        prevention and response activities, including local emergency 
        managers and first responders, and activities that support 
        their preparedness efforts.
  <bullet> Terrorism Prevention.--We must not lose the current emphasis 
        on supporting law enforcement's terrorist prevention 
        activities. The Federal grant funds should not be used to 
        support larger State bureaucracies in place of counter 
        terrorism preparedness.
  <bullet> Incentives for Regionalization.--FEMA's proposal focuses on 
        States and multi-State regions, similar to the FEMA regions. It 
        is important to make sure that the homeland security grants 
        also support preparedness in metropolitan intra-State and 
        inter-State regions.
    I appreciate the opportunity to testify before you today on this 
issue of vital importance to me and my city and to all local officials, 
emergency managers, and first responders across the Nation. Mayors and 
local officials look forward to working with you to ensure the 
transparency, efficiency, and effectiveness of homeland security 
grants. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Bilirakis. Thank you, Mayor. I appreciate it. Now we 
will begin the questioning with you, Mayor. I will start.
    Mayor, we have been concerned about the lack of stakeholder 
engagement in the development of the National Preparedness 
Grant Program proposal. Have you been able to share your 
concerns with FEMA? I know you talked to Secretary Napolitano. 
But have you been able to share your concerns with FEMA since 
the budget release through the on-line system? Do you believe 
that this system is enough to provide the level of discussion 
necessary for a proposal of this magnitude?
    Mr. Nutter. Mr. Chairman, I have not had direct contact 
myself with FEMA. I know that our Office of Emergency 
Preparedness has shared some concerns. But the issue that you 
raise with regard to that system, I found yesterday's phone 
call with the Secretary very helpful. I like personal contact 
myself. It is a lot easier to explain what is going on the 
ground when we engage at that level. I think more opportunities 
for local officials to talk directly with FEMA on these issues.
    We are the first ones who show up in every incident that 
happens. I am not saying anything about anyone else. I just 
know that the Philadelphia police officer or someone from our 
emergency management operation is about 99.9 percent more 
likely to be the first one on the scene for anything that 
happens in our city, our transit system, our port, or anywhere 
else.
    This is a--as I mentioned in my testimony, this is a very 
drastic change and it comes in a very rapid fashion. We need 
much more time to go through the details on this one given the 
magnitude of what we are talking about. The seriousness of the 
funding and the flexibility that we have with targeted programs 
and targeted areas that ensure the attention that we need.
    You have heard the testimony of the inspector general. 
Unfortunately I heard Pennsylvania's name at least twice, 
possibly three times. We have serious concerns about a State-
centric funding formula that may not, as we have already seen. 
We have taken cuts in urban Philadelphia. Some of the 
priorities across the State may not exactly match up with the 
priorities of the largest city in the Commonwealth of 
Pennsylvania, which is a city and county, the only one.
    Mr. Bilirakis. Thank you very much, Mayor.
    I will go ahead and recognize our Ranking Member, Ms. 
Richardson, for questions directly to the mayor.
    Ms. Richardson. Thank you, Mr. Chairman. I will just have 
one question so we can all get through.
    Given the current fiscal difficulties that so many State 
and local communities have faced, and you have alluded to some 
of them. The Department's decision to consolidate the 16 
distinct grants such as UASI has tremendous challenges. 
Specifically you mentioned the State-centric funding pool.
    Could you describe for us to what degree you are involved 
in a State-centric decision similar to this? Are you brought to 
the table? Are you able to participate and weigh in why your 
particular area needs assistance? Or is that pretty much done 
within the Department, which is hence why this idea of the way 
we would do this program is not effective?
    Mr. Nutter. Ranking Member Richardson, I think the short 
answer to that is no. The 85 percent cut that we took, I could 
not explain to you today why that happened. There was no 
explanation for that. We have, you know, some ideas back home.
    But this is not a--in my view at least, a full 
participatory process. When we have the opportunity to work 
with these individual grants we are much more hands-on, and it 
is a much greater collaborative process. As I mentioned in my 
testimony, Philadelphia, Bucks, Chester, Delaware, and 
Montgomery Counties, specifically southeastern Pennsylvania 
work very, very well together.
    Certainly the regional kind of partnership and 
relationship, and we could certainly enhance that literally 
across three bridges into New Jersey. We can do a better job. 
But certainly southeastern Pennsylvania, we are tremendously 
reliant on each other, but also much more coordinated than some 
of the activities that take place at the State level.
    Ms. Richardson. Thank you, sir.
    I yield back.
    Mr. Bilirakis. Now I will recognize the gentleman from New 
York, Mr. Turner, for questions for the mayor directly. Thank 
you. You are recognized, sir.
    Mr. Turner. Thank you, Mr. Chairman.
    I thank you, Mr. Mayor.
    Mr. Nutter. Thank you, sir.
    Mr. Turner. I am stunned at an 85 percent cut in the 
funding for the Philadelphia area. Philadelphia has many of the 
risk assessments as New York: Port security, symbolic and 
strategic sites. Why would you be more comfortable with a 
Federal slicing of this pie than the States? Your State would--
should be the first to recognize this. This to me seems 
stunning.
    Mr. Nutter. Congressman, all I can say is that I mean to 
some extent their actions have spoken louder than their words. 
We do not know why we were cut, but we were cut. You know this 
is a situation where it is a big State. It is the largest State 
in the United States of America, so it gets spread.
    I think that Philadelphia, because we are the largest city 
and we are the only city and county in the commonwealth we 
received you know I believe proportionately a fair share of 
dollars. But it may dwarf some other areas. So when cuts 
happen--I mean we understand that we might get hit, but an 85 
percent cut is, No. 1, too much for us to bear; No. 2, they may 
have felt because they did not explain it to us that we have 
other access to dollars or we will just figure it out or we 
will absorb it or what.
    But as you point out, we have a port, we have an airport, 
we have massive rail systems, we have a road network, I-95 goes 
right through the city of Philadelphia. We do have a few 
historic sites: Independence Hall, the Liberty Bell. I mean, a 
few things happened in Philadelphia a couple hundred years ago.
    We are strategically located between New York and 
Washington, DC. We are all on the same path. I came down on the 
Amtrak. I mean, it makes no sense.
    But I--if there is a funding formula, if we can deal 
direct, quite honestly, Congressman, with the Federal 
Government in this way on a regional basis I would feel much 
more secure than being reliant on the State. Sometimes it just 
does not work out for big cities in States where there might be 
that kind of conflict.
    Mr. Turner. Mr. Mayor, would you suggest that on a State-
wide basis many of these grants are seen more as political talk 
than meeting our strategic and security needs in their 
allocation? Is that why we----
    Mr. Nutter. Congressman, I try my best not to get into 
motives or intentions. I just look at results. The result is 
that I got an 85 percent cut. Whatever the motive was, it still 
hurts.
    Mr. Turner. All right. Do you have a solution?
    Mr. Nutter. We have a program that works. I am not sure 
what problem we are trying to solve.
    Mr. Turner. Thank you, Mr. Mayor. You say it well.
    Mr. Nutter. Thank you, Congressman.
    Mr. Bilirakis. Thank you. You yield back. Yes, thank you.
    I now recognize the Ranking Member of the full committee, 
Mr. Thompson. Thank you.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Mayor, are you aware of any stakeholder involvement in 
this process other than the phone call you were on yesterday 
relative to the consolidation of the programs, its impact, and 
other things?
    Mr. Nutter. Certainly through the U.S. Conference of Mayors 
we have been monitoring this situation. My director of Federal 
relations Terry Gilliam has stayed on top of this. But I have 
to say, Ranking Member Thompson, that this comes upon us in a 
rather rapid fashion. You know we are trying to do our best to 
make a case, certainly on behalf of Philadelphia and for the 
entire conference.
    But I do not necessarily know that there has been 
tremendous amount of activity or engagement. My understanding 
is that there will be much more. I believe--and I am aware that 
there is a full-blown outreach effort that will be engaged. But 
we are very, very concerned, given some of the other budgetary 
complexities going on and some of the activities in Washington 
about this particular proposal and how we fit in, in the 
conversation.
    Mr. Thompson. What I think Mr. Turner's comments and some 
of the Chairman also is I do not think any of what we should do 
should be to have the result of being punitive. I think the 
application ought to be across the board so that if a cut is 
there, it is tied to risk and some other things and not just a 
cut.
    So, I am concerned that a city like yours would be so 
impacted that it potentially could put your city at risk. So 
going forward I would say that you need to use the bully pulpit 
of the mayor's office as well as the U.S. Conference of Mayors 
to highlight what is happening.
    The other question is: To what degree from a sustainability 
point of view would cuts like that will you be able to maintain 
any reasonable capacities?
    Mr. Nutter. Well, two things, Congressman. First of all, we 
did not suddenly become 85 percent more safe in recent times. 
So, I do not know what process anybody went through to make a 
determination that somehow Philadelphia should get an 85 
percent cut.
    Again from the conversation yesterday and even this 
morning, if the primary focus is on maintaining capability, we 
have the threat assessment that we have I mean whatever it is. 
Philadelphia is Philadelphia is Philadelphia. New York is New 
York is New York.
    I mean, so continued cuts will negatively impact our 
ability to maintain the kind of safety and preparedness that we 
are supposed to maintain. I mean, at some point--I mean I 
understand the idea of doing a little more with less. But there 
becomes a point where you do risk your share capacity. You can 
only stretch that dollar so far.
    Mr. Thompson. For my own information, when the cuts came to 
the 85 percent level did you reach out to the State and ask 
them for some reason as to why the cuts came like they did?
    Mr. Nutter. We did have some engagement. We have not 
received an answer that we can understand.
    Mr. Thompson. Well, I think it would be incumbent upon our 
committee from an oversight standpoint to see whether or not 
the intent of Congress is being met with cuts like this. I am--
I think that--I do not think any of us would want a community 
to be at risk because of policies that we are doing. It appears 
that some unintended consequences are coming up because of 
that.
    I yield back, Mr. Chairman. Thank you.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    I believe Hansen, would you like--Mr. Clarke, you do not 
have any questions for the Mayor. Is that correct? Okay. Very 
good. Thank you.
    Well, before I actually--I want to thank you very much for 
testifying and answering our questions. I have a very serious 
question for you. Have you been down to Clearwater to spring 
training, the Phillies spring training? Have you been down 
there? The Phillies look pretty good. I was there the other 
day.
    Mr. Nutter. Mr. Chairman, I thought that I would just wait 
for them to come home to----
    Mr. Bilirakis. Well, if you ever decide to come down, give 
me a call.
    Mr. Nutter. I will be glad to.
    Mr. Bilirakis. I tell you, you would be very impressed with 
Bright House. Thank you very much.
    Mr. Nutter. I think a trip around a business-related 
activity and maybe slip in a ballgame.
    Mr. Bilirakis. Sounds good.
    Mr. Nutter. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    Yes, this is the end of round one, but we are going to go 
to round two.
    You are dismissed, sir. If you would like to hang around 
that would be fine too.
    Mr. Nutter. Thank you.
    Mr. Bilirakis. So, thank you so much for being so patient. 
I will recognize myself for 5 minutes for questioning the rest 
of the panel.
    Okay. Question for Administrator Harman. The GAO has noted 
that FEMA lacks necessary detail on individual projects and the 
Office of Inspector General has identified questionable 
expenditures in a number of its reviews of SHSGP in particular, 
and also UASI, such as the review of Project Shield in 
Illinois.
    When questionable expenditures are uncovered through GAO, 
OIG, or FEMA reviews, what is the process for reprogramming the 
funding to another allowable activity or providing the funding 
to another jurisdiction that would make better use of that 
funding? That question is for Administrator Harman.
    Ms. Harman. Thank you.
    Mr. Bilirakis. Thank you. You are recognized.
    Ms. Harman. Thank you very much. With regard to 
reprogramming, as you are aware the dollars that are 
appropriated for these grants are traditionally what we 
consider 1-year money, with the exception of our fire grant 
money, with AFG, SAFER, Fire Prevention and Safety. That is a 
very large program; 20,000 applications which appreciate the 2-
year ability to get that money out the door.
    With the traditional 9/11 Act funding as well as EMPG 
dollars, that is considered 1-year money. So, as soon as we 
obligate that to the State they then further sub that down. We 
do not have the ability to retract that money unless there is 
some form of gross negligence. Of course we will sit down with 
our counsel and figure that part out.
    But with regards to us, the Federal Government taking it 
back from a sub grantee within the State and reallocating that, 
we currently I do not believe have the authority to do that. We 
do have some States that will do that, not necessarily for 
misspending money or of that nature.
    We do have some States that have very good practices with 
regard to subbing money down in a shorter period of performance 
than is currently offered by FEMA so that they can drive 
performance. Those sub grantees have maybe let us say 18 months 
as opposed to 36 months to complete those projects, and if they 
cannot get it done the State will then pull that back and re-
sub it out.
    But traditionally once we obligate that funding to the 
State we do not take it back. We do not have the ability to 
take it back and give it to someone else. It is traditionally 
handled within the State in their period of performance that we 
give them.
    Mr. Bilirakis. As a follow-up: When the ND Grants system is 
fully up and running will we be able to provide a greater 
visibility into the grant expenditures?
    Ms. Harman. That is our hope. Right now we currently 
operate off 13 different systems to manage all of our grants. 
When you think about how the Grant Programs Directorate was 
formed many years ago, we came from the Department of Justice, 
we came parts from DHS, we came part from FEMA. With that came 
the people, the business processes, and the system.
    ND Grants was very thankful with a planned endeavor back in 
2006. There were some budget constraints. So, it was--we had a 
lot of help and assistance in turning that light switch on, if 
you will, for fiscal year 2011 to get it up and running. It is 
a multi-year phased-in approach. It is a very large system 
which will be expanded and usable; hopefully for the DHS 
community and others should they need it.
    So, we have a multi-year process for that and we--our 
intent is to have a level of more granularity than we currently 
do. We do not have exact visibility currently with the sub 
grantees that we should. We need to have that.
    Mr. Bilirakis. Thank you. Thank you.
    As noted in my opening statement, Administrator Gruber, 
nearly a year after the THIRA concept was included in the 
fiscal year 2011 grant guidance States still have not received 
guidance on how to conduct the THIRA. What is the status of the 
THIRA guidance?
    Are you on track to release it by the end of the month as 
Administrator Serino testified at the last hearing? She 
indicated that in the budget hearing. What do you think, by the 
end of the month?
    Mr. Gruber. Yes, sir. The THIRA guidance is in final review 
with the administrator, Deputy Administrator Serino and Deputy 
Administrator Manning. It will be published as a comprehensive 
preparedness guideline. Our intention is to meet that deadline.
    Mr. Bilirakis. Thank you. How will FEMA work to ensure that 
localities are included in the process as States develop their 
THIRAs so we have a complete picture of an area's risk?
    Mr. Gruber. Yes, sir. The THIRA process is a five-step 
process. It is articulated in this comprehensive preparedness 
guideline.
    It requires the inclusion--we like to use the term whole 
community, which is representative not just of responders but 
also to make sure we have nonprofit organizations, faith-based 
organizations, our retail partners, all the contributors that 
could contribute capability to either prevention, protection, 
response, recovery, or mitigation would all be a part of that 
five-step process that is outlined in that guideline.
    Mr. Bilirakis. Administrator Harman, I appreciate the steps 
that FEMA has taken to streamline and expedite the 
environmental and historical preservation reviews. GAO has 
acknowledged this progress in their reviews. Despite this 
grantees still cite EHP reviews as a major obstacle to the 
spend rate for grants and a reason why many of the grant 
programs or the projects require and extension. Is there a way 
to further refine this process?
    Ms. Harman. That is a great question. We are very thankful 
for the new, what we call, the categorical exclusion that 
looked at many of the different projects our sub grantees and 
grantees request. We are actually able to now clear those 
within our office as opposed to going through a full EHP 
review, which did take a very long time.
    There are some complicating factors when you look at EHP. 
Certainly amongst the ports, amongst the transit agencies we 
get into large sort of capital projects, brick and mortar. 
Those do require fairly lengthy reviews, and that is the 
environmental and historic preservation laws as they stand 
today. So, we want to be sure to be compliant with those.
    But some of the smaller projects, installing cameras on 
historic buildings, replacing sense lines within the existing 
footprint. Some of these things we can clear because of the 
categorical exclusion that just passed last year. So, that 
helped us get over a huge workload and clear that backlog. But 
we still will have to go through full reviews for large capital 
digging in the dirt type of projects.
    Mr. Bilirakis. Thank you.
    Ms. Richards, you have mentioned--yes, I know I am over my 
time, but just one more question. You mentioned finding some of 
the best practices during audits. Would you please elaborate on 
some of them? If you could do so I would appreciate that.
    Ms. Richards. I would be happy to, sir. As I said, our 
audits have identified 11 innovative or best practices in seven 
States that could be considered for use by other jurisdictions; 
three aimed at preparedness and the rest grants management.
    For example, New Jersey has a grant tracking system that 
captures and tracks progress on each sub grantee's projects, as 
well as required documentation such as invoices. Copies of the 
documentation are uploaded into the system, permitting timely 
review and allowing the termination of progress toward 
completing the given grant cycle.
    In California two innovative practices were designed to 
assist grant managers in executing their responsibilities. A 
technology clearinghouse in the San Diego UASI has been 
designed to evaluate new technologies and provide other local 
jurisdictions with detailed independent assessments of the 
equipment and systems being considered by first responders so 
that each jurisdiction does not have to do that assessment. The 
clearinghouse assists law enforcement officers, firefighters, 
or emergency managers by conducting comparisons of detailed 
specifications, claim benefits, warrantees, et cetera.
    Another UASI, Los Angeles-Long Beach, developed an on-line 
invoice tracking system that allows program teams to digitally 
record and store all essential program documentation. This 
documentation is then available for UASI managers and their 
accounting departments, streamlining their processes 
significantly.
    In Florida one UASI, Jacksonville, measures improvement in 
preparedness by evaluating its capabilities through annual gap 
analysis that are based on measured outcomes and an assessment 
of future needs. The gap analysis process uses readiness 
indicators and quantifiable data to identify these gaps.
    The Urban Area Working Group prioritizes these results 
using a tier system based on risk and then incorporates the 
results in the project worksheets for the next grant cycle 
processes. I do not have the details of the other innovative 
processes with me, but I would be happy to provide them.
    Mr. Bilirakis. Please do. Thank you very much.
    Now I will recognize Ranking Member Ms. Richardson for 5 
minutes.
    Ms. Richardson. I will defer to the Ranking Member of the 
full committee.
    Mr. Bilirakis. You are recognized, sir.
    Mr. Thompson. Thank you very much.
    Ms. Harman, you heard Mayor Nutter talk about the 
importance of stakeholder involvement. Can you share with this 
committee, now that you hear that there is some question as to 
whether or not that process has been as robust as it should. 
What are you prepared to do?
    Ms. Harman. Thank you. That is an excellent question.
    The Preparedness Task Force that was requested by Congress 
for us to put together distributed a report September 2010, so 
almost 18 months ago. Part of that report was looking at 
measurements and preparedness. Other parts of it had to do with 
grant management. A lot of what you see in the vision document 
and in the President's proposal in fiscal year 2013 for the 
National Preparedness Grant Program was actually conceived as 
part of that task force.
    There are recommendations from partners within PPD-8 that 
have worked on the Presidential Policy Directive. We had 50 
different organizations participate and contribute to the 
Preparedness Task Force report that actually did include 
representatives from Philadelphia at the time who we are very 
thankful to steal Marianne Tierney from unfortunately the 
mayor's office who is now one of our regional administrators. 
But had an opportunity to contribute to: Where do we need to go 
from here with regard to grants?
    The Preparedness Task Force, or I am sorry, PPD group 
consist of over 450 different participants. So, while there has 
not been a sole focus group on the National Preparedness Grant 
Program yet, there has been significant contributions and input 
received from a variety of different of methods to get us to 
what we are proposing now.
    We did put up on our website an opportunity for feedback. 
We do have a plan, which frankly has already started. We have 
been engaging with law enforcement community. We met with the 
Fire Service yesterday. We will be working with the Conference 
of Mayors as we go forward to figure out: What does this mean?
    There is a fear, of course, with this grant program. The 
fear is that I am not getting my check. Where is my money 
coming from? The culture that we need to change in going 
forward is No. 1, a recognition that we do not have a $4 
billion budget anymore with regards to preparedness grant 
dollars. The Secretary was given less than $1 billion this year 
to distribute at her discretion to those programs that she 
thought of utmost importance and at highest risk, which is what 
she did.
    In the vision document it is fairly broad, but it does 
build off existing feedback that we have. We have a lot more 
engagement to do to get the devil in the details. Some of the 
importance will be the governance structure.
    What does that mean? How does the local government, how do 
we prevent cities like Philadelphia from losing those big 
chunks of money? The State itself was cut almost 50 percent in 
their Homeland Security dollars this year. The UASI for 
Philadelphia was cut almost 39 percent this year.
    There are cuts across the board. It makes it very difficult 
to manage and plan ahead. So, as we move forward with 
engagement, we do have an outreach strategy. We will be meeting 
with individual groups, be working with our Tribal leaders as 
well.
    Mr. Thompson. Thank you. But what I would like for the 
Chair to do is provide the letters from those 12 organizations 
who expressed concern, and will request that you do a special 
outreach since they went through the trouble of letting us know 
about that.
    Ms. Richards, in light of what you are hearing from 
officials like Mayor Nutter, one of those areas you had concern 
talked about sustainability. Do you have an opinion about 
sustainability given the cuts? Or you just want to leave it out 
there?
    Ms. Richards. Certainly we are very concerned when we do 
our audit work and we find that individual States do not have 
sustainability plans for projects that have received a great 
deal of investment. The budget constraints that we are all 
facing are very serious. We have urged FEMA and FEMA has 
responded by telling us that they are arduously working on 
putting out guidance in 2012 to ensure that projects in this 
cycle focus on the sustainability issue rather than on new 
projects or new equipment.
    Unfortunately, I cannot opine at the moment as to how that 
is going to work out because it is in the future. But it is a 
significant concern.
    Mr. Thompson. Ms. Harman, you want to talk about that?
    Ms. Harman. Sure. Our focus right now with 2012 guidance 
that came out and in moving forward to 2013 is the maintenance 
and sustainment of existing capabilities that has been built.
    We are building off a $35 billion base across this Nation, 
across our territories and our Tribes. This is a significant 
investment that has been made and I can tell you even in 
contributing to the President's budget and part of the vision 
for going forward in 2013 I can tell you no one wants to see a 
loss in any of the capabilities that we have currently built.
    That is why the proposal for fiscal year 2013 does include 
a baseline level of funding across the board to ensure that 
there is sufficient funding there for the maintenance and 
sustainment of capabilities, not just equipment but the 
capability that includes the people, the training, the turnover 
if there may be and handling all of that. So, that is key.
    I want to make sure that is across the board. Then part of 
the 2013 vision is above and beyond that. Let us just say 
hypothetically a State has allocated $10 million but they do 
not feel that that is enough in their baseline level, the 
funding. That they really need to sustain something else within 
there and they need more money.
    There will be a competitive aspect to that program, which 
will be reviewed on a regional basis. We do not have, as I 
mentioned earlier, $4 billion a year. We have less than a 
billion dollars a year to deal with. We need to be really smart 
about how we are spending our dollars.
    The Chairman mentioned snow cones. You know Administrator 
Fugate mentioned that also in his budget hearing as well. We 
have folks buying things that are great, but what does that 
mean for National preparedness? What does that mean and how 
does that feed into the National Preparedness Goal of where we 
need to be as a Nation? That needs to be our focus going 
forward so maintenance is sustained and is key.
    Mr. Thompson. I appreciate the indulgence of the Chairman.
    The only thing I would say is you talked about additional 
monies being available for competitive grants. If you do that I 
think you create another problem so that only those areas that 
are mature enough to compete and write good applications get 
funded. That may or may not be the area of greatest risk.
    So, I would caution that in the pursuit of trying to level 
the resources I think the whole issue of capacity has to come 
into question. Some communities are not quite there.
    Ms. Harman. Sure. Agreed.
    Mr. Thompson. Yield back.
    Mr. Bilirakis. Thank you. Appreciate it.
    Mr. Turner, you are recognized for 5 minutes, sir.
    Mr. Turner. Thank you, Mr. Chairman.
    A question for Ms. Harman, with the way the risk assessment 
State funds are apparently ranked. Could you fill us in a 
little bit on the formulas, both for preventive security, and 
then if we fail, there is a responsiveness as well?
    New York City has--the police department has thwarted 12 
terrorist attacks in the past 10 years, very important. I think 
it is sad, but if any of these had succeeded the formula would 
be very different. But maybe you could tell us what the process 
is in this current budget.
    Ms. Harman. The formula as it exists now for the allocation 
of the homeland security dollars, again, with the exception of 
EMPG and AFG; those are separate. The formula itself is driven 
from the 9/11 Act. We look at threat. We look at consequences, 
and we look at vulnerability.
    Last year that formula was revised as we had some criticism 
that the vulnerability aspect was not really as strong as it 
should be. So, we enhanced that and this year we also included 
a domestic threat component to that, whereas in the past the 
definition of terrorism had always been thought to be an 
internationally-inspired terrorism.
    So, working with our partners under the DHS umbrella in 
infrastructure protection as well as in intelligence and 
analysis we now incorporate a domestic threat and look at some 
of the violent extremism that we are seeing. Unfortunately that 
is becoming now sort of the homegrown nature. That is now 
calculated into the risk formula itself.
    Each year all of the States, all of the urban areas per the 
9/11 Act are racked and stacked, if you will, using that 
formula. The States and territories go 1 to 56. The urban areas 
go 1 down to 100. From there we enter into discussions with the 
Secretary with regards to the spreading of the peanut butter, 
if you will. It has been very difficult these past few years 
with the cuts that we have seen and there are significant 
policy decisions that are made by the Secretary to ensure that 
those dollars are going to areas of highest risk.
    As you know, New York City for the urban area this year was 
held at a consistent level with last year's funding levels. 
Additionally the other three top what they call threat Tier 1 
cities remained at a very minimal cut, around 12 percent to 13 
percent. Then from there, there was significant funding 
decreases sort of going incrementally down the list. The list 
was maintained at 31 cities this year, consistent with last 
year.
    Mr. Turner. Thank you.
    I yield back.
    Mr. Bilirakis. You yield back. Thank you.
    I recognize the Ranking Member of the subcommittee, Ms. 
Richardson for 5 minutes.
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    First of all let me start with Mr. Jenkins. In testimony 
FEMA points to the enactment of the redundancy elimination and 
enhanced performance for preparedness grants as the 
justification for consideration of consolidating grant programs 
into a single overarching grant.
    This reasoning seems unclear to me because both in the 
legislative text and in the report language the intent of the 
law is not--is to identify and eliminate the redundancy of 
reporting requirements, but not specifically referencing 
individual grants. Can you provide your opinion on the matter 
of which FEMA is implying the interpretation of this law? Do 
you think it is correct?
    Mr. Jenkins. I cannot say necessarily. I have not looked at 
the--I mean, talked to our lawyers about the interpretation of 
the law.
    I do think the issue here, you are right; as I understood 
it was with regard to reporting requirements, with having to 
report the same thing under different grants or to different 
people and so forth. The idea was to try to eliminate that and 
to try to streamline the reporting requirements for sites. 
There was a good deal of concern about that in the 
Preparedness--State and Local Preparedness Task Force Ms. 
Harman referred to.
    I think we do believe that it is--and from the very 
beginning when FEMA got these grants that it was useful to take 
a holistic approach. That is, try to look at how the grants 
relate to one another and how they can be used collectively to 
be able to do what FEMA is trying to do, which is develop a 
National capability to prevent and prepare for and respond to a 
catastrophic disaster.
    But it does not--I mean, it does not necessarily require 
the current approach. There are other approaches that you could 
take. The question is--is, again, how do you do it in terms of 
doing that?
    The report that we released today focus on the fact that 
the one thing is to try to look at the projects and what 
projects--what goals the projects support and how they relate 
to one another. How does a project that is funded by UASI 
relate to a project funded by the Port Security, et cetera? But 
it does not necessarily require you consolidate the grants to 
do that. Although it does not--you know, that is one way to do 
it.
    Ms. Richardson. Thank you.
    Ms. Harman, thank you for being with us here today and of 
course congratulations of your assignment. We are particularly 
excited of you being a former firefighter. I think you 
understand all too well of the importance of these grants.
    I just wanted to ask, what was your thought of what Mr. 
Nutter said? Because I came from local government and I can 
tell you that if honestly the Department thinks that you 
referenced well 50 organizations are involved. Well, if you 
know how many cities, major cities if for example just in the 
State of California alone?
    So, I can tell you that on our State level, San Diego is 
not coming in. They may ask us to submit an application, but 
San Diego is not coming in. Long Beach is not coming in. Los 
Angeles is not coming in. Anaheim where we have Disneyland is 
not coming in. Pasadena, who has the Rose Bowl, is not coming 
in.
    I mean, clearly I think there seems to be a disconnect of 
understanding this kind of pie-in-the-sky idea that just 
because you have a few organizations involved that that means 
that that is going to validate the local involvement in this 
process. So, is there--are we getting through today of 
understanding the problems of this assumption?
    Ms. Harman. Oh, yes. Understood. Thank you.
    No, there are a lot of organizations out there that have 
contributed to the vision in where we are going and there are 
many more that need to. That is one of the reasons the vision 
itself is very broad. There is a rationale there that we did 
not put a lot of details in it because we do need to hear what 
that feedback is.
    It is very concerning to hear Philadelphia get--receive an 
85 percent cut. As you know, part of the 9/11 Act now under the 
current construct of the grant requires an 80 percent pass-
through from the States down to the local level. But how that 
is done in each State is very, very different.
    Sometimes it is--if there are 26 jurisdictions in the State 
they may divide it up by 26 and hand it out. They may go into 
more of a regional level. But moving forward with the National 
Preparedness Grant Program, we do need to get away from that 
mindset.
    As an example, coming from Maryland Emergency Management 
Agency, we had 26 jurisdictions within the State. Maryland 
received roughly $4.4 million this last year, a 50 percent cut 
from what they received the year prior. If they were to take 
those dollars and divvy it up equally that is roughly $136,000 
per jurisdiction.
    One of those jurisdictions being Prince Georges County 
where I was born and raised, which borders the District of 
Columbia right here. I am not really sure what Prince George's 
County itself could do to maintain with $136,000.
    What we are proposing in fiscal year 2013 and going forward 
is that we are wise about the level of maintenance of 
sustainment that we have and we encourage more of a 
collaborative effort through mutual aid. Not every jurisdiction 
needs to have every single tool and capability that they are 
going to need in the time that they need it. They are going to 
have to reach out for mutual aid.
    I did the same thing as a first responder, as a firefighter 
and a paramedic in Fairfax City. We did not have a HAZMAT unit.
    Ms. Richardson. But, Ms. Harman, the question is, is 
whether the State is the appropriate agency to do so. The 
question is: Given that we just went through this with the 
stimulus and it was admittedly not as successful as we would 
have liked, meaning the funds getting to all of the localities 
that it should have, have you--or what do you plan on doing to 
incorporate that to better apply this program?
    Ms. Harman. Right. I think as of right now the vision is 
that money will continue to go through the State, the States 
and territories to the applicants. Of course there will be a 
Tribal piece as well. But the importance is: How does that 
work? What does that mean at the local level? How do they get 
their piece of pie, their dollars? How do they ensure that 
the--their capabilities that they have built? There has got to 
be a governance structure there.
    I was on the phone yesterday with the Secretary and the 
Conference of Mayors, and we did, we solicited their input. 
Please, give us an example of what would work for you? What 
sort of governance structure?
    There have been concerns that the proposal for 2013 is that 
of a block grant. By definition a block grant is here you go, 
State, here is your money, figure it out and each State does it 
differently. We are not proposing that. We are proposing a much 
more structured, focused view when it comes to spending those 
dollars.
    But I would like to hear from the Conference of Mayors and 
other organizations to find out what would work for them? How 
do we ensure that there is coordination and collaboration?
    I know Administrator Fugate mentioned in his hearing you 
know, and as did Deputy Administrator Serino about seeing sort 
of a disjointedness. We have had ports. We have had transits. 
We have had UASI all doing really good work, building off of 
this $35 billion base, but at times not coordinating. Yet in 
times of major disaster we rely on them to coordinate and 
respond effectively. We are trying to fix that going into 2013.
    So, it is not that programs will be gone. It is more of a 
changing the culture to that of more collaboration that is 
there. But I would like to hear from more of the stakeholders, 
specifically what would make this work for them.
    Ms. Richardson. I yield back.
    Mr. Bilirakis. Thank you.
    Now I will recognize Mr. Clarke for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman. I have got 
some initial questions to representatives of the Department and 
then also of Ms. Richards and Mr. Jenkins on how the risk 
assessment of high-risk urban areas could be improved if you 
had any type of analysis or critique of that.
    I represent Metropolitan Detroit. It is a high-risk region. 
We already had a terrorist attempt to blow up a plane headed 
for our international airport. It was unsuccessful. I have 
grave concerns that someone will likely try again.
    I appreciate the Department considering the threat of 
domestic terrorism because as we are well aware, if someone 
wants to become a terrorist they do not need to go overseas to 
get training. They can get radicalized right on the internet 
here in the United States.
    Detroit has other assets that makes it vulnerable and 
increases the economic impact in case of an attack. We have the 
busiest international border crossing in all of North America. 
We have a very large regional drinking and wastewater system. 
We have the world headquarters of General Motors on our 
riverfront. We have international border crossing as well.
    Nearby we have nuclear plant facilities. We have a major 
oil refinery. All of these are assets that could be targets and 
could have devastating consequences to our region and to our 
country if they were attacked.
    Detroit is not 45 percent safer this year than it was last 
year, to use the analogy raised by the mayor of Philadelphia. 
Yet our funding under the Department's risk assessment was cut 
by 45 percent. That is because of the Department's discretion 
that Congress gave the Department.
    How can we make sure that the Department would not again 
make a disproportionate cut to a high-risk area like 
Metropolitan Detroit under the new National Preparedness Grant 
system for next year? That could be anyone from the Department 
that could answer. Then after if Ms. Richards or Mr. Jenkins 
would like to comment on their analysis of the risk assessment 
that the Department conducts to determine whether an urban area 
is high-risk.
    Ms. Harman. Sure. I can answer some of that for you.
    With regards to Detroit, and frankly any other city across 
this Nation, I think the Department recognizes that risk is 
everywhere. There are areas that are of higher risk than 
others, which is why we do our risk analysis.
    There have not been significant shifts in sort of the 
racking and stacking, if you will. We do not see significant 
movement in what we have seen. I think the system and the 
formula have been strengthened over the years. It is a very 
mature system. So, we have a pretty good idea where the risk 
is. The key is how do we apply the funding there to ensure that 
you have the capabilities that you need when you need them?
    Moving into fiscal year 2013 the vision document currently 
describes the method of allocation to be that of population, 
which right now for you in Detroit would most likely be very 
difficult looking at the population of that compared to some of 
the other cities on the list. So, that may or may not be the 
way to go. But it is a risk-based approach moving forward.
    Some would say areas of high population equal areas of 
high-risk. We do not know that to be the case. So, moving 
forward in fiscal year 2013 without any legislative changes 
there, of course we would still abide by the 9/11 Act using the 
existing formula. However, there is a desire to move to an all-
hazards type approach to make sure that we are really fully 
covering all of that.
    Do you want to add to it as well?
    Mr. Gruber. Sure. I will simply add that in the THIRA I 
alluded before to the Threat and Hazardous Identification Risk 
Assessment. The factors that you identified would be taken into 
account in the process of identifying threats and hazards, 
putting those in context. Coastlines, river ways, presence of 
critical infrastructure would all be part of the determination.
    Then would look at the capabilities that you needed; what 
you had on hand, the targets you set and the capabilities you 
needed, which would help to contribute to how we allocate 
resources. But we know we are in an economic framework that 
requires prioritization and choice. I think most of the easy 
choices have been made already and they get more difficult as 
time transpires.
    Mr. Clarke of Michigan. You know my one point is that even 
though we are in a tough economic time right now the funding in 
New York City was not cut at all. Detroit was cut by 45 
percent. That seems disproportionate to me.
    Mr. Gruber. Well, I know you wanted to have Ms. Richards 
and Mr. Jenkins reply to that, but I think again the 
application--the grant program in context with the Threat and 
Hazardous Identification Risk Assessment process is going to 
help us to capture, as Elizabeth said, where is the risk; where 
do we apportion resources appropriately to do that? I think we 
have been doing that relying on a formula now. Now what we are 
going to do is have a bottoms-up process that is going to help 
give us both perspectives on risk, both the strategic National 
and the locally-generated risk requirements.
    Ms. Richards. We concentrated our audit work on the uses of 
the money at the States and territorial and UASI levels. We 
have not completed an analysis of the risk model that FEMA has 
been using.
    Mr. Clarke of Michigan. All right.
    Mr. Chairman, if there is time I would like to ask one more 
question.
    Mr. Bilirakis. Actually we are going to have one more 
round.
    Mr. Clarke of Michigan. All right.
    Mr. Bilirakis. All right?
    Mr. Clarke of Michigan. Sure.
    Mr. Bilirakis. I thank the gentleman. Yield back?
    Mr. Clarke of Michigan. I yield back my time.
    Mr. Bilirakis. Okay. I--we are going to go one more round 
if that is okay. Thank you so much for your patience today.
    I have a question for Mr. Jenkins. Please elaborate further 
of the management challenges that may result from the proposed 
National Preparedness Grant Program.
    Mr. Jenkins. You mean the fiscal year 2013 proposal?
    Mr. Bilirakis. Yes. Yes, exactly. Yes, some of the 
management challenges.
    Mr. Jenkins. Right. There are a number of management 
challenges, not the least of which is just simply what the--Ms. 
Harman also referred to earlier, which is the data that are 
available to FEMA in terms of managing the grants, knowing 
exactly what projects the grants are being spent on and what 
capabilities they contribute to. Because in the end you are 
spending these monies in order to develop certain capabilities 
that you think are critical and particularly important to 
either preventing or responding and recovering from a disaster.
    So, there have been issues over the years with regard to 
the data that is available. For the data that are reported by 
the States in the past, States have not consistently reported 
data that as they used different assumptions and different 
definitions. So it is very difficult to aggregate.
    So, if you--under this proposal you know you need to be 
able to compare. I know that is part of the intent of the THIRA 
is that you have people doing this risk assessment with a 
common methodology and therefore you can compare and 
consolidate the results of that.
    But that is why the guidance is so important so that people 
are doing this in a common way so that everybody understands. I 
am from Pennsylvania and I look at the THIRA for Illinois I 
understand that they did it the way they did and I can sort of 
make a comparison and say, oh here is where they are different 
from me; here is where they are the same from me, et cetera.
    The other issue still is that if you are doing these and 
you are trying to put these monies to the best possible use, 
then you do need some means of assessing where am I relative to 
where I want to be? Right now that is--and it has been since 
2004 the Achilles heel of any methodology that one uses in 
terms of distributing the grants is that you do not have a 
common way of looking across the States in terms of what the 
capabilities are.
    The capabilities are not just what the States themselves 
have done because in certain instances the capabilities are 
going to come from Federal agencies. For example with regard to 
radiological and biological attacks, a lot of the resources are 
going to come from the Department of Defense.
    So you need to know what the collective capabilities are 
and where the State capabilities and the capabilities that are 
being built with these grants fit into that totality, and that 
is not an easy process but that is fundamental. It does not 
matter really what the process that you use to allocate these 
grants. If you cannot assess where I am relative to where I 
want to be and need to go then you are sort of operating in a 
fog.
    Mr. Bilirakis. Thank you very much.
    Okay. One last question for Administrator Gruber; FEMA has 
been working for years to develop measures and metrics to 
determine the effectiveness of these grant programs but we have 
seen little results so far. What is the status of the 
development of these metrics? When will this committee receive 
the report on the results of the work FEMA conducted with the 
National Academy of Public Administration?
    Mr. Gruber. Yes, sir. Thank you.
    Well, I was privileged to participate in that process with 
a great group of stakeholders and was very encouraged by the 
work that was generated in the study. Again how it in many 
instances confirmed the direction we were headed and the 
measures that we had developed internally. The report is in a 
final review process.
    We have as great an interest as you in delivering it 
promptly to you. But again, I thought that was an exceptionally 
beneficial process because it made us drill down very 
deliberately over an extended period of time with the right 
group of stakeholders to determine what are the most effective 
measures, and in some cases confirm what we were doing and in 
some cases gave us new perceptions about what we need to do.
    Mr. Bilirakis. When do you feel we will get it? When will 
we receive it? So, you can give me a time frame.
    Mr. Gruber. Sir, I would appreciate it if I could get back 
to you. It is in the final clearance and review process, and I 
would certainly be happy to provide a time frame to you, but we 
will make sure it is as expeditious as humanly possible.
    Mr. Bilirakis. Please do. Thank you.
    Now I will recognize our Ranking Member, Ms. Richardson for 
5 minutes.
    Ms. Richardson. Mr. Gruber, what portion of the overall 
combined NPGP funding stream is dedicated to the base amount 
versus the competitive pooling of funding?
    Mr. Gruber. Ma'am, I think perhaps since Administrator 
Harman might be better equipped to answer that question than I 
since she administers those programs, if you would not mind.
    Ms. Richardson. Sure.
    Ms. Harman. That is a great question, and that is an answer 
that we are working on as we speak. As we start to get a little 
bit more of the details, as we have been coordinating with some 
of the stakeholders to find out what is that.
    I think if you ask some States how much do you need right 
now to maintain and sustain what they have and the capabilities 
they have built there is some difficulty trying to answer that 
question. We have some States that have done a really good job 
managing their grants, knowing what they have built. We have 
others that are a little bit more disjointed.
    I think moving forward with--and the completion of the 
Threat Hazard Identification Risk Assessment, that will sort of 
give us a better idea. But moving forward what we will have to 
take a best guess estimate based off of the data that we have 
readily available on what States have already spent, what we 
are seeing and reporting to figure out what is that baseline 
and what should be included in that baseline?
    Ms. Richardson. So, what is your estimate?
    Ms. Harman. I do not have a dollar figure to give to you 
now. But I would kind of assure you that the baseline funding 
will include the maintenance and sustainment of capabilities 
that have already been built. If there is anything needed above 
and beyond that, that is the concept for the competitive 
portion of that.
    Ms. Richardson. So, the risk assessment, the base amount we 
have talked about several things today. When do you expect to 
have all this information? Because I am sure you can understand 
we as Members of Congress are going to have to vote on this. So 
it is only fair that we would have information to vote 
appropriately.
    Ms. Harman. Absolutely. We will be ready by obviously the 
beginning of the fiscal year as we hope to get a budget, an on-
time budget for October 1 of all the details. Which means the 
stakeholder feedback and coordination and collaboration should 
be done by then.
    What we are trying to do right now is based off the 
feedback we have received thus far since the release of the 
President's budget and the fiscal year 2013 document and plan 
for NPGP is hearing what we are hearing, getting more of a 
baseline, a little bit more details to begin to engage in some 
more formal types of outreach efforts. I would like to have 
that done by June, a lot more details than what we have now.
    Ms. Richardson. Will you keep this committee informed as 
you process? Because some of your later time frames may be--
prove difficult as we approve a budget.
    Ms. Harman. Yes, absolutely. I have appreciated the 
conversations that we have had with your staff thus far and as 
well as some of the other Members of Congress here because this 
will be a joint effort.
    We see it as a joint effort. We are not trying to force any 
sort of vision. That is not going to work. So, we do want it to 
be successful and be collaborative. I appreciate the 
willingness of your staff to work with us on that.
    Ms. Richardson. Which organizations and stakeholders have 
contributed to this process? If you do not have the list 
available, can you provide it to the committee?
    Ms. Harman. Yes. I can provide you the list of all the 
members that have participated with the task force as well as 
the PPD-8 process, and then the stakeholder engagement that has 
occurred since the release of the President's budget.
    Ms. Richardson. Okay. The National Preparedness Goal in the 
full year 2013 intends to help States, regions, and locals to 
build readily deployable assets. How will FEMA manage the 
cataloguing of the readily deployable assets and ensuring they 
are used in catastrophic disasters? Would that be you, Mr. 
Gruber?
    Mr. Gruber. Yes, ma'am, that would. We have identified, as 
you know, in the National Preparedness Goal, a series of core 
capabilities. One of the most important aspects of building and 
developing, sustaining, and delivering those core capabilities 
is to do that within the framework of the National Incident 
Management System.
    In the National Incident Management System there is a 
process called resource where you would take like assets and 
resources and type them so that when a jurisdiction is building 
those they are comparable to what another jurisdiction has. It 
makes the process much easier when you are unified in a 
response or when you are sharing assets through mutual aid.
    So, building those capabilities we--and again, we have that 
in the guidance that we are getting ready to issue. We 
encourage the use of those NIMS resource-type assets to make 
sure that we have a framework that is sharable across all 
communities.
    Ms. Richardson. Okay.
    Ms. Harman, currently does the State THIRA, are they 
required to include locally-developed THIRAs or similar 
assessment?
    Ms. Harman. I will actually defer that to Mr. Gruber. We 
are partners here.
    Ms. Richardson. Okay.
    Mr. Gruber. Yes, ma'am. We have identified--of course if 
you will recall in the 2011 grant guidance that went out where 
we first identified the requirement to do a Threat and Hazard 
Identification Risk Assessment we capitalized on existing 
processes that are already being done. But we required in there 
that when the States completed that, that they also included 
urban areas and others as a part of their submissions.
    Ms. Richardson. Can you provide to the committee 
specifically what your direction is going to be to the State of 
who they are including and to what extent?
    Mr. Gruber. Yes, ma'am. That is, as I said before, embedded 
in our guidance. Our intent is to have that completed by the 
end of this month and to share that with you.
    Ms. Richardson. Okay. We are looking for specifics.
    Mr. Gruber. Yes, ma'am.
    Ms. Richardson. Okay.
    Mr. Bilirakis. Okay. Thank you.
    Mr. Clarke, you are recognized.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    My question is: How can we get more money under the new 
National Preparedness Grant Program to those high-risk urban 
areas that really need the resources than they may be currently 
receiving under the Urban Area Security Initiatives grant?
    Again, let me give Metropolitan Detroit as an example. Even 
though the city of Detroit has lost population over the last 10 
years it still has high-risk assets: The border crossing, the 
refinery, the buildings. It has the critical infrastructure 
that could be a target: The drinking water system, the 70-story 
tower that is a target, unfortunately.
    In the last year's funding allocation under UASI the State 
of Michigan received approximately $9 million. Of that $9 
million the city of Detroit received $800,000. Currently the 
State can take 20 percent of the funding off the top, as you 
indicated. Similarly, the State has a great deal of discretion 
in determining what the urban area is.
    Now, the threat to Metropolitan Detroit is regional. There 
are risks in Oakland County, Macomb, Monroe where we have 
nuclear facilities.
    However, my concern that the urban area may have been 
defined to include other areas that really may not be high-
risk, like agricultural areas and fields where certain urban 
areas should have received the money, especially where there is 
the financial need because of the housing crisis and other 
economic issues. Many of our urban areas that are high-risk had 
the least amount of local revenue available to prepare their 
first responders to respond or to protect the people in case of 
an emergency.
    If you have any thoughts on how the new program could get 
more of the existing money to the high-risk areas. Again, we 
all want more money. That is not my question. How can we use 
our money most effectively to protect the areas that are really 
at high-risk?
    Mr. Jenkins, had any review of how States use that 20 
percent. If there has been transparency in that and how that 
money could be used better to protect urban areas I would 
welcome that as well.
    Just so you know that is a leading question. I have heard 
concerns that some of the States have not been as transparent 
on how they use their up to 20 percent allocation, and that 
that money may not have gone all the back to protect urban 
areas from attack. Thank you.
    I yield back my time after the questions are responded to.
    Ms. Harman. That is of grave concern. I know I may not have 
a very popular answer for you with regards to funding because 
everyone seems to be very focused on the funding. But I 
encourage you to begin thinking about the capabilities that 
Detroit is going to need should the largest and most 
unpredictable event occur.
    You have some of those capabilities. Others you will be 
reliant upon your region within the State. Then you are going 
to be reliant on those within our FEMA regions and the States 
that surround you. So, there is a focus there to ensure that 
the capabilities you have currently built remain there and are 
maintained and sustained. But we want to ensure that we are 
taking more of a regional and a collaborative effort.
    The UASI area is defined. That urban area, that 
metropolitan statistical area is defined by OMB and where the 
funding should go. Within that urban area is an urban area 
working group, which may over time further evolve to expanding 
outside of their urban areas.
    I realize that down in Atlanta the Atlanta urban area did 
that as they were very focused on mission and the capabilities 
that they need. They actually voluntarily expanded their urban 
area to include surrounding areas to ensure that capabilities 
were there and they could take advantage of those mutual aid 
partnerships.
    So, there is also with regards to funding and spending it 
wisely, as I mentioned, there is $8 billion there. I know that 
Congress has been very concerned about of the $35 billion that 
has been obligated, $8 billion sort of sitting on the books. 
Those dollars are in the process of being spent. What the 
Secretary has recently done is allow greater expansion and 
flexibility of that.
    So, we have been encouraging both our States as well as all 
of our UASIs and territories and Tribes to say you know what, 
if you really thought that your level of funding was going to 
be much higher than it is, and we have all seen very 
significant cuts across the board with these dollars upwards of 
50 percent. Rethink what you are going to do with these 
dollars. If you thought you were going to have long-term 
projects you may need to re-scope and reduce some of that to 
really focus on the maintenance and sustainment of where you 
need to go.
    So, I can certainly work with you; work with your State 
looking at the available dollars that are there, looking at the 
structure of your urban area, too, if they need some guidance 
on how to do that. But moving forward, the focus really needs 
to be on the capabilities and how you are going to handle the 
response and recovery from those major disasters that may 
occur.
    Mr. Clarke of Michigan. Thank you for that offer of 
support, Administrator Harman. We will follow up with you on 
that too.
    Mr. Bilirakis. Thank you very much. That concludes our 
hearing.
    I thank the witnesses, of course, for their valuable 
testimony but also for their patience. I thank the Members for 
their questions. The Members of the subcommittee have some 
additional questions for you, and we ask that you respond in 
writing. The hearing record will be open for 10 days.
    Without objection, the subcommittee stands adjourned. 
Thanks so much.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]


 ENSURING THE TRANSPARENCY, EFFICIENCY, AND EFFECTIVENESS OF HOMELAND 
          SECURITY GRANTS (PART II): STAKEHOLDER PERSPECTIVES

                              ----------                              


                        Thursday, April 26, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:34 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Turner, Richardson, and 
Clarke.
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order.
    The subcommittee is meeting today to receive stakeholder 
perspectives on the Homeland Security grants administered by 
FEMA and particularly on the President's proposed budget for 
fiscal year 2013, his request to consolidate a number of grant 
programs into a National Preparedness Grant Program.
    I now recognize myself for an opening statement. I 
apologize for the voice, but I think we can get through this 
very important hearing.
    This hearing is the second in a series considering Homeland 
Security grants. Last month, the subcommittee received 
testimony from Federal witnesses on the management and 
administration of these grants, a very productive hearing. 
Today, we will receive vital information from the stakeholders 
who rely on these grants to enhance their security operations.
    I am pleased that we have participation from such a broad 
range of stakeholders today. Thank you so very much for 
attending. Your input is invaluable to this subcommittee as we 
consider proposals for grant reform.
    In particular, I would like to hear your perspectives on 
the National Preparedness Grant Program proposal. I must say 
that I find it particularly troubling that it has been more 
than 2 months after the President's budget, since it has been 
released, and the subcommittee still has not received 
sufficient detail on this proposal, which is why it is so 
important that we hear from you today.
    Again, how has FEMA engaged with you since the proposal has 
been released to listen to and include your perspectives on 
this proposal? What portions of the proposal do you like, and 
what portions of the proposal concern you? Are there reforms 
that could be made to the existing programs that would enhance 
them and make them more efficient?
    I am also interested in your perspective on the THIRA 
guidance that was recently released by FEMA. Does the guidance 
provide you with the information and tools you need to conduct 
this assessment and obtain a true understanding of the threats 
impacting your areas and infrastructures?
    Finally, of course, I would like to--fiscal year 2012 has 
seen many, many changes in the Homeland Security grant 
programs, including a reduction in the period of performance. I 
am interested in hearing about how you believe this reduction 
and other changes will impact your programs. Will it, as FEMA 
suggests, assist you in your efforts to more expeditiously 
expend your grant funds?
    Once again, I greatly appreciate your participation here 
today. I look forward to your thoughts on these and other 
issues and concerns related to grants.
    I would like to submit for the record--I ask unanimous 
consent to submit this letter into the record. I ask unanimous 
consent to insert into the record a letter to Secretary 
Napolitano and Administrator Fugate from a coalition of local 
stakeholders, some of whom are represented here today, 
regarding the proposed National Preparedness Grant Program.
    Without objection, so ordered.*
---------------------------------------------------------------------------
    * This document is included as an attachment to the Walker 
testimony.
---------------------------------------------------------------------------
    Thank you very much.
    I now recognize the Ranking Member, Ms. Richardson from 
California, for any statement she may have.
    Ms. Richardson. Thank you, Mr. Chairman.
    Good afternoon to all of our guests here today. I am 
looking forward to today's hearing regarding FEMA's grant 
programs and the full year 2013 budget proposal. I also want to 
welcome both of our panels today, the witnesses, and really 
extend our appreciation for you coming all the way that you 
have to testify.
    Today we will hear from some of our vital State and local 
stakeholders about FEMA's portfolio of preparedness grants and 
the impact of the cuts on emergency preparedness and response 
efforts. In particular, we will hear concerns related to the 
Department's full year 2013 budget proposal, which one of my 
primary concerns is the effort to consolidate 16 separate, 
fully functioning, vital grant programs under the NPGP, which 
is the National Preparedness Grant Program.
    Last month, the subcommittee received testimony from FEMA 
regarding the consolidation proposal. As the Chairman has 
stated, we still have not received some of the clarifications 
that we require in order to make these effective decisions. But 
in today's hearing we hope that we will hear more from you. It 
will be an informative session, and you will be able to share 
with us what is essential and how we might assist you in 
achieving the goals that you do on all of our behalf.
    The Nation's ability to respond effectively to man-made and 
natural disasters requires State and local first responders to 
be adequately equipped and trained. Administrator Fugate has 
stated on several occasions that the capabilities built by 
FEMA's suite of preparedness grants have helped with recent 
emergency responses and has enhanced our capacity for 
catastrophic disasters.
    We must not abandon, though, however, all of the progress 
that we have made over these last 10 years. In last month's 
hearing, Mayor Nutter gave a persuasive testimony about the ill 
effects of the Department's decision to consolidate vital 
independent grants such as the UASI, the Port Security Grant 
Program, and the Transit Security Grant Program.
    It is unfortunate that the Department has felt compelled to 
put forward this consolidation proposal without conducting 
probably a necessary background and implications from many of 
the local folks who have to implement the program. 
Unfortunately, cuts often lead to--which we have had over the 
last 2 years in this Congress--there are consequences. With 
those consequences, oftentimes forces consolidations. As I have 
stated previously, cuts to Homeland Security grant programs are 
shortsighted, and it fails to take into account the need to 
preserve hard-earned capabilities.
    As I close, when we consider in my district--it is a very 
transportation-infrastructure-intensive district, with ports, 
transportation hubs, urban areas, we must continue to protect 
these areas in order to provide the safe environment which will 
also spur the economic growth we desperately need. In doing so, 
we must continue to rely upon many of you in the audience 
today, the regional governance structures, the local risk-
driven identification sectors that have the ability to protect 
us in these vital times.
    When we consider the work that you have done, we believe 
that your presentation today will help us to best identify 
steps that we should take going forward. I look forward to 
hearing your views on the full year 2013 proposal; as the 
Chairman said, the recently released THIRA guidance; and the 
establishment of the proposed performance measures.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Bilirakis. Thank you very much.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    I am pleased to welcome our first panel of witnesses.
    Our first witness is Mr. James Davis. Mr. Davis is 
executive director of the Colorado Department of Public Safety, 
a position he has held since February 2011. In this capacity, 
Mr. Davis also serves as Colorado's homeland security advisor 
and is the vice chairman of the National Governors Association, 
Governors Homeland Security Advisory Council. Prior to his 
current position, Mr. Davis was the special agent in charge of 
the FBI's Denver division. Mr. Davis served in the FBI for more 
than 25 years. Mr. Davis earned his degree in accounting from 
Michigan State University.
    Following Mr. Davis, we will receive testimony from Mr. 
Bryan Koon. Mr. Koon is the director of the Florida Division of 
Emergency Management. Prior to assuming this position, Mr. Koon 
was the director of emergency management at Walmart. He has 
previously served in the United States Navy and at the White 
House Military Office. Mr. Koon has a B.S. in natural resources 
from Cornell University and an MBA and graduate certificate in 
emergency crisis management from George Washington University.
    Next, we will receive testimony from Ms. Hui-Shan Walker. 
Ms. Walker is the emergency management coordinator for the city 
of Hampton, Virginia, a position she has held since December 
2011. Ms. Walker is also the president of the U.S. Council of 
the International Association of Emergency Managers. Prior to 
her current position in the city of Hampton, Virginia, Ms. 
Walker was the deputy coordinator of emergency management for 
the city of Chesapeake. Ms. Walker received her bachelor's 
degree from Emory University and her master's of public 
administration from Old Dominion University.
    Following Ms. Walker, we will receive testimony from Mr. 
Judson Freed. Mr. Freed is the director of emergency management 
and homeland security for Ramsey County, Minnesota, a position 
he has held since May 2011. Prior to his current position, Mr. 
Freed spent nearly 16 years with the University of Minnesota's 
Department of Emergency Management. Mr. Freed is a graduate of 
the University of Minnesota and is currently completing his 
master's in homeland defense and security studies at the Naval 
Postgraduate School. Mr. Freed is a member of the National 
Association of Counties' Justice and Public Safety Steering 
Committee.
    I want to welcome all our witnesses. Your entire written 
statements will appear in the record. I ask that you each 
summarize your testimony for 5 minutes.
    We will begin with Mr. Davis. Welcome, and you are 
recognized, sir.

   STATEMENT OF JAMES H. DAVIS, EXECUTIVE DIRECTOR, COLORADO 
   DEPARTMENT OF PUBLIC SAFETY, TESTIFYING ON BEHALF OF THE 
                 NATIONAL GOVERNORS ASSOCIATION

    Mr. Davis. Thank you very much, Mr. Chairman, Ranking 
Member Richardson, Congressmen. Thank you very much for giving 
me this opportunity to appear before you today to talk about 
the very important issue of ensuring the effective use of 
Homeland Security grants.
    As you mentioned, I am the executive director of the 
Colorado Department of Public Safety. In that position, I am 
responsible for the Colorado State Patrol, the Colorado Bureau 
of Investigation, Colorado's Division of Criminal Justice, the 
Division of Homeland Security, and the Division of Fire Safety. 
I come to this position from the FBI, which I think gives me 
kind of a unique perspective on the use of Homeland Security 
funding and on, kind of, the interrelationship between States, 
local agencies, and the Federal Government.
    I am here today representing the National Governors 
Association and the Governors Homeland Security Advisors 
Council, on which I serve as vice chair. The GHSAC, the 
Governors Homeland Security Advisors Council, is a body of the 
56 homeland security advisors from around the country, and it 
is a forum that is provided by NGA for us to get together and 
talk about issues affecting homeland security in the various 
States.
    You know, I will really dispense with talking about the 
impact of the cuts in grant funding because I am sure you guys 
are very aware of the impact of those on State and local 
governments. I have heard it said that the average is about 50 
percent in cuts over the last 2 years. I can say that in 
Colorado we have taken about a 75 percent cut.
    From the State's perspective, you know, that is--our 20 
percent that we take for really running the homeland security 
program for the entire State of Colorado, that 20 percent that 
we get has been cut by 75 percent, which really negatively 
impacts our ability to sustain the things that we have set up. 
You know, as the State, we are responsible for developing the 
State-wide homeland security plan, we are responsible for 
administering the grants, doing State-wide training, and then, 
most importantly I think, we are responsible for running the 
State's fusion center.
    The State fusion center, I think certainly in Colorado, is 
one of the most important things that we have developed since 
9/11 with Homeland Security funding. In the FBI, I had a lot of 
interaction with the State fusion center, and I can tell you 
that it was very important to us in the job that we were doing. 
Specifically, I was the special agent in charge in Denver when 
we had the Najibullah Zazi investigation, and the State fusion 
center played a very, very important role in that. I think as 
we look at the things we have spent money on since 9/11, State 
fusion centers are really one of the shining examples of good 
that has come from Homeland Security funding.
    With regard to FEMA's proposal, NGA and the GHSAC are still 
looking at the proposal and do not yet have an opinion on the 
proposal as a whole. But I can say that one thing that we are 
very appreciative of is FEMA's recognition that the State has a 
role in the coordination of grant funding for the State. I 
think that it is important, particularly as dollars are 
decreased, that we have a central entity--and I think the best 
entity would be the State--for ensuring that the limited 
dollars we have are adequately spent and that there is some 
thought to the interplay between different agencies within a 
State. I am very concerned that if we leave those funding 
decisions to individual cities that they will be looking at 
responding to all emergencies from within their city as opposed 
to taking the opportunity to use resources that may be in 
neighboring jurisdictions.
    I think that in addition to that, I would say that because 
there is a responsibility for the State to respond to 
emergencies, the Governors' responsibilities with regard to the 
National Guard, et cetera, I think that it is important the 
State be very cognizant and have good visibility on what local 
capabilities are throughout the State. The best way, I think, 
to do that is through the State support or coordination of 
those grants.
    With that, sir, I will wrap up. I look forward to answering 
questions, and we look forward to the opportunity to work with 
you all and with FEMA on developing the guidance as it goes 
forward.
    [The prepared statement of Mr. Davis follows:]
                  Prepared Statement of James H. Davis
                             April 26, 2012
    Chairman Bilirakis, Ranking Member Richardson, distinguished 
Members of the subcommittee, thank you for the opportunity to testify 
before you today on the important issue of ensuring that homeland 
security grants are used effectively.
    As executive director of the Department of Public Safety for the 
State of Colorado, I oversee the Colorado Bureau of Investigation, the 
State Patrol, and the Divisions of Criminal Justice, Homeland Security, 
and Fire Safety. I also serve as the Homeland Security Advisor to 
Governor John Hickenlooper.
    I appear before you today on behalf of the National Governors 
Association (NGA) in my role as vice chair of the Governors Homeland 
Security Advisors Council (GHSAC).
    My testimony will focus on three areas: (1) The State role in 
managing current grant programs; (2) the need for grant reform; and (3) 
the path forward.
                 state role in homeland security grants
    Federal funds provide critical support to State and local efforts 
to prevent, prepare for, and respond to terrorist attacks, natural 
disasters, and man-made events. States play an important role in 
building, coordinating, managing, and assessing the use of such funds 
to support homeland security capabilities throughout the State and 
across State borders.
    States employ a variety of mechanisms to develop and implement 
homeland security strategies and plans on an on-going basis. Integral 
to all State efforts is the involvement of a multitude of State, local, 
and Tribal stakeholders throughout the process. Most States have 
regional councils or committees that are used to ensure coordination 
with local officials, including police, fire, emergency management, 
emergency medical services, public health, county and city management 
officials, non-profit organizations and the private sector. These 
regional committees provide for a transparent process that fosters 
collaboration and partnership, and aids in the distribution of the 
required 80 percent of funds to localities.
    By serving as the central point of coordination among multiple 
jurisdictions and functional areas, States play a key role in ensuring 
that scarce resources are used effectively to meet identified National 
priorities that are tailored for regional needs. States have used 
homeland security grant funds to develop and sustain critical 
capabilities such as intelligence fusion centers, State-wide 
interoperable emergency communications, and specialized regional 
response teams.
    For example, fusion centers form an important part of the Nation's 
information-sharing network that helps to identify and investigate 
potential threats. These centers collect, analyze, and file suspicious 
activity reports as part of the Nation-wide Suspicious Activity 
Reporting Initiative based upon information gathered by officers in the 
field. These centers include many public safety partners and 
incorporate emergency operations centers and the public health 
community.
    In my home State of Colorado, we have used grant funds to support 
our State fusion center, the Colorado Information Analysis Center 
(CIAC). The CIAC employs an all-crimes, all-hazards approach to 
intelligence and information sharing that has proven valuable in a 
number of instances. After a failed bombing attempt at a Borders 
Bookstore, we used the CIAC to distribute information about the 
attempted bombing to law enforcement officers throughout the State. By 
the end of the day, we had a suspect in custody. The CIAC has also been 
credited with significantly reducing auto theft throughout the State.
    Because auto theft is a transitional crime, where stolen cars are 
subsequently used in a myriad of offenses, the sharp reduction in auto 
theft is having cascading effects on other more serious crimes.
    A number of States have also used grant funds to coordinate not 
only State-wide but multi-State interoperable communications systems. 
In one State, homeland security grant funds have helped replace or re-
program 30,000 first-responder radios and provided over 90 percent of 
responders with access to common radio channels that can be used to 
communicate during a large incident.
    The development and implementation of State-wide Communications 
Interoperability Plans (SCIPs) has significantly improved crisis-level 
communications capabilities and helped avoid the purchase of 
proprietary, non-interoperable equipment across county and State lines. 
These plans were largely developed using Federal grant funds. The SCIPS 
and the coordination mechanisms used to develop them will be 
instrumental as the Nation begins development of the Nation-wide public 
safety broadband network in the next several years.
    States have also used grant funds to develop a variety of special 
response teams ranging from bomb squads to weapon of mass destruction 
(WMD) and hazardous materials (HAZMAT) teams to veterinary rapid 
response teams and agricultural warning systems. Grant funds have 
helped provide standardized training for mass casualty incidents, 
further the adoption of the National Incident Management System, and 
support citizen and community preparedness initiatives.
                          the need for reform
    Federal funding for homeland security grant programs has been 
reduced by more than 50 percent over the last 2 fiscal years. The 
impact of this reduction, combined with on-going State and local fiscal 
challenges, warrants reconsideration of the current grant structure to 
ensure funds can continue to be used as effectively as possible.
    The decrease in funding has placed an administrative burden on 
grantees and has made it more difficult to achieve State-wide and 
regional strategic goals. For instance, in some States, the fusion 
center has been supported in large part through the State's 20 percent 
share of State Homeland Security Grant Program (SHSGP) funds. As those 
funds decrease, it is no longer possible to continue to operate the 
fusion center while also providing for management and administration of 
the entire SHSGP award or addressing other identified capability gaps.
    As another example, the activities of many State-wide 
Interoperability Coordinators (SWICs), who serve as a single point of 
contact to ensure coordination for first responder radio 
communications, are supported by grant funds. Without an increase in 
overall funding or the ability to use more than the State's 20 percent 
share, many of these positions may be eliminated. The work of the SWICs 
has helped streamline communications systems, saving not only money but 
also improving first responders' ability to save lives and protect 
property. While the interoperability of radio communications systems 
has greatly improved, more work remains to be done. The incorporation 
of broadband technologies to provide data and video services for first 
responders will also require continued State leadership to maintain the 
progress made to date.
    As a reflection of this new challenge, the Federal Emergency 
Management Agency (FEMA) recently proposed to consolidate 16 grant 
programs into a new National Preparedness Grant Program. While the 
details of how this proposal would work need to be developed, States 
believe any reform should provide greater flexibility in the use of 
funds while ensuring transparency, accountability, and collaboration.
    In order to facilitate State input into grant reform, the NGA 
Special Committee on Homeland Security and Public Safety has developed 
a set of Governors' principles for homeland security grant reform. 
These are broad principles intended to articulate State priorities and 
concerns. A copy of the principles is attached.
    As you'll see, these principles address key issues such as the need 
to continue to allocate funds based on risk while ensuring that each 
State and territory receive funds to maintain critical homeland 
security and emergency response capabilities. The principles also 
discuss the need to focus the use of funds on developing and sustaining 
common core capabilities; the need for the Federal Government to work 
with States and territories to develop methods to measure performance; 
and the need for clear and timely guidance from the Federal Government 
for conducting threat assessments.
    As Congress and the Federal Government have reviewed current grant 
programs, there has been a great deal of attention recently on the 
approximately $8 billion in previously appropriated grant funds that 
have not been drawn down. Some have argued that States have caused this 
delay in the use of funds and, therefore, a greater proportion of funds 
should be awarded directly to local entities. States disagree with this 
assertion and point out that it is often the funds that have been 
dedicated to localities or port and transit authorities that remain 
unspent. Part of the delay may stem from Federal requirements for 
environmental and historic preservation reviews or of the need to 
obtain necessary local approvals before proceeding with a project. 
Regardless of the cause, many States are trying to work with FEMA and 
their local organizations to identify ways to address this issue. 
Several States employ a rigorous oversight process that provides 
advanced notice of when funds may not be used and allows them to 
reallocate those funds to other local high-priority projects.
    States employ a variety of structures to administer and manage the 
grant programs; however, all agree that coordination among all levels 
of government is a critical factor. They also believe that States are 
best positioned to oversee and coordinate all homeland security and 
emergency preparedness activities within their boundaries. Currently, 
States have no role in the use of port and transit security grants. 
These funds could be used by a local area to implement proprietary 
communications systems that are not interoperable with surrounding 
areas or the State-wide system.
    Ensuring a strong State role in all grant programs will help 
achieve economies of scale, avoid duplication of effort, leverage 
available assets and avoid gaps in critical capabilities. It would also 
recognize Governors' Constitutional emergency authorities. Governors 
have unique emergency authorities, including the ability to deploy the 
National Guard. To properly utilize these authorities to save lives and 
protect property, Governors and their homeland security advisors, 
emergency management directors and Adjutants General, must have 
knowledge of capabilities, assets, and resources throughout the State.
                            the path forward
    NGA and the GHSAC welcome the opportunity to work with this 
committee as you assess the current grant programs and consider various 
reforms. We also look forward to working with FEMA to help identify and 
address key questions and concerns regarding their proposal to 
consolidate and restructure the grant programs.
    Governors and their Homeland Security Advisors believe very 
strongly in the need to preserve a strong State role in the management 
of grant funds in order to ensure transparency and coordination and 
facilitate efficiency and effectiveness. The grant process, including 
reform efforts, must include input from a variety of stakeholders, and 
we are committed to working with our partners in local and Tribal 
governments as well as the first responder community.
    To this end, States encourage Congress and the Federal Government 
to examine other related grant programs that could be better 
coordinated to achieve desired outcomes, including grants administered 
by the Department of Justice and the Department of Health and Human 
Services.
    Chairman Bilirakis and Ranking Member Richardson, thank you for the 
opportunity to testify on this important topic. I'm happy to answer any 
questions you or other Members of the subcommittee may have.
Attachment A.--Governors' Principles for Homeland Security Grant Reform
    The Department of Homeland Security provides State and local 
governments with preparedness grant funding that provides support for 
developing and maintaining critical homeland security and emergency 
management capabilities. Over the last several years, these grant funds 
have been significantly reduced. With decreased funding expected for 
the foreseeable future, Congress and the administration are reexamining 
the grant programs in order to make them more flexible and effective.
    Currently, there are 18 major preparedness grant programs 
administered by the Department of Homeland Security. Many of these 
programs often overlap with others, creating unintended inefficiencies 
and unnecessary administrative burdens. In addition, changing program 
requirements often makes the current structure complex and burdensome 
to States.
    Governors are supportive of efforts to reform these programs. As 
reform proposals are considered by Congress and the administration, 
Governors offer the following principles:
    Principles:
  <bullet> Grants should be risk-based but continue to provide each 
        State and territory funding to support critical homeland 
        security and emergency management capabilities, including 
        personnel costs and the sustainment of investments.
  <bullet> Funding should focus on developing, enhancing, and 
        sustaining common core capabilities.
  <bullet> The Federal Government should work with States and 
        territories to develop consistent methods to measure or assess 
        progress in achieving common core capabilities.
  <bullet> Grant funding should be distributed through States and 
        territories to enhance regional response capabilities, avoid 
        duplication of effort, and ensure awareness of gaps in 
        capabilities.
  <bullet> Consistent with current law, States should be permitted to 
        use a portion of the grant funds for management and 
        administration in order to coordinate the efficient and 
        effective use of grant funds, provide necessary oversight and 
        comply with Federal reporting requirements.
  <bullet> Any reform to the current grant programs should provide 
        States with flexibility to determine which priorities should be 
        funded and where investments should be made within their 
        borders.
  <bullet> Any grant program should allow flexibility for any State 
        cost-share requirements.
  <bullet> The Federal Government should provide clear, timely, and 
        explicit guidelines for conducting threat assessments and how 
        those assessments will be used to determine base-level funding.
  <bullet> The Federal Government should be more transparent with 
        States in sharing the data used to populate the funding 
        formula/algorithm. States should be provided with a centralized 
        point of contact and reasonable time to review and inform the 
        data.
  <bullet> The Federal Government should ensure that reforms eliminate 
        inefficiencies, do not duplicate efforts, and do not place 
        additional administrative burdens on States.
  <bullet> Grants should allow for multi-year strategic planning by 
        States and local jurisdictions.

    Mr. Bilirakis. Thank you very much.
    Now I will recognize Mr. Koon for 5 minutes. Welcome, sir.

    STATEMENT OF BRYAN KOON, DIRECTOR, FLORIDA DIVISION OF 
  EMERGENCY MANAGEMENT, TESTIFYING ON BEHALF OF THE NATIONAL 
                EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Koon. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, and distinguished Members of the subcommittee, for 
the opportunity to testify today.
    In the 10 years since September 11, we have done much to 
improve our safety and security, but work remains to be done. 
As the Nation determines the best road forward, our thoughts 
may differ but our ultimate goal remains the same.
    There are two fundamental questions regarding grant reform: 
How, and why?
    Imagine that if instead of funding homeland security needs, 
we were using these programs to host a cookout in Florida. DHS 
would allocate a certain amount of money for hamburgers, a 
different amount of money for buns, and other individual pots 
of money for coleslaw, potato salad, napkins, lemonade, et 
cetera. Suppose now that I just learned that my vegetarian 
brother-in-law was coming for a visit and I needed to pick up a 
soy burger for him. Under the current system, that wouldn't fit 
in the strict definition of any of the available categories, 
and, as a result, I would end up with extra hamburgers and a 
hungry guest. In other words, we are not allowing our 
stakeholders the flexibility to meet their individual needs.
    Recent and drastic funding cuts have highlighted that we 
are working within a flawed system. We are forced to piece 
together multiple Federal grant programs with singular 
missions. This patchwork of well-intended programs challenges 
our efforts to enhance preparedness and to effectively manage 
programs.
    We have attempted to address the highly complex problem of 
homeland security by reducing it to constituent components. We 
compartmentalize hazards and separate the remedies to mitigate 
consequences. This creates a disconnected system that acts on 
the components rather than the system and forces competition 
rather than collaboration.
    How do we make a system conducive to these budget realities 
while simultaneously continuing to achieve expected levels of 
preparedness? NEMA has said a few key pieces are necessary to 
enable a truly cross-cutting preparedness grant system:
    An accurate and usable assessment of the threat and risk 
picture must be completed, which involves all stakeholders, 
including the private sector.
    Planning must be improved to advance from the spending 
plans of today to a truly strategic vision of preparedness 
needs.
    A skilled cadre, including emergency management and 
homeland security personnel at all levels of government, is 
imperative. Without people, we are only buying things.
    A majority of the grant funds should go toward investment 
grants still made through a single allocation to the State and 
should be project-based. UASI cities traditionally classified 
as Tier 1 should continue to be directly funded. Overall, 
offering direct funding without any requirement to work with or 
support an overall State strategy puts the State in an 
untenable position. It continues to reward geographic 
stovepipes and uncoordinated programs. It would be no different 
if you were to provide funding to the State with no requirement 
to work toward National strategies.
    We must have the ability to conduct multi-year planning 
and, more importantly, the ability to complete complex 
projects, achieve ambitious objectives, track core 
capabilities, and measure performance over time.
    Our Nation faces enduring hazards, pervasive threats, and 
ever-changing risks, but our current system lacks the agility 
to adapt swiftly or convert ideas consistently into action. We 
need the National will to unite in a common vision of National 
preparedness, resilience, and self-reliance.
    We must find a way to enable States, Tribes, territories, 
and local governments to leverage their own resources with 
Federal investments to build this vision and be accountable. We 
need all levels of government, supported by all professions and 
disciplines, to unite in a way forward to ensure the safety and 
security of this Nation.
    Again, I thank you for the opportunity to testify today and 
look forward to your questions.
    [The prepared statement of Mr. Koon follows:]
                    Prepared Statement of Bryan Koon
                             April 26, 2012
                              introduction
    Chairman Bilirakis, Representative Richardson, and distinguished 
Members of the subcommittee: Thank you for the opportunity to present 
testimony today on behalf of the National Emergency Management 
Association (NEMA). NEMA represents the State emergency management 
directors of all 50 States, the District of Columbia, and the U.S. 
Territories.
    Since the inception of the State Homeland Security Grant Program 
(SHSGP), NEMA has maintained support of these grants as critical 
resources to help State and local governments build and sustain 
capabilities to address the various threats and hazards they face. 
Also, the Emergency Management Performance Grant (EMPG) has long been 
the backbone of the emergency management system, and we continue to 
appreciate your support for this critical program. On March 7, NEMA 
released a second annual report on the return on investment in EMPG. We 
hope you will find the report as informative as you did last year since 
it helps justify the necessity of this program.
    During the fiscal year 2012 budget discussions of last summer, NEMA 
leadership began exploring a possible new approach to the full suite of 
grants within the Federal Emergency Management Agency (FEMA) and the 
Department of Homeland Security (DHS). Congress had repeatedly 
expressed the need for answers to lingering questions about the 
effectiveness and performance of the suite of FEMA grant programs. 
Therefore, we decided the time had come to develop an innovative 
approach to grants that goes beyond simply requesting additional 
funding.
                              the process
    The effort to develop NEMA's Proposal for a Comprehensive 
Preparedness Grants Structure began over the summer of 2011 and 
produced more than 20 drafts of concepts. From the beginning, we wanted 
to address your long-standing concerns with these programs without 
repeating the assumptions of the past. We also wanted to take into 
account current initiatives within FEMA. We assembled a group of 
homeland security and emergency management professionals from across 
the country including State emergency management directors, Governors' 
homeland security advisors, and those with both responsibilities. An 
important detail to remember is that many of the authors come from a 
range of backgrounds including the military, emergency medicine, law 
enforcement, fire, and emergency management.
    We were not trying to reinvent the grant programs from scratch, but 
rather take 10 years of experience to create the next logical iteration 
of these programs. The NEMA membership approved this document at our 
annual conference in October 2011. The final product is not meant to be 
legislative language or grant guidance, but rather one focusing on 
principles and values with a suggested concept for reorganization 
providing grantees increased flexibility and more comprehensive 
accountability to Congress.
    Perhaps the least difficult aspect of the proposal to develop was 
the principles and values. As we have discussed our plan with others, 
few seem to disagree with the tenets of supporting PPD-8; building a 
culture of collaboration; the ability to be agile and adaptive to 
confront changing hazards; building and sustaining capabilities; 
encouraging innovation; providing full visibility to all stakeholders; 
and recognizing the interdependencies of our National systems. The 
importance of these principles and values highlight a critical point in 
any retrospective on homeland security grants. Regardless of our 
country's fiscal situation, physical security and economic security are 
not mutually exclusive and can be achieved with a more streamlined 
grant structure.
                              the proposal
    Under the proposal, States would be awarded three allocations from 
DHS including EMPG, a new homeland security cadre grant, and a project-
based investment and innovation grant. These three grants would replace 
the myriad grants within the suite of homeland security grants as well 
as the Predisaster Mitigation Grant Program. The important point to 
remember throughout this entire discussion is that everyone who 
currently receives grant funding continues to be eligible under this 
proposed system.
    The full 4-page proposal is included with this statement to be 
submitted to the record, but there are five basic components:
    1. The THIRA.--Regardless of a grant reform initiative, FEMA is 
        instituting the requirement under PPD-8 for each State to 
        conduct and maintain a comprehensive Threat Hazard 
        Identification Risk Assessment (THIRA) in partnership with the 
        DHS and State officials. In our view, this process will have 
        limited effectiveness if implemented in the current grant 
        system due to shortcomings in the planning process. The 
        information gathered through the THIRA, however, is paramount 
        to supporting a comprehensive planning system.
    2. Comprehensive Planning.--Current planning efforts are fiscally-
        centric and focus on capabilities based on expected funding. 
        This approach impedes the effectiveness of the THIRA process. 
        It also limits our ability to measure progress and 
        capabilities. NEMA proposes the follow-up action to the THIRA 
        be a comprehensive preparedness plan which examines the full 
        range of needs, capabilities, and requirements to help buy-down 
        risk. As funding is allocated against long-range priorities, 
        the delta between ``need'' and ``capability'' will become 
        measurable over time. This analysis will aid Congress in 
        determining how much funding is needed to buy down the desired 
        amount of risk and a more detailed accounting of ``what we are 
        getting for the money?''
    3. Skilled Cadre.--A skilled cadre including homeland security and 
        emergency management personnel is imperative within any 
        comprehensive preparedness system. Responsibilities for this 
        cadre would include maintaining all-hazard planning efforts, 
        remaining current with appropriate levels of training and 
        exercises, supporting National priorities as outlined in PPD-8, 
        conducting public education, and grants management. The cadre-
        based grants will also support both the comprehensive THIRA in 
        coordination with DHS and the comprehensive preparedness 
        strategy to assess current capabilities and determine future 
        requirements.
    4. Investment Grants.--A majority of the funding through this new 
        system would go toward investment grants still made through a 
        single allocation to the State. Unlike the current system, the 
        proposed system would be project-based. The State 
        Administrative Agency (SAA) and local governments (as well as 
        combinations of grantees) would apply for funding based off 
        their completed THIRA and comprehensive preparedness strategy. 
        These applications are reviewed by a multi-disciplinary and 
        multi-jurisdictional advisory committee, and the SAA makes 
        awards as appropriate. This construct especially provides 
        stability for jurisdictions currently operating in the Urban 
        Area Security Initiative (UASI), ensuring a city can never 
        again ``fall off the list.'' Due to their significant security 
        issues, Tier 1 UASI's should continue to be funded directly. 
        This will ensure every urban area will be part of the THIRA and 
        application process and no one is left out.
    By realizing these economies of scale, several advantages are 
revealed:
  <bullet> All current grant applicants remain eligible to receive 
        funding including local jurisdictions, ports, modes of 
        transportation, and urban areas.
  <bullet> This new system ensures all grantees are integrated within 
        the State and local THIRA process as well as National 
        priorities. HSAs, SAAs, and emergency management directors have 
        far more visibility on allocation of funds within the State and 
        how projects and jurisdictions are working together for maximum 
        efficiency of the taxpayer dollars.
  <bullet> The comprehensive preparedness strategy demonstrates to 
        Congress and the administration where funding is utilized and 
        how it is leveraged against existing gaps.
  <bullet> This proposal allows the grant system to align with the new 
        PPD-8 environment.
                         the president's budget
    NEMA was pleased to see the administration also contribute to the 
positive dialogue of grant reform through their fiscal year 2013 budget 
proposal. While we were encouraged in seeing the administration echo 
many of our recommendations, as we have stated all along, a continued 
dialogue would be necessary.
    The administration's grant reform proposal appears based on many of 
the principles and values outlined by the NEMA proposal including 
support of the five mission areas of PPD-8; a culture of collaboration; 
agility and adaptability of the funds against threats and hazards; a 
strong and robust cadre of emergency management and homeland security 
personnel; recognition of the interdependencies of our National 
systems; increased accountability; and, flexibility at all levels of 
government. We would suggest there remain several aspects of the 
President's budget proposal which requires additional clarity:
    Pursuant to these principles and values, we would suggest several 
aspects of the President's budget proposal require additional clarity 
and further analysis:
  <bullet> The current planning process must be upgraded to reflect the 
        maturation of our preparedness efforts in the past 10 years. A 
        truly comprehensive system must allow for each State and 
        locality to determine core capabilities, set priorities in a 
        flexible manner, and measure performance and effectiveness 
        regardless of available Federal funds.
  <bullet> Those cities traditionally categorized as ``Tier 1'' in the 
        Urban Area Security Initiative (UASI) program should be 
        directly funded provided they also participate in the THIRA 
        process and comprehensive planning process. Furthermore, a 
        process by which other units of government such as transit and 
        port authorities or self-organized regions of governments such 
        as other current UASI participants can apply for funding should 
        be outlined. Giving direct funding without any requirement to 
        work with or support an overall State strategy, however, puts 
        the State in an untenable position as it continues to reward 
        geographic stovepipes and uncoordinated programs.
  <bullet> The THIRA process must focus on State and local governments 
        and include consequences of loss in the analysis and provide 
        the analytical rigor for understanding and problem solving for 
        complex issues. The system must also include the full range of 
        stakeholders including health, law enforcement, public works, 
        fire, land use, transportation, and the private sector. This 
        includes collaboration on planning, analysis, project 
        development, application review, and development of core 
        capabilities.
  <bullet> The administration's definition of ``regionalization'' in 
        terms of application review requires additional clarification. 
        Such peer review is best handled at the State level and should 
        focus on setting priorities for projects. Any National review 
        should be on the State priorities overall and not a micro-
        review of individual projects. Also, coordination of 
        development of specific National capabilities such as urban 
        search and rescue teams is necessary. NEMA addresses this issue 
        through the recommendation of a multi-disciplinary and multi-
        jurisdictional committee comprised of stakeholders across the 
        State to review all grant applications.
    The review committee of State-wide stakeholders is critical to the 
        development of a governance structure which ensures all 
        partners and grantees to maintain a voice through a project-
        based grants process. The committee would also be responsible 
        for enabling the range of threats and hazards to be considered 
        across the full spectrum of State and local activities. Such a 
        committee promotes fairness, reduces the politicization of 
        grants, and allows a voice for every constituency.
  <bullet> Priorities and select projects for local governments, ports, 
        and other entities, or for those entities to work with each 
        other within each State and among the States on the highest-
        value projects cannot be dictated by Washington. The allocation 
        systems of the past pitted city against city and port against 
        port with very little consideration of the complex 
        relationships of our economic system. The NEMA proposal 
        recognizes and values these relationships. There must be a 
        marketplace of ideas where value is determined by collaboration 
        between applicants rather than cut-throat competition between 
        them with winners and losers.
  <bullet> NEMA suggests only a small amount of the total grant funding 
        be held by DHS for competitive pilot projects to spark 
        innovation. Competition at the project level cannot be 
        calculated by separate groups or reduced to subjective grading. 
        Up to 5 percent of the funding should be utilized to support 
        innovative projects. The remainder of the funding from the 
        investment grant can then be devoted to project-based 
        applications by State and local grantees. This varies from the 
        administration's recommendation which continues to address 
        grant funding through stove-piped programs. By reducing layers 
        of review that impede the flexibility of the funding, an 
        efficient and effective flow of funding can be realized for 
        State and local projects.
    Working with you and our stakeholder partners, we remain confident 
a prudent approach forward can be found. Earlier this month, we 
submitted a letter to FEMA Assistant Administrator Elizabeth Harman 
outlining these differences and offering constructive solutions.
    As these critical issues to the safety and security of our Nation 
are being discussed, we hope you have been contacted by other 
associations and stakeholders providing innovative ideas. NEMA has been 
relentless in these past months working to develop a truly National 
approach while conducting a productive and forward-thinking dialogue. 
We feel strongly that the emergency management and homeland security 
community and representatives of all levels of government and 
disciplines must come together with National leaders to promote 
effective change and improve efficiencies in our preparedness system.
                               conclusion
    We greatly appreciate the opportunity to come before this committee 
and begin the discussion of comprehensive grant reform in an open and 
honest forum. We remain confident in the process we undertook and feel 
the final product is a good first step toward true reform and 
efficiencies. This Nation deserves security, but we also deserve 
solvency; and in these budget-constrained times, NEMA remains committed 
to working with you in achieving both of these goals.
       Proposal for a Comprehensive Preparedness Grants Structure
                             December 2011
                               background
    This Nation has made great strides in improving our safety and 
security. We have more comprehensive interoperable communications 
systems, regional response assets, a National system of intelligence 
fusion centers, and an unprecedented level of collaboration and 
teamwork among State and local responders.
    Such programs as the Emergency Management Performance Grant (EMPG) 
Program and the Homeland Security Grant Program (HSGP) have done much 
to help public safety, law enforcement, emergency management, and a 
myriad of other professionals conduct a broad range of preparedness 
functions. From our neighborhood communities through all levels of 
government, we have acquired resources, achieved collaboration, and 
built systems to mitigate, prevent, prepare for, and respond to natural 
hazards and terrorist threats.
    The current grants structure is complex and often contradictory. 
This creates unintended inefficiencies in investments and duplication 
of efforts. The current and continuing fiscal condition of our Nation 
requires us to invest every dollar more wisely than ever before. We 
want to gain efficiencies in our grants so that we can increase the 
effectiveness of our mission.
    We cannot continue to segregate our efforts just because we did so 
in the past. We must integrate our efforts so that we are agile in 
confronting any threat to the homeland, whether it is natural, 
technological, or human-caused. We must build strengths and 
capabilities that are effective against many threats, reduce the 
consequences of many hazards, and thus reduce the risks to our Nation. 
We, therefore, require a comprehensive preparedness grants system to 
fulfill the requirements of those professionals with critical homeland 
security and emergency management responsibilities.
                          principles & values
    This Nation--its people and their vital interests--deserves and 
expects an effective and efficient National preparedness system 
providing safety and security. Therefore, this system must:
  <bullet> Support and enable the five mission areas of Presidential 
        Policy Directive 8 (PPD-8).--Prevention, protection, response, 
        recovery, and mitigation.
  <bullet> Build a culture of collaboration enabling a posture of 
        preparedness for all hazards from nature, terrorists, or 
        technology--capable of disrupting the social and economic 
        equilibrium of our Nation.
  <bullet> Be agile and adaptive to confront changing hazards, emerging 
        threats, and increasing risks.
  <bullet> Be unified on goals, objectives, and strategy among Federal, 
        State, Tribal, local, and territorial partners and with the 
        private sector, non-governmental organizations, and the public 
        at large.
  <bullet> Build and sustain a skilled cadre across the Nation that is 
        well-organized, rigorously trained, vigorously exercised, 
        properly equipped, prepared for all hazards, focused on core 
        capabilities, and resourced for both the most serious and most 
        likely threats and hazards. This cadre will be an asset to the 
        Nation through mutual aid, other assistance between States and 
        regions, or for National teams.
  <bullet> Build, enhance, and sustain capabilities, self-reliance of 
        the public, and resilience of our communities and Nation.
  <bullet> Reflect the fiscal responsibilities and limitations of the 
        present and the future. This Nation deserves safety and 
        security, but it also deserves solvency. A State and local 
        grant system must enable investments in capabilities that are 
        of value to communities, regions, States, and the Nation.
  <bullet> Continually encourage innovation and ceaselessly weed out 
        waste and inefficiencies.
  <bullet> Encourage States and communities to self-organize with their 
        neighbors to protect vital supply lines and assets and 
        infrastructure of mutual value and to enable swift, coordinated 
        response.
  <bullet> Recognize that States, Tribes, territories, and local 
        communities know their jurisdictions best.--They must have 
        flexibility to set priorities, design solutions, and adapt to 
        rapidly changing conditions. This must be done with full 
        accountability.
  <bullet> Provide full visibility to States, Tribes, territories, and 
        local communities of all Federal homeland security and 
        emergency management activities, investments, and programs 
        within their jurisdictions. This disclosure is essential for 
        full understanding of capabilities to address threats, hazards, 
        and risks.
  <bullet> Reinforce the value of leveraging Federal investments with 
        contributions from States, Tribes, territories, and local 
        governments and demonstrate the day-to-day value to 
        jurisdictions.
  <bullet> Continue to encourage and enable wide participation in 
        review of projects and investments.
  <bullet> Recognize the complex interdependencies of our National 
        systems, particularly the movement of goods, services, and 
        people. The vulnerabilities of a jurisdiction often lie outside 
        its borders and outside its ability to address them.
                                purpose
    We call upon Congress and the President to consider this proposal 
to reform State and local grants for the safety and security of our 
Nation. To this end, we seek to:
  <bullet> Encourage States, Tribes, territories, and local governments 
        to prepare and adopt comprehensive plans based upon their 
        evaluation of threats, hazards, risks, and vulnerabilities 
        facing them;
  <bullet> Outline a program of grants to States, Tribes, territories, 
        and local governments or combinations of governments improving 
        and strengthening the Nation's homeland security and emergency 
        management capabilities; and
  <bullet> Encourage research, development, competition, and innovation 
        enhancing the effectiveness and efficiency of emergency 
        management and homeland security and the development of new 
        methods for the prevention, preparedness, response, recovery, 
        and mitigation of natural disasters and acts of terrorism.
    This proposal presents a system enabling greater effectiveness in 
the mission with greater efficiency of resources. Over the past decade 
States, Tribes, territories, and local governments have created new 
organizational structures, gained invaluable experience, and increased 
our capacity to manage multiple threats and hazards.
    The high incidence of natural disasters and terrorist threats in 
the United States challenges the peace, security, and general welfare 
of the Nation and its citizens. To ensure the greater safety of the 
people, homeland security and emergency management efforts must work 
together with shared responsibilities, supporting capabilities, and 
measurable progress towards a National goal. This unity of effort is 
essential to achieve the vital objectives of PPD-8 and success of the 
National Preparedness System.
    This proposal outlines a system in which preparedness is a 
deterrent, prevention is achieved through collaboration, mitigation is 
a National value, and response and recovery encompass the ``whole of 
community.'' But the system works only where the principles guide the 
plans and where ideas lead to action. This reformed grant system shares 
control with those on the front line, enables flexibility while 
strengthening accountability, and ensures fiscal sustainability. State 
and local governments cannot do this alone.
               a comprehensive preparedness grants system
    A truly comprehensive preparedness grants system must allow for 
each State to determine core capabilities, set priorities in a flexible 
manner, and measure performance and effectiveness. This proposal 
recommends the creation or continuation of grants to coordinate 
planning, measure effectiveness, develop and sustain a skilled cadre, 
and invest in effective and efficient projects.
Planning
  <bullet> Conduct and maintain within each State a comprehensive 
        Threat Hazard Identification Risk Assessment (THIRA) in concert 
        with Department of Homeland Security (DHS) and State officials.
  <bullet> Develop a comprehensive preparedness strategy to assess 
        current capabilities, determine future requirements, and 
        evaluate recent progress and initiatives.
  <bullet> The strategy will focus on identified gaps and contain goals 
        and objectives to fill those gaps. The objectives will be 
        prioritized and funds will be prioritized to fill the most 
        important gaps accordingly. Identifying existing additional 
        capability that is owned and maintained by other jurisdictions 
        and readily available for response through mutual aid should be 
        an important planning activity.
A Skilled Cadre
    A skilled cadre is imperative within any comprehensive preparedness 
system and should be supported through a grants program. This skilled 
cadre includes emergency management and homeland security personnel. 
Since such expertise remains the backbone of any system, their 
responsibilities would include (but not be limited to):
  <bullet> Build and support State-wide emergency management and 
        homeland security all-hazards planning.
  <bullet> Provide comprehensive and appropriate levels of training and 
        conduct exercises for State and local personnel across the full 
        spectrum of emergency management and homeland security 
        responsibilities.
  <bullet> Support the National priorities outlined in PPD-8 and the 
        National Preparedness Goal.
  <bullet> Conduct public education and outreach to further whole of 
        community preparedness.
    Within the skilled cadre grant, the existing EMPG would continue in 
its present form, including allocation method, match requirement, 
eligibility, management, appropriate funding, and flexibility. The 
existing policy continues that allows emergency management to 
administer EMPG if not the State Administering Agency (SAA).
    A similar grant program will be established for State homeland 
security professionals affording the same opportunity to build and 
sustain a skilled cadre of personnel. This grant would be modeled after 
EMPG which has been proven highly effective due to the flexibility it 
provides along with accountability. EMPG currently maintains a 50/50 
match requirement. Any match on the cadre-based grant for homeland 
security professionals should be instituted with a soft match option, 
and done so gradually over time in consultation with the States and 
professions involved.
Investments and Innovation
    Many capabilities identified in the comprehensive planning system 
will require investment in longer-term projects and procurement to 
achieve needed levels of effectiveness. An investment grant program 
will enable decisions on priorities across the broad range of emergency 
management and homeland security functions. This also enables swift 
adjustments in priorities in light of changing threats or increasing 
risks.
    Unlike the homeland security cadre-based grant in which the SAA 
determines the allocation of funds to State and local jurisdictions, 
the investment grant focuses on sub-grantee applications for projects 
and other investments based on similarly comprehensive planning efforts 
at the local or regional level. States should establish and maintain a 
multi-disciplinary review committee that advises on investments and 
projects.
    Eligible applicants to the investment grant include all currently 
eligible grant recipients under HSGP, local governments or combinations 
of governments, urban areas, regions, or other State-level agencies 
conducting appropriate preparedness activities. States with urban areas 
currently classified as ``Tier 1'' by DHS will continue to receive 
funding specifically for those areas, upon completion of a 
comprehensive preparedness strategy that has been approved by the 
State. Funding that would have been allocated to other participants in 
the current UASI program should be placed into the investment grant.
    Eligible expenditures for investment grants should encompass all 
functions of the currently separate programs and the priorities of PPD-
8, including equipment purchase and transfer, construction of emergency 
operation centers or similar facilities, special response units, 
critical infrastructure and key resource protection, medical surge, 
protection and resilience, information sharing and intelligence, and 
grant management and administrative costs. Pre-disaster mitigation 
should be an eligible project under investment grants and due 
consideration given to disaster loss reduction and resilience 
initiatives. Substantial data exists to justify continued pre-disaster 
mitigation programs in determining any set of priorities, and the 
disaster mitigation community's interests groups must be intimately 
engaged in the grant prioritization process. Flood mitigation 
assistance and repetitive loss grants are not included as they are 
funded through the National Flood Insurance Program by insurance 
proceeds paid by policy holders. Furthermore, to continue supporting a 
culture of innovation, up to 5 percent of the total investment grant 
award may be distributed by DHS to unique and innovative programs 
across the Nation to encourage best practices.
                       an overview of the system
  <bullet> Each State conducts and maintains a comprehensive Threat 
        Hazard Identification Risk Assessment (THIRA) in concert with 
        Department of Homeland Security (DHS) and State officials.
  <bullet> A comprehensive preparedness strategy is developed to assess 
        current capabilities, determine future requirements, and 
        evaluate recent progress and initiatives.
  <bullet> The State is awarded three allocations from DHS, including 
        one for EMPG, one for the new homeland security cadre grant, 
        and one for the new investment and innovation grant.
  <bullet> Applicants will apply for funds from the investment grant 
        based upon completed preparedness strategies. Applications are 
        reviewed by a multi-disciplinary advisory committee, and the 
        SAA makes awards as appropriate.
                               conclusion
    Our Nation faces enduring hazards, pervasive threats, and ever-
changing risks. Our current system lacks the agility to adapt swiftly 
or convert ideas into action. We need the Nation to unite in a common 
vision of National preparedness, resilience, and self-reliance. This 
proposal enables States, Tribes, territories, and local government to 
leverage their own resources with the Federal investment to build this 
vision and be accountable for achieving it. We need all levels of 
government, supported by all professions and disciplines, to unite in 
this innovative National preparedness system.

    Mr. Bilirakis. Thank you very much. We appreciate it.
    Ms. Walker, you are recognized for 5 minutes.

    STATEMENT OF HUI-SHAN LIN WALKER, EMERGENCY MANAGEMENT 
  COORDINATOR, HAMPTON, VIRGINIA, TESTIFYING ON BEHALF OF THE 
        INTERNATIONAL ASSOCIATION OF EMERGENCY MANAGERS

    Ms. Walker. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, and distinguished Members of the subcommittee.
    I am Hui-Shan Walker, the emergency management coordinator 
of Hampton, Virginia, which is part of the Hampton Roads 
region. Our region is home to the largest naval base in the 
world and has facilities housing all branches of the armed 
services, with a population of around 1.6 million. As president 
of the U.S. Council of the International Association of 
Emergency Managers, I appreciate this opportunity to testify 
before you today.
    Efforts to secure the homeland for all hazards, including 
terrorism, must be collaborative, with participants from all 
levels and many disciplines. However, the proposed National 
Preparedness Grant Program, NPGP, included in the fiscal year 
2012 budget request, was developed and presented without 
consulting Congressional authorization committees or inclusion 
of key local stakeholders--local elected officials, first 
responders, and emergency managers.
    There is no disagreement at the local level that Homeland 
Security dollars should be spent where they are most needed in 
a transparent, efficient, and effective manner. There is also 
no question that, with diminishing Federal grant funding, that 
the current Homeland Security grant programs should be 
reassessed to ensure what funds are available, continue to 
support the capabilities, and to develop the capacities that 
are critical to our Nation.
    However, we are very concerned that the NPGP is a vision 
with very few details on how the process work and what the 
impacts would be. The limited additional information from FEMA 
leads to more questions than answers.
    This proposal collapses 16 Homeland Security grant programs 
into a State-centric block and competitive grant program. It is 
not clear if locals, who know best the threats and 
vulnerabilities in their area, will have the opportunity to 
meaningfully participate in the State-centric funding decision 
process being proposed. Local stakeholder input is vitally 
important to ensure that identified gaps at the local level 
continue to be met in a strategic and targeted methodology that 
ensures continuity of past efforts.
    NPGP requires that all projects funded must be based on 
capability gaps identified by Threat and Hazard Identification 
and Risk Assessment, the THIRA. The State-centric approach does 
not clearly explain how local government officials, local 
emergency managers, and first responders will meaningfully 
participate in the THIRA process. In addition, for example, 
will a designated UASI still be able to spend allotted funding 
on the needs it had determined as most critical and which met 
FEMA requirements and guidance, or could the funding be 
reallocated at the State level to State-identified priorities 
in the State THIRA?
    I would also like to point out that there are advantages to 
having multiple grant programs which address specific needs. 
Some essential programs have lower profiles and may not compete 
well in a consolidated grant program.
    This week is the anniversary of the swarm of deadly 
tornados in Alabama that killed 241 and injured many more. The 
medical response capability built by 14 Alabama counties with 
direct funding from the Metropolitan Medical Response System 
saved the lives of many of the injured. This group of locals 
analyzed their needs, planned, and exercised to respond to 
mass-casualty events. Likewise, earlier this month, when a Navy 
F/A-18 jet crashed into an apartment complex in Virginia Beach 
this month, the Hampton Roads Metropolitan Medical Strike Team, 
funded by MMRS, was prepared to respond should there have been 
mass casualties, if needed.
    Hampton Roads was eliminated from the UASI funding despite 
its large military community and vulnerability to hurricanes. 
However, it is a good example of a successful governance 
structure that has been built at the local level through 
regional collaboration. An urban area working group was formed 
with representation from the various disciplines involved in 
homeland security, including port authority and transit 
agencies, along with representatives from critical 
infrastructures, such as water utilities. The decisions for 
funding and implementation of projects have been made jointly 
to ensure that the region addresses its threats and gaps and 
leverages various Homeland Security grant programs to fill 
gaps.
    These are just a few of the examples across the country 
that show the local steering groups comprised of multi-
disciplinary, multi-jurisdictional leaders are able to 
determine the best way to allocate Homeland Security grant 
funds to meet gaps in their identified areas.
    In conclusion, the details matter, and there are still too 
many unanswered questions on how the NPGP would actually work. 
We have great concerns about a State-centric program. We do 
believe the path forward should be a collaborative effort of 
all the relevant stakeholders at all levels. We look forward to 
participating further in this important conversation.
    As you consider grant reform, we would urge you to consider 
the set of core principles developed by the 12 National 
organizations of locals, including elected officials, first 
responders, and emergency managers, which we have included in 
our statement.
    I, again, appreciate you holding the hearing and giving us 
the opportunity to participate. Thank you.
    [The prepared statement of Ms. Walker follows:]
               Prepared Statement of Hui-Shan Lin Walker
                             April 26, 2012
    Chairman Bilirakis, Ranking Member Richardson, and distinguished 
Members of the subcommittee, I am Hui-Shan Lin Walker, the emergency 
management coordinator for Hampton, Virginia. I have been a local 
government emergency manager for 12 years and before that worked for 5 
years in a local chapter's American Red Cross Disaster Services as an 
assistant director and director. I have also served as president of the 
Virginia Emergency Management Association. Currently, I serve as the 
president of the U.S. Council of the International Association of 
Emergency Managers (IAEM-USA).
    I appreciate this opportunity to testify before you on behalf of 
IAEM-USA. IAEM is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, Tribal nations, the 
military, colleges and universities, private business, and the non-
profit section. Most of our members are U.S. city and county emergency 
managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
    Efforts to secure the homeland for all hazards including terrorism 
must be collaborative. However, the proposed National Preparedness 
Grant Program (NPGP) was developed and presented as part of the fiscal 
year 2012 budget without consulting with Congressional authorization 
committees or inclusion of key local stakeholders--local elected 
officials, first responders, and emergency managers. The budget 
proposal for the NPGP is a vision with very few details.
    On March 30, FEMA provided a 2-page fact sheet about the program, 
then on April 16 held a stakeholders forum to have dialogue about the 
NPGP. Although we appreciated the opportunity to participate in the 
forum where additional information was shared, we consider it a 
beginning not an end of a collaborative effort with stakeholders to 
assess the programs, answer the multitude of outstanding process 
questions and help develop improvements.
    At the local level, there is agreement that homeland security 
dollars should be spent where they are most needed in a transparent, 
efficient, and effective manner. These grant programs were established 
and have been administered under the principle of a collaborative 
balance between Federal, State, and local discretion in how the funding 
would be used to address preparedness issues. This balanced ``whole 
community'' system allows local leaders to determine the best way to 
provide emergency services to their citizens. Local steering groups 
comprised of multi-disciplinary, multi-jurisdictional leaders were able 
to determine the best way to provide vital emergency services to their 
citizens. Therefore, we have serious concerns about the FEMA fiscal 
year 2013 budget proposal to collapse 16 homeland security grant 
programs into a State-centric block and competitive grant program. This 
proposed consolidation will impact the greatest part of the ``whole 
community'', the local community, as it will be severely challenged to 
maintain and sustain their current response capabilities.
    The primary reason for this concern is that each one of the current 
grant programs was initiated and funded by Congress to address a 
specific need. The blending of grant money into a single program would 
cause the eventual lack of identity and those specific needs may go 
unaddressed. There are advantages to having multiple grant programs 
which serve different purposes. Some programs are essential but have 
lower profiles and may not compete well in a consolidated grant 
program. There is no question that with diminishing Federal grant 
funding that the current homeland security grant programs should be 
reassessed to ensure that what funds are available continue to support 
the capabilities and to develop capacities that are critical to our 
Nation. There has not been enough specificity in the proposed vision to 
address how the consolidation process would work and the impacts to the 
current grant programs as they are today.
                     examples of capabilities built
    At this time I would like to share examples of some capabilities 
that have been built efficiently and effectively over the past decade 
with homeland security funds that have had different recipients with 
varying requirements to address specific needs. As a local emergency 
manger from Hampton, VA, I am part of the Virginia Beach-Norfolk-
Newport News, VA-NC Metropolitan Statistical Area (MSA) which is the 
fourth-largest metropolitan area in the southeastern United States, and 
the largest between Washington, DC and Atlanta. The 2000 Census 
estimated that 1.6 million residents live in Hampton Roads and ranked 
the region as the 31st-largest MSA in the country. Furthermore unlike 
many of the metropolitan areas across the country, Hampton Roads' 
population is not centered in one city, but spread broadly throughout 
the region.
    First, the Metropolitan Medical Response System (MMRS) funding was 
made available to 124 jurisdictions in 43 States to build local 
capacity for mass casualty events. It has been considered by many 
locals to be the cornerstone of their medical and responder team 
building across multiple agencies and disciplines. It was a small 
program which has great value but was cut in the fiscal year 2012 
budget. MMRS funding was direct to local jurisdictions to build the 
capacity they needed for man-made and natural disasters; particularly 
to build the capacity they needed in the critical 24-48 hours. The 
program guidance required a steering committee of multi-disciplinary, 
multi-jurisdictional leaders that were tasked to assess the specific 
medical response needs of the community. It was considered easier to 
use than some funds; the decision-making was at the local level and was 
flexible and adaptable to meet the local needs.
    On April 6, a Navy F/A-18D jet crashed into an apartment complex in 
Virginia Beach, VA. The first responders and emergency managers in the 
region had been training for years with the military for such an event 
and the results were seen in the efficient and effective response. This 
incident could have been much worse and had casualties other than the 
seven injured. In the event of a significant mass casualty, Hampton 
Roads has a 470-member (207 member on-call group) Hampton Roads 
Metropolitan Medical Strike Team (HRMMST) that provides on-scene 
expertise and resources to the Incident Commander during a disaster. 
They were on standby during this incident. The HRMMST is a chemical, 
biological, radiological, nuclear, and explosives (CBRNE) trained 
medical emergency response team that maintains a redundant response 
capability of personnel, trucks, trailers, equipment, supplies, and 
communications. This capability was built and funded with MMRS grant 
funds.
    Hampton Roads was designated an Urban Area Security Initiative 
(UASI) region from 2007-2011. The funding for UASI programs also 
allowed for capabilities such as utilization of radio caches and WebEOC 
for situational awareness and communication between the military, local 
first responders, and local and State emergency managers during the 
recent jet crash incident. Military communities have been mentioned as 
the most at-risk for terrorism by Secretary Napolitano and in a special 
report by Congressman Peter King. Hampton Roads has the largest Naval 
base in the world and has facilities housing all the branches of the 
armed services. As was seen during this recent incident, the military 
relies on the abilities of the local first responders. Unfortunately, 
the Hampton Roads region was eliminated from the fiscal year 2012 UASI 
funding despite its large military community and vulnerability to 
hurricanes.
    Another example of the effectiveness of the MMRS program can be 
seen in the response to the swarm of devastating tornadoes that hit 
Alabama and killed 241 people April 27 last year. Huntsville/Madison 
County, Alabama used MMRS funds to develop plans and build medical 
response capability in 14 counties. Responders and medical teams 
trained as part of MMRS and the equipment and supplies which were 
purchased were deployed and used in the impacted areas including the 
most rural counties. Rough terrain vehicles which had been equipped 
with stretchers were used to bring victims from the debris fields to 
waiting ambulances. Each county has a cache of trauma and triage 
equipment that was used during the response. Patients were efficiently 
triaged and transported saving many lives.
    Second, the Hampton Roads UASI has promoted regional collaboration 
through its governance structure. The HR Urban Area Working Group 
(UAWG) has representation from the various disciplines involved in 
homeland security including the Port Authority and Transit agencies 
along with representatives from critical infrastructures such as water 
utilities. The decisions for funding and implementation of projects 
have been made jointly to ensure that the region addresses its threats 
and gaps that have been identified through gap analyses conducted over 
the last couple of years. As a region through our collaboration, we 
have been able to leverage various homeland security grant programs 
with different recipients and requirements to fill gaps. An example is 
that UASI funds were used to train and equip 75 members of an All 
Hazards Incident Management Team (AHIMT) and Port Security funds were 
utilized to fund the mobile command unit to support the AHIMT. This 
resource is a deployable regional asset that through collaboration was 
funded even as grant funds were diminishing because as a region it was 
identified as a gap that needed to be filled. The proposed FEMA NPGP 
would negatively affect this regional collaboration by not leveraging 
the current effective governance structure established by UASI. Instead 
the new approach would authorize a competitive grant program that could 
pit homeland security partners against one another. There are many more 
examples of how homeland security funds have been used to address gaps 
in our local capabilities across the Nation to better respond to man-
made and natural hazards, but I just wanted to highlight a few where a 
difference was made to our local communities.
           concerns and unanswered questions on npgp proposal
    There are still many unanswered questions and concerns regarding 
the NPGP that need to be addressed. A few that I would like to 
highlight are as follows:
  <bullet> A significant change is that projects must be based on 
        capability gaps identified by in a Threat and Hazard 
        Identification and Risk Assessment (THIRA). The State-centric 
        approach does not clearly explain how local government 
        officials, local emergency managers, and first responders will 
        participate effectively and efficiently in the THIRA process in 
        order to address capability gaps at the local level. The local 
        assessment of capability gaps is based on the needs of real 
        responders who are best suited to make those decisions. In 
        addition, there has been a lot of homeland security funds 
        already dedicated to performing gap analyses for local regions 
        over the past decade to assist in prioritizing where funds were 
        dedicated to guide investments. How are those assessments that 
        focused on Target Capabilities and Core Capabilities going to 
        transition to the THIRA?
  <bullet> Furthermore, with the competitive funding pool also based on 
        the regional THIRAs at the Federal level, how do State and 
        locals address their capability gaps in the event that their 
        THIRA identifies conflicting priority gaps? Which THIRA will 
        take precedence for funding and/or what is the process to 
        resolve the differences?
  <bullet> The current law requires that 80% of the State Homeland 
        Security Grant program funds support local identified gaps in 
        capabilities. How will this be ensured through the wholesale 
        consolidation of the current 16 separate homeland security 
        grant programs into one which seems to ignore the requirements 
        of the 9/11 Act? Local stakeholder input is vitally important 
        to ensure that identified gaps at the local level continue to 
        be met in a strategic and targeted methodology that ensures 
        continuity of past efforts.
  <bullet> Will the funding support building all-hazards capabilities? 
        Again, there is no clear guidance, just a vision without local 
        stakeholder input. The NPGP emphasizes Nationally deployable 
        assets, which seems to focus just on response alone, but there 
        is an emergency management system that includes prevention, 
        protection, preparedness, recovery, and mitigation with gaps 
        that also need to be addressed. We should not forget the 
        lessons of Hurricane Katrina.
  <bullet> How will the process work for the Urban Area Security 
        Initiative (UASI)? We understand that a selected number of UASI 
        jurisdictions would receive a designated amount of funding from 
        FEMA through the SAA as is current practice. The UASI would 
        prepare an investment justification (IJ) and provide it to FEMA 
        though the SAA as is current practice. However, under the NPGP 
        would the UASI be able to spend the funding on the needs it had 
        designated as most critical and which met FEMA requirements and 
        guidance through previous risk assessments and gap analyses or 
        would the funding be reallocated at the State level to 
        identified priorities in the State THIRA?
                   principles for program improvement
    In response to the proposed NPGP, 12 National organizations of 
locals including elected officials, first responders, and emergency 
managers have developed a set of core principles to guide grant program 
reform--principles which we would urge you to consider as you evaluate 
reform proposals.
  <bullet> Increased Transparency.--It must be clear and understandable 
        to the Federal Government and the public how the States are 
        distributing funds, why they are making these decisions, and 
        where the funds are going.
  <bullet> Greater Local Involvement.--Local government officials, 
        including emergency managers and emergency response officials, 
        know best the threats and vulnerabilities in their areas. The 
        THIRA process must include the input of local elected and 
        emergency response officials, and FEMA must be able to audit 
        States by comparing local risk assessments to the State-level 
        THIRA. Further, local governments should have the opportunity 
        to challenge a State THIRA that inadequately reflects their 
        needs or input.
  <bullet> Flexibility with Accountability.--Any changes to the 
        existing Federal grant programs should allow Federal funding to 
        meet individual local needs, and preparedness gaps as 
        identified at the local level. Effective but sometimes less 
        politically popular programs, like mitigation, must still 
        receive funding.
  <bullet> Protect Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        the vast majority of Federal homeland security grants continue 
        to fund local prevention and response activities, including 
        local emergency managers and first responders, and activities 
        that support their preparedness efforts.
  <bullet> Sustain Terrorism Prevention.--The current emphasis on 
        supporting law enforcement's terrorism prevention activities 
        must be maintained. The Federal grant funds should not be used 
        to support larger State bureaucracies at the expense of 
        operational counter-terrorism preparedness, threat analysis, 
        and information-sharing activities.
  <bullet> Incentives for Innate Regionalization.--FEMA's proposal 
        focuses on States and multi-State regions (similar to the FEMA 
        regions). The homeland security grants must also support 
        preparedness in metropolitan intra-State and inter-State 
        regions.
                            the path forward
    The details matter and there are still too many unanswered 
questions on how the NPGP would actually work. A policy shift toward 
developing only those capabilities applicable to a National level event 
will greatly diminish the ability of local first responders to provide 
emergency services during the first critical hours or days of such an 
event.
    We recommend that the dialogue continue with DHS/FEMA, the 
Congress, and all relevant State and local stakeholders. On April 24, a 
letter was sent by twelve National organizations of locals to Secretary 
Napolitano and Administrator Fugate suggesting that the Department not 
rush to make major changes this year, but let the changes being 
implemented in the fiscal year 2012 budget play out and be evaluated. 
This would give time for the Department to work with key local and 
State stakeholders in a collaborative way to develop reforms which 
incorporate the successful elements of the homeland security programs 
and identify changes which need to be made. We have attached this 
letter and would appreciate it being part of the hearing record.
    I appreciate the opportunity to testify on this important topic and 
would be happy to answer any questions you may have.
                                 ______
                                 
  Attachment.--Letter to Secretary Napolitano and Administrator Fugate
                                    April 24, 2012.
The Honorable Janet Napolitano,
Secretary, U.S. Department of Homeland Security, 3801 Nebraska Ave NW, 
        Washington, DC 20528.
The Honorable Craig Fugate,
Administrator, Federal Emergency Management Agency, U.S. Department of 
        Homeland Security, 500 C Street SW, Washington, DC 20472.
    Dear Secretary Napolitano and Administrator Fugate: Our 
organizations were very pleased to be able to have had an opportunity 
to participate in the April 16 stakeholders' forum on the National 
Preparedness Grant Program proposal. As was discussed during the 
session, it was an excellent beginning for what we hope will be a 
collaborative process to assess the Department's current suite of 
homeland security programs and craft needed improvements in them. We 
particularly appreciate the inclusive and thoughtful way in which FEMA 
Deputy Administrator for Protection and National Preparedness Tim 
Manning conducted the session.
    We suggest that the Department not rush to make major changes this 
year. You are currently implementing the changes Congress made through 
the fiscal year 2012 appropriations bill--changes which gave the 
Department greater flexibility to focus grant programs on what it 
considers to be the highest priorities, while protecting program 
funding to the highest-risk urban areas and port and transportation 
infrastructure. We would suggest that you give this approach at least a 
year to play out and evaluate it before moving ahead with the 
significant changes proposed in the National Preparedness Grant 
Program.
    We also suggest that you wait at least a year because it was clear 
from the April 16 meeting that many details relating to the NPGP have 
yet to be worked out and that we cannot expect they can be in a manner 
that will work for all parties in the time available this year. At this 
point we seem to have more questions than answers.
    This will also provide time for your Department to work with our 
organizations and other stakeholders to develop reforms which 
incorporate the successful elements of past and current programs and 
identify new approaches which can have broad support.
    Our organizations have developed a set of core principles to guide 
program reform--principles which we would hope you can support as well:
  <bullet> Increased Transparency.--It must be clear and understandable 
        to the Federal Government and the public how the States are 
        distributing funds, why they are making these decisions, and 
        where the funds are going.
  <bullet> Greater Local Involvement.--Local government officials, 
        including emergency managers and emergency response officials, 
        know best the threats and vulnerabilities in their areas. The 
        THIRA process must include the input of local elected and 
        emergency response officials, and FEMA must be able to audit 
        States by comparing local risk assessments to the State-level 
        THIRA. Further, local governments should have the opportunity 
        to challenge a State THIRA that inadequately reflects their 
        needs or input.
  <bullet> Flexibility with Accountability.--Any changes to the 
        existing Federal grant programs should allow Federal funding to 
        meet individual local needs, and preparedness gaps as 
        identified at the local level. Effective but sometimes less 
        politically popular programs, like mitigation, must still 
        receive funding.
  <bullet> Protect Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        the vast majority of Federal homeland security grants continue 
        to fund local prevention and response activities, including 
        local emergency managers and first responders, and activities 
        that support their preparedness efforts.
  <bullet> Sustain Terrorism Prevention.--The current emphasis on 
        supporting law enforcement's terrorism prevention activities 
        must be maintained. The Federal grant funds should not be used 
        to support larger State bureaucracies at the expense of 
        operational counter terrorism preparedness, threat analysis, 
        and information-sharing activities.
  <bullet> Incentives for Innate Regionalization.--FEMA's proposal 
        focuses on States and multi-State regions (similar to the FEMA 
        regions). The homeland security grants must also support 
        preparedness in metropolitan intra-State and inter-State 
        regions.
    We hope that you will give serious consideration to our suggestions 
to move in a deliberate manner, to take time to evaluate how the 
current year's funding system is working, and to work with a broad 
group of stakeholders to develop proposals for the future based on a 
set of principles upon which many of these stakeholders have already 
agreed. If we can provide you any further information on this, please 
contact Mitchel Herckis, Principal Associate for Federal Relations, the 
National League of Cities[.]
                          National Association of Counties,
                                 National League of Cities,
                    The United States Conference of Mayors,
U.S. Council of the International Association of Emergency 
                                       Managers (IAEM-USA),
                  International Association of Fire Chiefs,
                International Association of Fire Fighters,
                           National Volunteer Fire Council,
                     Congressional Fire Services Institute,
                            National Sheriffs' Association,
                        Major County Sheriffs' Association,
                           Major Cities Chiefs Association,
                    National Homeland Security Association.

    Mr. Bilirakis. Thank you very much for testifying. I 
appreciate it.
    Mr. Freed, you are recognized for 5 minutes.

STATEMENT OF JUDSON M. FREED, DIRECTOR OF EMERGENCY MANAGEMENT 
  AND HOMELAND SECURITY, TESTIFYING ON BEHALF OF THE NATIONAL 
                    ASSOCIATION OF COUNTIES

    Mr. Freed. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, distinguished Members of the subcommittee.
    I am Jud Freed. I am director of emergency management and 
homeland security for Ramsey County, Minnesota. I am chair of 
the Twin Cities Urban Area Security Initiative and vice chair 
of the Subcommittee on Homeland Security and Emergency 
Management at the National Association of Counties, or NACo. It 
is in that capacity that I appear here today, representing the 
elected and appointed officials of America's 3,068 counties. I 
can't express to you how honored I am to be here and have a 
chance to summarize my written statement.
    America's counties echo the concerns voiced here last month 
by Mayor Nutter that the NPGP, as currently proposed, has not 
been adequately constructed and was developed without adequate 
input from local stakeholders. If realized as currently 
designed, it will generate even more conflict between the local 
and State governments at the expense of the strategic 
partnerships built at the cost of more than 10 years of work 
and $35 billion in taxpayer funds.
    While proposing that the NPGP be a new block grant may be a 
worthwhile concept and certainly deserves consideration, it 
must not be implemented at the cost of dismantling what has 
already been built and consigning local risk to a minor role.
    In fact, the history of the States' use of block grants 
intended to support public safety has been mixed at best. As an 
example, the Emergency Management Performance Grant, or EMPG, 
is the only all-hazards program focused on capacity building at 
the local level. Despite the fact that it is vital to the basic 
emergency management fabric of the Nation, like the new 
proposal, EMPG has no requirements on the amount of assistance 
that States must disburse. As a result, of the 48 States with 
county government structures, the States keep more than half 
the funds, on average, and some States keep more than 60 
percent of that money for State operations.
    Fortunately, in my home State of Minnesota, our State has 
chosen to share a great deal more of the EMPG funds with locals 
than is the average. However, States like Minnesota, which 
might also pass through more than average in the NPGP, may find 
themselves at a disadvantage in capability building within 
their own organization, and this itself is a disincentive to 
further collaboration.
    The new NPGP exacerbates this disincentive by adding both 
competitiveness, which is adjudicated as the individual States 
see fit, and the lack of passthrough requirements. So local 
governments must continue to have a significant role in this 
process, and Federal aid must be sustained.
    It is aid that we ask for. We don't ask for full payment. 
Financially, we already pay for the vast majority of the 
mission, and we already own most of the equipment that is used 
Nation-wide in responses to all hazards. It is our local 
firefighters, our local law enforcement, our local EMTs and 
paramedics, our local public health, our local medical and 
public works personnel who are first on the scene and manage 
the long-term recovery. It is our local personnel who staff 
those State fusion centers and provide the information and the 
personnel needed for the large State teams that respond in a 
time of National need.
    Now, fittingly, there is some reimbursement for local 
expenses during those brief deployments, but we locals pay for 
their training and everything else for the other 50 weeks out 
of every year. We build the public safety agencies at home that 
are robust enough to allow us to send our local personnel out 
to someone else at the time of need.
    Now, if our mission is public safety merely at the local 
level, we can do that, but at the expense of being able to aid 
the rest of the country, and that is not what the Nation 
requires. It is for that reason, the ability of locals to 
collaborate and assist across our State and across the Nation, 
that we ask for the continuance of aid in general.
    Now, as for the THIRA, it is a good concept, but it must be 
given some time to be developed, grow, and be implemented. Can 
we really believe that the various THIRA data that is going to 
be gathered over the next year will be adequate or accurate, 
given the short notice for compliance with these new rules? Any 
THIRA must include the input of local elected and emergency 
response officials, and FEMA should be able to audit States by 
comparing local risk assessment to the State risk assessment. 
Local governments should have the opportunity to challenge the 
State THIRA that inadequately reflects their needs and input.
    What else would NACo and other stakeholders propose? Well, 
first, NACo acknowledges that during the almost 2 months that 
we have known about this proposal we have yet to solve a 
problem that has been 10 years in the making. Every year since 
the inception of the Homeland Security grants, the emphasis, 
guidance, and the methods for measurement have changed. Now, 
DHS says that with the new NPGP, that will put an end to these 
frequent changes. However, we assert that it will only stop the 
changes at the Federal level. So, instead of one constantly 
changing guideline in America, we will now have 50 of them, and 
we will still be unable to give you measurement.
    So America's 3,068 counties ask that you maintain, for now, 
the current suite of grants and emphasize maintenance of the 
capabilities we have already built over the past 10 years as we 
work with all of our stakeholders to develop program reforms 
and new approaches and work with our States to develop a THIRA 
that is actually of value. Then we can all make informed 
decisions as to what we should emphasize and how. We also ask 
that you maintain the core principles for developing new 
programs that we outlined in my written statement submitted to 
you earlier.
    In closing, I again thank you for the invitation to speak 
here today. NACo looks forward to working with this 
subcommittee, with Members of Congress in general, and with our 
colleagues and other stakeholders to build an effective and 
measurable homeland security enterprise in the United States.
    [The prepared statement of Mr. Freed follows:]
                 Prepared Statement of Judson M. Freed
                             April 26, 2012
    Chairman Bilirakis, Ranking Member Richardson, distinguished 
Members of the subcommittee, I am Judson Freed, director of the Office 
of Emergency Management and Homeland Security for Ramsey County, 
Minnesota; chair of the Twin Cities Urban Area Security Initiative, 
Government Affairs chair for the Association of Minnesota Emergency 
Managers; and vice chair of the Subcommittee on Homeland Security and 
Emergency Management at the National Association of Counties (NACo). It 
is in this later capacity that I appear here today--representing the 
elected and appointed county officials in our Nation's 3,068 counties. 
I cannot express to you how much I appreciate the chance to speak with 
you today, and how honored I am to be here.
    America's 3,068 counties echo the concerns so eloquently presented 
to you last month by Mayor Michael Nutter of Philadelphia and the 
United States Conference of Mayors (USCM). Specifically, that the 
National Preparedness Grant Program (or NPGP) as currently proposed has 
not been adequately constructed, and was developed without adequate 
input from local stakeholders. As Mayor Nutter pointed out, if the NPGP 
is realized as currently designed, it will generate even more conflict 
between the local and State governments at the expense of the strategic 
partnerships built at the cost of more than 10 years and $35 billion 
dollars of taxpayer funds.
    On behalf of NACo, I make this assertion based on the information 
released by the Federal Emergency Management Agency (FEMA) and the 
Department of Homeland Security (DHS) about the NPGP, and after reading 
FEMA's Comprehensive Preparedness Guide 201 or guidance for the 
development of the Threat and Hazard Identification and Risk Assessment 
(THIRA) for Preparedness Grants released just a few short weeks ago. 
The formulas, distribution, and intent of funding is more unclear than 
ever. The level of input of local stakeholders in constructing the 
program and in the allocation of funds under the program as currently 
designed is limited at best and equally non-transparent.
    While proposing that the NPGP be a new block grant administered by 
States may be a worthwhile concept and deserves consideration, it must 
not be implemented at the risk of dismantling what has been built and 
consigning local risk to a minor role--second to the needs of a State 
or region. The history of the States' use of block grants intended for 
support to local public safety has been mixed and tangled at best.
    For instance, the Emergency Management Performance Grant (EMPG) is 
arguably the most effective all-hazard program focused on capacity 
building for all-hazards preparedness, response, recovery, and 
mitigation at the State and local levels.
    As a State-administered block grant, EMPG is intended to be a pass-
through to locals, and requires a 50% financial match by locals. 
However, despite the fact that it is vital to the basic Emergency 
Management structure of the Nation, the program has no requirements on 
the amount of assistance that States must disperse to support local 
emergency managers. As a result, in the 48 States with county 
government structures, there is a range of some States keeping more 
than 70% of the funds and some States holding on to only 30% of funds 
over the past 4 years--and on average, States retain 52%. And even so, 
counties across the Nation can demonstrate to you the capabilities 
being developed.
    Fortunately, in my home State of Minnesota, the State has sub-
allocated to local emergency managers much more of EMPG than in many 
other States. However, States like Minnesota, which do pass through 
much more than average, may find themselves at a disadvantage in 
capability building within their own organization. This alone is a 
disincentive to collaboration.
    Let me further explain. Across all States, more than 2,000 State 
full-time employees are paid for in whole or part by EMPG funds (some 
40 per State), compared to funding just 4,300 mostly part-time local 
personnel across more than 4,000 local jurisdictions (3,068 counties 
and a thousand-plus municipalities). While Minnesota counties have been 
fortunate that both Republican and Democrat Governors and State 
Directors of Emergency Management and Homeland Security are willing and 
politically able to resist the National trend and support us at 
something close to the 50/50 match--what if they are forced out of that 
political ability?
    The new NPGP structure will encourage that disparity, and by adding 
both competitiveness (adjudicated as the individual States see fit) and 
lack of requirements (allowing self-interest and political pressure to 
trump risk and need) to the concept of the block grant, less will be 
done at the local level. As proposed, the NPGP will exacerbate the 
problems and competition, rather than solve the issues this 
subcommittee so rightly sees as needing attention.
    That is the reason we are here today. Congress is unwilling to 
appropriate sustained funding to the suite of homeland security grants, 
and sending less to States. The States then pass through less and the 
locals get less. This is not to say that States do not do good work 
with their agencies or work with many local stakeholders. But it is to 
say that when money gets tight and there is no firm mandate to work 
cooperatively, less will be shared and our resilience may be 
compromised.
    So, local governments must continue to have a significant role in 
the process, and Federal aid must be sustained. And it is aid we ask 
for, not full payment. Financially we pay for the vast majority of the 
mission, and we have virtually all of the assets in preparing, 
preventing, responding, and recovering from all emergency events, no 
matter the cause. OUR firefighters, OUR law enforcement officers, OUR 
emergency mangers, OUR EMT's and medics, OUR public health, medical, 
and public works personnel are the first on the scene and manage the 
long-term recovery. And it is our personnel who go out other 
jurisdictions across the country in time of National need.
    State fusion centers? Who is staffing them? Mostly OUR local 
people. U.S. Disaster Medical Assistance Teams, Disaster Mortuary 
Operational Response Teams, Search and Rescue teams, Emergency Medical 
Service Strike Forces? Those are OUR folks deployed to safeguard other 
communities. As one example, Minnesota's Incident Management Team 
members were local emergency managers deployed to New York and Boston 
after Hurricane Irene in 2011. As another example, Ramsey County sent 
deputies, police officers, firefighters, and public health 
professionals to areas affected by Katrina in 2005--as did many local 
governments. Fittingly, there was some reimbursement for local expenses 
during those deployments, but local agencies pay for the other 50 weeks 
in any given year. We also train them, and we work to build public 
safety agencies at home that are robust enough to allow us to send help 
to others in times of great need.
    If our mission is public safety merely at the local level, we can 
do that at the expense of providing aid Nationally. But that is not 
what our Nation requires. It is our job to take care of local needs; 
the States' jobs to support State-wide needs; and the Federal 
Government's job to support Nation-wide need and provide incentives for 
collaboration. It is for that reason--the ability of locals to 
collaborate and assist across the State and across the Nation--that we 
ask for Federal aid, and that is why it must be sustained.
    How do we measure National need when it is always changing, and 
what is the solution? We too want to ensure that we build National 
capacity, but measurements must be flexible as no States, regions, or 
communities have uniform and identical risk and need.
    What risks should we address? The THIRA for Preparedness Grants 
concept is an enhancement of old assessments, but must be given some 
time to be developed, grow, and be implemented in States, regions, and 
communities across the Nation. Can we really believe that the various 
THIRA data will be accurate given the short notice for compliance with 
new rules? Also, do local governments have the personnel capacity to 
produce an accurate THIRA? Not currently and this, too, will take time 
to build!
    Again, the THIRA can be a great idea given time, but the proposed 
guidance is only close to real risk assessment in concept. Any THIRA 
must include the input of local elected and emergency response 
officials, and FEMA must be able to audit States by comparing local 
risk assessments to the State-level THIRA. Further, local governments 
should have the opportunity to challenge a State THIRA that 
inadequately reflects their needs or input.
    So what else would NACo and other stakeholders propose?
    First, we must acknowledge that during the roughly 2 months we have 
known about this new proposal, we have not yet solved an issue that was 
10 years in the making. Every year, since the inception of the suite of 
homeland security grants, the emphasis of the awards, the guidance for 
expenditures, and the methods for measuring success at the local, 
State, and Federal level have changed.
    According to the DHS' proposal--the NPGP will stop these frequent 
changes; however, we assert that they will only stop the changes at the 
Federal level. So, instead of one constantly-changing guideline in 
America, there will now be 50 of them. As we see in EMPG, each State 
and region will administer the NPGP differently. Further, as the NPGP 
is not solely based on allocation, risk, and need, its competitive 
component will pit States--and even regions within States--against each 
other for funds. And as we cannot ensure the level of transparency of 
the program in all States, we will still be unable to measure success.
    We do know that when the assistance goes to local units of 
government, to fund State and Federal mandates as in the EMPG program, 
we can show effectiveness. In 2011, look at Missouri; look at 
Minneapolis; look at numerous other local responses to destructive 
tornados in communities last year. Look at the Twin Cities Urban Area 
Security Initiative response to the I-35 bridge collapse. The systems 
built over the years since 9/11 worked. Numbers? No. Measurable? Yes. 
Progress.
    Therefore, America's 3,068 counties ask that you maintain, for now, 
the current suite of grants and emphasize maintenance of the 
capabilities we have built over the past 10 years as we work with all 
stakeholders to develop program reforms which incorporate the 
successful elements of past and current programs and identify new 
approaches. In the interim, that will give us more time to produce an 
effective THIRA.
    Thereafter, we can provide Congress, DHS, and our communities with 
a realistic assessment of what the risks, capabilities, and gaps really 
are. Then, Congress and DHS can make an informed decision as to what 
should be emphasized and how.
    Cooperative agreements are not bad, but they must be cooperative. 
Join local governments and a full range of first responders charged 
with preventing, protecting against, and responding when incidents--
man-made and natural--occur, to craft a real solution even though it 
will take time. We need to identify, working with the States and with 
you here, what we mean by Homeland Security. Is it just terrorism? Then 
what about hurricanes, tornadoes, tsunamis, earthquakes, and other 
disasters?
    Also, we ask you to maintain the following core principles to guide 
reform of the suite of homeland security grant programs:
  <bullet> Increased Transparency.--The programs must be clear and 
        understandable to the Federal Government and the public as to 
        how the States are distributing funds, why they are making 
        these decisions, and where the funds are going.
  <bullet> Greater Local Involvement.--Local government officials, 
        including emergency managers and emergency response officials, 
        know best the threats and vulnerabilities in their areas. The 
        THIRA process must include the input of local elected and 
        emergency response officials, and FEMA must be able to audit 
        States by comparing local risk assessments to the State-level 
        THIRA. Further, local governments should have the opportunity 
        to challenge a State THIRA that inadequately reflects their 
        needs or input.
  <bullet> Flexibility with Accountability.--Any changes to the 
        existing Federal grant programs should allow Federal funding to 
        meet individual local needs and preparedness gaps as identified 
        at the local level. Effective but sometimes less politically 
        popular programs, like mitigation, must still receive funding.
  <bullet> Protect Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should primarily 
        support local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        the vast majority of Federal homeland security grants continue 
        to fund local prevention and response activities, including 
        local emergency managers and first responders, and activities 
        that support their preparedness efforts.
  <bullet> Sustain Terrorism Prevention.--The current emphasis on 
        supporting law enforcement's terrorism prevention activities 
        must be maintained. The Federal grant funds should not be used 
        to support larger State bureaucracies at the expense of 
        operational counterterrorism preparedness, threat analysis, and 
        information-sharing activities.
  <bullet> Incentives for Innate Regionalization.--FEMA's proposal 
        focuses on States and multi-State regions (similar to the FEMA 
        regions). The homeland security grants must also support 
        preparedness in metropolitan intra-State and inter-State 
        regions.
    In closing, I again thank you for the invitation to speak today, 
and NACo looks forward to continuing to work with Congress, Members of 
this committee, and our colleagues and other stakeholders to build a 
realistic, effective, and measurable Homeland Security enterprise in 
America.

    Mr. Bilirakis. Thank you so very much.
    Thanks to all of you for being here. It is very important 
for us to hear from you before we make our decisions.
    I now recognize myself for 5 minutes. My first question is 
for Mr. Davis.
    Mr. Davis, you mentioned the draw-down issue in your 
statement. Knowing that the States are trying to work with FEMA 
to spend down these previously appropriated funds, FEMA issued 
guidelines earlier this year in an effort to provide 
flexibility to grantees and assist in the draw-down effort.
    Has this been helpful to you? First question. Next, what is 
your view of the reduction of the period of performance? Will 
you be able to complete projects within the reduced time line, 
especially considering the limited opportunity for extensions?
    So I would like to ask you, Mr. Davis. Maybe Mr. Koon might 
want to comment on that question, as well. You are recognized.
    Mr. Davis. Thank you, Mr. Chairman.
    If I could start with the second question first, because I 
think that it is a very important question. I think that, you 
know, the reduction in time for the performance of the grants, 
because we are reducing the amount of money we have to spend, I 
don't think that it is going have that significant of an impact 
on it us.
    I mean, the reality is, when we look at, say, the State of 
Colorado, we are talking about a total of $5 million in grants. 
Two-and-a-half million of that is going to a UASI in Denver. 
So, really, we are talking about some significantly reduced 
grant funding, and we can use that funding to sustain the 
things that we have established. I think that we will be able 
to comply with those shortened performance periods without a 
problem. I don't see that being a problem in Colorado.
    With regard to your first question, I think that FEMA 
giving us additional latitude in how we spend the money is 
always a good thing. I think that we are--you know, the closer 
you get to the ground, the better able you are to see what the 
problems are and address them. Again, as I mentioned in my 
opening comments, I think that the State is in a position to 
see where that money should best be spent around the State.
    Thank you, sir.
    Mr. Bilirakis. Mr. Koon, do you wish to comment?
    Mr. Koon. Yes, sir, Congressman Bilirakis. The flexibility 
that FEMA granted in the spending of those has been moderately 
helpful. There are still certain requirements in there that are 
keeping them within the lanes that I alluded to earlier.
    Fortunately, when Florida allocates these dollars, we also 
allocate projects that are not funded. So for those projects 
that we will not be able to complete in time, we are able to go 
further down on the list and be able to execute some of those.
    Still, however, based on the shortened time frame, there 
will be some projects that we will not be able to complete in 
time. Therefore, we will likely leave some dollars unspent as a 
result of the shortened time frame.
    Mr. Bilirakis. All right.
    Next question for Ms. Walker, Mr. Freed. From a local 
perspective, will the reduction in the period of performance 
impact your ability to complete certain projects?
    Ms. Walker first, please. You are recognized.
    Ms. Walker. The time line, the reduction in force, our time 
line in expending the funding, we feel that we need to focus on 
the projects of where the money is spent, not how fast we spend 
it, but, you know, on the quality and the specific projects. We 
can always spend money on equipment very quickly, but at the 
same time there are some projects that are a little bit more 
complex that would take a little bit more time. The shortened 
time frame----
    Mr. Bilirakis. Why don't you give me a specific example of 
that?
    Ms. Walker. For example, you can buy equipment, personal 
protection, PPEs, you can buy radio equipment very quickly, 
expend funding, but there are some infrastructure projects that 
may take a little longer. By the time the funding gets to the 
local level, it takes a little longer to implement those, 
especially if you are putting in communications capabilities 
that usually take a little longer. They are multi-year 
projects, and they are being phased in.
    Mr. Bilirakis. Thank you.
    Mr. Freed.
    Mr. Freed. Yes, sir, Mr. Chairman. The other part that 
plays into all this are the legal delays that are introduced, 
as well. For instance, if you want to mount a videoconferencing 
monitor in your EOC to be able to talk to the other emergency 
operations centers, you need, in part, to do an environmental 
impact study, get all that approved by the various lawyers.
    So when we start restricting down to 2 years or even less--
because within, for instance, our State, in addition to 
whatever the Federal requirement is, the State has to close out 
their paperwork even before that--it makes it very, very 
difficult to do any real planning for the money. We end up then 
buying big bulk things that we know we can get done right away, 
rather than perhaps a slightly longer project.
    Certainly, you can't extend projects above grant deadlines 
as they are now. It make it very difficult to plan further than 
this grant cycle to get anything actually accomplished. So it 
is a problem for us, sir.
    Mr. Bilirakis. Thank you very much.
    Now I would like to recognize Ranking Member Richardson for 
5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Again, thank you all for being here.
    I want to talk a little bit about THIRA. Earlier this 
month, FEMA released the guidance for the Threat and Hazard 
Identification and Risk Assessment. Does this guidance provide 
the necessary information you need to conduct a comprehensive, 
accurate assessment? Do you believe that THIRA will provide 
sufficient information to the States to implement your 
strategic plans and allocate based upon the limited resources 
that you have been provided?
    Why don't we start with you, sir?
    Mr. Davis. Thank you, ma'am.
    I think that THIRA is a good start. You know, it provides 
an algorithm that allows us to try and quantify the risk. What 
concerns me, though, is that it is--you know, as long as we 
have it entirely a numerical formula, it doesn't take into 
consideration certain other things.
    For example, if we--part of that algorithm is the number 
of, say, for example, terrorist screening center hits, you 
know, we need to look at what the nature of those hits are. In 
Colorado, we have a lot of TSC hits because Denver is a port of 
entry at DIA. So if people are coming into DIA and then moving 
on to another city, really is that something that is adequately 
assigned to Denver?
    I think that we have to make sure that we have an 
opportunity to have some human review of the numbers that we 
come up with in the THIRA in determining how we best allocate 
funding in Homeland Security grants.
    Ms. Richardson. Have you shared those concerns yet with the 
Department?
    Mr. Davis. We have had the opportunity to talk about that 
through the GHSAC, and they were receptive, although, you know, 
this is--I mean, I think that this is something they are still 
working on.
    Ms. Richardson. Would anyone else like to speak to that 
question?
    Mr. Koon. Yes, ma'am, Representative Richardson. In Florida 
and from my colleagues at NEMA, we absolutely believe that 
conducting THIRA is the right way to move forward. It will help 
us ascertain what we have accomplished in the last 10 years and 
also analyze and understand where our gaps are so that we can 
better spend our dollars in the years ahead and make sure that 
we close that gap and achieve measurable results so that we can 
prove to the taxpayers that our dollars are being spent 
appropriately to achieve the National security that we are 
looking for.
    We also believe that this has to be driven from the local 
level. I concur with what my colleagues said, that a THIRA 
needs to take into consideration from the local level up to the 
State level so that we can truly understand what the needs of 
the State are across the State and that it should be used, 
therefore, to drive the projects that you are funding in the 
years forward.
    As to the guidance that has been provided by FEMA thus far, 
we are still analyzing that and trying to determine whether it, 
in fact, is going to be enough guidance for us to accomplish 
that by the end of the year.
    Ms. Richardson. Do you have a means to communicate with the 
Department?
    Mr. Koon. Yes, ma'am, at NEMA we have frequent and on-going 
conversations with our colleagues at FEMA. They have been 
receptive on hearing our concerns.
    Ms. Richardson. Okay.
    Ms. Walker.
    Ms. Walker. Yes, Ms. Richardson, thank you. The guidance 
that has been released, we still at the local level have great 
concerns that there is not enough guidance out there of how 
locals will get involved with the State THIRA. There has been a 
lot of assessments that have already been done in the past. 
Coming from a UASI region, we have done gap analysis, threat 
assessments to the target capability list and the core 
capabilities that have been out the last few years that we have 
been working toward. So what is the transition toward the 
THIRA, and how does that transition work so that all the work 
that has been done is actually seamless? That hasn't been 
cleared up.
    Then some States are still, like Mr. Koon was saying, 
working through and analyzing the guidance from the THIRA. But 
right now there is no clear definitive that locals will be 
allowed to engage with the States; there is no requirement.
    Ms. Richardson. Have you shared that feedback with the 
Department?
    Ms. Walker. Yes. We have been working with FEMA on that and 
providing that feedback and having that dialogue, yes, ma'am.
    Ms. Richardson. Okay.
    And you, sir?
    Mr. Freed. Representative Richardson, the THIRA concept 
actually is--we believe it is a pretty good concept. What I am 
worried about in general is the time line for this initial go-
through. With the short time that we have to produce the THIRA, 
particularly since none of us have ever done it this way 
before, what I am worried about is that the information that we 
generate will be somewhat less than accurate as we all sort of 
struggle with this new thing.
    It would be a much better tack, I believe, if this was 
extended out for 1 more year and we didn't make it on this 
very, very short time line. There is just too much unknown 
about it to guarantee to you or to the Department of Homeland 
Security that everything that we are going to give them is 
really accurate as opposed to best guess or simple guess.
    Ms. Richardson. Have you had an opportunity to share this 
feedback?
    Mr. Freed. We have begun the sharing of that feedback with 
our colleagues, yes.
    Ms. Richardson. Okay.
    Mr. Chairman, could I ask one last question of this panel?
    Mr. Bilirakis. Absolutely.
    Ms. Richardson. Ms. Walker, Mr. Davis made his position 
clear in terms of the State-centric approach, for obvious 
reasons given his role. But I think it is important also for 
the committee if you could share why State-centric is sometimes 
problematic from a local level, just so we have both sides that 
have weighed in with their position.
    Ms. Walker. Sure, Ms. Richardson.
    We believe that States are--they have been partners, we 
have been very good partners over the years, and that we need 
to continue that. But at the same time, with new guidance and 
the information that is coming out with the NPGP, it just makes 
it a little bit more challenging in the lack of clear guidance 
on how we can continue to work together. Some of the thoughts 
that we may have is that, you know, from a local perspective, 
which priority takes precedence? Can we come to an agreement on 
funding, and how do we support the priorities that might come 
out?
    But as a local, we still continue to work with the States 
and also work with our Federal partners. I think the 
conversation needs to continue, to work out the details.
    Ms. Richardson. Mayor Nutter had testified that they were 
not as involved in the ultimate process on the front end. Would 
you find that to be the case?
    Ms. Walker. Yes. At this time, with this guidance that has 
come out, we want to be more engaged. The guidance came out 
prior to engaging locals.
    Ms. Richardson. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    I now recognize the gentleman from New York, Mr. Turner, 
for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    I just have a question for Mr. Koon.
    You mentioned Tier 1 cities should be funded directly; 
also, transit and port authorities that cross over State lines 
should be able to apply directly to the NPGP. Can you explain 
why you think this is necessary? What would the mechanics be 
from where we are now?
    Mr. Koon. Yes, sir. Thank you, Representative.
    With regards to UASI funding, NEMA's proposal recommends 
that we continue to fund the Tier 1 UASI cities. We recognize 
the unique challenge that those largest cities provide with 
regards to securing them against threats to the homeland. We 
also recognize the fact that they play a vital role in 
America's economy and America's way of life. So we believe it 
is incumbent that we retain Federal funding, Federal-level 
funding, for those cities.
    I say that as the emergency manager for a State that does 
not have a Tier 1 city, because we recognize that anything that 
happens to New York City, to Boston, to Chicago, to Los 
Angeles, would have economic ramifications across the country 
and would impact Florida's economy. So we believe that we 
should continue to fund Tier 1 cities separately from the NPGP 
projects.
    With regard to the port and transit systems, in Florida our 
ports are directly adjacent to the surrounding communities; 
they are next to the retail infrastructure, to the housing 
infrastructure, to everything else that goes on there. So we 
believe that they should be considered as part of that overall 
system.
    Rather than creating them as a walled fortress, they need 
to take into account the fact that the power comes from outside 
that port. The infrastructure that supports the communication, 
the labor pool, the roads, other infrastructure that supports 
that is a regionally-based system. We believe that that 
infrastructure can best be protected by considering that as an 
entire system as opposed to an individual entity within that 
system.
    Mr. Turner. Thank you.
    I yield back, Mr. Chairman.
    Mr. Bilirakis. Thank you very much.
    I appreciate it. This has been very informative, a great 
discussion. Thank you very much for your testimony. I will go 
ahead and dismiss the first panel. Thank you.
    I would like to welcome our second panel. Thank you again 
for your attendance.
    Our first witness is Commissioner Richard Daddario. I hope 
I pronounced that right. Commissioner Daddario is the deputy 
commissioner for counterterrorism with the New York City Police 
Department. Welcome, sir. Prior to assuming this position, 
Commissioner Daddario served as the U.S. Department of 
Justice's attache in Moscow and as an assistant U.S. attorney 
for the Southern District of New York. Commissioner Daddario 
received his undergraduate degree and law degree from 
Georgetown University.
    Following Commissioner Daddario, we will receive testimony 
from Mr. Robert Maloney. Mr. Maloney is the director of the 
Baltimore Office of Emergency Management. Before joining 
Baltimore OEM, Mr. Maloney served as the chief of staff of the 
Baltimore City Fire Department, an emergency medical services 
lieutenant, and a firefighter/paramedic. Mr. Maloney has served 
in the United States Naval Reserve, and thank you very much for 
your service, sir. Mr. Maloney is a graduate of Towson 
University and the Johns Hopkins University master's in public 
safety leadership program.
    Next, we will receive testimony from Chief Hank Clemmensen. 
Mr. Clemmensen is the chief of the Palatine Rural Fire 
Protection District, a position he has held since 2001. Chief 
Clemmensen is also vice president of the International 
Association of Fire Chiefs. Chief Clemmensen has a bachelor's 
of science from Northern Illinois University and has completed 
graduate studies in public administration through Northern 
Illinois University.
    Following Chief Clemmensen, we will receive testimony from 
Mr. Richard Wainio. Mr. Wainio is the Tampa Port director and 
chief executive officer, a position he has held since 2005. Mr. 
Wainio has worked in the maritime industry for nearly 35 years, 
including 23 years employed at the Panama Canal, and serving as 
the organization's senior economist, director of economic 
research and market development, and director of executive 
planning. Mr. Wainio earned his bachelor's degree from Davidson 
College and his master's in international management from the 
Thunderbird School of Global Management.
    Finally, we will receive testimony from Mr. Michael 
DePallo. Mr. DePallo is the director and general manager of the 
Port Authority Trans-Hudson Corporation, a position he has held 
since April 1996. Mr. DePallo has also worked at Bay Area Rapid 
Transit District, the Massachusetts Bay Transportation 
Authority, and the Southeastern Pennsylvania Transportation 
Authority. Mr. DePallo served as the chair of the American 
Public Transportation Association's Security Affairs Steering 
Committee and chair of the Mass Transit Sector Coordinating 
Council. Mr. DePallo earned a master of city planning degree, 
specializing in public transportation, from the University of 
Pennsylvania.
    I would like to welcome all of our witnesses. We look 
forward to your testimony. Your entire written statements will 
be entered into the record, and I ask you to summarize your 
testimony for 5 minutes.
    Why don't we start with Commissioner Daddario? Welcome, 
sir. You are recognized.

      STATEMENT OF RICHARD DADDARIO, DEPUTY COMMISSIONER, 
    COUNTERTERRORISM BUREAU, NEW YORK CITY POLICY DEPARTMENT

    Mr. Daddario. Good afternoon, Mr. Chairman, Ranking Member 
Richardson, Congressman Turner. Thank you for this opportunity 
to represent the New York City Police Department today before 
this subcommittee. My prepared remarks address this committee's 
interest in the proposal in the President's fiscal year 2013 
budget request to consolidate grant programs into a new 
National Preparedness Grant Program.
    As you know, New York City is committed to the fight 
against terrorism and commits enormous resources toward 
security. Twice attacked, often threatened, we cannot do 
otherwise, but we cannot go it alone; we need Federal 
assistance. The NYPD relies heavily on DHS Federal support, 
critical for its counterterrorism programs, terrorism 
investigations, and high-visibility operational deployments. 
DHS grant funding has played a crucial in helping the NYPD 
carry out its mission and keeping New York City and the New 
York City metropolitan area and the region safe. For this 
reason, any time significant changes in the FEMA grant process 
are proposed we want to be part of the discussion.
    Today I will touch on a few concerns we have about the 
President's fiscal year 2013 budget request and the vision for 
this new program.
    First, it is important that a clear line be drawn between 
funding to address terrorism and funding related to other 
risks, which are commonly referred to as ``all hazards.'' On 
this issue, we think the focus for the city of New York must 
remain on terrorism rather than other hazards.
    Given the threats New York City and the rest of the country 
continues to face, it is necessary to provide high-risk 
municipalities with targeted counterterrorism dollars. For this 
reason, it is absolutely essential that the newly-formed DHS 
grant program remain aligned with the 9/11 Act's objective of 
providing Federal grant funds to prevent, protect against, 
mitigate, respond to, and recover from acts of terrorism.
    Having said that, you will understand why we urge you to 
maintain the Urban Areas Security Initiative, the UASI program. 
It is necessary to have a stand-alone program that provides the 
highest-risk urban areas with targeted funding, and that is 
what UASI does. It directs limited Homeland Security grant 
funds available to the programs that are most effective in the 
cities that are at most risk. Moreover, the existing UASI 
governance framework works well and already reflects the 
principles of the Threat and Hazard Identification and Risk 
Assessment. The UASI framework builds and sustains region-wide 
capabilities. The framework assures that capabilities are 
cross-jurisdictional, readily deployable, and multipurpose.
    Now I will shift now to a couple of process issues, 
beginning with grant periods, where a rigid 24-month period is 
under consideration. Grant periods must balance the goal of 
efficiency with the need for flexibility. Building and 
sustaining capabilities involve long-term commitments. Grant 
cycles of 2 years with limited to no extensions are not 
realistic. They will prevent jurisdictions from undertaking 
innovative multi-year projects.
    It is important to note that, in many instances, municipal 
procurement rules, for example, require the agency to have the 
funding in hand before they can even begin the contracting 
process. Procurement processes can take up to a year to 
complete. Moreover, a 24-month period will encourage 
municipalities to pay vendors the full value of any contract up 
front. They will not allow agencies to responsibly manage their 
vendors and contracts. For these reasons, it is imperative that 
the grant period remain at 36 months, with extensions provided 
as necessary and justified.
    The next process issue relates to bureaucratic delay. 
Congress should seek to minimize the layers of bureaucracy 
involved in administering DHS grant programs. These layers of 
bureaucracy can create unnecessary cost and delay. For example, 
today the NYPD must go through two intermediaries before 
investment justifications for key security projects even get to 
FEMA. FEMA's responses have to go through the same layers. 
These layers can result in months and months' worth of delay on 
some of the most straightforward issues.
    Finally, I want to make a pitch for operational programs. 
To the extent that Congress chooses to continue to set aside 
funding specific to port and transit asset protection, it is 
essential that these dollars not be limited to capital programs 
but include operational programs as well. I will give you an 
example. For example, the NYPD has been responsible for 
security of the subway for nearly 2 decades, but it is the MTA, 
not the NYPD, which is the direct grantee. That simply does not 
make sense.
    Thank you. I will end here, and I will do my best to answer 
any questions you may have. Thank you very much.
    [The prepared statement of Mr. Daddario follows:]
                 Prepared Statement of Richard Daddario
                             April 26, 2012
    Good morning, Mr. Chairman, Ranking Member Richardson, and Members 
of the subcommittee. Thank you for this opportunity to represent the 
New York City Police Department before the Subcommittee on Emergency 
Preparedness, Response, and Communications. For the record, my name is 
Richard Daddario. I am the deputy commissioner of counterterrorism in 
the New York City Police Department.
    My prepared remarks address this committee's interest in the 
proposal in the President's fiscal year 2013 budget request to 
consolidate grant programs into a new National Preparedness Grant 
Program. As you know, New York City is committed to the fight against 
terrorism and commits enormous resources towards security. Twice 
attacked, often threatened, we could not do otherwise, but we cannot go 
it alone. The NYPD relies heavily on DHS Federal grants to support 
critical counterterrorism programs, terrorism investigations, and high-
visibility operational deployments.
    DHS grant funding has played a crucial role in helping the NYPD 
carry out its mission of keeping New York City safe. For this reason, 
any time significant changes to the FEMA grant process are proposed, we 
at the NYPD want to be a part of the discussion.
    Today, I will touch on a few concerns we have about the President's 
fiscal year 2013 budget request and the vision for the National 
Preparedness Grant Program (NPGP).
    First, it is important that a clear line be drawn between funding 
to address terrorism and funding related to other risks, which are 
commonly referred to as all-hazards. On this issue, we think the focus 
must remain on terrorism, rather than other hazards. Given the threats 
New York City and the rest of the country continue to face, it is 
necessary to provide high-risk municipalities with targeted 
counterterrorism dollars. For this reason, it is absolutely essential 
that the newly-formed DHS grant program remain aligned with the 9/11 
Act's objective of providing Federal grant funds to prevent, protect 
against, mitigate, respond to, and recover from acts of terrorism.
    Having said that, you will understand why we urge you to maintain 
the Urban Areas Security Initiative (UASI). It is necessary to have a 
stand-alone program that provides the highest-risk urban areas with 
targeted funding. That is what UASI does. It directs the limited 
homeland security grant funds available to the programs that are most 
effective; and the cities that are most at risk.
    Moreover, the existing UASI governance framework works well and 
already reflects the principles of the Threat and Hazard Identification 
and Risk Assessment. The UASI framework builds and sustains region-wide 
capabilities: The framework ensures that capabilities are cross-
jurisdictional, readily deployable, and multi-purpose.
    I will shift now to a couple of process issues, beginning with 
grant periods where a rigid 24-month period is under consideration. 
Grant periods must balance the goal of efficiency with the need for 
flexibility. Building and sustaining capabilities involves long-term 
commitments. Grant cycles of 2 years with limited to no extensions are 
not realistic. They will prevent jurisdictions from undertaking 
innovative, multi-year projects.
    It is important to note that in many instances, municipal 
procurement rules require the agency to have the funding in-hand before 
they can even begin the contracting process. And, procurement processes 
can take up to a year to complete. Moreover, a 24-month period will 
encourage municipalities to pay vendors the full value of any contract 
up-front. This will not allow agencies to responsibly manage their 
vendors and contracts. For these reasons, it is imperative that the 
grant period remain at 36 months, with extensions provided as necessary 
and justified.
    The next process issue relates to bureaucratic delay. Congress 
should seek to minimize the layers of bureaucracy involved in 
administering DHS grant programs. These layers of bureaucracy create 
unnecessary costs and delay. For example, today, the NYPD must go 
through two intermediaries before investment justifications for key 
security projects even get to FEMA. And FEMA's responses must go 
through the same burdensome channels before they reach the NYPD. These 
layers can result in months and months' worth of delay on some of the 
most straightforward issues.
    Finally, I want to make a pitch for operational programs. To the 
extent that Congress chooses to continue to set aside funding specific 
to port and transit asset protection, it is essential that these 
dollars not be limited to capital programs, but include operational 
programs as well.
    Often, the agency charged with providing for safety and security of 
a transit or port asset is not the agency responsible for the capital 
projects associated with it. Take for example the New York City subway 
system. The NYPD has been responsible for safety and security of 
subways for nearly 2 decades. Yet it is the MTA, not the NYPD, which 
owns and oversees capital programs associated with MTA facilities.
    Thank you. I would be happy to answer any of your questions.

    Mr. Bilirakis. Thank you, sir. Appreciate it.
    I now recognize Mr. Maloney for 5 minutes.

 STATEMENT OF ROBERT M. MALONEY, DIRECTOR, OFFICE OF EMERGENCY 
                MANAGEMENT, BALTIMORE, MARYLAND

    Mr. Maloney. Good afternoon, Chairman Bilirakis, Ranking 
Member Richardson, and Members of the subcommittee.
    I am Robert Maloney, the director of the Baltimore City 
Mayor's Office of Emergency Management and chairman of the 
Urban Area Work Group for the Central Maryland Region. I have 
the humbling responsibility of coordinating and administering 
both local and regional Federal preparedness grant funds. On 
behalf of Mayor Stephanie Rawlings-Blake, it is my pleasure to 
appear before you today to discuss proposed changes to the 
Department of Homeland Security grant structure.
    We are fortunate in Maryland. Governor O'Malley and 
Baltimore Mayor Stephanie Rawlings-Blake believe in homeland 
security as a National priority. The Baltimore Urban Area 
Security Initiative represents the geographic areas of the 
Central Maryland Region. DHS places Baltimore in the top 25 
percent of urban areas with respect to asset-based risk.
    Each month, the emergency managers and public safety 
leaders in the seven jurisdictions of the Baltimore UASI come 
together to discuss regional public safety and homeland 
security issues. Together, we have made significant investments 
in equipment, trained our personnel, enhanced our technology, 
and upgraded our emergency operations centers.
    But, more importantly, we have utilized these grants as the 
impetus to organize the appropriate stakeholders around one of 
the most important issues our Nation faces: Its homeland 
security. The value of the relationships fostered as a result 
of the infrastructure developed around UASI funds is 
inestimable. Our UASI has been able to unite public safety 
leaders across city and county borders. Other UASI groups have 
even crossed State lines.
    The new proposed grant consolidation does not take into 
account the inter-jurisdictional and inter-State achievements 
made. Discarding the individual grant programs means discarding 
the infrastructure built around them and threatens the 
relationship cultivated around our collaborative commitment to 
National homeland security. Instead of fostering collaboration 
to build capabilities, the proposed consolidation will promote 
competition by having local jurisdictions compete within their 
own State to win funds.
    Over the past several years, DHS has administered grants to 
my locality and region to build our capabilities. Over the past 
2 years, Homeland Security grant programs have taken drastic 
cuts. In fiscal year 2011, the funds were cut by 50 percent. In 
2012, the Department of Homeland Security eliminated seven 
grant programs for fiscal year 2011 to adjust for additional 
decreases in overall funding. On top of these cuts, DHS has now 
proposed to consolidate the eight remaining grant programs into 
a single grant program known as the National Preparedness Grant 
Program.
    State and local jurisdictions were forced to shift 
capabilities developed or maintained under eliminated funding 
streams to other programs. Before we have the chance to make 
sense of the impact of these cuts in a system of grants with 
limited flexibility, we are being asked to undergo an overhaul 
of the system with little State and local input.
    We do not have evidence to indicate that consolidation is a 
necessary or appropriate step. In the current fiscal climate, 
these cuts have hit all of us very hard. We are now focusing on 
sustaining the capabilities that we have developed through 
these grant programs.
    Despite the decrease in funding, it is imperative that all 
stakeholders understand the mandate for preparedness at the 
local level has not decreased. Since our mayor took office in 
2010, Baltimore city alone has experienced a major blizzard, a 
tornado, several flooding events, Hurricane Irene, Tropical 
Storm Lee, and an earthquake. Now more than ever we need to 
make sure our investments are well-informed. Consolidation 
after a series of consecutive funding cuts is too much too 
soon.
    We also have concerns about how the Threat Hazard 
Identification and Risk Assessment will inform local-level 
capability investments and how the State administrative 
agencies will develop additional grant writing and 
administrating capabilities in the next year. Again, little 
local or State input was requested to develop the process.
    As a city, a region, and a Nation, we have worked very hard 
and utilized DHS grant funds to close many capability gaps over 
the past several years. Some of these investments include cell 
phone tracking, a State-wide interoperable radio system, a 
regional radio communications center, and training for our 
primary adult resource center, Maryland Shock Trauma.
    Is there still a need for Federal Homeland Security funding 
to State and local jurisdictions? Yes. In fact, the need is 
increasing. Local jurisdictions are struggling to maintain 
basic services in Baltimore. We struggle simply to keep 
firehouses opening. This funding is critical now more than ever 
to maintain the long-term viability of our investments.
    Is revamping the entire grant structure going to eliminate 
redundancy and ensure significant value attributable to all 
investments? Absolutely not.
    Our systems reflect that we are more prepared, but we need 
to figure out what is working best and what is not working 
before we throw everything together and hope for the best.
    Our Federal partners should know that the local 
jurisdictions do not have contingency plans or alternate source 
of funding. There is no money. Local and State officials need 
to be involved with figuring out how we assess our preparedness 
and develop cost-effective solutions. With a little bit of 
time, science, and ingenuity, together we will be able to say 
with confidence what the next best step is. Until then, I 
implore you to prevent an ill-informed and hasty decision. We 
must continue to invest in preparedness, and discontinue cuts 
in funding critical to the development and sustaining our 
capabilities. I hope that you will continue to fund our 
programs, that we reconsider additional funding in the future, 
and delay the proposed consolidation until we have the 
appropriate evidence to inform such a major change.
    Thank you for allowing me to appear before you today. I 
welcome any questions from the committee.
    [The prepared statement of Mr. Maloney follows:]
                Prepared Statement of Robert M. Maloney
                             April 26, 2012
    Good afternoon Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. I am Robert Maloney, the director of the 
Baltimore City Mayor's Office of Emergency Management and chairman of 
the Urban Area Workgroup for the Central Maryland Region. I have the 
humbling responsibility of coordinating and administering both local 
and regional Federal preparedness grant funds. I am a veteran of the 
United States Navy. I served 8 years in the reserves as a corpsman for 
the United States Marines Corps and was deployed to Fallujah, Iraq in 
2005. On behalf of Mayor Stephanie Rawlings-Blake, it is my pleasure to 
appear before you today to discuss proposed changes to the Department 
of Homeland Security (DHS) grant program structure. We are fortunate in 
Maryland. Governor Martin O'Malley and Baltimore Mayor Stephanie 
Rawlings-Blake believe in homeland security as a National priority. 
They work in concert to make certain all stakeholders spend homeland 
security grant program funding as efficiently and effectively as 
possible, utilizing a systematic and risk-based approach.
    The Baltimore Urban Area Security Initiative (UASI) represents the 
geographic area of the Central Maryland Region, and consists of the 
city of Baltimore, the State Capital, and five of the six most 
populated counties in the State that reside outside of the National 
Capitol Region (NCR). The region has over 3 million residents and is 
the 19th-largest metropolitan statistical area (MSA) in the Nation. 
There are significant important Federal Government assets in the 
region, including the Aberdeen Proving Ground, Fort Meade, the National 
Security Agency (NSA), the United States Naval Academy, and the 
headquarters of the Social Security Administration and the Centers for 
Medicare and Medicaid Services. Baltimore is the home of 18th-ranked 
port in total cargo tonnage in the United States. DHS places Baltimore 
in the top 25% of urban areas with respect to asset-based risk. 
Additionally, its location on the Eastern Seaboard creates significant 
risk for hurricanes, storm surge, and flooding.
    Each month, the emergency managers and public safety leaders in the 
seven jurisdictions of the Baltimore UASI come together to discuss 
regional public safety and homeland security issues. Under this work 
group, there are several functional subcommittees. These subcommittees 
include health and medical, law enforcement, emergency planners, urban 
search and rescue (USAR), communications, technology, and hazardous 
materials. Committee members develop projects to improve our safety, 
but more importantly, they work together as a region.
    Because of the Baltimore UASI and the Urban Area Work Group, no 
jurisdiction in Central Maryland is preparing for or responding to an 
incident alone. The UASI grant program has promoted regional 
collaboration. Groups of stakeholders within Maryland have organized 
around the established funding streams. Their dedication to coordinated 
planning and response has served us well. We have worked to break down 
silos so that the appropriate people are in the room at all times. We 
have made significant investments in equipment, trained our personnel, 
enhanced our technology and upgraded our emergency operations centers. 
But more importantly, we have utilized these grant programs as the 
impetus to organize the appropriate stakeholders around one of the most 
important issues our Nation faces: Its homeland security. The value of 
the relationships fostered as a result of the infrastructure developed 
around UASI funds is inestimable. During an emergency, I can pick up 
the phone and call my neighbor. I can ask for help, resources, or just 
advice. My staff members can do the same with their counterparts. In 
the Baltimore Urban Area we've been able to provide funds to our 
private-sector partners for preparedness over and above any Federal or 
State mandate through our continued partnership philosophy. As a result 
of engaging the appropriate stakeholders in the whole community, the 
hospital emergency managers, the leaders of functional and access needs 
communities, law enforcement leaders, and hazmat technicians can do the 
same. We are no longer just the city of Baltimore. We are a regional 
force ready to combat any threat or hazard that comes our way.
    Our UASI has been able to unite public safety leaders across city 
and county borders; other UASI groups have even crossed State lines. 
They have done this only by organizing around these funding streams 
aimed at building regional preparedness. The new proposed grant 
consolidation does not take into account the inter-jurisdictional and 
inter-State achievements made. Instead of fostering collaboration to 
build capabilities, the proposed consolidation will promote competition 
by having local jurisdictions compete within their own State to win 
funds. A competitive process has the potential to incentivize 
localities to try to outdo one another, rather than work together. 
Grant programs should be used to encourage regional collaboration and 
build relationships between jurisdictions, not create a wedge between 
them. Discarding the individual grant programs means discarding the 
infrastructure built around them, and threatens the relationships 
cultivated around our collaborative commitment to National homeland 
security.
    Over the past several years, DHS has administered grants to my 
locality and region to build our capabilities to prepare for, protect 
against, mitigate the effects of, respond to, and recover from an 
emergency or disaster event. Previously, DHS administered 15 grant 
programs for different sectors, threats, and purposes. These grant 
programs, including the State Homeland Security Grant Program, the Port 
Security Grant Program, and the Urban Area Security Initiative Grant, 
have been critical in the development of our local level capabilities 
in a variety of functional areas, including health and medical, law 
enforcement, urban search and rescue, and interoperable communications.
    Over the past 2 years, homeland security grant programs have taken 
drastic cuts. In fiscal year 2011, the Homeland Security Grant Program 
funds were cut by 50%. These funding cuts hit the State Homeland 
Security Grant Program and Tier II Urban Area Security Initiative 
Grants the hardest.
    In fiscal year 2012, the Department of Homeland Security eliminated 
seven grant programs from fiscal year 2011 to adjust for additional 
decreases in overall funding. The eliminated grant programs included 
the Metropolitan Medical Response System (MMRS), Citizen Corps Program 
(CCP), Regional Catastrophic Preparedness Grant Program (RCPSP), 
Emergency Operations Center Grant Program (EOCGP), Driver's License 
Security Grant Program (DLSGP), Freight Rail Security Grant Program 
(FRSGP), and Intercity Bus Security Grant Program (IBSGP). These cuts 
have caused limited resources to be spread incredibly thin. For 
example, the Port of Baltimore, one of the largest on the East Coast, 
is now competing for funds out of a pool of only approximately $30 
million, and still has to find a 25 percent match. On top of these 
cuts, DHS has now proposed to consolidate the eight remaining grants 
into a single grant program known as the ``National Preparedness Grant 
Program.''
    States and local jurisdictions were forced to shift capabilities 
developed or maintained under eliminated funding steams to other 
programs. Before we have the chance to make sense of the impact of 
these cuts and shifts in our capabilities in a system of grants with 
limited flexibility, we are being asked to undergo an overhaul of the 
system. It seems the proposed overhaul, the National Preparedness Grant 
Program, was developed without robust local input or boots-on-the-
ground expertise. While I appreciate the challenges for FEMA of 
managing different grants on multiple systems that originated from 
multiple agencies, I am here today to tell you we are worried that we 
do not have the evidence to indicate that consolidation is a necessary 
or appropriate next step.
    In the current fiscal climate, these cuts have hit all of us very 
hard. Instead of taking steps to make improvements or close existing 
capability gaps, we are now focusing on sustaining the capabilities 
that we have developed through these grant programs. It is imperative 
that all stakeholders understand the mandate for preparedness at the 
local level has not decreased. Since our Mayor took office in early 
2010, Baltimore city alone has experienced a major winter storm, a 
tornado, nursing home and downtown hotel evacuations, several flooding 
events, Hurricane Irene, Tropical Storm Lee, and an earthquake. We are 
not alone. Over the past 59 years, the Nation has averaged 35 major 
disaster declarations per year. However, in 2011 the United States 
experienced 99 major disaster declarations, up from 81 major disaster 
declarations in 2010. The threat of a major emergency or disaster event 
in the United States is increasing, but our funding level is 
decreasing. Now, more than ever, we need to make sure our investments 
are well informed. Before you take additional measures to cut costs, we 
need to be aware of the impact of the measures already taken. 
Consolidation after a series of consecutive funding cuts is too much, 
too soon.
    We also have concerns about how the Threat Hazard Identification 
and Risk Assessment (THIRA) will inform local-level capability 
investments. THIRA is a tool that was introduced by FEMA this year to 
assess various threats and hazards, and the vulnerability of and 
consequences to communities to those hazards. The results of the THIRA 
process are supposed to establish an informed foundation for planning 
and preparedness activities. Since THIRAs are required at the State 
level, locals may have less of a voice to express what is really needed 
on the ground. The lack of clarity regarding the implications of THIRA 
on Federal funding allocation decisions is also disconcerting. For 
example, if a particular region is in need of an asset and two 
neighboring States both want to develop the asset, who is going to 
decide which State is awarded the funds necessary for development? The 
use of THIRA needs to be informed by State and local input prior to its 
use in funding allocation decisions.
    Moreover, grant consolidation shifts most of the burden of grant 
administration to the State level. The proposed consolidation includes 
both a baseline State allocation and competitive allocation. States 
will be required to apply for funds, decide how to disperse funds, and 
manage these dispersements. Additional State-level capabilities in 
grant writing and administration will need to be developed to manage 
this workload. Concerns about the capacity of State Administrative 
Agencies to build these capabilities over the next year are widespread 
among my peers at the local level. Again, little local or State input 
was requested to develop the process, making concerns about the utility 
of implementation paramount.
    As a city, a region, and a Nation, we have worked very hard and 
utilized DHS grant funds to close many capability gaps over the past 
several years. We have developed cell-phone-tracking capabilities 
allowing law enforcement the ability to pinpoint the location of a 
specific cell phone, enhancing efforts to locate an individual. We have 
implemented LINX, a shared database tool that crosses jurisdictional, 
regional, and State lines, to allow law enforcement to have the same 
data on individuals when working long-term and immediate cases.
    During the 1990s and the early part of the 21st Century, provisions 
for interoperable communications between jurisdictions that did not 
share a geographic boundary were limited. The need for interoperable 
communications was a core lesson learned from the response to the 
terrorist attacks of September 11. Since then, Maryland has invested 
$48 million of its own funds to support the development and 
implementation of an interoperable State-wide radio system. DHS funds 
have supported the Central Maryland Area Radio Communications (CMARC) 
Project Team to enhance this city and State capability priority 
regionally. The original goal of CMARC was to develop a regional radio 
system for interoperability that would leverage existing 
infrastructure, improve coverage and supplement the capacity of 
existing ``operable'' radio systems under the control of local 
jurisdictions. CMARC has since added several State agencies, including 
the Maryland Transit Administration (MTA), Maryland Institute for 
Emergency Medical Services Systems (MIEMSS), and Maryland Department of 
Natural Resources (DNR) as interoperability partners. An upgrade to the 
Network Management System (NMS), scheduled for completion by the end of 
the 2012 calendar year, is being made possible by grant funds. This 
upgrade will provide IP based voting capabilities region-wide and allow 
control of all CMARC local jurisdiction radio resources from the 
regional back-up 9-1-1 Center in Central Baltimore County. The Maryland 
Institute for Emergency Medical Services Systems (MIEMSS), the State 
agency charged with oversight of emergency medical services, will be 
equipped with a Radio Gateway Unit. Additionally, on-street portable 
radio coverage will become available for critical infrastructure such 
as BWI-Marshall Airport, Fort Meade, NSA, the I-95 corridor in Howard 
County and the Amtrak Northeast train corridor in Anne Arundel County. 
Implementation and sustainment of the system is made possible by DHS 
grant funds. While Maryland has plans to continue to invest in this 
system, it has not been developed Nation-wide. We have not yet closed 
this capability gap, but grants are being slashed. Continued funding 
cuts threaten the investments we have already made, and have the 
potential to prevent the realization of a Nation-wide interoperable 
communications system.
    The Central Maryland Region has also utilized DHS funds to create 
robust capabilities in the health and medical functional area. Prior, 
the Baltimore Urban Area had few resources to deal with mass casualty 
events beyond ordinary day-to-day capabilities. Such an event would 
overwhelm the region's hospital systems. There were no standard 
interagency standard operating procedures (SOPs) within metro Baltimore 
to pre-identify staff, hospital beds, or other resources that can be 
deployed following a catastrophic event. The establishment of an 
alternate care site (ACS) post-disaster would be ad hoc and 
undersupplied. Recognizing this capability gap, the Baltimore UASI 
utilized grant funds to convert an old gymnasium building scheduled for 
demolition into a ``Turn Key'' Surge Center. Regional hospital 
emergency managers and emergency medical services leaders worked with 
academic experts to develop SOPs and guidelines to allow for seamless 
activation and operation of the facility across multiple partners. In 
tandem, common equipment was procured and pre-deployed to the ACS 
facility for eventual use in an emergency. Work surrounding the ACS 
continues. Current objectives include arrangement of pre-designation 
and pre-approval of the facility as an ACS by the Maryland Office of 
Health Care Quality, development of MOUs with public and private 
partners for critical elements of site operation such as security and 
mortuary services, and development of protocols for triggering direct 
EMS transport during a public health emergency. DHS grant funds 
continue to support the development of additional ACS sites, as well as 
sustainment and environmental maintenance of existing facilities. A 
loss of funds could result in the loss, or deterioration, of this 
regional institution that has demonstrated to close a capability gap.
    The Central Maryland Region also was without sufficient ability to 
track patients during a major incident. The need for a family 
reunification and patient location system became evident after a series 
of incidents involving over 20 patients separated from family members. 
In addition to family reunification, such a system was also necessary 
for law enforcement to locate individuals during an investigation and 
for public health officials to document patients who were in direct 
contact with an infected individual, as well as track clients and 
medications at the points of distribution. Previously, Maryland 
conducted patient tracking by hand on paper. This system was not 
sufficient for a surge of hundreds, or even thousands, of patients. To 
close this capability gap, the Baltimore metropolitan area utilized DHS 
grant funds to procure an Electronic Patient Tracking System (EPTS) for 
use by Fire/EMS, Hospitals, Health Departments, Emergency Management, 
and State Agencies. The system allows for patients to be tracked from 
the scene of an incident to the hospital, and assists in patient 
reunification following a mass-casualty incident. Additionally, 
hospitals are able to access information on patients during transport. 
The result is unprecedented improvements in health care asset 
utilization, patient treatment, response time, and event documentation. 
Loss of funds will mean the loss of ability to sustain this important 
capability.
    The combined utility of these investments have come to light in the 
UASI-funded Maryland Shock Trauma Project. Maryland Shock Trauma is 
located in Baltimore City, and is the only facility in the State of 
Maryland designated as a Primary Adult Resource Center (PARC). As such, 
it provides the highest level of trauma care, treating over 7,500 
critically-injured patients each year with a 97% survival rate. The 
Baltimore UASI grant-funded a project designed to expand regional 
collaboration for medical surge. The project utilizes high-fidelity 
emergency medical services exercise and training simulations, coupled 
with an enhanced exercise and training platform that will maximize 
current Baltimore UASI-funded projects related to patient tracking, 
voice, and interoperable radio communications systems, and data 
communications. Upon completion this project will facilitate real-time 
enhanced on scene and transport patient care over current and planned 
video and data networks. The entire State of Maryland, as well as 
anyone who accesses our system through mutual aid, will benefit from 
the patient care enhancements related to the increased medical surge, 
exercise, and training capacities.
    Could some of these investments be redundant? Perhaps.
    Have all of our investments provided tremendous added value to 
overall National security? Maybe not, but most definitely have.
    Is there still a need for Federal homeland security funding to 
States and local jurisdictions? Yes, in fact, the need is increasing. 
Local jurisdictions are struggling to maintain basic services. In 
Baltimore, we struggle simply to keep firehouses open. This funding is 
critical, now more than ever, to maintain the long-term viability of 
our investments.
    Is revamping the entire grant structure going to answer these 
questions, eliminate redundancy, and ensure significant value 
attributable to all investments? Absolutely not.
    As I have already discussed, there is evidence that our capability 
gaps have become smaller. Our systems reflect that we are more 
prepared. However, we do not know the magnitude of this preparation, 
the root cause of our successes and of failures, or the best way to 
move forward. I cannot stand here and tell you that we are more 
prepared because of one grant or another, or because of one purchase or 
another. DHS grant applications require applicants to discuss 
capability gaps; however, DHS has never provided a standardized, 
evidence-based tool to help local jurisdictions to analyze these gaps 
systematically. In result, we have limited data to show the impact, 
successes, or failures of our programs. Additionally, FEMA has recently 
begun the development of State Preparedness Reports in an effort to 
assess National preparedness. However, the format of these State 
preparedness reports has changed over the past 2 years, with another 
proposed change in the data requested for this coming year. If we 
cannot even figure out how to assess our own preparedness, how can we 
attribute any one success or failure to any specific grant program? We 
need to figure out what is working and what is not working before we 
throw everything together and ``hope for the best.'' What I can stand 
here and tell you is that throwing all of these grant programs away, 
and the infrastructure and partnerships developed around them, is going 
to make things worse, not better.
    We often throw around the word ``homeland security,'' with little 
regard to what ``homeland'' really means. Our homeland is comprised of 
a conglomerate of counties, parishes, and cities, in our UASIs, States, 
Tribal lands, and territories. It is made up of American citizens who 
live in these counties, parishes, and cities. Every day, something 
threatens their safety. Whether from a natural disaster, a terrorist 
threat, a criminal, or a simple personal health event, when these 
citizens, who are at the heart of our homeland, need protection they 
call 9-1-1 to activate their local first response system. This system 
is operated at the local level. Its utility is a product of the 
capabilities which that local government has developed. It is only as 
good as the training and motivation of the personnel and the quality of 
resources within it.
    Our Federal partners should know that local jurisdictions do not 
have contingency plans or alternative funding sources to maintain 
capabilities should Federal funds be discontinued or rescinded. There 
is no money. Our Federal partners must realize that local level 
personnel are providing National-level homeland security. States and 
locals use DHS funding to develop National assets. For example, during 
Hurricane Katrina, we were able to send a UASI-funded USAR team and 
decontamination truck to the Gulf Coast. While this asset was developed 
and maintained in the Baltimore region, we were able to ensure that it 
contributed to the capabilities critical to our overall National 
emergency response mission when it was needed most. We rely on Federal 
funds to ensure provision of a service that benefits the whole of our 
Nation; the everyday protection of and rapid response to the needs of 
its citizens.
    I hope that you will help us to maintain the capabilities we have 
developed, and help us to continue identifying and closing gaps. We are 
happy to participate in an evaluation of our programs and assessment of 
our preparedness. Only then will we know what programs are working, and 
what grants those programs are funded by. We will have a better 
understanding of the impact of our investments and the changes already 
made to our funding streams. Local and State officials, who are at the 
heart of the implementation of these grant programs, need to be 
partners in the development of assessment and evaluation methods. As we 
are the ones who will experience the impact, we need to be in the room 
to develop the solution. With a little bit of time, science, and 
ingenuity, together, we will be able to say with confidence what the 
next best step is. Until then, I implore you to prevent an ill-informed 
and hasty decision. We must continue to invest in preparedness, and 
discontinue cuts in funding critical to the development and sustainment 
of our capabilities. Grant guidance should have the flexibility to 
allow States and locals to maintain capabilities. I hope that you will 
continue to fund our programs, and delay the proposed consolidation 
until we have the appropriate evidence to inform such a major change.
    Thank you for allowing me to appear before you today. I welcome any 
questions from the committee.

    Mr. Bilirakis. Thank you, Mr. Maloney.
    Now I recognize Chief Clemmensen for 5 minutes.

  STATEMENT OF HANK C. CLEMMENSEN, CHIEF, PALATINE RURAL FIRE 
PROTECTION DISTRICT, TESTIFYING ON BEHALF OF THE INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Chief Clemmensen. Good afternoon, Chairman Bilirakis----
    Mr. Bilirakis. Good afternoon.
    Chief Clemmensen [continuing]. Ranking Member Richardson, 
and Members of the subcommittee. I am Chief Hank Clemmensen of 
the Palatine Rural Fire Protection District located in 
Inverness, Illinois, and the first vice president of the 
International Association of Fire Chiefs, the IAFC. I thank the 
committee today for the opportunity to present the views of the 
local firefighters and EMS responders in discussion about grant 
programs at the U.S. Department of Homeland Security.
    Both the terrorist attacks of 9/11 and Hurricane Katrina 
revealed the important role that local first responders play in 
National catastrophes. Local fire, law enforcement, and others 
were the first on scene and the last to leave. In addition, the 
Nation relied upon the local first responders from across the 
Nation to aid in the response to these catastrophes.
    Congress realized the importance of ensuring that local 
first responders are adequately staffed, trained, and equipped 
for the future incidents of National significance. So with the 
leadership of this committee, it has created grant programs at 
the U.S. Department of Homeland Security to assist the State 
and local governments in preparing for the next terrorist 
attack.
    Over the past 10 years, Congress has provided over $35 
billion in grant funds to help State, territorial, Tribal, and 
local governments. The IFC believes that these grant programs 
have played a critical role in protecting American public. For 
example, the State Homeland Security Program helps a State-wide 
mutual aid system in Illinois that is activated almost 800 
times a year. Tucson, Arizona, used the funds from the 
Metropolitan Medical Response System, MMRS, for the planning, 
equipment, and training needed for a multidisciplinary response 
to a mass-casualty event. This preparation played a major role 
in the effective response to the tragic January 8, 2011, 
shooting of Representative Giffords and 19 others.
    The great success of the Federal Homeland Security Grant 
Program is that they provide an incentive for local fire 
chiefs, police chiefs, emergency managers, public health 
officials, and State and Federal officials to plan, train, and 
exercise together. This preplanning in coordination prevents 
confusion and saves lives.
    In its 2013 budget request, the administration proposed 
consolidating the 16 Homeland Security grant programs into a 
new National Preparedness Grant Program, NPGP. The IFC was not 
consulted on this proposal. We have not seen enough details 
about the NPGP to present a thorough analysis to the committee; 
however, we would like to recommend seven principles for your 
consideration.
    The reform of DHS grant programs must sustain existing 
emergency response capabilities. Taxpayer funding has created a 
robust National preparedness system. In light of declining 
Federal, State, and local budgets, we must put a priority on 
sustaining the system.
    A reformed DHS grant program should support the principles 
of the regionalization and mutual aid between States, regions, 
and localities. Many local jurisdictions depend on mutual aid 
agreements to protect their citizens. DHS programs like UASI 
and MMRS reinforce the emphasis on mutual aid and cooperation 
between the local, State, and Federal officials.
    Three, a reformed DHS program must encourage local 
stakeholders. Local governments know the risks, the 
vulnerabilities, and the capabilities of their communities. 
Their input is critical for determining the gaps in the 
preparedness system, allocating resources to build them.
    Four, a reformed DHS program must allow flexibility with 
accountability. Different local jurisdictions have risk--know 
the different risks. They should have--or they should be 
allowed to use their funding in an accountable manner to 
protect their citizens.
    Five, a reformed DHS grant program must protect local 
funding. Local funding--or local jurisdictions expect to 
respond to an incident in their communities and be self-
sustaining for 72 hours before Federal help arrives. At least 
80 percent of DHS grant funding should be used to equip, train, 
staff all local law enforcement, fire, and EMS management.
    Six, a reformed DHS grant program should increase 
transparency.
    Finally, a reformed DHS grant program must continue to 
support terrorism prevention. DHS grants should continue to 
support vital terrorism prevention and information activities.
    In conclusion, the IFC looks forward to being a 
constructive participant in the discussion about the funding of 
DHS grants; however, we currently do not have enough details 
about the NPGP. We urge Congress to delay consideration of the 
NPGP for a year. Instead, Congress should direct DHS and FEMA 
to work with all State and local stakeholders to develop a 
detailed plan.
    For 2013, we urge Congress to appropriate specific funding 
levels as authorized by law for UASI, MMRS, the State Homeland 
Security Program, and other suite of homeland security grants.
    On behalf of America's fire and EMS chiefs, I would like to 
thank you for holding this hearing and look forward to 
answering any questions that you may have. Thank you.
    [The prepared statement of Chief Clemmensen follows:]
                Prepared Statement of Hank C. Clemmensen
                             April 26, 2012
    Good afternoon, Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. I am Chief Hank C. Clemmensen, of the 
Palatine Rural Fire Protection District located in Inverness, Illinois, 
and the first vice president of the International Association of Fire 
Chiefs (IAFC). The International Association of Fire Chiefs represents 
the leadership of the Nation's fire, rescue, and emergency medical 
services (EMS), including rural volunteer fire departments, suburban 
combination departments, and metropolitan career departments. I thank 
the committee today for the opportunity to represent the views of local 
firefighters and EMS responders in the discussion about the grant 
programs at the U.S. Department of Homeland Security.
             the effectiveness of homeland security grants
    The terrorist attacks of 9/11 revealed major weaknesses in the 
Nation's prevention, preparedness, and response system. Many of these 
weaknesses were confirmed by the catastrophic nature of Hurricane 
Katrina in 2005. In both cases, local fire, police, and EMS departments 
were the first on-scene at the event. To reinforce them, the Nation 
mobilized local resources from other States. Congress realized that an 
effective National response system depended on having local first 
responders adequately trained and equipped to respond to all hazards. 
Through the passage of legislation, Congress authorized grant programs 
at the U.S. Department of Homeland Security (DHS) to help the Nation's 
fire, law enforcement, and EMS personnel prepare for any future threat, 
either natural or man-made.
    Over the past 10 years, the DHS has provided over $35 billion in 
Federal grant funds to help State, territorial, Tribal, and local 
governments improve their planning, mitigation, preparedness, 
prevention, response, and recovery capabilities. On behalf of the 
Nation's fire chiefs, I would like to assure the subcommittee that 
these efforts have improved the Nation's emergency response 
capabilities.
    Consider the following examples:
  <bullet> In Illinois, funding from the State Homeland Security 
        Program (SHSP) has helped Illinois strengthen its Mutual Aid 
        Box Alarm System (MABAS), one of the Nation's premier mutual 
        aid systems. The system is composed of over 1,100 fire agencies 
        and can mobilize approximately 38,000 firefighters and 
        paramedics to respond to an event in the State of Illinois. 
        Approximately 800 times per year, the MABAS is activated to 
        help jurisdictions respond in their areas. In addition, the 
        MABAS has been used to deploy resources to inter-State 
        disasters, such as Hurricanes Katrina, Gustav, and Ike and last 
        year's river flooding in Missouri and Illinois.
  <bullet> Because of the support of the DHS grant programs, there are 
        now 300 State and local teams with technical rescue capability. 
        After the April 2011 deadly tornadoes, Alabama was able to rely 
        on State and local resources for search and rescue operations, 
        instead of requesting Federal urban search and rescue support.
  <bullet> In Arizona, the Tucson area has received funding from the 
        Metropolitan Medical Response System (MMRS) since 1999. This 
        funding paid for planning, equipment, and training to help 
        first responders, public health, private health, law 
        enforcement, and emergency managers across Southern Arizona 
        prepare for a mass-casualty event. The training, equipment, and 
        exercises funded by the MMRS program played a major role in the 
        effective interdisciplinary response to the January 8, 2011 
        shooting of Representative Gabrielle Giffords and 19 others.
    The great success of the Federal homeland security grant programs 
is that they provide an incentive for Federal, Tribal, State, 
territorial, and local jurisdictions to work together. By planning, 
training, and conducting exercises together, local fire chiefs, police 
chiefs, sheriffs, public health officials, emergency managers, and 
State and Federal officials are able and ready to work together when an 
incident happens. This pre-planning and coordination prevents 
confusion, and directly saves lives.
    The Nation's fire service realizes that spending cuts will be 
required to reduce the Federal deficit. Already we have seen the 
virtual elimination of the MMRS and Interoperable Emergency 
Communications Grant programs. While there is a temptation to cut the 
grants to State and local programs, we ask that Congress fully consider 
the effects of these cuts. In many cases, State and local jurisdictions 
do not have the funding to make up for cuts to these Federal programs. 
For example, the elimination of the MMRS program means that Tucson will 
no longer have a full-time MMRS coordinator, which will directly reduce 
the region's ability to respond to a future mass casualty event. Cuts 
to the State Homeland Security Grant Program will affect Illinois' 
ability to respond to tornadoes and flooding, and prepare for future 
events such as the May 2012 NATO summit. As Congress considers the 
future of the homeland security grant programs, there should be a focus 
on sustaining the Nation's emergency response capabilities.
            the national preparedness grant program proposal
    As part of its fiscal year 2013 budget proposal, the administration 
proposes consolidating the 16 homeland security grant programs into one 
program: The National Preparedness Grant Program (NPGP). The IAFC 
understands the administration's interest in ensuring that homeland 
security grants are distributed in an efficient and effective manner, 
and that taxpayer funds are used responsibly. Like many stakeholders 
that represent local governments and first responders, we were not 
consulted about this proposal before it was released as part of the 
fiscal year 2013 budget request. While we have received an overview of 
the program, it is clear that the DHS must still develop many details 
for the program, including how it will affect the Urban Areas Security 
Initiative (UASI) grants that assist many metropolitan fire 
departments.
    Based on the information we have, it is hard for me to provide a 
detailed analysis of the NPGP proposal. However, I would like to 
recommend a few principles for the committee's consideration as it 
reviews the administration's proposal:
    (1) A reformed DHS grant program must sustain existing emergency 
        response capabilities.--America's taxpayers have spent over $35 
        billion to improve the Nation's ability to respond to any 
        future terrorist attack, hurricane, tornado, or other event. 
        This funding has created a robust National preparedness system 
        that is based on the capability to mobilize local first 
        responders and deploy them to an affected area. Any reforms to 
        the DHS grants programs should put a priority on sustaining 
        this system.
    (2) A reformed DHS grant program should support the principles of 
        regionalization and mutual aid between States, regions, and 
        localities.--Many jurisdictions around the Nation do not have 
        the resources to single-handedly respond to a major 
        catastrophe. For many years, fire and EMS departments have used 
        mutual aid agreements to address this problem. By working 
        together, fire departments can pool resources and protect their 
        communities. In addition, the planning required for mutual aid 
        agreements promotes coordination between jurisdictions and a 
        wiser allocation of taxpayer-funded resources. In partnership 
        with the Federal Emergency Management Agency (FEMA), the IAFC 
        has reached out to all 50 States and the U.S. territories to 
        develop State-wide mutual aid systems that are similar to the 
        MABAS in Illinois. Twenty-four States have completed the 
        process and are capable of deploying without assistance. In 
        addition, 18 States are capable of deploying with assistance 
        and are in the process of working to be deployable without 
        assistance. We are encouraged by the focus on mutual aid 
        discussed in the NPGP. However, DHS also must recognize that 
        regional planning can take place at all levels: Between local 
        jurisdictions; between areas within a State; between two or 
        three States; or at the level of a FEMA region.
    (3) A reformed DHS grant program must engage local stakeholders.--
        As fire chief of my community, I know that I can work with my 
        counterparts in law enforcement, emergency management, and 
        public health to determine the capabilities, risks, and 
        vulnerabilities in my jurisdiction. The DHS' newly announced 
        Threat and Hazard Identification and Risk Assessment (THlRA) 
        process will help us with this task. However, I am concerned 
        that the local THIRA that we complete will not be included in 
        the State THIRA, which is required by December 31, 2012. We are 
        concerned that State officials are not as informed about local 
        threats, risks, capabilities, and vulnerabilities as the local 
        officials that have the duty of protecting their communities. 
        The DHS must clarify that State officials must include the 
        information from local THIRAs in their submission. In addition, 
        localities must have the ability to challenge a State THIRA, if 
        it does not reflect the local communities' capabilities, 
        vulnerabilities, and gaps accurately.
    (4) A reformed DHS grant program must allow flexibility with 
        accountability.--Because local jurisdictions are aware of the 
        gaps in their preparedness system, they should be allowed to 
        allocate grant funds to fill these gaps. Some jurisdictions may 
        need to use grants to mitigate flood or wildland fire hazards. 
        Other localities may need to prepare for a mass-casualty event, 
        or enhance their terrorism prevention or information-sharing 
        capabilities. However, public funds are scarce in this 
        budgetary environment and should be used wisely. Greater 
        multidisciplinary and regional planning, as both the VASI and 
        MMRS programs encourage, will ensure a more accountable use of 
        Federal grant funds.
    (5) A reformed DHS grant program must protect local funding.--Local 
        jurisdictions will be the first on-scene and expect to have to 
        wait 72 hours for Federal assistance. So, they must have the 
        necessary staffing, equipment, planning, and training to 
        respond to any threat in their area for at least this time 
        period. We are concerned that the DHS has not made it clear 
        that at least 80 percent of the NPGP funds will be allocated to 
        local communities, including law enforcement, fire and EMS, and 
        emergency management. The American taxpayers' funds should be 
        spent protecting their communities, not promoting larger State 
        bureaucracies.
    (6) A reformed DHS grant program should increase transparency.--
        Because the NPGP proposal seems to give a larger authority to 
        the State Administrative Agencies, there must be a transparent 
        and credible process for allocating funds. In order to ensure 
        effective use of the DHS grants, Congress, the administration, 
        and the American taxpayer must be able to see how, where, and 
        why these grants are being spent. In addition, the DHS should 
        provide more detail about how the competitive portion of the 
        NPGP will work, who is eligible for it, and what criteria will 
        be used for allocating the Federal grants.
    (7) A reformed DHS grant program must continue to support terrorism 
        prevention.--Currently, the DHS grants support intelligence 
        fusion centers; information-sharing between Federal, State, and 
        local officials; and increased law enforcement activities to 
        prevent and deter terrorists. Any changes to the current DHS 
        grant programs must continue to support these vital activities.
    The IAFC believes that these principles serve as fair guidelines 
with which to evaluate the NPGP or any future grant reform proposal. 
The current DHS suite of grants, including the SHSP, the VASI, and the 
MMRS, are authorized in existing legislation, including the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Pub. 
L. 110-53) and the Post-Katrina Emergency Management Reform Act of 2006 
(Pub. L. 109-295). As the authorizing committee that wrote these laws, 
we believe that the House Homeland Security Committee should be an 
active participant in any reform effort. The IAFC would like to be a 
constructive participant in this process.
                               conclusion
    The current NPGP proposal does not provide enough detail, and it is 
hard to determine how it would measure up against the principles that I 
have described. Because the House and Senate Appropriations Committees 
are moving quickly this year to pass the fiscal year 2013 
appropriations bills, we urge Congress to delay consideration of the 
NPGP proposal for a year. Instead, Congress should instruct the DHS to 
work with the State and local stakeholders, including fire, EMS, law 
enforcement, and other first responders, to develop a detailed plan for 
reforming the homeland security grant programs. In addition, we would 
recommend that Congress clearly appropriate specific funding levels for 
each of these programs, including the SHSP, the UASI, and the MMRS, in 
the fiscal year 2013 Department of Homeland Security Appropriation Act 
to ensure that each program is adequately funded.
    On behalf of the leadership of America's fire and EMS departments, 
I would like to thank you for the opportunity to testify at today's 
hearing. The IAFC is committed to making sure that America's first 
responders have the equipment, staffing, and training that they need to 
protect their communities. We look forward to working with Congress, 
the administration and other State and local stakeholders to develop an 
accountable and effective grant program to meet this requirement. I 
look forward to answering any questions that you may have.

    Mr. Bilirakis. Thank you, Chief. I appreciate it very much.
    Mr. Wainio, you are recognized for 5 minutes.

 STATEMENT OF RICHARD A. WAINIO, PRESIDENT AND CEO, TAMPA PORT 
AUTHORITY, TESTIFYING ON BEHALF OF THE AMERICAN ASSOCIATION OF 
                        PORT AUTHORITIES

    Mr. Wainio. Thank you, Mr. Chairman. Thank you for the 
honor of providing testimony to the subcommittee at today's 
hearing. We certainly appreciate your long-term support of the 
Port of Tampa and the maritime industry.
    I am pleased to be providing this testimony today on behalf 
of the American Association of Port Authorities and the Port of 
Tampa. The Port of Tampa is the largest port in Florida, both 
in terms of cargo tonnage and in terms of land area, as the 
port covers over 5,000 acres of the maritime activity.
    The security issues faced by the port since September 11, 
2001, have presented as daunting a challenge as this port has 
ever faced. We have gone to extraordinary lengths to implement 
a layered security approach that provides efficient and 
effective port security in a manner that is also as cost-
effective as possible. That layered approach involves 
contracting with the Hillsborough County Sheriff's Office for 
24/7 patrols of the port, as well as augmenting the port 
authority's own security department with private security 
services.
    Since September 11, 2001, the Tampa Port Authority has 
spent approximately $86 million for security infrastructure and 
operating costs. Although State and Federal funding help to 
defer some of these costs, the majority of this total has been 
borne by the Tampa Port Authority.
    I will say that the partnerships we have with Federal 
agencies such as the U.S. Customs and Border Protection and in 
particular the U.S. Coast Guard have been absolutely 
indispensable in our ability to address the security needs of 
our port. That security protocol must be flexible enough not to 
choke off the very business it is designed to protect. So far 
we have been successful in that regard in not implementing 
measures that bottleneck the commerce of the port. This is 
important as the Port of Tampa is west central Florida's 
largest economic engine, contributing almost $8 billion in 
annual economic benefit to the region, and supporting in some 
fashion almost 100,000 jobs.
    Port security grants are an essential component in 
assisting ports to meet important mandates under Federal law. 
These mandates assure a safe, secure environment required of 
the modern and ever-changing intermodal transportation system. 
These grants also support terminal operators and local first 
responders in their mission to work in partnership with ports 
to assure safe and secure port operations.
    Many systems employed to support efficiently-operated 
secure port operations are expensive to procure and maintain. 
With this in mind the trend of reducing port grant allocations 
is troubling and counterproductive. It should be noted that 
much of this money also goes to projects that directly or 
indirectly support parallel Federal enforcement issues, such as 
cruise terminal security and the monitoring of high-value 
cargo.
    Shortening the grant-procurement process by requiring ports 
to spend money at a more rapid pace will only contribute to the 
waste of precious dollars. Many delays in the procurement 
process are the result of mandates imposed by the program, such 
as environmental assessments that are time-consuming. While 
certain restrictions are important, they add to the time it 
takes to vet and procure important equipment for projects. Each 
port authority is also subject to purchasing guidelines that 
are necessary to prevent waste and corruption, but are also 
time-consuming.
    There is a great debate about cost shares with many pros 
and cons. The reality is that many port authorities already 
spend a significant portion of their operating budgets on 
security-related expenses. In the case of the Tampa Port 
Authority, security expenses often exceed 30 percent of our 
annual operating budget. In tight budget times these cost 
shares may make the difference in a decision to procure 
necessary equipment and security infrastructure.
    The plan to consolidate the Port Security Grant Program 
into one National Preparedness Grant Program ultimately 
administered by each individual State is extremely 
counterproductive. History has proven that interaction and 
oversight by the local U.S. Coast Guard captain of the port 
assured that funds were being distributed in a manner that best 
benefited each geographic area. The U.S. Coast Guard has the 
training, expertise, and the systems in place to assess risk, 
threat, and vulnerability and apply this information to grant 
submissions. Through no fault of their own, most States do not 
possess this capability. Further, as State homeland grant 
funding diminishes, States might be tempted stretch the intent 
of the port security grants to meet needs that may not be the 
most productive use of funds targeting the safety and security 
of the maritime transportation system.
    While we understand that DHS has developed some 
improvements to their original grants model for the National 
Preparedness Grant Program, we believe Congress should 
determine the funding level for the Port Security Grant Program 
rather than DHS. This year Congress allowed DHS to allocate the 
funds, and the Port Security Grant Program was decreased by 59 
percent to one of the lowest funding levels on record, $97.5 
million. These international maritime borders need to be a high 
priority. We are also concerned that Secretary Napolitano will 
only fund the highest-risk ports. We must provide protection 
for all ports in order to avoid a soft underbelly of 
underprotected ports that terrorists could target.
    In Florida we are fortunate to have a robust and well-
organized regional structure to address terrorism and other 
issues known as the Regional Domestic Security Task Force. I am 
privileged to represent Florida ports as a member of the 
Domestic Security Oversight Council, which provides guidance 
and facilitates coordination to the RDSTF program. The DSOC 
also forwards funding recommendations to the Governor and 
legislature regarding the use of State Homeland Security 
grants. In this capacity I am aware of the diverse variety of 
disciplines and organizations that make these funding decisions 
resulting in local and State-wide impact. Because we currently 
have a separate funding source, the Florida ports are able to 
allow other well-deserving entities an opportunity for funding 
that is not related to maritime transportation, thus further 
defining the most important projects for consideration.
    Unless port security grant funds are segregated by law, I 
fear that we will simply create a large pot of money at the 
State level being divided among a much larger group of 
disciplines, which will only serve to create a less-efficient 
and less-focused approach to funding necessary projects.
    Ports represent a very unique and vital asset to the 
communities they serve, but they are also very complex with 
issues not often shared or understood by other Government 
agencies that compete for limited resources. I urge you to 
consider these important facts as you make decisions that could 
change a system that for the most part has provided 
considerable value to our ports and to our Nation.
    Thank you.
    [The statement of Mr. Wainio follows:]
                Prepared Statement of Richard A. Wainio
                             April 26, 2012
    Mr. Chairman, I am Richard Wainio, port director and CEO of the 
Tampa Port Authority. I want to thank you for the honor of providing 
testimony to the subcommittee at today's hearing. We certainly 
appreciate your long-time support of the Port of Tampa and the maritime 
industry. I am pleased to be providing this testimony today on behalf 
of the American Association of Port Authorities.
    The Port of Tampa is the largest port in Florida, both in terms of 
cargo tonnage and in terms of land area, as the port covers about 5,000 
acres throughout our county. The security issues faced by the port 
since September 11, 2001 have presented as daunting a challenge as this 
port has ever faced. We have gone to extraordinary lengths to implement 
a layered security approach that provides efficient and effective port 
security in a manner that is also as cost-effective as possible. That 
layered approach involves contracting with the Hillsborough County 
Sheriff's Office for 
24/7 patrols of the port, as well as augmenting the Port Authority's 
own security department with private security services. Since September 
11, 2001, the Tampa Port Authority has spent approximately $86 million 
for security infrastructure and operating costs. Although State and 
Federal funding helped to defer some of these costs, the majority of 
this total has been borne by the Tampa Port Authority. I will say that 
the partnerships we have with Federal agencies such as U.S. Customs and 
Border Protection and in particular the U.S. Coast Guard have been 
absolutely indispensable in our ability to address the security needs 
of our port. That security protocol must be flexible enough to not 
choke off the very business it is designed to protect. So far we have 
been successful in that regard in not implementing measures that 
bottleneck the commerce of the port. This is important, as the Port of 
Tampa is west central Florida's largest economic engine, contributing 
almost $8 billion in annual economic benefit to the region and 
supporting in some fashion almost 100,000 jobs.
    Port Security grants are an essential component in assisting ports 
to meet important mandates under Federal law. These mandates assure a 
safe/secure environment required of the modern, and ever-changing, 
intermodal transportation system. These grants also support terminal 
operators and local first responders in their mission to work in 
partnership with ports to assure safe and secure port operations.
    Many systems employed to support efficiently-operated secure port 
operations are expensive to procure and maintain. With this in mind, 
the trend of reducing port grant allocations is troubling and 
counterproductive. It should be noted that much of this money also goes 
to projects that directly, or indirectly, support parallel Federal 
enforcement issues, such as cruise terminal security and monitoring of 
high-value cargo.
    Shortening the grant procurement process by requiring ports to 
spend money at a more rapid pace will only contribute to waste of 
precious dollars. Many delays in the procurement process are the result 
of mandates imposed by the program, such as environmental assessments 
that are time-consuming. While certain restrictions are important, they 
add to the time it takes to vet and procure important equipment for 
projects. Each port authority is also subject to purchasing guidelines 
that are necessary to prevent waste and corruption, but are also time-
consuming.
    There is great debate about cost shares, with many pros and cons. 
The reality is that many port authorities already spend a significant 
portion of operating budgets on security-related expenses. In the case 
of the Tampa Port Authority, security expenses often exceed 30% of our 
annual operating budget. In tight budget times, these cost shares may 
make the difference in a decision to procure necessary equipment.
    The plan to consolidate the Port Security Grant Program into one 
National Preparedness Grant Program ultimately administered by each 
individual State is extremely counterproductive. History has proven 
that interaction and oversight by the local U.S. Coast Guard Captain of 
the Port assured that funds were being distributed in a manner that 
best benefitted each geographic area. The U.S. Coast Guard has the 
training, expertise, and systems in place to assess risk, threat, and 
vulnerability; and apply this information to grant submissions. Through 
no fault of their own, most States do not possess this capability. 
Further, as State homeland grant funding diminishes, States might be 
tempted to stretch the intent of the port security grants to meet needs 
that may not be the most productive use of funds targeting the safety 
and security of the maritime transportation system.
    While we understand that DHS has developed some improvements to 
their original grants model for the National Preparedness Grant 
program, we believe Congress should determine the funding level for the 
Port Security Grant program, rather than DHS. This year, Congress 
allowed DHS to allocate the funds and the Port Security Grant program 
was decreased by 59% to one of the lowest funding levels on record 
($97.5 million). These international maritime borders need to be a high 
priority. We are also concerned that Secretary Napolitano will only 
fund the highest-risk ports. We must provide protection for all ports 
in order to avoid a soft underbelly of under-protected ports that 
terrorists could target.
    In Florida we are fortunate to have a robust and well-organized 
regional structure to address terrorism and other issues known as the 
Regional Domestic Security Task Force (RDSTF). I am privileged to 
represent Florida ports as a member of the Domestic Security Oversight 
Council (DSOC), which provides guidance, and facilitates coordination, 
to the RDSTF program. The DSOC also forwards funding recommendations to 
the Governor and Legislature regarding the use of State Homeland 
Security grants. In this capacity, I am aware of the diverse variety of 
disciplines and organizations that make these funding decisions, 
resulting in local and State-wide impact. Because we currently have a 
separate funding source, the Florida ports are able to allow other 
well-deserving entities an opportunity for funding that is not related 
to maritime transportation, thus further defining the most important 
projects for consideration. Unless port security grant funds are 
segregated by law, I fear that we will simply create a large ``pot of 
money'' at the State level, being divided among a much larger group of 
disciplines, which will only serve to create a less efficient and less-
focused approach to funding necessary projects.
    Ports represent a very unique and vital asset to the communities 
they serve, but they are also very complex, with issues not often 
shared or understood by other Government agencies that compete for 
limited resources. I urge you to consider these important facts as you 
make decisions that could change a system that for the most part has 
provided considerable value to our ports and to our Nation. Thank you.

    Mr. Bilirakis. Thank you, Mr. Wainio. I appreciate it.
    Mr. DePallo, you are recognized, sir.

STATEMENT OF MICHAEL P. DE PALLO, DIRECTOR AND GENERAL MANAGER, 
 PORT AUTHORITY TRANS-HUDSON (PATH) CORPORATION, TESTIFYING ON 
    BEHALF OF THE AMERICAN PUBLIC TRANSPORTATION ASSOCIATION

    Mr. DePallo. Yes. Good afternoon, Chairman--excuse me, I 
have a problem with my throat too. Excuse me. Good afternoon, 
Chairman Bilirakis, Ranking Member Richardson, and Members of 
the subcommittee. My name is Michael DePallo, and I thank you 
for the opportunity to offer testimony. I am the director and 
general manager of the Port Authority Trans-Hudson Corporation, 
or PATH, a subsidiary of the Port Authority of New York and New 
Jersey. Today I am testifying as the chairman of the Security 
Affairs Steering Committee of the American Public 
Transportation Association.
    Mr. Chairman, according to the Mineta Transportation 
Institute, since 1970, more than 2,000 separate attacks have 
occurred worldwide on surface transportation, causing over 
6,000 deaths and approximately 19,000 injuries.
    The Government Accountability Office along with various 
Government agencies have reported on or testified to Congress 
that public transportation in America remains vulnerable to 
terrorist attack, and al-Qaeda remains interested in targeting 
the transit sector, and that more needs to be done to prevent 
and prepare for such potential attack.
    While we have been very fortunate to date in not having a 
direct terrorist attack carried out in our transit systems, we 
have indeed foiled plots and arrested individuals who intended 
to attack our systems.
    Let me especially note that PATH has experienced a 
tremendous devastation of a terrorist attack as a result of the 
horrific attacks on the World Trade Center in 1993 and in 2001. 
For this and many other reasons, I feel strongly that the 
Federal commitment to fortifying our systems must match the 
recognized risks and threats.
    There is a tremendous need for security grants to secure 
and fortify our transit systems across the country. In 2010, an 
APTA survey of its members found security investment needs in 
excess of $6.4 billion Nation-wide. This stated need contrasts 
with the recent trend in cuts to transit security grant 
programs, including the fiscal year 2012 allocation of $87 
million for transit security.
    On behalf of APTA, I recently urged the Appropriations 
Committee to restore appropriations for the Transit Security 
Grant Program in the fiscal year 2013 and subsequent 
appropriation bills. APTA urges authorizing committees to 
reauthorize the rail and public transportation provisions of 
the 9/11 Commission Act in order to reemphasize the policy 
goals and reverse the declining security investment trend.
    While there is good policy represented in the 2012 grant 
guidance and the fiscal year 2013 National Preparedness Grant 
Program, we do have some thoughts about elements of both. 
Specifically, we are concerned with the new 24-month grant 
period of performance for all projects, a reduction from the 
previous 3- to 5-year allowable expenditure period. We are also 
concerned with the elimination of the TSGP from the National 
Preparedness Grant Program, and we call for sufficiently 
funded, segregated grant program for public transportation 
security as envisioned in the 9/11 Commission Act.
    Also, while some PATH assets are included in the Top 
Transit Asset List, and I would welcome this risk based on a 
funding approach, an approach that APTA agrees with, but 
speaking on behalf of a larger industry, including thousands of 
assets not listed on the TPAL, this narrow funding approach 
could preclude other important security improvements from 
receiving funding consideration with such limited transit 
security dollars available.
    Apart from being a primary target for terrorism, transit 
systems must also stand ready and available to support our 
Nation's resilience in times of natural disasters as well. I 
therefore urge Congress to establish policies that would direct 
funds in transit systems to strengthen our ability to respond 
to such emergencies.
    Finally, APTA supports the approach that Congress has 
consistently endorsed in legislation that allows grants to be 
provided directly to transit agencies as opposed to requiring 
that applications be made through their State administrative 
agency.
    Mr. Bilirakis. Thank you, sir. Are you----
    Mr. DePallo. In conclusion----
    Mr. Bilirakis. Have you concluded?
    Mr. DePallo. No, I haven't.
    Mr. Bilirakis. Okay. That is okay.
    Mr. DePallo. As I conclude, let me thank you for the 
opportunity to testify on these critical homeland security 
issues. There is no greater priority for public transportation 
systems than the safety and security of our passenger and 
workers. I urge you not to wait for the wake-up call of an 
attack on our system to provide us the support and program 
structure we need.
    Transit systems across the country continue to stand ready, 
committed, and vigilant in utilizing available resources 
efficiently to protect our systems and our riders. We urge you 
to sustain the critical partnership between transit agencies, 
Congress, and the Department of Homeland Security. It helps to 
keep our Nation safe and moving towards economic prosperity. I 
welcome any questions you may have.
    Thank you.
    [The statement of Mr. DePallo follows:]
                Prepared Statement of Michael P. DePallo
                             April 26, 2012
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
Members of the subcommittee. My name is Michael DePallo and I thank you 
for the opportunity to offer my testimony. I am the Director and 
General Manager of the Port Authority Trans-Hudson Corporation, or 
PATH, which is a subsidiary of The Port Authority of New York and New 
Jersey. PATH is the seventh-largest heavy rail operator in the Nation, 
providing 76 million passenger trips per year. It is the primary 
transit link between Manhattan, the hub of the world financial market, 
and neighboring New Jersey urban and suburban communities. Today I am 
testifying as a representative of public transportation systems across 
our country as I have the privilege of serving as the Chairman of the 
Security Affairs Steering Committee of the American Public 
Transportation Association (APTA) as well as Chair of the Mass Transit 
Sector Security Coordinating Council (SCC). The committee and Council 
include representatives from a number of high-risk, Tier I transit 
agencies from across the country which collectively inform and guide 
our views. In accordance with the National Infrastructure Protection 
Plan, APTA has been tasked by Department of Homeland Security (DHS) to 
administer the on-going activities of the Mass Transit Sector 
Coordinating Council (SCC). I am honored to lead such groups.
                               about apta
    APTA is a nonprofit international association of nearly 1,500 
public and private member organizations, including transit systems and 
commuter, intercity, and high-speed rail operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions; transit associations and State departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient, and economical public transportation services and 
products. More than 90 percent of the people using public 
transportation in the United States and Canada are served by APTA 
member systems.
                     need for continued partnership
    Let me start by clearly stating that the safety and security of our 
public transportation systems depends on a mutual commitment of 
Congress, our Federal agency partners and public transportation 
providers to work together in a strong and effective collaborative 
relationship. As partners, we must work together but also operate 
efficiently and strategically in our respective roles.
Congress
    The transit industry asks that you carefully consider the 
significant security investment needs that persist for our agencies, 
our employees, and the riders we serve. We are very concerned about the 
recent decline in transit security funding where, presently in fiscal 
year 2012, we see an allocation of less than $90 million for transit 
security. This level is woefully short of the industry's capital needs, 
and not enough to just address needs at my own agency. As recently as 
fiscal year 2009, Federal funding for transit security was set at 
nearly $400 million. In 2010, an APTA survey of its members found 
security investment needs in excess of $6.4 billion Nation-wide. These 
are funds that our agencies simply do not have, as overall funding 
constraints have led to service cuts, personnel layoffs, and fare 
increases. While there is no indication that our collective security 
concerns have diminished and the backlog of needed projects continues 
to grow, Federal security grant funds have declined precipitously.
    Many have researched, written, and even offered testimony before 
this subcommittee on the history of terrorist attacks, most notably the 
work of the Federally funded and chartered, independent Mineta 
Transportation Institute (MTI), which has documented more than 2,000 
separate attacks on surface transportation--1,223 involving bombs and 
incendiaries--since 1970. These attacks caused 6,190 deaths and 
approximately 19,000 injuries.
    Additionally, the Government Accountability Office (GAO), along 
with the TSA Office of Intelligence, the TSA Office of the Inspector 
General and the Director of the National Counterterrorism Center (NCTC) 
have reported on or testified to Congress that public transportation in 
America remains vulnerable to terrorist attack, that al-Qaeda remains 
interested in targeting the sector, and that more needs to be done to 
prevent and prepare for such a potential attack. Late last year the 
NCTC testified that the ``al-Qaeda core believed targets worthy of the 
group's focus included prominent transportation, infrastructure, 
economic, and political targets.'' There is wide agreement that public 
transportation systems continue to be desired terrorists targets. While 
we have been very fortunate to date in not having a terrorist attack 
carried out in our transit systems, we have indeed foiled recent plots 
and arrested individuals who intended to attack our systems. We believe 
it is appropriate that the funding commitment to fortifying our systems 
match the recognized risks and threats.
Department of Homeland Security
    To our agency partners within DHS, I am pleased that many working 
relations between transit agencies and DHS divisions have improved. 
Open lines of communication must continue and Federal agency funding 
priorities, instruction, and expectations of grant performance must be 
clear and consistent. These directives should also reflect the stated 
concerns, desires, and challenges of the industry; however, I would 
respectfully suggest this is not the case in regards to various 
elements of the fiscal year 2012 TSGP Guidance. For example, the 
guidance institutes a new 24-month grant period of performance for all 
projects. This is a reduction from the previous 3-5 year allowable 
expenditure period. I certainly appreciate the concerns regarding 
unexpended TSGP dollars as we all desire that security projects be 
implemented in a timely fashion in order to provide the protections 
they are designed for. However, immediately reducing the time allotted 
to expend funding without fully addressing widespread agency 
administrative and grantee implementation hurdles seems 
counterproductive to efforts to expedite project completion. Also, as 
many security enhancement capital projects require multiple years to 
complete, a reduction in the time allotted to expend funding would also 
compel many grant recipients to shift funding to operational expenses 
versus capital infrastructure security projects. This would not be in 
the best interest of fortifying our systems against attacks, as the 
majority of the security needs identified in APTA's survey relate to 
capital projects.
    Additionally, the fiscal year 2012 grant guidance states that this 
year's funding priorities will be based on a pre-designated ``Top 
Transit Asset List'' or TTAL. Some PATH assets are included on the TTAL 
and I would welcome this added benefit for funding consideration from 
this risk-based approach. APTA has testified previously that security 
investment decisions should be risk-based. However, speaking on behalf 
of the larger industry, including thousands of assets not listed on the 
TTAL, I recognize that this narrower funding approach could preclude 
other important security improvements from receiving funding 
consideration with such limited transit security dollars available. 
This underscores the need for increased funding. We must continue to 
work together to ensure that DHS has the resources to meet the 
extensive needs of systems across the country.
Transit Agencies
    Threats against public transportation are growing in number, 
complexity, and scale. To prevent and combat these threats, we must 
continue to employ cutting-edge technology and processes to maintain 
and operate our security resources and assets. Equally as important, we 
must also establish and sustain sound, efficient administrative, 
planning, and management practices. Many may not see the operational-
administrative connection in securing our transit systems, but the 
deployment of well-trained and equipped law enforcement officers or K-9 
units, or operation of high-tech surveillance equipment, or the 
construction of a large-scale infrastructure fortification projects 
come only after months and months of planning, development, and 
administrative work. Planning, procurement, and project management are 
all precursors to successful security projects as well as sound 
evaluation and grant management systems. Public transportation systems 
are committed to effective and well-planned implementation of security 
initiatives and to serve as good partners in our National fight against 
terrorism with the Federal Government and Congress.
    key implications of the new national preparedness grant program
    As you know, the Department of Homeland Security has proposed to 
implement a new National Preparedness Grant Program (NPGP) along with 
several other programmatic changes to the current TSGP. The new program 
and proposed changes have raised concern within the industry. The most 
drastic change is the elimination the TSGP--the exclusive pool of 
funding for our Nation's public transportation systems which, we all 
agree, are highly-desired terrorist targets. Additionally, under the 
proposal, while transit agencies would be eligible for security 
funding, they would have to apply for funding through their State 
Administrative Agency (SAA), and compete in this process with other 
State security priorities. This is a radical shift from the current 
program, where transit agencies are authorized to apply directly to 
DHS. We believe, under the proposed approach, that sufficient funding 
would not consistently reach transit agencies and severely dilute their 
security programs. As the leader of a multi-State agency, I also 
foresee a challenge coordinating with SAA's when an individual system's 
operations span multiple States, as is the case with many of large 
transit properties. This administrative change could actually add to 
delays in project implementation. We strongly urge DHS to reconsider 
this proposal and maintain a sufficiently-funded, segregated grant 
program for surface transportation security where transit agencies may 
prioritize their needs and directly apply for Federal funding.
    The stated concept in making these changes through the new NPGP is 
``to develop, sustain, and leverage core capabilities across the 
country in support of National preparedness, prevention, and 
response.'' The transit industry stands ready and willing to coordinate 
with our partners in the emergency management and preparedness 
communities in planning appropriate responses to our Nation's natural 
and man-made emergencies. However, this was not the primary purpose 
behind Title 14 of the Implementing Recommendations of the 9/11 
Commission Act (or the ``National Transit Systems Security Act of 
2007''). That title of the 9/11 Commission Act was enacted with the 
purpose of improving Federal investment in transit security and the 
TSGP was created with the principal purpose of directing and increasing 
capital investments to fulfill the requirements of the security plans 
and risk assessments developed under the authority of the Act. 
Emergency preparedness planning, exercises, training, and equipment 
were all eligible uses of the funds authorized under the Act. However, 
they were subsets of a larger list of eligible uses principally focused 
on enhancing the security of the high-risk transit sector. APTA and its 
members urge this committee and the Congress to preserve the unique 
focus that the prior legislation placed on public transportation 
security investments by reauthorizing the transit and rail security 
provisions of the 9/11 Commission Act.
    As DHS and many others in the homeland security policy arena 
discuss issues of resiliency and ``all hazards'' approaches to security 
and emergency management policy, transit agencies are increasingly 
looked to as instruments for disaster response and evacuation, and as 
such have repeatedly responded to major incidents ranging from 9/11 to 
Hurricanes Katrina and Rita. Congress and the administration should 
pursue policies which recognize the role of public transportation 
agencies (and their potential needs) in ``all-hazards'' response to the 
resiliency question, but do not minimize the other important needs that 
are specific and unique to our critical infrastructure.
                               conclusion
    As I conclude, let me thank you all for the opportunity to testify 
on these critical homeland security issues. There is no greater 
priority for public transportation systems than the safety and security 
of our passengers and workers. I urge you not to wait for the ``wake-
up'' call of an attack on our systems to provide us the support we 
need. Transit systems across the country continue to stand ready, 
committed, and vigilant in utilizing available resources efficiently to 
protect our systems and our riders. We urge you to sustain the critical 
partnership between transit agencies, Congress, and the Department of 
Homeland Security that helps to keep our Nation safe and moving toward 
economic prosperity.

    Mr. Bilirakis. Thank you, sir. I appreciate it.
    Okay, I will recognize myself. Thank you, first of all, for 
your testimony. It is very valuable testimony, great input. I 
will recognize myself for 5 minutes, and my first question is 
directed to Mr. Wainio.
    Mr. Wainio, last month at our grants hearing with Federal 
officials, Administrator Harmon and I discussed the delays 
caused by the EHP, the Environmental and Historic Preservation 
reviews, and that while FEMA has taken steps to improve the 
process, EHP reviews remain an obstacle. I wanted to see if you 
agree with that.
    Ms. Harmon stated, on average EHP reviews have been reduced 
to 18 days. Has this been your experience? Has the time line 
for these reviews been expedited sufficiently? I would like to 
have your opinion on that, sir.
    Mr. Wainio. The short answer to that, Mr. Chairman, is no, 
that has not been our experience at all. We continue to 
experience very long delays; many, many, many months to have 
EHP reviews conducted and completed.
    Mr. Bilirakis. So you say many, many months. How many 
months? How many days on the average?
    Mr. Wainio. One example.
    Mr. Bilirakis. Give me an example.
    Mr. Wainio. We have a major construction project, and those 
are the types of projects that typically require these reviews. 
It is referred to as the SOC Storm Hardening Project. It was 
funded in 2009. It is still pending an EHP review.
    Mr. Bilirakis. Unbelievable.
    Mr. Wainio. That also moves right into this issue of 
shortening the time frame to get projects completed. Obviously, 
if we shortened it from 3 years to 2 years, this project would 
be dead already without an extension.
    So, you know, we continue to see significant delays 
occurring, and that is after FEMA actually requires the EHP 
study. Once that requirement is relayed by FEMA, you know, it 
can take months before the study actually takes place and gets 
completed. In some cases, with this particular project, we have 
been waiting for several years.
    Mr. Bilirakis. In your opinion, how long should it take?
    Mr. Wainio. That is hard for me to say. It depends on the 
project, obviously----
    Mr. Bilirakis. Sure, sure.
    Mr. Wainio [continuing]. And the complexity of the project. 
But, you know, certainly, I don't think it ought to take 2 
years or more. We should be talking about something that can 
take--you know, can begin fairly quickly and be conducted in a 
period of a few months.
    Mr. Bilirakis. Thank you.
    Mr. DePallo, you want to weigh in on that?
    Mr. DePallo. Well, we really haven't had that much 
experience in this as well, but I know in some of our projects, 
the time frame, I think 2 years is--would really create real 
serious problem in completing any types of projects.
    Mr. Bilirakis. Okay. Next question is for Mr. DePallo and 
Mr. Wainio, but also, Mr. Daddario, I think you mentioned this 
also in your testimony, so you might want to comment as well. 
But the two of you expressed concern in your statement about 
the reduction in the period of performance in fiscal year 2012 
and in the NPGP proposal. Can you please elaborate on some of 
the roadblocks to spending the funds, and then what impact will 
this reduction have on your ability to compete for these 
certain grants at these projects?
    Mr. DePallo. Well, first of all, the 2-year time limit will 
create significant problems. For example, we have a tunnel-
hardening project that requires a great deal of planning, 
design, equipment procurement, and construction. We operate the 
transit system that operates 24 hours a day, 7 days a week, and 
we carry hundreds of thousands of passenger each day. To try 
and do that in 2 years would be completely impossible. The 2-
year limit will give us an opportunity just for operating funds 
only, only operating projects, and it will eliminate any 
significant capital projects.
    Mr. Bilirakis. What other options might prove more 
effective than actually reducing the period of performance as a 
means to rapidly draw down the previous funding, the 
appropriate funding? What are other options are there out 
there, anybody?
    Mr. DePallo. Yeah, well, I think eliminating the red tape 
and getting the funds to the organizations would do a great 
deal. In many cases it takes--it takes a great deal of time 
before we actually get the funds, so we are not able to draw 
down within a reasonable time period. So that also delays 
projects.
    Mr. Bilirakis. Thank you.
    Mr. Wainio.
    Mr. Wainio. Yeah, well, I would second that last comment 
from Mr. DePallo. In our case, and I assume in the case of many 
others, you know, the funds are shifted from one Government 
agency to another, and the process of getting those funds 
actually to the grantee takes a good deal of time, and very 
little work, obviously, can go forward until we actually 
receive the grant awards.
    You know, we--you know, once we receive those grant awards, 
you know, projects then start to be designed, specifications 
established, and the procurement process gets under way. If in 
the mean time it is a project that requires environmental 
assessments, you know, that then can take--you know, that EHP 
review, as I said, can take many months or longer.
    You know, we have our own procurement processes that we 
have to follow. That takes us several months at least before we 
can actually make an award, once we are able to go forward. 
There is a lot of market forces that are beyond our control.
    So, again, the entire process is long by its very nature, 
and 3 years is, in my view, for many of these complex projects, 
is a minimum time that you would need to get some of them done.
    Mr. Bilirakis. Okay. Thank you.
    Mr. Daddario, did you want to comment on that?
    Mr. Daddario. The question I have is why--what objective is 
being served by a 24-month period? I think the concern is that 
you don't want money sitting out there without having any 
progress made toward the purpose of the grant. There are ways 
of measuring or assessing whether the recipient of the grant 
money is, in fact, making progress short of setting a 24-month 
period to spend it all, to put it all out the door.
    So I just don't know if the 24--what really the purpose of 
it is, or whether this is the right remedy for the problem that 
somebody has identified in the grant program.
    Mr. Bilirakis. Okay. Thank you very much.
    What I will do now is yield to the Ranking Member, and if 
time permits, we would like to have a second round. So you are 
recognized for 5 minutes. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman.
    For all of the panelists here to testify, I just would like 
to go down the road, if you could say yes or no. If you could 
say for us whether you were provided the opportunity to give 
the Department of Homeland Security any of your thoughts on 
these proposed changes to the State and local grant programs.
    Mr. Daddario. Yes.
    Mr. Maloney. No.
    Chief Clemmensen. Yes. Just as recently as last week we 
started to have some discussions.
    Ms. Richardson. But not prior to them putting the idea 
forth?
    Chief Clemmensen. No.
    Mr. Wainio. No.
    Mr. DePallo. No.
    Ms. Richardson. Okay. Thank you.
    Were you allowed to interact prior to the release of the 
idea?
    Mr. Daddario. We tried to maintain a regular contact or a 
dialogue so that we could be heard. I think we need much more 
of a dialogue going forward so that we can get a sense of the 
details here.
    Ms. Richardson. But my question is you said you were able 
to provide feedback. Were you able to give that feedback prior 
to the Department announcing its changes to----
    Mr. Daddario. It is after the change. It is after the 
program is designed or at least proposed, and then at that 
point we have an opportunity to weigh in and to let them know 
what we are thinking.
    Ms. Richardson. Okay. Thank you.
    Also, Mr. Commissioner, there has been discussion here 
about the fusion centers and them possibly being modified. My 
question is: Do you find that the critical intelligence is 
being shared in an organized and timely fashion? Is there 
anything else that you would recommend to us regarding that?
    Mr. Daddario. We don't have a fusion center in place for 
the New York City region. We work--my Bureau is responsible for 
the Federal relationship with the FBI, so I have 120 or so 
detectives and other senior officers at the JTTF. We also have 
some people embedded with the FBI and other Federal agencies in 
Washington, and it is through those relationships that we get 
the intelligence that we need. We think we are getting all of 
the--really all of the information that we need to design our 
security and counterterrorism programs at the moment.
    Ms. Richardson. Okay. For the other of you gentlemen, do 
you have fusion centers in your area, and if so, do you find 
them to be providing the information in a timely and organized 
fashion?
    Mr. Maloney. I would say the answer to that is yes. It is 
much more efficient than it was, you know, years ago. We 
receive informational bulletins from the various stakeholders 
at the Federal and State level that can pass it down to the 
local. So I would say most definitely there has been major 
improvements without exchange of information.
    Ms. Richardson. Thank you.
    Chief Clemmensen. In the State of Illinois, we have a State 
fusion center that the fire service has a seat on, and it has 
been a very positive change over the last 5 or 6 years, and we 
are getting more and more information.
    Ms. Richardson. Okay. You two gentlemen?
    Mr. Wainio. In the case of the Port of Tampa, we are not 
involved in that.
    Ms. Richardson. Okay.
    Mr. DePallo. PATH is located in the New York region, so we 
don't have a fusion center.
    Ms. Richardson. Okay. Then my next question is, Mr. 
Wainio----
    Mr. Wainio. Wainio.
    Ms. Richardson. Okay. I will let you do it for me.
    You gave an excellent description of the potential impact 
of cuts to UASI and port security, excellent, and I hope to use 
that and possibly work with the Chairman as we try to help in 
this area.
    I wanted to afford Mr. DePallo the same opportunity, since 
you do work with the port authority, to specifically say if 
cuts--if further cuts were to occur to UASI and port security 
grants, how could that negatively impact your ability to 
sustain security?
    Mr. DePallo. Well, we have a very significant security 
enhancement program. The goals are to deter, detect, and 
mitigate, and we receive extensive funding from the security 
grant program. To eliminate that funding will eliminate a lot 
of the current programs that we have.
    We are currently working on programs to--mitigation 
programs for our underwater tunnels, which include interior and 
exterior hardening of the tunnel areas, floodgates. We also 
have an extensive program for closed-circuit television and 
access programs that include items, technology, such as video 
analytics and laser intrusion detection. All of these programs 
will go away. We will not be able to complete these programs 
without this funding.
    Ms. Richardson. Thank you, sir.
    Mr. Chairman, could I ask one last question? I am now being 
called to the floor because I have an amendment coming up.
    Mr. Bilirakis. Yes, absolutely.
    Ms. Richardson. Thank you, sir.
    Mr. Commissioner, you have received grant funding from the 
Department for Terrorism Prevention Training. How do you ensure 
that your terrorism prevention training and programs are 
Constitutionally sound? Specifically, I am referring to the 
recent reports of potential civil rights violations in New York 
regarding surveillance activities.
    Mr. Daddario. The question you are asking, I assume, refers 
to certain news articles that have raised questions about some 
of the programs that the police department has in place.
    Ms. Richardson. Yes.
    Mr. Daddario. The programs--the officers that we have in my 
Bureau--as I said, I work with the Joint Terrorism Task Force. 
The department also has officers that work for other parts of 
the department on intelligence gathering. All of their 
activities are conducted in accordance with departmental rules 
that I can tell you, based on my own experience, are based--are 
drawn and based on the Attorney General guidelines and are 
consistent with, comparable to, the very same rules that the 
Federal Government applies for their work and the rules that 
our officers at the FBI apply in their work.
    So all our officers are instructed with what their 
obligations are under the Constitution. We all take an oath to 
abide by the Constitution. I think all of our officers are 
certainly trained to do that. I think that by their natures, 
that is what they do, it is the job that they value. When we 
provide training, I know the training programs that we give out 
through the Bureau are almost entirely DHS certified, reviewed, 
and are in accordance with Federal guidelines. I have looked at 
many, almost all of them, and I have seen nothing at all that 
would indicate in any way that there is anything in any of 
those programs that would encourage or suggest to any officer 
that they do anything that would violate anyone's 
Constitutional rights.
    Ms. Richardson. Thank you.
    Mr. Bilirakis. Sure. My pleasure.
    Now I will recognize the gentleman from New York Mr. Turner 
for 5 minutes or so, sir, because I am going to ask some 
questions after you. So take as much time as you would like 
within reason. You are recognized.
    Mr. Turner. Thank you.
    Just a little more on Deputy Commissioner Daddario's 
response. To date, I don't think there is a single instance of 
civil rights violation by the NYPD. I think Commissioner Ray 
Kelly has done an outstanding job in setting out the right 
guidelines and protocols. They are published. He has recently 
put them in a very good speech at Fordham University Law 
School, and I would suggest that people read that before they 
are flying off with these accusations of civil rights 
violations. I think the NYPD should be commended for a fine 
effort.
    That being said, Deputy Commissioner, you addressed the 
need to distinguish between counterterrorism security funding 
and all-hazard preparedness funding. You know, we can be 
reminded that homeland security and all else began September 11 
in 2001 with that horrific attack. Is there a muddling of these 
terms? Is there a competition for funds? Could you elaborate on 
why the distinction is important?
    Mr. Daddario. Yeah. We think it is important to have a 
category of money that is set aside solely for counterterrorism 
purposes, because if you blend it together, there is the danger 
that money that we think should be devoted to protection of 
cities like New York, other high-risk areas like New York, to 
counterterrorism, that some of that money may be diverted off 
through the competitive political process to other communities 
for all-hazard-type matters. So we think there should be--that 
is, to us, a possibility. To guard against it, we just think 
that it makes sense to have a certain block of money set aside 
solely to deal with the terrorism risk. It is not any more 
complicated than that, Congressman.
    Mr. Turner. Thank you.
    A question for Mr. Maloney. You registered a concern that 
the Department of Homeland Security was doing the cuts and the 
proportion of cuts, and perhaps the allocation should be done 
by Congress. My only thought is if you think Homeland Security 
is bad, I don't think you want to go there. But if you have a 
suggestion on a better method for the distribution of grant 
funds to high-threat urban areas, I would be happy to hear it.
    Mr. Maloney. Well, Baltimore is very fortunate that we have 
survived and receive a set level of funding to fill the gaps 
that we have identified and reduce our risk. Many urban areas 
that were previously established are no longer established.
    I am a firm believer in the UASI program. It unites areas 
around big cities. It increases stakeholder interaction and 
cooperation. It reduces redundant purchases and, I believe, 
puts the major urban areas in the best situation to play our 
role in National homeland security and our protection of our 
country, and also, you know, the homeland security.
    When you asked the question about muddling, it is very 
interesting. There was a time when the preparedness dollars 
were geared towards terrorism activities, in my opinion, and 
when Katrina hit, there was a sense that they were preparedness 
dollars. There was a time when we were allowed to use Urban 
Area Security Initiative funds for Tamiflu purposes during 
H1N1. Now it seems we are taking the priority off of terrorism 
again, although it doesn't seem like the threat has been 
reduced, and going back to more of an all-hazards approach. So 
I would just add that as well to the question you asked the 
Commissioner, Deputy Commissioner.
    Mr. Turner. Thank you. Thank you. I yield back.
    Mr. Bilirakis. Thank you, sir.
    I have a couple of questions. The first question is for the 
chief. In your testimony you noted a number of successes across 
the country that resulted from grant expenditures, including 
through the MMRS funding. We have heard about the impact of 
MMRS from numerous stakeholders. Are you concerned that the 
medical preparedness activities previously funded under MMRS 
will not continue to receive the funding now that FEMA has 
consolidated MMRS into a larger grant program?
    Chief Clemmensen. Yes, that is always a concern. The MMRS 
provides the equipment, the training, and exercise moneys that 
allow us to do the training that is necessary to prepare us for 
the catastrophes and things--incidents that happen around the 
country. Any time you start to take that money away, it creates 
consternation for us, because we have all of these tools, these 
assets, and we have to continue to feed those assets, and we 
have to continue to train with those assets. So it is a 
concern.
    Mr. Bilirakis. Thank you.
    For Commissioner Daddario, while the NPGP proposal does 
include a focus on prevention activities, it does not mention a 
specific percentage of funding for these activities. Under the 
current State and urban area programs, not less than 25 percent 
of the funding must be used for law enforcement terrorism-
prevention activities. Should such a set-aside be included in 
any new reform proposals, in your opinion?
    Mr. Daddario. We think yes.
    Mr. Bilirakis. Can you elaborate a little bit?
    Mr. Daddario. For the reasons that I tried to set out for 
Congressman Turner, and I don't think it is that complicated in 
terms of what the concern is. If the money is not a set-aside 
for that purpose, we think there is a danger that it will ebb 
away, flow away for other purposes, and that the money that we 
need to protect cities like New York, Baltimore, other high-
risk areas will be diluted, our security will be degraded, and 
that is something which we think Congress should be very, very 
wary of.
    The threat posture today is as great as it has ever been. 
You know, you may hear about al-Qaeda being--you know, the al-
Qaeda core being whittled away, but the fact is that al-Qaeda 
is expanding its territory. There are more safe havens 
developing in the world from east to west all the way to 
Western Africa. So this is not the time to be thinking about 
setting money--taking money away from security against the 
terrorism threat. I think setting 25 percent aside for that 
purpose at a minimum makes a lot of sense. I think we should 
continue doing that for the foreseeable future.
    Mr. Bilirakis. Thank you.
    My last question for all of the witnesses. Many of you 
expressed concern about the ability for local involvement in 
the THIRA process. Now that the guidance has been released, 
have you received information from your States on how this 
process will be completed and how local--we had some discussion 
with the first panel--but how local input will be incorporated? 
Have you received this information, any information, from your 
States? What procedures would you like to see in place to 
ensure local threats and hazards are considered?
    I will start with you, Chief--I mean, excuse me, 
Commissioner, if you like.
    Mr. Daddario. Yeah. I think the current system doesn't 
involve a process where the localities have a say in 
identifying threats and risks, as I understand that process, 
and I think that works.
    We are concerned, and I think I have to get a better 
understanding of what FEMA has in mind going forward. I am 
concerned having the areas that are viewed as risks being 
defined from the Federal Government or by the State without 
adequate input from the city of New York and all of the 
constituent, you know, agencies that really are the best ones 
to know what they need to protect and where their assets are 
most at risk. So we want to assure that that local input is 
maintained, and I am simply not sure what they have in mind 
going forward.
    Mr. Bilirakis. Thank you.
    Mr. Maloney.
    Mr. Maloney. I would--I agree with his comments. I would 
also add, if the THIRA is required at the State level, we are 
going to have a difficult time as locals. I believe will have 
less of a voice to express what is really needed on the ground.
    There is a lack of clarity on the implications of THIRA on 
the Federal funding allocation decisions. For example, if a 
particular region is in need of an asset, and two neighboring 
States both want to develop that asset, who is going to decide 
which State is awarded the funds necessary for development? The 
use of THIRA needs to be informed by State and local input 
prior to its use in funding allocations.
    I think with any risk assessment, it is another tool in our 
toolbox, but there are various risk assessments that we use, 
and this would be one more. To kind of label this as the end-
all, be-all now, without the local input in the development, 
and without some very robust guidance documents that have not 
been produced yet, I think it is way too early to do that, and 
we should--we should be prudent and wait.
    Mr. Bilirakis. Chief.
    Chief Clemmensen. I think the theme of my colleagues on the 
right are that it is a little unknown yet how this is all going 
to work together. However, it is the local jurisdictions that 
really understand their local risk, and there is no ability or 
accountability for the States to ensure that these local 
viewpoints or threats are going to be included in the State 
THIRA, and that creates a lot of issues at the local level for 
us. It is just too--it is unclear yet what we are going to do.
    Mr. Bilirakis. Mr. Wainio.
    Mr. Wainio. The system you are talking about does not 
impact the ports. We are continuing to do our risk, threat, and 
vulnerability assessments with the U.S. Coast Guard.
    If I could just sum up once again, Mr. Chairman, that in a 
nutshell what we would like to see here from the port 
perspective is that Congress determines the funding levels, and 
that those funds are then allocated to the proper projects 
through the U.S. Coast Guard and FEMA working directly with the 
ports. We think that that process that basically has been in 
place now for the last decade has worked well, and we would 
like to see it continue.
    It can be improved on in terms of processes. We can work 
with FEMA and the Coast Guard and others to speed things up 
perhaps a little bit, get things done more efficiently, but the 
process itself, as it now stands, works well. It has served us 
well. We would like to see it essentially continue.
    Mr. Bilirakis. Thank you.
    Mr. DePallo.
    Mr. DePallo. Yeah. Most transit agencies throughout the 
United States, larger transit agencies anyway, have very 
sophisticated risk-assessment processes in place already.
    As far as THIRA, we need to be able to get a handle on what 
they are really looking for. We haven't been able to do that 
yet. What we are going to be doing in the mass--as far as in 
mass transit, we are going to take this back to the Mass 
Transit Sector Coordinating Council, and pass the information 
as we get it through them, and come up with recommendations.
    Mr. Bilirakis. Thank you very much.
    I would like to thank the witnesses, of course, for their 
valuable testimony and the Members for their questions. The 
Members of the subcommittee may have some additional questions 
for you, and we ask that you respond in writing. The hearing 
record will be open for 10 days.
    I really appreciate your testimony today and all of your 
input. Please don't hesitate to contact us. These are important 
decisions.
    Thank you very much. Without objection, the subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Questions From Chairman Gus M. Bilirakis for James H. Davis
    Question 1a. Secretary Napolitano has stressed the importance of 
having a National network of fusion centers and, starting with the 
fiscal year 2011 grant guidance, has required States and high-risk 
urban areas to submit at least one investment justification related to 
the area's primary fusion center. In your statement you noted that in 
Colorado you have used grant funding to support the Colorado 
Information Analysis Center.
    While the grant guidance requires some level of investment in 
fusion centers, there is not a specific funding level required. Are you 
aware of the level of investment your fellow States are making in their 
fusion centers with grant funding?
    Answer. Response was not received at the time of publication.
    Question 1b. Would you recommend that any grant reform proposal 
include the requirement to maintain and sustain a State's primary 
fusion center?
    Answer. Response was not received at the time of publication.
    Question 2a. You indicated that States would like to play a greater 
role and have increased visibility in the administration of grant 
funds, particularly when it comes to the Port Security Grant Program 
and Transit Security Grant Program.
    Do States currently have the capacity to administer additional 
grant programs?
    Answer. Response was not received at the time of publication.
    Question 2b. Would additional funding for management and 
administration, above the current allowable 5 percent, be required 
under the National Preparedness Grant Program proposal?
    Answer. Response was not received at the time of publication.
    Question 2c. Absent enactment of the National Preparedness Grant 
Program proposal, do you have recommendations for greater collaboration 
between SAAs and port authorities and transit agencies under the 
current structure?
    Answer. Response was not received at the time of publication.
        Questions From Chairman Gus M. Bilirakis for Bryan Koon
    Question 1a. In your written statement, you indicated NEMA's belief 
that the THIRA process will have ``limited effectiveness if implemented 
in the current grant system due to shortcomings in the planning 
process.''
    Would you please elaborate on that?
    Answer. Response was not received at the time of publication.
    Question 1b. What are the deficiencies in the planning process 
under the current programs?
    Answer. Response was not received at the time of publication.
    Question 2a. You indicated that States would like to play a greater 
role and have increased visibility in the administration of grant 
funds, particularly when it comes to the Port Security Grant Program 
and Transit Security Grant Program.
    Do States currently have the capacity to administer additional 
grant programs?
    Answer. Response was not received at the time of publication.
    Question 2b. Would additional funding for management and 
administration, above the current allowable 5 percent, be required 
under the National Preparedness Grant Program proposal?
    Answer. Response was not received at the time of publication.
    Question 2c. Absent enactment of the National Preparedness Grant 
Program proposal, do you have recommendations for greater collaboration 
between SAAs and port authorities and transit agencies under the 
current structure?
    Answer. Response was not received at the time of publication.
     Question From Chairman Gus M. Bilirakis for Richard A. Wainio
    Question. States have expressed concern over the lack of visibility 
into expenditures under the Port Security Grant Program and Transit 
Security Grant Program and would prefer that funding to flow through 
the States to avoid duplication or systems that do not work together. 
You, however, have expressed your concern about what that would mean 
for port and transit project and would prefer to remain as direct 
grantees.
    Is there a way to foster greater coordination between port 
authorities, transit agencies, and States to address these concerns 
without changing the current structure that provides funding to you as 
direct grantees?
    Answer. Response was not received at the time of publication.
     Question From Chairman Gus M. Bilirakis for Michael D. DePallo
    Question. States have expressed concern over the lack of visibility 
into expenditures under the Port Security Grant Program and Transit 
Security Grant Program and would prefer that funding to flow through 
the States to avoid duplication or systems that do not work together. 
You, however, have expressed your concern about what that would mean 
for port and transit project and would prefer to remain as direct 
grantees.
    Is there a way to foster greater coordination between port 
authorities, transit agencies, and States to address these concerns 
without changing the current structure that provides funding to you as 
direct grantees?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
